APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A City & Cty of San Francisco v. USCIS,
992 F.3d 742 (9th Cir. 2021). . . . . App. 1
Appendix B City & Cty of San Francisco v. USCIS,
981 F.3d 742 (9th Cir. 2020). . . . App. 41
Appendix C City & Cty of San Francisco v. USCIS,
944 F.3d 773 (9th Cir. 2019). . . . App. 90
Appendix D City & Cty of San Francisco v. USCIS,
408 F.Supp.3d 1057
(N.D. Cal. 2019) . . . . . . . . . . . . App. 171
Appendix E Washington v. DHS, 408 F.Supp.3d
1191 (E.D. Wash. 2019) . . . . . . App. 308
Appendix F Statutory Provisions
Involved . . . . . . . . . . . . . . . . . . . App. 369

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-17213
D.C. No. 4:19-cv-04717--PJH
[Filed: April 8, 2021]
__________________________________________
CITY AND COUNTY OF SAN
)
FRANCISCO; COUNTY OF SANTA
)
CLARA,
)
Plaintiffs-Appellees,
)
)
v.
)
)
UNITED STATES CITIZENSHIP AND
)
IMMIGRATION SERVICES, a federal
)
agency; U.S. DEPARTMENT OF
)
HOMELAND SECURITY, a federal agency;
)
ALEJANDRO MAYORKAS, in his official
)
capacity as Secretary of the U.S.
)
Department of Homeland Security;
)
TRACY RENAUD in her official capacity as
)
Senior Official Performing the Duties of
)
the Director, U.S. Citizenship and
)
Immigration Services,
)
Defendants-Appellants,
)
__________________________________________)

App. 2
STATES OF ARIZONA, ALABAMA, ARKANSAS,
)
INDIANA, KANSAS, LOUISIANA, MISSISSIPPI,
)
MISSOURI, MONTANA, OKLAHOMA,
)
SOUTH CAROLINA, TEXAS, AND
)
WEST VIRGINIA,
)
Intervenors-Pending.
)
__________________________________________)
No. 19-17214
D.C. No. 4:19-cv-04975-PJH
__________________________________________
STATE OF CALIFORNIA; DISTRICT OF
)
COLUMBIA; STATE OF MAINE;
)
COMMONWEALTH OF PENNSYLVANIA;
)
STATE OF OREGON,
)
Plaintiffs-Appellees,
)
)
v.
)
)
U.S. DEPARTMENT OF HOMELAND SECURITY, )
a federal agency; UNITED STATES
)
CITIZENSHIP AND IMMIGRATION SERVICES,
)
a federal agency; ALEJANDRO MAYORKAS,
)
in his official capacity as Secretary of the
)
U.S. Department of Homeland Security;
)
TRACY RENAUD in her official capacity as
)
Senior Official Performing the Duties of
)
the Director, U.S. Citizenship and
)
Immigration Services,
)
Defendants-Appellants,
)
__________________________________________)
STATES OF ARIZONA, ALABAMA, ARKANSAS,
)
INDIANA, KANSAS, LOUISIANA, MISSISSIPPI,
)

App. 3
MISSOURI, MONTANA, OKLAHOMA,
)
SOUTH CAROLINA, TEXAS, AND
)
WEST VIRGINIA,
)
Intervenors-Pending.
)
__________________________________________)
No. 19-35914
D.C. No. 4:19-cv-05210-RMP
__________________________________________
STATE OF WASHINGTON;
)
COMMONWEALTH OF VIRGINIA;
)
STATE OF COLORADO; STATE OF DELAWARE; )
STATE OF ILLINOIS; STATE OF MARYLAND;
)
COMMONWEALTH OF MASSACHUSETTS;
)
DANA NESSEL, Attorney General on behalf )
of the People of Michigan; STATE OF
)
MINNESOTA; STATE OF NEVADA;
)
STATE OF NEW JERSEY; STATE OF
)
NEW MEXICO; STATE OF RHODE ISLAND;
)
STATE OF HAWAII,
)
Plaintiffs-Appellees,
)
)
v.
)
)
U.S. DEPARTMENT OF HOMELAND SECURITY, )
a federal agency; ALEJANDRO MAYORKAS,
)
in his official capacity as Secretary of the
)
U.S. Department of Homeland Security;
)
UNITED STATES CITIZENSHIP AND
)
IMMIGRATION SERVICES, a federal agency;
)
TRACY RENAUD in her official capacity as
)
Senior Official Performing the Duties of
)
the Director, U.S. Citizenship and
)

App. 4
Immigration Services,
)
Defendants-Appellants,
)
__________________________________________)
STATES OF ARIZONA, ALABAMA, ARKANSAS,
)
INDIANA, KANSAS, LOUISIANA, MISSISSIPPI,
)
MISSOURI, MONTANA, OKLAHOMA,
)
SOUTH CAROLINA, TEXAS, AND
)
WEST VIRGINIA,
)
Intervenors-Pending.
)
__________________________________________)
Filed April 8, 2021
Before: Mary M. Schroeder, William A. Fletcher, and
Lawrence J. VanDyke, Circuit Judges.
Order;
Dissent by Judge VanDyke
_________________________________________________
SUMMARY*
_________________________________________________
Immigration/Intervention
The panel denied motions by the State of Arizona
and other states to intervene in cases in which the
panel previously issued an opinion in City and County
of San Francisco v. USCIS, 981 F.3d 742 (9th Cir.
2020) [Schroeder (author) W. Fletcher VanDyke
(dissenting)], affirming in part and vacating in part
preliminary injunctions enjoining implementation of
the Department of Homeland Security’s redefinition of
the term “public charge,” and in which the Supreme
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 5
Court on March 9, 2021, dismissed pending petitions
for writ of certiorari pursuant to the stipulation of the
parties.
Judge VanDyke dissented from the denial of
intervention. Judge VanDyke wrote that with the
recent change in federal administrations, the Biden
Administration stopped defending certain rules
promulgated by the Trump Administration, including
the Public Charge rule at issue in this case. Judge
VanDyke observed that this in itself is neither
surprising nor particularly unusual, as elections have
consequences, and new presidential administrations,
especially of a different party, often disagree with some
of the rules promulgated by their predecessors. But
here, Judge VanDyke wrote, the new administration
did something quite extraordinary with the Public
Charge rule: in concert with the various plaintiffs who
had challenged the rule in federal courts across the
country, the federal defendants simultaneously
dismissed all the cases challenging the rule (including
cases pending before the Supreme Court), acquiesced
in a single judge’s nationwide vacatur of the rule,
leveraged that now-unopposed vacatur to immediately
remove the rule from the Federal Register, and quickly
engaged in a cursory rulemaking stating that the
federal government was reverting back to the
Clinton-era guidance—all without the normal notice
and comment typically needed to change rules.
A collection of states moved to intervene in the
various lawsuits challenging the rule around the
country (including this one), arguing that because the
federal government was now demonstrably in cahoots

App. 6
with the plaintiffs, the states should be allowed to take
up the mantle of defending the Trump-era rule.
Pointing to the fact that the Supreme Court had both
stayed multiple lower courts’ injunctions of the rule
and—until the new administration voluntarily
dismissed its appeals—planned to review the rule’s
validity, the states contended there was something
amuck about the federal government’s new
rulemaking-by-collusive-acquiescence.
In Judge VanDyke’s view, the states easily met the
intervention standard of Federal Rule of Civil
Procedure 24. First, because the states quickly
intervened within days of discovering that the federal
government had abandoned their interests, and the
federal government asserted no apparent prejudice in
allowing intervention, Judge VanDyke wrote that the
motion to intervene was timely. Judge VanDyke wrote
that the states also have a “significant protectable
interest” in the continuing validity of the rule because
invalidating the rule could cost the states as much as
$1.01 billion annually. Responding to the plaintiffs’ and
the federal government’s argument that in lieu of
joining this litigation, the states could vindicate their
interests by participating in an agency review process
or asking the agency to promulgate a new rule, Judge
VanDyke observed that this argument might have had
more merit had the federal government followed the
traditional route of asking the courts to hold the public
charge cases in abeyance, rescinding the rule per the
Administrative Procedure Act, and then promulgating
a new rule through notice and comment rulemaking.
Judge VanDyke wrote that instead, the federal
government intentionally avoided the APA entirely by

App. 7
acquiescing in a final district court judgment, and
altering the federal regulations by unilaterally
reinstating the Clinton-era field guidance as the de
facto new rule—without any formal agency rulemaking
or meaningful notice to the public. Judge VanDyke
wrote that by deliberately evading the administrative
process in this way, the government harmed the state
intervenors by preventing them from seeking any
meaningful relief through agency channels. Judge
VanDyke wrote that the disposition of this action,
together with the federal government’s other
coordinated efforts to eliminate the rule while avoiding
APA review, will impair or impede the states’ ability to
protect their interest in the 2019 rule’s estimated
annual savings. Judge VanDyke also wrote that the
existing parties obviously do not adequately represent
the states’ interests because they are now united in
vigorous opposition to the rule.
Addressing the plaintiffs’ and the government’s
argument that this case is moot because the court
cannot offer adequate relief now that the 2019 rule has
been vacated by a different federal judge in the
Seventh Circuit, Judge VanDyke wrote that the parties
opposing intervention had not met their heavy burden
of showing that there is not any effective relief that a
court can provide. Judge VanDyke noted that the
states could obtain effective relief because they
currently have an action pending before the Supreme
Court asking that Court to order the Seventh Circuit to
reverse or stay the vacatur of the rule, and if
successful, that would remove any obstacle to the
states ultimately getting relief in this court. Judge
VanDyke pointed out that if the states are successful in

App. 8
their current request that the Supreme Court stay the
Seventh Circuit’s vacatur of the rule, the panel’s denial
of intervention will leave the states with no way to
prevent one of the district courts in this circuit from
immediately imposing a nationwide preliminary
injunction of the rule or, worse, vacating the rule
(again).
Judge VanDyke observed that there is a final
reason why intervention is especially warranted in this
case. Judge VanDyke wrote that by granting two stays
(and a later petition for certiorari), the Supreme Court
repeatedly indicated that the United States had “made
a strong showing that [it was] likely to succeed on the
merits” in its defense of the rule. Judge VanDyke wrote
that absent intervention, the parties’ strategic
cooperative dismissals preclude those whose interests
are no longer represented from pursuing arguments
that the Supreme Court has already alluded are
meritorious. Judge VanDyke wrote that even more
concerning, the dismissals lock in a final judgment and
a handful of presumptively wrong appellate court
decisions in multiple circuits, and circumvent the APA
by avoiding formal notice-and-comment procedures.
Judge VanDyke suggested a possible solution to this
novel problem of a new federal administration
deliberately short-circuiting the normal APA process.
Judge VanDyke observed that the Supreme Court
obviously could allow the states to intervene in the
Seventh Circuit litigation and defend the 2019 rule in
place of the federal government. But Judge VanDyke
wrote that there may be a simpler solution here that
would not only address what has happened with

App. 9
respect to the Public Charge rule but, perhaps more
importantly, would encourage future administrations
to change rules—not through collusive capitulation—
but via the familiar and required APA rulemaking
process Congress created for that purpose. Judge
VanDyke wrote that the Supreme Court could simply
clarify that Munsingwear vacatur of lower court
decisions and judgments is appropriate in this
circumstance where the federal government and the
plaintiffs jointly mooted litigation by acquiescing in a
judgment against the government, which then
prevented the normal APA process for removing or
replacing a formal rule.
COUNSEL
Mark Brnovich, Attorney General; Joseph A. Kanefield,
Chief Deputy and Chief of Staff; Brunn (“Beau”) W.
Roysden III, Solicitor General; Drew C. Ensign, Deputy
Solicitor General; Robert J. Makar, Assistant Attorney
General; Office of the Attorney General, Phoenix,
Arizona; Eric S. Schmitt, Attorney General; D. John
Sauer, Solicitor General; Michael E. Talent, Deputy
Solicitor General; Office of the Attorney General,
Jefferson City, Missouri; Steve Marshall, Alabama
Attorney General; Leslie Rutledge, Arkansas Attorney
General; Theodore E. Rokita, Indiana Attorney
General; Derek Schmidt, Kansas Attorney General;
Jeff Landry, Louisiana Attorney General; Lynn Fitch,
Mississippi Attorney General; Austin Knudsen,
Montana Attorney General; Mike Hunter, Oklahoma
Attorney General; Alan Wilson, South Carolina
Attorney General; Ken Paxton, Texas Attorney
General; Patrick Morrisey, West Virginia Attorney

App. 10
General; for Proposed Intervenors States of Arizona,
Alabama, Arkansas, Indiana, Kansas, Louisiana,
Mississippi, Missouri, Montana, Oklahoma, South
Carolina, Texas, and West Virginia.
Matthew Rodriguez, Acting Attorney General; Michael
L. Newman, Senior Assistant Attorney General;
Cherokee DM Melton, Supervising Deputy Attorney
General; Lisa Cisneros, Katherine Lehe, Julia Hamumi
Mass, Brenda Ayon Verduzco, and Anna Rich, Deputy
Attorneys General; Office of the Attorney General,
Oakland, California; for Plaintiff-Appellee State of
California.
James R. Williams, County Counsel; Greta S. Hansen,
Chief Assistant County Counsel; Laura Trice, Lead
Deputy County Counsel; Raphael N. Rajendra, Julia B.
Spiegel, H. Luke Edwards, and Hannah Kieschnick,
Deputy County Counsel; Office of the County Counsel,
County of Santa Clara, San Jose, California; for
Plaintiff-Appellee County of Santa Clara.
Dennis J. Herrera, City Attorney; Jesse C. Smith, Chief
Assistant City Attorney; Ronald P. Flynn, Chief Deputy
City Attorney; Yvonne R. Mere, Sara J. Eisenberg, and
Matthew D. Goldberg, Deputy City Attorneys; Office of
the City Attorney, San Francisco, California; for
Plaintiff-Appellee City and County of San Francisco.
Karl A. Racine, Attorney General; Loren L. Alikhan,
Solicitor General; Office of the Attorney General,
Washington, D.C.; for Plaintiff-Appellee District of
Columbia.
Aaron M. Frey, Attorney General; Kimberly L.
Patwardhan, Assistant Attorney General; Office of the

App. 11
Att orney G enera l, Aug ust a,
Plaintiff-Appellee State of Maine.

Ma i ne;

for

Robert W. Ferguson, Attorney General; Noah G.
Purcell, Solicitor General; Tera M. Heintz, Deputy
Solicitor General; Jeffrey T. Sprung and Nathan K.
Bays, Assistant Attorneys General; Office of the
Attorney General, Seattle, Washington; for
Plaintiff-Appellee State of Washington.
Ellen Rosenblum, Attorney General; Benjamin
Gutman, Solicitor General; Nicole DeFever and
Patricia Garcia Rincon, Assistant Attorneys General;
Oregon Department of Justice, Salem, Oregon; for
Plaintiff-Appellee State of Oregon.
Mark R. Herring, Attorney General; Michelle S. Kallen
and Jessica Merry Samuels, Deputy Solicitors General;
Ryan Spreague Hardy and Alice Ann Lloyd, Assistant
Attorneys General; Office of the Attorney General,
Richmond, Virginia; for Plaintiff-Appellee
Commonwealth of Virginia.
Josh Shapiro, Attorney General; Michael J. Fischer,
Chief Deputy Attorney General; Aimee D. Thomson,
Deputy Attorney General; Office of the Attorney
General, Philadelphia, Pennsylvania; for
Plaintiff-Appellee Commonwealth of Pennsylvania.
Phil Weiser, Attorney General; Eric R. Olson, Solicitor
General; Office of the Attorney General, Denver,
Colorado; for Plaintiff-Appellee State of Colorado.
Kathleen Jennings, Attorney General; Christian
Douglas Wright, Director of Impact Litigation; Vanessa
L. Kassab, Deputy Attorney General; Delaware

App. 12
Department of Justice, Wilmington, Delaware; for
Plaintiff-Appellee State of Delaware.
Kwame Raoul, Attorney General; Liza RobersonYoung, Public Interest Counsel; Office of the Attorney
General, Chicago, Illinois; for Plaintiff-Appellee State
of Illinois.
Clare E. Connors, Attorney General; Lili A. Young,
Deputy Attorney General; Department of the Attorney
General, Honolulu, Hawaii; for Plaintiff-Appellee State
of Hawaii.
Brian E. Frosh, Attorney General; Jeffrey P. Dunlap,
Assisant Attorney General; Office of the Attorney
General, Baltimore, Maryland; for Plaintiff-Appellee
State of Maryland.
Maura Healey, Attorney General; Abigail B. Taylor,
Chief, Civil Rights Division; David Urena, Special
Assistant Attorney General; Angela Brooks, Assistant
Attorney General; Office of the Attorney General,
Boston, Massachusetts; for Plaintiff-Appellee
Commonwealth of Massachusetts.
Dana Nessel, Attorney General; Fadwa A. Hammoud,
Solicitor General; Toni L. Harris, First Assistant
Attorney General; Michigan Department of the
Attorney General, Lansing, Michigan; for
Plaintiffs-Appellees People of Michigan.
Keith Ellison, Attorney General; R.J. Detrick,
Assistant Attorney General; Office of the Attorney
General, St. Paul, Minnesota; for Plaintiff-Appellee
State of Minnesota.

App. 13
Aaron D. Ford, Attorney General; Heidi Parry Stern,
Solicitor General; Office of the Attorney General, Las
Vegas, Nevada; for Plaintiff-Appellee State of Nevada.
Burbir S. Grewal, Attorney General; Maria Soueid,
Deputy Attorney General; Office of the Attorney
General, Trenton, New Jersey; for Plaintiff-Appellee
State of New Jersey.
Hector Balderas, Attorney General; Tania Maestas,
Chief Deputy Attorney General; Office of the Attorney
General, Santa Fe, New Mexico; for Plaintiff-Appellee
State of New Mexico.
Peter F. Neronha, Attorney General; Lauren E. Hill,
Special Assistant Attorney General; Office of the
Attorney General, Providence, Rhode Island; for
Plaintiff-Appellee State of Rhode Island.
ORDER
The Motion of State of South Carolina to Join
Motion to Intervene by the States of Arizona, et al., is
GRANTED.
The Motion of State of Missouri to Join Motion to
Intervene by the States of Arizona, et al., is
GRANTED.
The Motion to Intervene by the States of Arizona, et
al., is DENIED.

App. 14
VANDYKE, Circuit Judge, dissenting from the denial
of intervention:
With the recent change in federal administrations,
the Biden Administration stopped defending certain
rules promulgated by the Trump Administration,
including the Public Charge rule at issue in this case.
That in itself is neither surprising nor particularly
unusual. Elections have consequences, as they say, and
a common enough one is that new presidential
administrations, especially of a different party, often
disagree with some of the rules promulgated by their
predecessors. But here, as I explain in more detail
below, the new administration did something quite
extraordinary with the Public Charge rule. In concert
with the various plaintiffs who had challenged the rule
in federal courts across the country, the federal
defendants simultaneously dismissed all the cases
challenging the rule (including cases pending before
the Supreme Court), acquiesced in a single judge’s
nationwide vacatur of the rule, leveraged that
now-unopposed vacatur to immediately remove the rule
from the Federal Register, and quickly engaged in a
cursory rulemaking stating that the federal
government was reverting back to the Clinton-era
guidance—all without the normal notice and comment
typically needed to change rules.
In short, the new administration didn’t just stop
defending the prior administration’s rule and ask the
courts to stay the legal challenges while it promulgated
a new rule through the ordinary (and invariably timeand resource-consuming) process envisioned by the
APA. Instead, together with the plaintiffs challenging

App. 15
the rule, it implemented a plan to instantly terminate
the rule with extreme prejudice—ensuring not only
that the rule was gone faster than toilet paper in a
pandemic, but that it could effectively never, ever be
resurrected, even by a future administration. All while
avoiding the normal messy public participation
generally required to change a federal rule. Not bad for
a day’s work.
But not everyone was impressed with this rare
display of governmental efficiency. Swiftly rebounding
from the whiplash, a collection of states quickly moved
to intervene in the various lawsuits challenging the
rule around the country (including this one), arguing
that because the federal government was now
demonstrably in cahoots with the plaintiffs, the states
should be allowed to take up the mantle of defending
the Trump-era rule. Pointing to the fact that the
Supreme Court had both stayed multiple lower courts’
injunctions of the rule and—until the new
administration voluntarily dismissed its appeals—
planned to review the rule’s validity, the states
contended there is something amuck about the federal
government’s new rulemaking-by-collusiveacquiescence.
The panel majority denies the states’ motion for
intervention. I conclude intervention is warranted, and
therefore respectfully dissent. Before explaining why,
I first provide some background on the Public Charge
rule and the legal challenges to it. And after explaining
why we should have granted intervention, I briefly
conclude with what I think might be a possible solution
to this novel problem of a new federal administration

App. 16
deliberately (1) short-circuiting the normal APA
process by using a single judge to engage in de facto
nationwide rulemaking and (2) locking in adverse legal
precedents that the Supreme Court has already
signaled are highly questionable.
I. Background
A. The term “Public Charge”
The term “public charge” has been a part of our
country’s statutory immigration lexicon for more than
a century. City & County of San Francisco v. USCIS,
981 F.3d 742, 749 (9th Cir. 2020) (noting the first use
in the Immigration Act of 1882). The most recent
regulatory interpretation of that term has prompted
various circuits across the nation to spill much ink
arguing over its precise historical contours. See, e.g.,
Cook County v. Wolf, 962 F.3d 208, 222–29 (7th Cir.
2020); New York v. U.S. Dep’t of Homeland Security,
969 F.3d 42, 63–80 (2d Cir. 2020); CASA de Md., Inc. v.
Trump, 971 F.3d 220, 230–34 (4th Cir. 2020), vacated
for reh’g en banc, 981 F.3d 311 (4th Cir. 2020)
(dismissed Mar. 11, 2021); City & County of San
Francisco, 981 F.3d at 756–58. Throughout much of its
history, however, “public charge” has maintained a
less-than-precise meaning, even as the term was
continuously used in various state and federal statutes
denying admission or adjustment of immigration status
to noncitizens that were “likely at any time to become
a public charge.” 8 U.S.C. § 1182(a)(4)(A); see also Cook
County , 962 F.3d at 238–42 (Barrett, J., dissenting)
(explaining the statutory usages and inferred meanings
of the term “public charge” throughout its history).

App. 17
In a laudable attempt to give the term a more
concrete meaning, the Clinton Administration proposed
a rule to define the term “public charge,” but the effort
was ultimately abandoned and a final rule never
issued. See Inadmissibility and Deportability on Public
Charge Grounds, 64 Fed. Reg. 28,676 (proposed May
26, 1999). Enduring from that attempt, however, was
field guidance defining a “public charge.” Field
Guidance on Deportability and Inadmissibility on
Public Charge Grounds, 64 Fed. Reg. 28,689, 28,692
(May 26, 1999). This field guidance was not binding,
but the Department of Homeland Security (DHS)
followed it in the absence of explicit regulatory
direction. See New York, 969 F.3d at 53.
Under the guidance, an individual was considered
a “public charge” if he was likely to receive “[c]ash
assistance for incom e m a i ntena nce [or]
institutionalization for long-term care at government
expense.” 64 Fed. Reg. at 28,692. But an individual
seeking adjustment of status would not be considered
a “public charge,” even though he would need
government-provided housing, government-paid
electrical assistance, government-provided food,
government health insurance for himself and his
children, and government-provided childcare while
using government-provided job training. See 64 Fed.
Reg. at 28,692–93. In short, under the de facto rule in
existence before the Trump Administration
promulgated an actual rule, a noncitizen would not be
deemed a public charge even though the government
furnished essentially his every need (and many of his
wants), just as long as the government didn’t give him

App. 18
cash benefits that he could then use to pay for his
Netflix subscription.
While the ambiguous concept of a “public charge” no
doubt allows for substantial interpretive elasticity, that
seems quite a stretch. Indeed, it seems exactly
backwards from what most people would think makes
someone a “public charge.” Nowadays, almost
everybody in this country is getting cash stimulus
payments from the IRS on what feels like a
semi-regular basis, and nobody thinks that alone
makes them a public charge. Call me crazy, but I
expect most people would say it is being overly reliant
on the government to meet your needs that makes one
a public charge, not whether the welfare benefits are
provided in cash or in kind.
B. New Public Charge Definition
Nearly two decades after the Clinton
Administration promulgated its guidance, the Trump
Administration in August 2019 issued a final
rule—after notice and comment—defining “public
charge.” Inadmissibility on Public Charge Grounds;
Final Rule, 84 Fed. Reg. 41,292 (Aug. 14, 2019). The
2019 rule looked prospectively at applications for
admission or adjustment of status to determine
whether the individual was “more likely than not at
any time in the future to receive one or more
designated public benefits for more than 12 months in
the aggregate within any 36-month period.” Id. at
41,295. The rule considered whether an individual
would likely receive cash from the government and/or
“means-tested non-cash benefits . . . which bear directly
on the recipient’s self-sufficiency and . . . account for

App. 19
significant federal expenditures on low-income
individuals.” Id. at 41,296. If, under the totality of
circumstances analysis, a noncitizen applying for
admission or adjustment of status would likely need
specified cash benefits and/or various non-monetizable
government-provided housing, food assistance, or
medical insurance for more than a collective twelve
months, then the noncitizen could be considered a
public charge. Id. at 41,501 (citing 8 C.F.R. § 212.21).
Because many categories of immigrants are either
not eligible for these types of public benefits or are
exempted from the public charge exclusion, the rule
primarily affected only a limited subset of
immigrants—nonimmigrant visa holders applying for
green cards. See Cook County, 962 F.3d at 235–38
(Barrett, J., dissenting).1 While not currently eligible
for public benefits, upon adjustment of status, those
individuals would be eligible in the future—thus, “[t]he
public charge rule is concerned with what use a green
card applicant would make of this future eligibility.” Id.
at 237.
C. Challenging the 2019 Public Charge Rule
Notwithstanding that the 2019 rule affected only a
narrow group of people, almost none of whom have
previously used public benefits, a score of outraged

1

A lawful permanent resident—already admitted to the U.S. and
thus eligible for select public benefits—could also be subject to the
2019 rule if the individual left the United States for more than 180
days, which would bring his residency in to question and prompt
the need to seek admission upon returning. See Cook County, 962
F.3d at 236 (Barrett, J., dissenting).

App. 20
entities challenged the rule.2 In late 2019, district
courts in the Second, Fourth, Seventh, and Ninth
Circuits all preliminarily enjoined the rule’s
enforcement. See New York v. U.S. Dep’t of Homeland
Sec., 408 F. Supp. 3d 334, 353 (S.D.N.Y. 2019); CASA
de Md., Inc. v. Trump, 414 F. Supp. 3d 760, 788 (D. Md.
2019); Cook County v. McAleenan, 417 F. Supp. 3d
1008, 1014 (N.D. Ill. 2019); City & County of San
Francisco v. USCIS, 408 F. Supp. 3d 1057, 1073 (N.D.
Cal. 2019); Washington v. U.S. Dep’t of Homeland Sec.,
408 F. Supp. 3d 1191, 1224 (E.D. Wash. 2019). A
divided motions panel of this court stayed the
injunctions issued in this circuit in a published opinion,
thereby allowing the rule to go into effect. City &
County of San Francisco v. USCIS, 944 F.3d 773, 7 81
(9th Cir. 2019). Likewise, the Fourth Circuit stayed
the preliminary injunction in its circuit. CASA de Md.,
Inc., 971 F.3d at 237. The Second and Seventh Circuits
initially denied stays, but the Supreme Court stepped
in and stayed the preliminary injunctions issued in
those circuits as well. See Dep’t of Homeland Sec. v.
New York, 140 S. Ct. 599, 599 (2020);Wolf v. Cook
County, 140 S. Ct. 681, 681 (2020). In sum, although
the plaintiffs had a nice run of initial successes
2

The states challenging the rule alleged injury in the form of
resident noncitizens, confused by the language of the rule,
unnecessarily disenrolling from state public benefits. See New
York, 969 F.3d at 59–60. DHS explained that the new rule would
actually save the states money because they would be paying out
less in public benefits. Id. at 60. The challenging states didn’t
disagree that the rule would directly save them money, but
countered with a response that would delight salespeople
everywhere: sometimes you have to spend money to save it. Id.; see
also City & County of San Francisco, 981 F.3d at 755.

App. 21
challenging the rule, by early 2020, all the injunctions
against the rule had been stayed and the rule was in
effect nationwide.
Undeterred by the Supreme Court’s signal that
challenges to the rule were ultimately likely to fail on
the merits, lower courts continued to hammer away.
The Second Circuit in continuing litigation affirmed the
issuance of its circuit’s preliminary injunction (with a
limited scope), as did divided panels in the Seventh
Circuit and this circuit. See New York, 969 F.3d at 50
(affirming the preliminary injunction, but with a
limited scope); Cook County, 962 F.3d at 215; City &
County of San Francisco, 981 F.3d at 763 (affirming
preliminary injunctions, but with a limited scope). But
a divided Fourth Circuit panel reversed, noting that
the Supreme Court’s stay in other circuits’ proceedings
“would have been improbable if not impossible had the
government, as the stay applicant, not made a strong
showing that it was likely to succeed on the merits.”
CASA de Md., Inc., 971 F.3d at 229 (citation and
internal quotation marks omitted).
Meanwhile, back in the Seventh Circuit, having
moved on from the preliminary injunction stage to the
merits phase of litigation, the Northern District of
Illinois on November 2, 2020 entered a Rule 54(b) final
judgment against the federal government and vacated
the rule in its entirety. Cook County v. Wolf , No. 1:19cv-06334, 2020 WL 6393005, at *6–7 (N.D. Ill. Nov. 2,
2020). Notwithstanding the Supreme Court’s stay of its
earlier preliminary injunction, the district court denied
the government’s request to stay the vacatur of the
rule. Id. The Seventh Circuit, perhaps more

App. 22
experienced at reading the Supreme Court, stepped in
and stayed implementation of the district court’s
judgment pending appeal. Order Granting Motion to
Stay Judgment, Cook County v. Wolf, No. 20-3150 (7th
Cir. Nov. 19, 2020), ECF No. 21.
While all this was going on, the federal government
filed multiple petitions for certiorari seeking Supreme
Court review of the Second, Seventh, and Ninth Circuit
decisions concluding that the rule was likely unlawful.
As these petitions were pending, President Biden took
office in January 2021. Almost exactly a month later,
the Supreme Court on February 22, 2021 granted
review of the Second Circuit’s case. See Dep’t of
Homeland Sec. v. New York, No. 20-449, 2021 WL
666376, at *1 (U.S. Feb. 22, 2021). While obviously one
can never fully predict how the Supreme Court is going
to decide a case, the Supreme Court’s earlier
stays—combined with its later cert grant of a lower
court decision at odds with those stays —did not bode
well for opponents of the rule.
D. DHS’s Rapid Dismissal of the Litigation
One of those opponents was the new Biden
Administration, which put the federal government in
the awkward position of having a case teed up before
the Supreme Court that it knew it was likely to win,
but now really wanted to lose. So in the early hours of
March 9, 2021, despite the Supreme Court having
granted certiorari just two weeks prior in a related case
that the government had asked the Court to review,
DHS in coordination with the plaintiffs moved to
dismiss the Seventh Circuit appeal of the district

App. 23
court’s vacatur of the rule.3 Approximately an hour and
a half later, DHS released a statement explaining that
“the Department of Justice will no longer pursue
appellate review of judicial decisions invalidating or
enjoining enforcement of the 2019 Rule.”4 With a
reaction time the envy of every appellate court, the
Seventh Circuit only a few hours after DHS’s
statement granted the motion to dismiss and
immediately issued the mandate.5 Later that same
evening, DHS issued another statement noting that
“[f]ollowing the Seventh Circuit dismissal this
afternoon, the final judgment from the Northern
District of Illinois, which vacated the 2019 public
charge rule, went into effect.” It continued that “[a]s a
result, the 1999 interim field guidance on the public
charge inadmissibility provision (i.e., the [Clinton-era]
policy that was in place before the 2019 public charge
rule) is now in effect.”6 A little over 24 hours later, the
3

See Unopposed Mot ion to Voluntarily Dismiss Appeal, Cook
County v. Wolf, No. 20-3150 (7th Cir. Mar. 9, 2021), ECF No. 23.
4

Press Release, U.S. Dep’t of Homeland Sec., DHS Statement on
Litigation Related to the Public Charge Ground of Inadmissibility
(Mar. 9, 2021), https://www.dhs.gov/news/2021/03/09/dhs
-statement-litigation-related-public-charge-ground-inadmissibility.
5

Order Dismissing Appeal, Cook County v. Wolf, No. 20-3150 (7th
Cir. Mar. 9, 2021), ECF No. 24-1; Notice of Issuance of Mandate,
Cook County v. Wolf, No. 20-3150 (7th Cir. Mar. 9, 2021), ECF No.
24-2.
6

Press Release, U.S. Dep’t of Homeland Sec., DHS Secretary
Statement on the 2019 Public Charge Rule(Mar. 9, 2021),
https://www.dhs.gov/news/2021/03/09/dhs-secretary-statement-2
019-public-charge-rule.

App. 24
parties filed a joint stipulation to dismiss the case in
the Northern District of Illinois.7 The district court
closed the case the following day.8
On the same day it dismissed its Seventh Circuit
appeal, the federal government, now BFFs with its
prior opponents, also filed joint stipulations to dismiss
all the cases pending before the Supreme Court,
including the Second Circuit case in which the
Supreme Court had already granted cert.9 Consistent
with the Supreme Court’s Rule 46.1, which allows
automatic dismissal of a case by unanimous agreement
of the parties, the Clerk of the Supreme Court,
“without further reference to the Court,” dismissed
those cases. Sup. Ct. R 46.1.10
In the afternoon of that same day, March 9, 2021,
the parties also moved to dismiss their case in the

7

Joint Stipulation of Dismissal with Prejudice, CookCounty v.
Wolf, No. 19-cv-6334 (N.D. Ill. Mar. 11, 2019), ECF No. 253.
8

Notification of Docket Entry, Cook County v. Wolf, No. 19-cv-6334
(N.D. Ill. Mar. 12, 2019), ECF No. 254.
9

Joint Stipulation to Dismiss, U.S. Dep’t of Homeland Sec. v. New
York, No. 20-449 (U.S. Mar. 9, 2021); Joint Stipulation to Dismiss,
Mayorkas v. Cook County , No. 20-450 (U.S. Mar. 9, 2021); Joint
Stipulation to Dismiss, USCIS v. City & County of San Francisco,
No. 20-962 (U.S. Mar. 9, 2021).
10

Mayorkas v. Cook County, No. 20-450, 2021 WL 1081063 (U.S.
Mar. 9, 2021); USCIS v. City & County of San Francisco, No.
20-962, 2021 WL 1081068 (U.S. Mar. 9, 2021); Dep’t of Homeland
Sec. v. New York, No. 20-449, 2021 WL 1081216 (U.S. Mar. 9,
2021).

App. 25
Fourth Circuit.11 The Fourth Circuit granted the
unopposed motion and issued the mandate two days
later, on March 11, 2021, noting the lack of
opposition.12
On that same day—March 11, 2021, only two days
after the federal government’s volte-face—fourteen
states13 responded in the Seventh and Fourth Circuits
to the parties’ synchronized blitzkrieg, collectively
filing a Motion to Recall the Mandate to Permit
Intervention as Appellant, an Opposed Motion to
Reconsider, or alternatively, Rehear, a Motion to
Dismiss, and an Opposed Motion to Intervene.14 The

11

See Unopposed Motion to Voluntarily Dismiss Appeal, CASA de
Md. v. Biden, No. 19-2222 (4th Cir. Mar. 9, 2021), ECF No. 210.
12

See Order, CASA de Md. v. Biden, No. 19-2222 (4th Cir. Mar. 11,
2021), ECF No. 211; Rule 42(b) Mandate, CASA de Md. v. Biden,
No. 19-2222 (4th Cir. Mar. 11, 2021), ECF No. 212.
13

The states are Texas, Alabama, Arizona, Arkansas, Indiana,
Kansas, Kentucky, Louisiana, Mississippi, Montana, Ohio,
Oklahoma, South Carolina, and West Virginia. The day before, on
March 10, 2021, the states of Arizona, Alabama, Arkansas,
Indiana, Kansas, Louisiana, Mississippi, Montana, Oklahoma,
Texas, and West Virginia, filed the Motion to Intervene now denied
by this panel. See Motion to Intervene, City and County of San
Francisco v. USCIS, Nos. 19-17213, 19-17214, 19-35914 (9th Cir.
Mar. 10, 2021) . South Carolina and Missouri subsequently moved
to join the motion before our court.
14

See Motion to Recall the Mandate to Permit Intervention as
Appellant, Opposed Motion to Reconsider, or in the Alternative to
Rehear, the Motion to Dismiss, Opposed Motion to InterveneAppellants, Cook County v. Wolf, No. 20-3150, (7th Cir. Mar. 11,
2021), ECF Nos. 25-1, 25-2, 25-3; Motion to Recall the Mandate to

App. 26
states explained that “[b]ecause the Court issued its
mandate within hours of the United States’
announcement that it would no longer defend the Rule,
interested parties had no ability to intervene before it
did so,” and “because the United States did not inform
the States that it intended to cease defending the Rule
before abandoning numerous cases supporting the Rule
nationwide, the States did not have an opportunity to
intervene at an earlier point.”15
The Seventh Circuit summarily denied the states’
motions on March 15, 2021,16 coincidentally the same
day that DHS issued a final rule removing the 2019
rule. The Fourth Circuit also summarily denied the
states’ motions on March 18, 2021.17 On March 19,
2021, having been denied intervention or any other
relief by the Seventh Circuit, the states asked the
Supreme Court to order intervention or grant

Permit Intervention as Appellant, Opposed Motion to Reconsider,
or in the Alternative to Rehear, the Motion to Dismiss, Opposed
Motion for Leave to Intervene-Appellants, CASA de Md. v. Biden,
No. 19-2222 (4th Cir. Mar. 11, 2021), ECF Nos. 213, 214, 215.
15

See Motion to Recall the Mandate t o Permit Intervention as
Appellant, Cook County v. Wolf, No. 20-3150, (7th Cir. Mar. 11,
2021), ECF Nos. 25-1, at 4.
16

See Order Denying Motions, Cook County v. Wolf, No. 20-3150
(7th Cir. Mar. 15, 2021), ECF No. 26.
17

See Order Denying Motions, CASA de Md. v. Biden, No. 19-2222
(4th Cir. Mar. 18, 2021), ECF No. 216.

App. 27
alternative relief that would allow them to revive the
lower court litigation.18
E. DHS’s Rescission of the 2019 Rule
On March 15, 2021, DHS issued a final rule
“remov[ing] the regulations resulting from [the 2019
rule], which has since been vacated by a Federal
district court.”19 Notably, it issued the final rule
without a notice and comment period or delayed
effective date, stating instead that it was promulgating
a rule that was already in effect: “[t]his rule is effective
on March 9, 2021, as a result of the district court’s
vacatur.” It explained that “[b]ecause this rule simply
implements the district court’s vacatur of the August
2019 rule, as a consequence of which the August 2019
rule no longer has any legal effect, DHS is not required
to provide notice and comment or delay the effective
date of this rule.” Accordingly, there was “good cause”
to “bypass[] any otherwise applicable requirements of
notice and comment and a delayed effective date” as
“unnecessary for implementation of the court’s order
vacating the rule . . . in light of the agency’s immediate
need to implement the now-effective final judgment.”20
This is the background against which we are
presented the instant motion to intervene. Arguing
18

See Application for Leave to Intervene & for a Stay of Judgment,
Texas v. Cook County, No. 20A150 (U.S. Mar. 19, 2021).
19

Inadmissibility on Public Charge Grounds; Implementation of
Vacatur, 86 Fed. Reg. 14,221 (Mar. 15, 2021) (to be codified at 8
C.F.R. pts. 103, 106, 212–14, 245, 248).
20

Id. at 14,221.

App. 28
that the federal government managed to snatch defeat
from the jaws of victory only by naked capitulation, the
states ask for an opportunity to pick up the football and
step into the federal government’s shoes, just as the
formerly adversarial parties are walking off the field
together, hand- in-hand, celebrating their “win-win.”
Meanwhile, the plaintiffs and feds, only months ago
bitter enemies, collectively press us to deny
intervention. The game is over, they say. You can’t put
Humpty Dumpty back together again. The horse hasn’t
just left the barn—it’s dead, and never coming back.
II. Analysis
The federal government and the plaintiffs have
certainly played their hand well. Not only have they
gotten rid of a rule they dislike, but they’ve done so in
a way that allowed them to dodge the pesky
requirements of the APA and ensure that it will be
very difficult for any future administration to
promulgate another rule like the 2019 rule. But putting
aside one’s view of the merits of the rule itself, that
doesn’t seem like a good thing for good government.
Leveraging a single judge’s ruling into a mechanism to
avoid the public participation in rule changes
envisioned by the APA should trouble pretty much
everyone, one would hope. Especially when the legal
validity of that ruling is highly suspect and left
untested only because of the collusive actions of the
parties. Left unchecked, it seems quite likely this will
become the mechanism of choice for future
administrations to replace disfavored rules with prior
favored ones.

App. 29
But of course, just because something is bad policy
doesn’t always mean there is a legal basis to challenge
it. Ultimately, the question currently before this panel
is whether the states should be allowed to
intervene—that is, not whether they should win the
game, but just whether they should be allowed to play.
That question is controlled by a well-established
standard that favors intervention. As explained below,
I think the states have easily met that standard here.
A. The States Meet the Intervention Standard
The states’ motion to intervene is governed by
Federal Rule of Civil Procedure 24. Int’l Union, United
Auto., Aerospace & Agric. Implement Workers of Am.,
AFL-CIO, Local 283 v. Scofield, 382 U.S. 205, 217 n.10
(1965); Day v. Apoliona, 505 F.3d 963, 965 (9th Cir.
2007). Per Rule 24(a)(2), applicants can intervene in an
action as of right when they meet the following four
requirements:
(1) the intervention application is timely;
(2) the applicant has a significant protectable
interest relating to the property or transaction
that is the subject of the action; (3) the
disposition of the action may, as a practical
matter, impair or impede the applicant’s ability
to protect its interest; and (4) the existing
parties may not adequately represent the
applicant’s interest.
Prete v. Bradbury , 438 F.3d 949, 954 (9th Cir. 2006)
(citation and internal quotation marks omitted); see
also Fed. R. Civ. P. 24(a)(2). When determining
whether these four “requirements are met, we normally

App. 30
follow ‘practical and equitable considerations’ and
construe the Rule ‘broadly in favor of proposed
intervenors.’” Wilderness Soc’y v. U.S. Forest Serv., 630
F.3d 1173, 1179 (9th Cir. 2011) (en banc) (citation
omitted).
To evaluate intervention’s timeliness, “we consider
(1) the stage of the proceeding at which an applicant
seeks to intervene; (2) the prejudice to other parties;
and (3) the reason for and length of the delay.” Peruta
v. County of San Diego, 824 F.3d 919, 940 (9th Cir.
2016) (en banc) (citation and internal quotation marks
omitted). If a putative intervenor moves promptly to
intervene when it becomes clear that their interests
“would no longer be protected . . . there is no reason
why [the intervention] should not be considered
timely.” United Airlines, Inc. v. McDonald, 432 U.S.
385, 394–95 (1977). The states here moved to intervene
in the public charge cases within mere days of the
federal government making public that it no longer
sought to defend the rule. The plaintiffs and the federal
government argue against intervention by contending
that “[n]either practical nor equitable concerns justify
intervention at this late stage in the litigation.” But
this is hardly the typical case where putative
intervenors sat on their hands until the eleventh hour.
Instead, the federal government robustly defended the
rule for more than a year in courts across the nation
before suddenly acquiescing in its vacatur and
dismissing all the public charge cases without prior
notice. Because the states quickly intervened when
they discovered that the federal government had
abandoned their interests, and the federal government

App. 31
has asserted no apparent prejudice in allowing
intervention, the motion to intervene is timely.
The states also have a “significant protectable
interest” in the continuing validity of the rule because
invalidating the rule could cost the states as much as
$1.01 billion annually.21 The federal government
contends that in lieu of joining this litigation, the states
can vindicate their interests by participating in an
agency review process or asking the agency to
promulgate a new rule. This argument might have had
more merit had the federal government followed the
traditional route of asking the courts to hold the public
charge cases in abeyance, rescinding the rule per the
APA, and then promulgating a new rule through notice
and comment rulemaking. But instead, the federal
government intentionally avoided the APA entirely by
acquiescing in a final district court judgment and
altering the federal regulations by unilaterally
reinstating the 1999 field guidance. See 86 Fed. Reg. at
14,221 (“This rule removes from the Code of Federal
Regulations. . . the regulatory text that DHS
promulgated in the August 2019 rule and restores the
regulatory text to appear as it did prior to the issuance
of the August 2019 rule.”). Its carefully coordinated
actions effectively removed the Trump-era rule and
installed the Clinton-era guidance as the de facto new
rule—without any formal agency rulemaking or
meaningful notice to the public. By deliberately
evading the administrative process in this way, the

21

Motion to Intervene by the States at 1, 3–5, City & County of
San Francisco v. USCIS, 981 F.3d 742 (9th Cir. 2021) (Nos.
19-17213, 19-17214, 19-35914).

App. 32
government harmed the state intervenors by
preventing them from seeking any meaningful relief
through agency channels. The courts can and should
remedy this procedural harm. See Massachusetts v.
EPA, 549 U.S. 497, 518 (2007) (“When a litigant is
vested with a procedural right, that litigant has
standing if the re is some possibility that the requested
relief will prompt the injury-causing party to
reconsider the decision that allegedly harmed the
litigant.”).
The disposition of this action, together with the
federal government’s other coordinated efforts to
eliminate the rule while avoiding APA review, will
impair or impede the states’ ability to protect their
interest in the 2019 rule’s estimated annual savings
discussed above. And the existing parties obviously do
not adequately represent the states’ interests because
they are now united in vigorous opposition to the rule.
See Arakaki v. Cayetano, 324 F.3d 1078, 1086 (9th Cir.
2003) (“The most important factor in determining the
adequacy of representation is how the interest
compares with the interests of existing parties.”).
Against the states’ arguments in favor of
intervention, the federal government and plaintiffs
have one main response: this case is moot because the
court cannot offer adequate relief now that the 2019
rule has been vacated by a different federal judge in a
different circuit.
“The party asserting mootness bears the burden of
establishing that there is no effective relief that the
court can provide.” Forest Guardians v. Johanns, 450
F.3d 455, 461 (9th Cir. 2006). “That burden is ‘heavy’;

App. 33
a case is not moot where any effective relief may be
granted.” Id. (emphasis in original) (citation omitted).
The parties opposing intervention have failed to
meet their “heavy” burden here. Id. (citation omitted).
As the states explain, they could obtain effective relief
because they currently have an action pending before
the Supreme Court asking that Court to order the
Seventh Circuit to reverse or stay the vacatur of the
rule. If successful, that would remove any obstacle to
the states ultimately getting relief in this court. See
Allied Concrete & Supply Co. v Baker, 904 F.3d 1053,
1066 (9th Cir. 2018) (distinguishing moot cases where
the underlying litigation had concluded from cases
where “a potential petition for rehearing or certiorari
keeps a case alive”). Indeed, if the states are successful
in their current request that the Supreme Court stay
the Seventh Circuit’s vacatur of the rule, given our
denial of their intervention here the states will be left
with no way to prevent one of the district courts in our
circuit from immediately imposing a nationwide
preliminary injunction of the rule or, worse, vacating
the rule (again). The horse may have left the barn, but
the rumors of its death are, if not greatly exaggerated,
at least premature.
Since this case is not moot, I would have granted
the states’ intervention motion because now that the
federal government has abandoned the field, only the
states themselves can present their arguments in favor
of the rule to the Court. By denying the motion to
intervene, we are sanctioning a collude-and-circumvent
tactic by the parties, who clearly now share the same
agenda. Cf. Knox v. Serv. Emp. Int’l Union, Loc. 1000,

App. 34
567 U.S. 298, 307 (2012) (warning that “postcertiorari
maneuvers designed to insulate a decision from review
by [the Supreme] Court must be viewed with a critical
eye”).
There is a final reason why intervention is
especially warranted in this case. By granting two
stays (and a later petition for certiorari), the Supreme
Court repeatedly indicated that the United States had
“made a strong showing that [it was] likely to succeed
on the merits” in its defense of the rule. Nken v.
Holder, 556 U.S. 418, 434 (2009) (citation omitted).
Absent intervention, the parties’ strategic cooperative
dismissals preclude those whose interests are no longer
represented from pursuing arguments that the
Supreme Court has already alluded are meritorious.
Even more concerning, the dismissals lock in a final
judgment and a handful of presumptively wrong
appellate court decisions in multiple circuits, and
circumvent the APA by avoiding formal
notice-and-comment procedures. See Transp. Div. of the
Int’l Ass’n of Sheet Metal, Air, Rail, & Transp. Workers
v. Fed. R.R. Admin., 988 F.3d 1170, 1180 (9th Cir.
2021) (noting that among “the most fundamental of the
APA’s procedural requirements” is the requirement
that “the agency shall give interested persons an
opportunity to participate in the rule making through
submission of written data, views, or arguments for the
agency’s consideration” (citation and internal quotation
marks omitted)). The United States’ evasion of one of
the APA’s most fundamental requirements, especially
on such shaky grounds as a district court decision that
never withstood the crucible of full appellate review,
further supports intervention here.

App. 35
B. Munsingwear Vacatur?
There is truth to the federal government’s and
plaintiffs’ arguments in opposition to intervention that,
as things currently stand, the Ninth Circuit’s Public
Charge cases have been relegated to little more than a
rearguard action. So long as the 2019 rule itself
remains vacated nationwide by a single judge in the
Seventh Circuit, not much can be done in this circuit to
affect that. While that doesn’t technically make this
case moot for purposes of our intervention analysis, it
does highlight the expansive reach of the parties’
coordinated actions, and how impressively effective
those actions are at preventing anyone or any single
court from unwinding their multifaceted, calculated
capitulation and avoidance of the APA. They really
have smashed Humpty Dumpty into pieces spread
across the nation, and there isn’t a single court (or
future administration) that can do much about it.
Except the one court that has yet to address the
states’ arguments: the Supreme Court. First, the
Supreme Court obviously could allow the states to
intervene in the Seventh Circuit litigation and defend
the 2019 rule in place of the federal government. But I
think there may be a simpler solution here that would
not only address what has happened with respect to
the Public Charge rule but, perhaps more importantly,
would encourage future administrations to change
rules—not through collusive capitulation—but via the
familiar and required APA rulemaking process
Congress created for that purpose.
The solution is that the Supreme Court could simply
clarify that Munsingwear vacatur of lower court

App. 36
decisions and judgments is appropriate in this
circumstance where the federal government and the
plaintiffs jointly mooted litigation by acquiescing in a
judgment against the government, which then
prevented the normal APA process for removing or
replacing a formal rule. Under Munsingwear, when a
civil case is mooted while on appeal to the Supreme
Court, “[t]he established practice” is “to reverse or
vacate the judgment below and remand with a
direction to dismiss.” United States v. Munsingwear,
Inc., 340 U.S. 36, 39 (1950). “Because this practice is
rooted in equity, the decision whether to vacate turns
on ‘the conditions and circumstances of the particular
case.’” Azar v. Garza, 138 S. Ct. 1790, 1792 (2018) (per
curiam) (citation omitted).
For instance, “[v]acatur is in order when mootness
occurs through . . . the ‘unilateral action of the party
who prevailed in the lower court.’” Arizonans for Off.
Eng. v. Arizona, 520 U.S. 43, 71–72 (1997) (quoting
U.S. Bancorp Mortg. Co. v. Bonner Mall P’ship, 513
U.S. 18, 23 (1994)). This is to prevent a party from
securing “a favorable judgment, tak[ing] voluntary
action that moots the dispute, and then retain[ing] the
benefit of the judgment.” Arizonans for Off. Eng., 520
U.S. at 75 (alterations omitted). By requiring that the
lower court judgment be vacated under those
circumstances, Munsingwear “prevent[s] a judgment,
unreviewable because of mootness, from spawning any
legal consequences.” Munsingwear, 340 U.S. at 41.
That’s why vacatur in such circumstances is “generally
‘automatic.’” NASD Dispute Resol., Inc. v. Jud. Council
of State of Cal., 488 F.3d 1065, 1068 (9thCir. 2007)
(citation omitted).

App. 37
But under the Bancorp exception to Munsingwear,
courts usually won’t vacate lower court decisions when
the appellant’s voluntary actions moot the appeal. See
Bancorp, 513 U.S. at 25. The reason for that is
straightforward: generally, if a party lost below, but
does something intentional to moot its case while the
appeal is pending, you don’t need to worry about that
losing party deliberately mooting the case on appeal so
that it can “retain the benefit of the judgment” without
risking a future adverse decision. For the party that
lost below, there isn’t generally any “benefit of the
judgment” to be retained. If the losing party voluntarily
moots the case on appeal, it is invariably for some
reason other than trying to manipulate the court
system to lock in favorable precedent while insulating
that precedent from further review. That is why, in
reliance on Bancorp, courts rarely Munsingwear vacate
a lower court decision when the parties voluntarily
settle a case. See generally id. In those situations,
“[t]he judgment is not unreviewable, but simply
unreviewed by [the losing party’s] own choice.” Id.
Those appellants “voluntarily forfeited [their] legal
remedy by the ordinary process of appeal or certiorari,
thereby surrendering [their] claim to the equitable
remedy of vacatur.” Id.
The federal government’s coordinated settlement of
the Public Charge cases falls within the technical
parameters of the Bancorp exception to Munsingwear
vacatur because the federal government was the
appellant in these cases. But the uniquely inequitable
circumstances facing the intervening states here,
together with the government’s maneuvering precisely
so that it could retain the benefit of some questionable

App. 38
judgments it now really likes, demonstrates that this
situation clearly falls far outside any reasonable
rationale for Bancorp’s exception to Munsingwear’s
normal rule. The settlements that the states seek to
challenge are a transparent attempt by a new federal
administration and its prior litigation opponents to not
only rid the federal government of a now-disfavored
rule, but also to avoid the APA’s procedures in
changing that rule and force any future administration
that wants to enact a similar rule to fight against the
strong headwinds of dubious Ninth, Seventh, and
Second Circuit precedent. This is, in short, precisely an
example of a party “tak[ing] voluntary action that
moots the dispute, and then retain[ing] the benefit of
the judgment.” Arizonans for Off. Eng., 520 U.S. at 75
(alterations omitted).
Because both Munsingwear and Bancorp turn on
equity—and even Bancorp notes that “exceptional
circumstance[s] may . . . counsel in favor of . . . vacatur”
when parties settle, Bancorp, 513 U.S. at 29—the
Supreme Court should make clear that the Bancorp
exception to Munsingwear, which usually counsels
against vacating a judgment where the appellant’s
voluntary actions mooted the appeal, does not apply in
this circumstance. The states’ proceedings before the
Supreme Court seem like a perfect vehicle for the
Court to address this unique situation where a new
administration doesn’t like a duly enacted rule and
attempts to insulate the lower court’s judgment
vacating the disfavored rule from further appellate
review.

App. 39
Clarifying that all lower court decisions and
judgments should be vacated under these
circumstances would have both immediate and longterm salutary effects. First, the current administration
will be required to do what every administration before
it did with existing rules they didn’t like—promulgate
a new rule subject to all of the procedural protections
provided by the APA. Second, the thicket of suspect
lower-court precedents created by the Public Charge
litigation, which the Supreme Court seemed poised to
correct before the parties’ voluntary dismissal, would
be cleared away instead of remaining as a calcified
obstacle to future executive discretion. And third,
future administrations (and courts, and challengers)
will be incentivized to follow the APA’s rules, rather
than attempt procedural workarounds that eliminate
the public’s participation in administrative
rulemaking.22

22

There is one additional reason why Munsingwear vacatur of the
lower courts’ decisions would be particularly appropriate in the
context of the Public Charge rule. By design, the federal
government’s and plaintiffs’ coordinated dismissals act to replace
the Trump Administration’s Public Charge rule with the Clinton
Administration’s Public Charge “guidance.” Press Release, U.S.
Dep’t of Homeland Sec., DHS Secretary Statement on the 2019
Public Charge Rule (Mar. 9, 2021), https://www.dhs.gov/news/2021
/03/09/dhs-secretary-statement-2019-public-charge-rule. As
discussed, under the Clinton-era guidance, a noncitizen who is
entirely dependent on in kind government support—for food,
housing, medical care, etc.—cannot be considered a “public charge”
unless he also receives cash benefits. That seems like it might run
into problems under the APA. But the government’s circumvention
of the APA allowed it to slip back into applying the old guidance
without even needing to take that into consideration.

App. 40
Our court should have allowed the states to
intervene in these suits. But one hopes that maybe our
incorrect denial of intervention may be as
inconsequential as the panel majority’s prior incorrect
opinion, once the Supreme Court makes clear that our
dirty slate must be wiped clean under Munsingwear—
and with it, all its inequitable repercussions.

App. 41

APPENDIX B
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-17213
D.C. No. 4:19-cv-04717--PJH
[Filed: December 2, 2020]
__________________________________________
CITY AND COUNTY OF SAN
)
FRANCISCO; COUNTY OF SANTA
)
CLARA,
)
Plaintiffs-Appellees,
)
)
v.
)
)
UNITED STATES CITIZENSHIP AND
)
IMMIGRATION SERVICES, a federal
)
agency; U.S. DEPARTMENT OF
)
HOMELAND SECURITY, a federal agency;
)
CHAD F. WOLF, in his official
)
capacity as Acting Secretary of the
)
United States Department of Homeland
)
Security; KENNETH T. CUCCINELLI,
)
in his official capacity as Acting
)
Director of United States Citizenship and
)
Immigration Services,
)
Defendants-Appellants.
)
__________________________________________)

App. 42
No. 19-17214
D.C. No. 4:19-cv-04975-PJH
__________________________________________
STATE OF CALIFORNIA; DISTRICT OF
)
COLUMBIA; STATE OF MAINE;
)
COMMONWEALTH OF PENNSYLVANIA;
)
STATE OF OREGON,
)
Plaintiffs-Appellees,
)
)
v.
)
)
U.S. DEPARTMENT OF HOMELAND
)
SECURITY, a federal agency; UNITED
)
STATES CITIZENSHIP AND
)
IMMIGRATION SERVICES, a federal
)
agency; CHAD F. WOLF, in his official
)
capacity as Acting Secretary of the
)
United States Department of Homeland
)
Security; KENNETH T. CUCCINELLI, in
)
his official capacity as Acting Director of
)
United States Citizenship and
)
Immigration Services,
)
Defendants-Appellants.
)
__________________________________________)
Appeal from the United States District Court
for the Northern District of California
Phyllis J. Hamilton, Chief District Judge, Presiding

App. 43
No. 19-35914
D.C. No. 4:19-cv-05210-RMP
__________________________________________
STATE OF WASHINGTON;
)
COMMONWEALTH OF VIRGINIA;
)
STATE OF COLORADO; STATE OF DELAWARE; )
STATE OF ILLINOIS; STATE OF MARYLAND;
)
COMMONWEALTH OF MASSACHUSETTS;
)
DANA NESSEL,Attorney General on behalf
)
of the People of Michigan; STATE OF
)
MINNESOTA; STATE OF NEVADA;
)
STATE OF NEW JERSEY; STATE OF
)
NEW MEXICO; STATE OF RHODE ISLAND;
)
STATE OF HAWAII,
)
Plaintiffs-Appellees,
)
)
v.
)
)
U.S. DEPARTMENT OF HOMELAND
)
SECURITY, a federal agency;
)
CHAD F. WOLF, in his official capacity
)
as Acting Secretary of the United States
)
Department of Homeland Security;
)
UNITED STATES CITIZENSHIP
)
AND IMMIGRATION SERVICES, a
)
federal agency; KENNETH T. CUCCINELLI,
)
in his official capacity as Acting
)
Director of United States Citizenship
)
and Immigration Services,
)
Defendants-Appellants.
)
__________________________________________)
OPINION

App. 44
Appeal from the United States District Court
for the Eastern District of Washington
Rosanna Malouf Peterson, District Judge, Presiding
Argued and Submitted September 15, 2020
San Francisco, California
Filed December 2, 2020
Before: Mary M. Schroeder, William A. Fletcher, and
Lawrence VanDyke, Circuit Judges.
Opinion by Judge Schroeder;
Dissent by Judge VanDyke
___________________________________________________
SUMMARY*
___________________________________________________
Immigration
In cases in which two district courts issued
preliminary injunctions enjoining implementation of
the Department of Homeland Security’s redefinition of
the term”public charge,” which describes a ground of
inadmissibility, the panel: 1) affirmed the preliminary
injunction of the District Court for the Northern
District of California covering the territory of the
plaintiffs; and 2) affirmed in part and vacated in part
the preliminary injunction of the District Court for the
Eastern District of Washington, vacating the portion of
the injunction that made it applicable nationwide.

*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 45
Under 8 U.S.C. § 1182(a)(4)(A), any alien who, in
the opinion of the Secretary of Homeland Security, at
the time of application for admission or adjustment of
status, is likely at any time to become a “public
charge,” is inadmissible. No statute has ever defined
the term. In 1999, the Immigration and Naturalization
Service issued guidance (Guidance) defining the term
as one who “is or is likely to become primarily
dependent on the government for subsistence.” The
Guidance expressly excluded non-cash benefits
intended to supplement income.
In August 2019, the Department of Homeland
Security (DHS) issued a rule (the Rule) that defines
“public charge” to include those who are likely to
participate, even for a limited period of time, in noncash federal government assistance programs. The
Rule defines the term “public charge” to mean “an alien
who receives one or more [specified] public benefits . . .
for more than 12 months in the aggregate within any
36-month period.” Inadmissibility on Public Charge
Grounds, 84 Fed. Reg. 41,292 (Aug. 14, 2019). The Rule
also directs officials to consider English proficiency in
making the public charge determination.
States and municipalities brought suits in
California and Washington, asserting claims under the
Administrative Procedure Act. The District Court for
the Northern District of California issued a preliminary
injunction covering the territory of the plaintiffs, and
the District Court for the Eastern District of
Washington issued a nationwide injunction. A divided
motions panel of this court granted DHS’s motion for a
stay of those injunctions pending appeal.

App. 46
The panel first concluded that the plaintiffs had
established Article III standing. The plaintiffs are
states and municipalities that alleged that the Rule is
causing them continuing financial harm, as lawful
immigrants eligible for federal cash, food, and housing
assistance withdraw from these programs and instead
turn to state and local programs. The panel concluded
that this constituted sufficient injury. Addressing
whether the injury is apparent or imminent, the panel
explained that: 1) the Rule itself predicts a 2.5 percent
decrease in enrollment in federal programs and a
corresponding reduction in Medicaid payments of over
one billion dollars per year; 2) the Rule acknowledges
that disenrollment will cause other indirect financial
harm to state and local entities; and 3) declarations in
the record show that such entities are already
experiencing disenrollment.
Next, the panel concluded that the interest of the
plaintiffs in preserving immigrants’ access to
supplemental benefits is within the zone of interests
protected by the “public charge” statute. The panel
rejected DHS’s suggestion that only the federal
government and individuals seeking to immigrate are
within the zone of interest. The panel also rejected
DHS’s suggestion that the purpose of the public charge
statute is to reduce immigrants’ use of public benefits.
Addressing DHS’s contention that the statute’s overall
purpose is to promote self-sufficiency, the panel
concluded that providing access to better health care,
nutrition, and supplemental housing benefits is
consistent with precisely that purpose.

App. 47
The panel next concluded that the plaintiffs had
demonstrated a high likelihood of success in showing
that the Rule is inconsistent with any reasonable
interpretation of the public charge statute and
therefore contrary to law. The plaintiffs pointed to
repeated congressional reenactment of the provision
after it had been interpreted to mean long-term
dependence on government support, noting that the
statute had never been interpreted to encompass
temporary resort to supplemental non-cash benefits.
The plaintiffs contended that this repeated
reenactment amounted to congressional ratification of
the historically consistent interpretation.
The panel concluded that the history of the
provision supported the plaintiffs’ position, noting that:
1) from the Victorian Workhouse through the 1999
Guidance, the concept of becoming a “public charge”
has meant dependence on public assistance for
survival; 2) the term had never encompassed persons
likely to make short-term use of in-kind benefits that
are neither intended nor sufficient to provide basic
sustenance; and 3) the Rule introduces a lack of
English proficiency. The panel also noted that the
opinions of the Second Circuit and the Seventh Circuit,
in affirming preliminary injunctions of the Rule, agreed
that the Rule’s interpretation was outside any
historically accepted or sensible understanding of the
term.
The panel next concluded that the Rule’s
promulgation was arbitrary and capricious, explaining
that DHS: 1) failed to adequately consider the financial
effects of the Rule; 2) failed to address concerns about

App. 48
the Rule’s effect on public safety, health, and nutrition,
as well its effect on hospital resources and vaccination
rates in the general population; and 3) failed to explain
its abrupt change in policy from the 1999 Guidance.
The panel also concluded that the remaining
preliminary injunction factors favored the plaintiffs.
The panel explained that the plaintiffs had established
that they likely are bearing and will continue to bear
heavy financial costs because of withdrawal of
immigrants from federal assistance programs and
consequent dependence on state and local programs.
The panel also observed that the public interest in
preventing contagion is particularly salient during the
current global pandemic, and noted the financial
burdens on the plaintiffs and the adverse effects on the
health and welfare of the immigrant as well as general
population.
Finally, the panel concluded that a nationwide
injunction was not appropriate in this case because the
impact of the Rule would fall upon all districts at the
same time, and the same issues regarding its validity
have been and are being litigated in multiple federal
district and circuit courts. Accordingly, the panel
vacated that portion of the District Court for the
Eastern District of Washington’s injunction making it
applicable nationwide.
Dissenting, Judge VanDyke, wrote that for the
reasons ably articulated by this court in a December
2019 published opinion in this case, by the Fourth
Circuit in CASA de Maryland, Inc. v. Trump, 971 F.3d
220 (4th Cir. 2020), and by a dissenting Seventh
Circuit judge in Cook County v. Wolf, 962 F.3d 208,

App. 49
234–54 (7th Cir. 2020) (Barrett, J., dissenting)—and
implied by the Supreme Court’s multiple stays this
year of injunctions virtually identical to those the
majority today affirms—he must respectfully dissent.
___________________________________________________
COUNSEL
Gerard Sinzdak (argued), Daniel Tenny, Joshua Dos
Santos, and Jack Starcher, Appellate Staff; David L.
Anderson and William D. Hyslop, United States
Attorneys; Joseph H. Hunt, Assistant Attorney
General; Civil Division, United States Department of
Justice, Washington D.C.; for Defendants-Appellants.
H. Luke Edwards (argued), Raphael N. Rajendra, Julia
B. Spiegel, and Hannah Kieschnick, Deputy County
Counsels; Laura Trice, Lead Deputy County Counsel;
Greta S. Hansen, Chief Assistant County Counsel;
James R. Williams, County Counsel; Office of the
County Counsel, County of Santa Clara, San Jose,
California; Dennis J. Herrera, City Attorney; Jesse C.
Smith, Chief Assistant City Attorney; Ronald P. Flynn,
Chief Deputy City Attorney; Yvonne R. Mere, Chief,
Complex & Affirmative Litigation; Sara J. Eisenberg,
Chief of Strategic Advocacy; Matthew D. Goldberg,
Deputy City Attorney; City Attorney’s Office, San
Francisco, California; for Plaintiffs-Appellees City and
County of San Francisco; County of Santa Clara.
Xavier Becerra, Attorney General; Matthew Rodriguez,
Chief Assistant Attorney General; Michael L. Newman,
Senior Assistant Attorney General; Cherokee DM
Melton, Supervising Deputy Attorney General; Jennifer
C. Bonilla, Lisa Cisneros, Rebekah Fretz, Katherine

App. 50
Lehe, Marissa Malouff, Julia Harumi Mass, Anita
Garcia Velasco, Brenda Ayon Verduzco, and Anna Rich,
Deputy Attorneys General; Office of the Attorney
General, Oakland, California; Karl A. Racine, Attorney
General; Loren L. AliKhan, Solicitor General; Office of
the Attorney General, Washington, D.C.; Aaron M.
Frey, Attorney General; Susan P. Herman, Chief
Deputy Attorney General; Office of the Attorney
General, Augusta, Maine; Ellen Rosenblum, Attorney
General; Benjamin Gutman, Solicitor General; Nicole
DeFever and Patricia Garcia Rincon, Attorneys; Oregon
Department of Justice, Salem, Oregon; Josh Shapiro,
Attorney General; Michael J. Fischer, Chief Deputy
Attorney General; Aimee D. Thomson, Deputy Attorney
General; Office of the Attorney General, Philadelphia,
Pennsylvania; for Plaintiffs-Appellees State of
California, District of Columbia, State of Maine,
Commonwealth of Pennsylvania and State of Oregon.
Robert W. Ferguson, Attorney General; Noah G.
Purcell, Solicitor General; Tera M. Heintz, Deputy
Solicitor General; Jeffrey T. Sprung, Nathan K. Bays,
and Joshua Weissman, Assistant Attorneys General;
Office of the Attorney General, Seattle, Washington;
Mark R. Herring, Attorney General; Michelle S. Kallen,
Deputy Solicitor General; Jessica Merry Samuels,
Assistant Solicitor General; Ryan Spreague Hardy,
Alice Anne Lloyd, and Mamoona H. Siddiqui, Assistant
Attorneys General; Office of the Attorney General,
Richmond, Virginia; Phil Weiser, Attorney General,
Eric R. Olson, Solicitor General; Office of the Attorney
General, Denver, Colorado; Kathleen Jennings,
Attorney General; Aaron R. Goldstein, State Solicitor,
Monica A. Horton, Deputy Attorney General;

App. 51
Department of Justice, Wilmington, Delaware; Kwame
Raoul, Attorney General; Liza Roberson-Young, Public
Interest Counsel; Office of the Attorney General,
Chicago, Illinois; Clare C. Connors, Attorney General;
Lili A. Young, Deputy Attorney General; Department
of the Attorney General, Honolulu, Hawaii; Brian E.
Frosh, Attorney General; Jeffrey P. Dunlap, Assistant
Attorney General; Office of the Attorney General,
Baltimore, Maryland; Maura Healey, Attorney
General; Abigail B. Taylor, Chief, Civil Rights Division;
David Ureña, Special Assistant Attorney General;
Angela Brooks, Assistant Attorney General; Office of
the Attorney General, Boston, Massachusetts; Dana
Nessel, Attorney General; Fadwa A. Hammoud,
Solicitor General; Toni L. Harris, First Assistant
Attorney General; Michigan Department of Attorney
General, Lansing, Michigan; Keith Ellison, Attorney
General; R.J. Detrick, Assistant Attorney General;
Attorney General’s Office, St. Paul, Minnesota; Aaron
D. Ford, Attorney General; Heidi Parry Stern, Solicitor
General; Office of the Attorney General; Gurbir S.
Grewal, Attorney General; Glenn J. Moramarco,
Assistant Attorney General; Office of the Attorney
General, Trenton, New Jersey; Hector Balderas,
Attorney General; Tania Maestas, Chief Deputy
Attorney General; Office of the Attorney General,
Santa Fe, New Mexico; Peter F. Neronha, Attorney
General; Lauren E. Hill, Special Assistant Attorney
General; Office of the Attorney General, Providence,
Rhode Island; for Plaintiffs-Appellees Washington,
Virginia, Colorado, Delaware, Illinois, Maryland,
Massachusetts, Michigan, Minnesota, Nevada, New
Jersey, New Mexico, Rhode Island, and Hawaii.

App. 52
Edward T. Waters, Phillip A. Escoriaza, and Amanda
N. Pervine, Feldesman Tucker Leifer Fidell LLP, for
Amici Curiae Public Health, Health Policy, Medicine,
and Nursing Deans, Chairs, and Scholars; American
Public Health Association; and American Academy of
Nursing.
R. Adam Lauridsen, Chessie Thacher, Victor H. Yu,
and Nicholas R. Green, Keker Van Nest & Peters LLP,
San Francisco, California for Amici Curiae National
Housing Law Project, Food Research & Action Center,
and Center for Law & Social Policy, National
Education Association, and Service Employees
International Union.
Nicholas Espíritu, Linton Joaquin, Alvaro M. Huerta,
Mayra B. Joachin, and Max S. Wolson, National
Immigration Law Center, Los Angeles, California;
Allon Kedem, Graham White, Jayce Born, Hillary
Anderson, Arnold & Porter Kaye Scholer LLP,
Washington, D.C., for Amici Curiae Immigrant and
Healthcare Service Organizations.
Barbara J. Parker, City Attorney; Maria Bee, Chief
Assistant City Attorney; Eric Bernstein, Senior Deputy
City Attorney; Malia McPherson, Deputy City
Attorney; Caroline Wilson, Fellow; Oakland, California;
Michael N. Feuer, City Attorney; Kathleen A. Kenealy,
Chief Deputy City Attorney; Danielle L. Goldstein,
Deputy City Attorney, Los Angeles, California; Vince
Ryan, County Attorney; Robert Hazeltine-Shedd,
Assistant County Attorney; Harris County, Houston,
Texas; Margaret L. Carter and Daniel R. Suvor,
O’Melveny & Myers LLP, Los Angeles, California;
Esteban A. Aguilar Jr., City Attorney, Albuquerque,

App. 53
New Mexico; Anne L. Morgan, City Attorney, Austin,
Texas; Andre M. Davis, City Solicitor, Baltimore,
Maryland; Mark A. Flessner, Corporation Counsel;
Benna Ruth Solomon, Deputy Corporation Counsel,
Chicago, Illinois; Barbara J. Doseck, Director of Law;
John C. Muston, Chief Trial Counsel, Dayton, Ohio;
Crystal Barnes, Acting City Solicitor, Holyoke,
Massachusetts; Howard Phillip Schneiderman, Senior
Deputy Prosecuting Attorney, King County, Seattle,
Washington; Brian E. Washington, County Counsel,
County of Marin, San Rafael, California; Charles J.
McKee, County Counsel; William M. Litt, Anne K.
Brereton, and Marina S. Pantchenko, Deputy County
Counsels; County of Monterey, Salinas, California;
Marc. P. Hansen, County Attorney, Montgomery
County, Rockville, Maryland; Marcel S. Pratt, City
Solicitor, Philadelphia, Pennsylvania; Susana Alcala
Wood, City Attorney, Sacramento, California; John C.
Beiers, County Counsel; David A. Silverman, Chief
Deputy County Counsel; Ilana Parmer Mandelbaum,
Deputy County Counsel; County of San Mateo,
Redwood City, California; Peter S.Holmes, City
Attorney, Seattle, Washington; Michael Tubbs, Mayor,
Stockton, California; Michael Jenkins, City Attorney,
West Hollywood, California; for Amici Curiae 20
Counties, Cities, and Municipalities.
Denny Chan, Justice in Aging, Los Angeles, California;
Regan Bailey and Natalie Kean, Justice in Aging,
Washington, D.C.; Russel L. Hirschhorn and
Christopher Spadaro, Proskauer Rose LLP, New York,
New York; for Amici Curiae Justice in Aging, American
Society on Aging, Caring Across Generations, Jewish
Family Service of Los Angeles, Jewish Federations of

App. 54
North America, National Asian Pacific Center on
Aging, National Council on Aging, National Hispanic
Council on Aging, Mazon, Phi, and Center for Medicare
Advocacy.
Alexandra Wald, Cohen & Gresser LLP, New York,
New York; Elizabeth B. Wydra, Brianne J. Gorod, and
Dayna J. Zolle, Constitutional Accountability Center,
Washington, D.C.; for Amici Curiae Legal Historians.
Simon Sandoval-Moshenberg and Kelly Salzmann,
Legal Aid Justice Center, Falls Church, Virginia; Ariel
Nelson and Chi Chi Wu, National Consumer Law
Center, Boston, Massachusetts; for Amici Curiae
National Consumer Law Center, Legal Aid Justice
Center, Public Citizen Inc., Consumer Action, Equal
Justice Society, Impact Fund, Secure Justice, Media
Alliance, Americans for Financial Reform Education
Fund, and New Economy Project.
Richard L. Revesz, Jack Lienke, and Max Sarinsky,
New York, New York, as and for Amicus Curiae
Institute for Policy Integrity.
Debra Gardner, Monisha Cherayil, Sally
Dworak-Fisher, and Tyra Robinson, Baltimore,
Maryland, as and for Amicus Curiae Public Justice
Center.
Paul J. Lawrence and Alanna E. Peterson, Pacifica Law
Group, Seattle, Washington, for Amici Curiae
Nonprofit Anti-Domestic Violence and Sexual Assault
Organizations.

App. 55
Diana Kasdan, Pilar Herrero, Amy Myrick, and Elyssa
Spitzer, New York, New York, as and for Amicus
Curiae Center for Reproductive Rights.
Robert M. Loeb, Thomas M. Bondy, Peter E. Davis, and
Emily Green, Orrick Herrington & Sutcliffe LLP,
Washington, D.C.; Douglas N. Letter, General Counsel;
Todd B. Tatelman, Principal Deputy General Counsel;
Megan Barbero, Josephine Morse, Adam A. Grogg, and
William E. Havemann, Deputy General Counsel; Office
of General Counsel, U.S. House of Representatives,
Washington, D.C., for Amicus Curiae United States
House of Representatives.
Harry Lee, Mary Woodson Poag, Johanna Dennehy,
Steptoe & Johnson LLP, Washington, D.C., for Amici
Curiae Immigration Law Professors.
Emily Tomoko Kuwahara, Crowell & Moring LLP, Los
Angeles, California; Austin J. Sutta, Crowell & Moring
LLP, San Francisco, California; for Amici Curiae Asian
Americans Advancing Justice, Asian American Legal
Defense and Education Fund, National Women’s Law
Center, and 38 Other Amici Curiae.
Sadik Huseny, Brittany N. Lovejoy, Joseph C. Hansen,
Tess L. Curet, and Alexandra B. Plutshack, Latham &
Watkins LLP, San Francisco, California, for Amici
Curiae Fiscal Policy Institute, President’s Alliance on
Higher Education and Immigration, and 12 Other
Amici Curiae.
Susan M. Krumplitsch, Elizabeth Stameshkin, and
Priyamvada Arora, Cooley LLP, Palo Alto, California,
for Amici Curiae American Academy of Pediatrics;
American Medical Association; American College of

App. 56
Physicians; American College of Obstetricians and
Gynecologists; California Medical Association;
American Academy of Pediatrics, California; American
Academy of Pediatrics, Hawaii Chapter; Alaska
Chapter of the American Academy of Pediatrics;
Arizona Chapter of the American Academy of
Pediatrics; and Nevada Chapter, American Academy of
Pediatrics.
Paul W. Hughes, Michael B. Kimberly, and Matthew A.
Waring, McDermott Will & Emery LLP, Washington,
D.C., for Amici Curiae 105 Businesses and
Organizations.
___________________________________________________
OPINION
SCHROEDER, Circuit Judge:
The phrase “public charge” enjoys a rich history in
Anglo-American lore and literature, one more colorful
than our American law on the subject. There have been
relatively few published court decisions construing the
phrase, even though our immigration statutes have
barred admission to immigrants who are likely to
become a “public charge” for more than a century. Until
recently, the judicial and administrative guidance has
reflected the traditional concept—rooted in the English
Poor Laws and immortalized by Dickens in the
workhouse of Oliver Twist—of incapacity and reliance
on public support for subsistence. The first
comprehensive federal immigration law barred entry to
“any convict, lunatic, idiot, or any person unable to
take care of himself or herself without becoming a
public charge.” Immigration Act of 1882, 22 Stat. 214,

App. 57
Chap. 376 § 2 (1882). The 1999 Guidance (the
Guidance) issued by the Immigration and
Naturalization Service (INS), the predecessor of the
current agency, defined a “public charge” as one who “is
or is likely to become primarily dependent on the
government for subsistence.” See Field Guidance on
Deportability and Inadmissibility on Public Charge
Grounds, 64 Fed. Reg. 28,689 (May 26, 1999).
In 2019, the Department of Homeland Security
(DHS) changed direction, however, and issued a rule
(the Rule) that defines the term to include those who
are likely to participate, even for a limited period of
time, in non-cash federal government assistance
programs. The programs designated by the Rule are
not intended to provide for subsistence but instead to
supplement an individual’s ability to provide for basic
needs such as food, medical care, and housing. 8 C.F.R.
§ 212.21(b). Foreseeable participation for an aggregate
of twelve months in any of the federal programs within
a three-year span renders an immigrant inadmissible
as a public charge and ineligible for permanent
resident status. § 212.21(a). In other words, a single
mother with young children who DHS foresees as likely
to participate in three of those programs for four
months could not get a green card.
Litigation followed in multiple district courts
against DHS and U.S. Citizenship and Immigration
Services (USCIS) as states and municipalities
recognized that the immediate effect of the Rule would
be to discourage immigrants from participating in such
assistance programs, even though Congress has made
them available to immigrants who have been in the

App. 58
country for five years. According to the plaintiffs in
those cases, the Rule’s effect would be to increase
assistance demands on state and local governments, as
their resident immigrants’ overall health and welfare
would be adversely affected by non-participation in
federal assistance programs.
The challenges to the Rule in the district courts
resulted in a chorus of preliminary injunctions holding
the Rule to be contrary to law and arbitrary and
capricious under the Administrative Procedure Act
(APA). 5 U.S.C. § 706(2)(A). These included the two
preliminary injunctions before us, one issued by the
District Court for the Northern District of California
(Northern District) covering the territory of the
plaintiffs, and the other by the District Court for the
Eastern District of Washington (Eastern District)
purporting to apply nationwide. Our court became the
first federal appeals court to weigh in when we granted
DHS’s motion for a stay of those injunctions pending
appeal. City and Cnty. of San Francisco v. USCIS, 944
F.3d 773, 781 (9th Cir. 2019). Preliminary injunctions
were also issued by courts in the Northern District of
Illinois and the Southern District of New York, and
they were stayed by the United States Supreme Court
before appeals could be considered by the circuit courts
of appeals.
When the Seventh Circuit and the Second Circuit
did consider those preliminary injunction appeals, both
courts affirmed the injunctions. Although their
reasoning differed in some respects, both circuits
concluded that the Rule’s definition was both outside
any historic or commonly understood meaning of

App. 59
“public charge,” and arbitrary and capricious, in
concluding that short-term reliance on supplemental
benefits made immigrants dependent on public
assistance within the meaning of the statutory public
charge immigration bar. Cook Cnty., Ill. v. Wolf, 962
F.3d 208, 229, 232–33 (7th Cir. 2020); New York v.
DHS, 969 F.3d 42, 80–81 (2nd Cir. 2020). The Second
Circuit opinion was unanimous, while a dissenting
opinion in the Seventh Circuit agreed with DHS that
those who receive such supplemental benefits could be
considered public charges because, by receiving some
assistance, they are not completely self-sufficient. Cook
Cnty., 962 F.3d at 250–51 (Barrett, J., dissenting).
The district court in Maryland also enjoined
enforcement of the Rule and was reversed by a divided
decision of the Fourth Circuit. The majority looked in
large measure to the fact that the Supreme Court had
stayed the injunctions in the Seventh and Second
Circuits. CASA de Maryland, Inc. v. Trump, 971 F.3d
220, 230 (4th Cir. 2020). In dissent, Judge King viewed
the Rule as outside the longstanding meaning of
“public charge” and would have affirmed the injunction.
He also disagreed with the majority about the
significance of the Supreme Court’s stay, explaining
that “[i]f the Court’s decision to grant a stay could be
understood to effectively hand victory to the
government regarding the propriety of a preliminary
injunction, there would be little need for an
intermediate appellate court to even consider the
merits of an appeal in which the Court has granted a
stay.” Id. at 281 n.16 (King, J., dissenting) (citing Cook
Cnty., 962 F.3d at 234).

App. 60
To understand the reason for this recent cascade of
litigation after a relatively quiescent statutory and
regulatory history, we review the historical background
of the Rule. Such a review reveals the extent to which
the Rule departs from past congressional and
administrative policies.
A. Statutory and Administrative Background
This country has had a federal statutory provision
barring the admission of persons likely to become a
“public charge” since 1882. The Immigration Act of
1882 barred entry to, among others, “any convict,
lunatic, idiot, or any person unable to take care of
himself or herself without becoming a public charge.”
The Immigration and Nationality Act now provides
that “[a]ny alien who, . . . in the opinion of the
[Secretary of Homeland Security] at the time of
application for admission or adjustment of status, is
likely at any time to become a public charge is
inadmissible.” 8 U.S.C. § 1182(a)(4)(A). No statute has
ever defined the term. For over a century, agencies
have routinely applied these provisions in determining
admissibility and removal as well as in issuing visas for
entry.
In 1996, however, Congress amended the statute to
add five factors for agencies to consider in determining
whether an individual is likely to be a public charge:
the non-citizen’s age; health; family status; assets,
resources and financial status; and education and
skills. § 1182(a)(4)(B)(i). Congress also included a
provision requiring applicants to produce an affidavit
of support. See § 1182(a)(4)(C)–(D) (requiring most

App. 61
family-sponsored immigrants to submit affidavits of
support); § 1183a (affidavit of support requirements).
At nearly the same time, Congress enacted major
reforms of public benefit programs that, as relevant
here, made only non-citizens with five or more years of
residency in the United States eligible for public
benefits such as Supplemental Nutrition Assistance
Program (SNAP) and Medicaid. Personal Responsibility
and Work Opportunity Reconciliation Act (PRWORA),
Pub. L. No. 104-193, 110 Stat. 2105, 2265 (1996).
Previously, lawful immigrants had generally been
eligible for such benefits. Congress thus simultaneously
reduced the number of immigrants eligible for this
assistance and spelled out the factors to be considered
in a public charge determination. The fact that
Congress delineated the factors relevant to the public
charge determination at the same time it adjusted
certain immigrants’ eligibility to receive specific
supplemental assistance strongly suggests that
Congress did not intend for such assistance to be
considered as one of the public charge factors.
Judicial guidance in interpreting the phrase was
apparently not in need or demand: There are relatively
few such decisions. A leading early Supreme Court case
resolved the important question of whether the adverse
economic conditions in the location where the
immigrant intends to live can render an immigrant
likely to become a “public charge.” Gegiow v. Uhl, 239
U.S. 3 (1915). The Supreme Court’s answer was no
because the statute spoke to the permanent
characteristics personal to the immigrant rather than
to local labor market conditions. Id. at 10. We followed

App. 62
Gegiow in Ex parte Sakaguchi, 277 F. 913 (9th Cir.
1922), where we held that a person temporarily in need
of family assistance should not have been excluded as
likely to become a public charge. We so held because
there was an absence of “any evidence whatever of
mental or physical disability or any fact tending to
show that the burden of supporting the appellant is
likely to be cast upon the public.” Id. at 916. Thus, our
court in Sakaguchi understood the standard for
determining whether someone is a public charge to be
whether the “burden of support” falls on the public.
Administrative decisions followed the Supreme
Court’s lead by looking to the inherent characteristics
of the individual rather than to external circumstances.
The Board of Immigration Appeals thus held that only
an individual with the inherent inability to be
self-supporting is excludable as “likely to become a
public charge” within the meaning of the statute.
Matter of Harutunian, 14 I & N. Dec. 583, 589–90 (BIA
1974); Matter of Vindman, 16 I. & N. Dec. 131, 132
(B.I.A. 1977); see also New York, 969 F.3d at 69. There
has been corollary administrative recognition that even
if an individual has been on welfare, that fact does not
in and of itself establish the requisite likelihood of
becoming a public charge. An Attorney General
decision collected authorities indicating that it is the
totality of circumstances that must be considered in
order to determine whether “the burden of supporting
the alien is likely to be cast on the public.” Matter of
Martinez-Lopez, 10 I & N. Dec. 409, 421–22 (BIA 1962;
A.G. 1964) (citing Sakaguchi, 277 F. at 916). Likely
receipt of some public benefits does not automatically

App. 63
render an immigrant a public charge because the
public does not bear the “burden of support.”
The 1996 amendments, which added factors to be
considered and created the current public charge
statutory provision, caused some confusion as to how
big a change they represented. The INS, the agency
then in charge of administering immigration, decided
a regulatory definition would be helpful. It adopted the
1999 Guidance, the first regulatory guidance to
interpret the rather ancient notion of “public charge” in
light of the myriad, modern forms of public assistance.
64 Fed. Reg. 28,269.
The Guidance defined a “public charge” as a
non-citizen who depends on the government for
survival, either by receipt of income or confinement in
a public institution. It described persons “primarily
dependent on the government for subsistence, as
demonstrated by either (i) the receipt of public cash
assistance for income maintenance or
(ii) institutionalization for long term care at
government expense.” Id. at 28,689. It thus embodied
the traditional notion of primary dependence on the
government for either income or institutional care.
The Guidance went on to identify the types of public
assistance that would typically qualify as evidence of
primary dependence: (1) Supplemental Security Income
(SSI); (2) Temporary Assistance for Needy Families
(TANF); (3) state and local cash assistance programs;
and (4) programs supporting people institutionalized
for long-term care. Id. at 28,692. The Guidance
expressly excluded non-cash benefits intended to
supplement income and not to provide primary

App. 64
support. The explanation lay with the changing times
that were bringing benefits to more and more families
to improve their health and welfare. See id. (“[C]ertain
federal, state, and local benefits are increasingly being
made available to families with incomes far above the
poverty level, reflecting broad public policy decisions
about improving general public health and nutrition,
promoting education, and assisting working-poor
families in the process of becoming self-sufficient.
Thus, participation in such non-cash programs is not
evidence of poverty or dependence.”).
The Guidance actually encouraged non-citizens to
receive supplemental benefits in order to improve their
standard of living and to promote the general health
and welfare. The Guidance drew a sharp distinction
between the receipt of such supplemental benefits and
dependence on the government for subsistence income
that would render the individual a “public charge.” Id.
at 28,692–93.
The 2019 Public Charge Rule we review in this case
effectively reversed that policy by making receipt of
supplemental benefits the very definition of a public
charge. See Inadmissibility on Public Charge Grounds,
84 Fed. Reg. 41,292 (Aug. 14, 2019). The Rule defines
the term “public charge” to mean “an alien who
receives one or more [specified] public benefits . . . for
more than 12 months in the aggregate within any
36-month period (such that, for instance, receipt of two
benefits in one month counts as two months).” Id. at
41,501. The public benefits specified by the Rule
include most Medicaid benefits, SNAP benefits, Section
8 housing vouchers and rental assistance, and other

App. 65
forms of federal housing assistance. Id. Any receipt of
such a benefit, no matter how small, will factor into the
public charge determination. The Rule also directs
officials to consider English proficiency in making the
public charge determination. Id. at 41,503–04.
The Rule was greeted with challenges in federal
district courts throughout the country. We deal with
those in this circuit.
B. The District Court Injunctions
On appeal are two district court decisions granting
preliminary injunctions barring enforcement of the
Rule. The Northern District considered the challenges
of California, the District of Columbia, Maine,
Pennsylvania, and Oregon, consolidated with the
challenges brought by the City and County of San
Francisco, and the County of Santa Clara. The Eastern
District heard the challenges brought by Washington,
Virginia, Colorado, Delaware, Hawaii, Illinois,
Maryland, Massachusetts, Michigan, Minnesota,
Nevada, New Jersey, New Mexico, and Rhode Island.
Both district courts agreed that the plaintiffs had
standing because they had shown that they would
likely suffer economic harm and other costs and that
their concerns were within the zone of interests of the
statute. Both held that the new definition of “public
charge” was likely not a permissible interpretation of
the statute because it would depart from the
longstanding, settled understanding that a person does
not become a public charge by receiving short-term aid,
and must instead demonstrate an inherent incapacity
to provide subsistence. City and Cnty. of San Francisco
v. USCIS, 408 F. Supp. 3d 1057, 1101 (N.D. Cal. 2019),

App. 66
Washington v. DHS, 408 F. Supp. 3d 1191, 1219 (E.D.
Wash. 2019). Both found the Rule to be likely arbitrary
and capricious because the agency failed to consider the
burdens the Rule would impose on states and
municipalities. The Eastern District issued a
nationwide injunction, and the Northern District
declined to do so.
Within a few weeks of the district court rulings, a
divided motions panel of this court, however, stayed
both injunctions pending this appeal. City and Cnty. of
SF, 944 F.3d 773. The panel majority wrote that DHS
was likely to prevail because the Rule would probably
be viewed as a reasonable interpretation of a statute
that had no consistent historical application and gave
the agency “considerable discretion.” Id. at 796, 799.
Judge Owens dissented in part and would have denied
the stay. Id. at 809–10 (Owens, J., dissenting).
The stay was based on a prediction of what this
panel would hold in reviewing the merits of the
preliminary injunctions. The stay in this case was
entered at a particularly early point, less than two
months after the district court injunctions. Almost
none of the extensive documentation relevant to this
appeal was before the motions panel. The brief of the
appellant DHS in the Northern District case had been
filed only the day before the panel entered its stay, and
the opening brief in the Eastern District case was not
filed until the day after. Still to come were not only the
answering and reply briefs in both appeals, but two
dozen amicus briefs, many of which we have found very
helpful.

App. 67
At least equally important, no other circuit court
opinions had yet considered the issues. By now we have
heard from three. One of those opinions even discussed
and disagreed with the reasoning of this court’s
motions panel stay opinion, pointing out that it
“pinn[ed] the definition of ‘public charge’ on the form of
public care provided” in concluding that there was no
consistent interpretation of the Rule. New York, 969
F.3d at 73 (emphasis in original). The court there said
our motions panel thereby went “astray.” Id. This was
because the issue was not whether a “public charge”
had always received similar assistance. Id. The issue
should have been whether the “inquiry” under the
statute had been consistent. Id. The Second Circuit
concluded the public charge inquiry had always been
whether the non-citizen “is likely to depend on that
[assistance] system.” Id.
We therefore turn to the appeal before us. We deal
first with DHS’s arguments that the plaintiffs may not
maintain the suit because they lack Article III standing
or are outside the zone of interests of the immigration
statute in question.
C. Plaintiffs’ Capacity to Maintain the Action
Plaintiffs are states and municipalities that allege
the Rule is causing them to suffer continuing financial
harm, as lawful immigrants eligible for federal cash,
food, and housing assistance withdraw from these
programs to avoid the impact of the Rule. Plaintiffs
allege harm because such immigrants will instead turn
to assistance programs administered by the state and
local entities.

App. 68
DHS argues that such injuries are speculative and
represent only plausible future injury. There is no
question that to have Article III standing to bring this
action, the plaintiffs must allege that they have
suffered, or will imminently suffer, a “concrete and
particularized” injury in fact. Lujan v. Defs. of Wildlife,
504 U.S. 555, 560 (1992). There is also no question that
an increased demand for aid supplied by the state and
local entities would be such an injury. The only
question is whether such demand is, as of yet, apparent
or imminent.
That is not a difficult question to answer. The Rule
itself predicts a 2.5 percent decrease in enrollment in
public benefit programs and a corresponding reduction
in Medicaid payments of over one billion dollars per
year. Final Rule, 84 Fed. Reg. at 41,302, 41,463. The
Rule itself further acknowledges that disenrollment
will cause other indirect financial harm to state and
local entities by increasing the demand for
uncompensated indigent care. Declarations in the
record show that such entities are already experiencing
disenrollment as a result of the Rule. See City and
Cnty. of SF, 408 F. Supp. 3d at 1122.
DHS nevertheless asserts that the Rule will result
in a long-term cost savings after states compensate for
the loss of federal funds by reforming their operations.
But such long-term reforms would not remedy the
immediate financial injury to the plaintiffs or the
harms to the health and welfare of those individuals
affected. As the Second Circuit explained, “this
simplistic argument fails to account for the fact that
the States allege injuries that extend well beyond

App. 69
reduced Medicaid revenue and federal funding to the
States, including an overall increase in healthcare costs
that will be borne by public hospitals and general
economic harms.” New York, 969 F.3d at 60. Thus,
plaintiffs have established Article III standing.
Those suing under the APA, must also establish
that the interest they assert is at least “arguably
within the zone of interests to be protected or regulated
by the statute” in question. Match-E-Be-Nash-She-Wish
Band of Pottawatomi Indians v. Patchak, 567 U.S. 209,
224 (2012) (quoting Ass’n of Data Processing Serv.
Orgs., Inc. v. Camp, 397 U.S. 150, 153 (1970)). The
Supreme Court has described the test as “not meant to
be especially demanding” and as “not requir[ing] any
‘indication of congressional purpose to benefit the
would-be plaintiff.’” Id.at 225 (quoting Clarke v. Sec.
Indus. Ass’n, 479 U.S. 388, 399–40 (1987)). A plaintiff’s
interest need only be “sufficiently congruent with those
of the intended beneficiaries that the litigants are not
‘more likely to frustrate than to further the statutory
objectives.’” First Nat. Bank & Tr. Co. v. Nat’l Credit
Union Admin., 988 F.2d 1272, 1275 (D.C. Cir. 1993)
(quoting Clarke, 479 U.S. at 397 n.12).
The statute in question is, of course, the
immigration statute that renders inadmissible an
individual likely to become a “public charge.” 8 U.S.C.
§ 1182(a)(4)(A). DHS appears to contend that the only
entities within the zone of interests are the federal
government itself and individuals seeking to
immigrate, because the provision deals with
immigration and only the federal government controls
immigration. If that were to define the zone of interests

App. 70
regulated by the statute, the scope of permissible
immigration litigation against the government would
be so narrow as to practically insulate it from many
challenges to immigration policy and procedures, even
those violating the Constitution or federal laws.
DHS suggests that the purpose of the public charge
exclusion is to reduce immigrants’ use of public
benefits, and that the plaintiffs’ suit therefore
contradicts this purpose by seeking to make more
federal benefits available. But this assumes that
Congress’s statutory purpose was the same as DHS’s
purpose here, which is the very dispute before us. As
the Second Circuit pointed out, “DHS assumes the
merits of its own argument when it identifies the
purpose of the public charge ground as ensuring that
non-citizens do not use public benefits . . . . Understood
in context, [the public charge bar’s] purpose is to
exclude where appropriate and to not exclude where
exclusion would be inappropriate.”) New York, 969 F.3d
at 62–63.
Moreover, DHS maintains that the statute’s overall
purpose is to promote self-sufficiency. Providing access
to better health care, nutrition and supplemental
housing benefits is consistent with precisely that
purpose. See Cook Cnty., 962 F.3d at 220 (access to
affordable basic health care may promote
self-sufficiency); Hilary Hoynes, Diane Whitmore
Schanzenbach & Douglas Almond, Long-Run Impacts
of Childhood Access to the Safety Net, 106 Am. Econ.
Rev. 903, 921 (2016) (access to food stamps in childhood
significantly increases economic self-sufficiency among
women). For these reasons, the interests of the

App. 71
plaintiffs in preserving immigrants’ access to
supplemental benefits is within the zone of interests
protected by the statute.
We therefore conclude that the district courts
correctly determined that the plaintiffs are entitled to
maintain this action. All ofthe circuits to consider the
validity of this Rule have reached a similar conclusion.
See Cook Cnty., 962 F.3d at 219–20, CASA de
Maryland, 971 F.3d at 240–241, New York, 969 F.3d at
62–63. We now turn to the question whether they were
entitled to the preliminary injunctions entered by the
district courts.
D. Contrary to Law
Both district courts concluded that the plaintiffs are
likely to prevail in their contention that the Rule
violates the statute’s public charge provision, and that
such a conclusion supports the entry of preliminary
injunctions. See Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7, 20 (2008). On appeal, DHS contends, as it
has throughout the litigation, that the Rule is a
permissible interpretation of the statute. The plaintiffs
maintain that the Rule violates the statute because the
Rule is not a reasonable interpretation of the meaning
of “public charge.”
History is a strong pillar supporting the plaintiffs’
case. Plaintiffs point to repeated congressional
reenactment of the provision after it had been
interpreted to mean long-term dependence on
government support, and had never been interpreted to
encompass temporary resort to supplemental non-cash
benefits. Plaintiffs contend that this repeated

App. 72
reenactment amounts to congressional ratification of
the historically consistent interpretation. DHS
disagrees, arguing that the repeated reenactments
reflect congressional intent to have a flexible standard
subject to various executive branch interpretations.
Our review of the history of the provision in our law
suggests the plaintiffs have the better part of this
dispute. From the Victorian Workhouse through the
1999 Guidance, the concept of becoming a “public
charge” has meant dependence on public assistance for
survival. Up until the promulgation of this Rule, the
concept has never encompassed persons likely to make
short-term use of in-kind benefits that are neither
intended nor sufficient to provide basic sustenance. The
Rule also, for the first time, introduces a lack of
English proficiency as figuring into the equation,
despite the common American experience of children
learning English in the public schools and teaching
their elders in our urban immigrant communities. 8
C.F.R. § 212.22(b)(5)(ii)(D). Indeed, in Gegiow, 239 U.S.
3, the Supreme Court found that the individuals in that
case were not likely to become public charges even
though they spoke only Russian.
In New York, 969 F.3d 42, the Second Circuit
essentially agreed with plaintiffs’ historical analysis.
The court recognized and explained the line of settled
judicial and administrative interpretations of a public
charge as one who is primarily dependent on the
government for subsistence. Id. at 65–70. The court
traced that history in far more detail than we have
outlined and was “convinced” that there was a wellsettled meaning of “public charge” even before

App. 73
congressional passage of the Illegal Immigration
Reform and Immigrant Responsibility Act (IIRIRA) in
1996, and that was a person “unable to support herself,
either through work, savings, or family ties.” Id. at 71.
Receipt of cash benefits may be considered in deciding
whether a person is dependent on the government but
has never been determinative. The Second Circuit
persuasively summarized:
The Plaintiffs do not argue, and we do not hold,
that the receipt of various kinds of public
benefits is irrelevant to the determination of
whether a non-citizen is likely to become a
public charge. But defining public charge to
mean the receipt, even for a limited period, of
any of a wide range of public benefits –
particularly . . . ones that are designed to
supplement an individual’s or family’s efforts to
support themselves, rather than to deal with
their likely permanent inability to do so – is
inconsistent with the traditional understanding
of what it means to be a “public charge,” which
was well-established by 1996.
Id. at 78 (emphasis removed).
A few months earlier, the Seventh Circuit had come
to a similar conclusion that the Rule violates the
statutory meaning of public charge. Cook Cnty., 962
F.3d 208. The Seventh Circuit differed somewhat in its
analysis. After a historical survey of court decisions
and secondary sources, it determined that the phrase
“public charge” was susceptible to various
interpretations. Id. at 226. It concluded, however, that
DHS’s interpretation, quantifying the definition to

App. 74
mean receipt of twelve months’ worth of benefits within
three years, represented an understanding of its
authority to define the phrase that “has no natural
limitation.” Id. at 228–29. If DHS’s interpretation were
to be accepted, then there is nothing in the statutory
text that would prevent a zero-tolerance rule, where
foreseeable receipt of a single benefit on one occasion
would bar entry or adjustment of status. The majority
forcefully rejected such an interpretation, stating:
We see no warrant in the Act for this sweeping
view. Even assuming that the term “public
charge” is ambiguous and thus might encompass
more than institutionalization or primary,
long-term dependence on cash benefits, it does
violence to the English language and the
statutory context to say that it covers a person
who receives only de minimis benefits for a de
minimis period of time. There is a floor inherent
in the words “public charge,” backed up by the
weight of history.
Id. at 229.
Although the opinions of the Second Circuit in New
York and the Seventh Circuit in Cook County reflect
some disagreement over whether there was any
historically established meaning of the phrase “public
charge,” they agreed that the Rule’s interpretation of
the statute was outside any historically accepted or
sensible understanding of the term. In commenting on
the difference between its historical review in New
York and that of the Seventh Circuit in Cook County,
the Second Circuit noted that the Seventh Circuit had

App. 75
not included the significant administrative rulings that
preceded the 1996 statute. New York, 969 F.3d at 74.
The New York opinion was unanimous, but the Cook
County opinion was not. The lengthy dissenting opinion
in Cook County focused on other statutory provisions
aimed at preventing entry of persons who could become
dependent on the government. The most significant of
these provisions is the requirement that familysponsored immigrants, and employment-sponsored
immigrants whose employment is tied to a family
member, must furnish an affidavit from the sponsor. 8
U.S.C. §§ 1182(a)(4)(C)–(D). In the affidavit, the
sponsor must agree to support the immigrant at annual
income of at least 125 percent of the poverty level and
pay back the relevant governmental entity in the event
the immigrant receives “any means-tested public
benefit.” 8 U.S.C. § 1183a(a)(1)(b).
The dissent focused on the fact that the affidavit
provision forces sponsors to bear responsibility for “any
means-tested public benefit” that an immigrant may
receive. It concluded that the affidavit provision
reflects Congress’s view that “public charge” may
encompass receipt of supplemental benefits as well as
primary dependence. See Cook Cnty., 962 F.3d at 246
(Barrett, J., dissenting).
In its focus on the provisions in a related but
different section of the statute, the dissent did not
address the significance of the history of the public
charge provision itself, nor did it address the majority’s
objection to the duration of the receipt of benefits as a
standard having no limiting principle. The dissent
concluded only that the choice of an aggregate of twelve

App. 76
months is “not unreasonable.” Id. at 253. Moreover, the
dissent’s interpretation of the affidavit requirement’s
application here seems to suggest that it would approve
a public charge rule excluding individuals who received
“any means-tested benefit,” no matter how small, as in
line with congressional intent.
In this appeal, DHS also relies upon the affidavit of
support provisions to contend that the Rule is
consistent with the statutory public charge bar. The
public charge bar and affidavit of support provisions
were parts of two separate acts. The two have no
historic or functional relationship to each other. The
public charge bar dates back to the 19th century,
embodying an age-old concept of excluding those who
may become primarily dependent on the government.
Congress enacted the affidavit of support provision,
however, in 1996 as part of more recent specific
immigration reforms including the financial
responsibilities of families and employers sponsoring
individual immigrants. See PRWORA, Pub. L. No. 423,
110 Stat. 2271 (1996); IIRIRA, Pub. L. No. 104-208, 110
Stat. 3009 (1996). The section of the affidavit provision
that refers to public benefits serves as a post-admission
remedy to help local and federal governments recoup
funds. § 1183a(b). The changes to the affidavit
provisions were aimed at problems with the
unenforceability of such affidavits prior to 1996.
Michael J. Sheridan, The New Affidavit of Support and
Other 1996 Amendments to Immigration and Welfare
Provisions Designed to Prevent Aliens from Becoming
Public Charges, 31 Creighton L. Rev. 741, 743-44,
752-53 (1998) (article by INS Associate General
Counsel).

App. 77
DHS also points to the provision that permits entry
of battered women without regard to receipt of “any
benefits.” See 8 U.S.C. § 1182(s). DHS argues that this
reflects Congress’s belief that the receipt of any public
benefits would be a consideration in admission for most
other public charge determinations. Had Congress
intended to make non-cash benefits a factor for
admission or permanent residence, it would have done
so directly and not through this ancillary provision. See
Whitman v. Am. Trucking Ass’ns, 531 U.S. 457, 468
(2001) (Congress does not “hide elephants in
mouseholes”). It is more likely that Congress created
this provision in order to provide sweeping protections
for battered migrant women, as it did throughout
Section 1182. See § 1182(a)(6)(ii), (a)(9)(B)(iii)(IV).
For these reasons we conclude the plaintiffs have
demonstrated a high likelihood of success in showing
that the Rule is inconsistent with any reasonable
interpretation of the statutory public charge bar and
therefore is contrary to law.
E. Arbitrary and Capricious
Both district courts also ruled that the plaintiffs
were likely to succeed in their contention that the Rule
is arbitrary and capricious. The APA standard in this
regard is inherently deferential. The task of the courts
is to ensure that the agency’s action relied on
appropriate considerations, considered all important
aspects of the issue, and provided an adequate
explanation for its decision. The Supreme Court
summed it up in its leading decision, Motor Vehicle
Mfrs. Ass’n, Inc. v. State Farm Mut. Auto. Ins. Co.

App. 78
(“State Farm”), 463 U.S. 29 (1983). The Court explained
the general rule:
Normally, an agency rule would be arbitrary and
capricious if the agency has relied on factors
which Congress has not intended it to consider,
entirely failed to consider an important aspect of
the problem, offered an explanation for its
decision that runs counter to the evidence before
the agency, or is so implausible that it could not
be ascribed to a difference in view or the product
of agency expertise.
Id. at 43.
The plaintiffs argue that DHS failed the test in
three principal respects: It failed to take into account
the costs the Rule would impose on state and local
governments; it did not consider the adverse effects on
health, including both the health of immigrants who
might withdraw from programs and the overall health
of the community; and it did not adequately explain
why it was changing the policy that was thoroughly
explained in the 1999 Guidance.
1. Disenrollment and Financial Costs
We first turn to DHS’s consideration of the financial
impact of the proposed Rule. During the comment
period, there was repeated emphasis on the financial
burdens that would befall state and local governments
because immigrants fearing application of the Rule
would disenroll from the supplemental programs, even
if the Rule did not apply to them. DHS’s response was
a generality coupled with an expression of uncertainty.
It said that, despite these effects, the Rule’s “overriding

App. 79
consideration” of self-sufficiency formed “a sufficient
basis to move forward.” 84 Fed. Reg. at 41,312. DHS
added that there was no way of knowing with any
degree of exactitude how many individuals would
disenroll or how much of a burden it would place on the
state and local governments. Id. at 41,312–13.
DHS provided no analysis of the effect of the Rule
on governmental entities like the plaintiffs in these
cases. As the Northern District found, DHS had not
“grapple[d] with estimates and credible data explained
in the comments.” City and Cnty. of SF, 408 F. Supp.
3d at 1106.
Our law requires more from an agency. A bald
declaration of an agency’s policy preferences does not
discharge its duty to engage in “reasoned
decisionmaking” and “explain the evidence which is
available.” State Farm, 463 U.S. at 52. The record
before DHS was replete with detailed information
about, and projections of, disenrollment and associated
financial costs to state and local governments. See, e.g.,
Ninez Ponce, Laurel Lucia, & Tia Shimada, How
Proposed Changes to the ‘Public Charge’ Rule Will
Affect Health, Hunger and the Economy in California,
32 (Nov. 2018), https://healthpolicy.ucla.edu/newsroom
/Documents/2018/public-charge-seminar-slidesnov2018.pdf (estimating over 300,000 disenrollments
from Medicaid in California alone); Fiscal Policy
Institute, Only Wealthy Immigrants Need Apply: The
Chilling Effects of “Public Charge,” 5 (Nov. 2019),
http://fiscalpolicy.org/wp-content/uploads/2019/
11/FINAL-FPI-Public-Charge-2019-MasterCopy.pdf
(estimating over $500 million combined in lost state tax

App. 80
revenue). DHS was required to “reasonably reflect
upon” and “grapple with” such evidence. Fred Meyers
Stores, Inc. v. NLRB, 865 F.3d 630, 638 (D.C. Cir.
2017). But DHS made no attempt to quantify the
financial costs of the Rule or critique the projections
offered.
Similarly, DHS’s repeated statements that the
Rule’s disenrollment impacts are “difficult to predict”
do not satisfy its duty to “examine the relevant data”
before it. State Farm, 463 U.S. at 43. The Supreme
Court held in State Farm that an agency may not,
without analysis, cite even “‘substantial uncertainty’
. . . as a justification for its actions.” Id. at 52; see also
Ctr. for Biological Diversity v. NHTSA, 538 F.3d 1172,
1200 (9th Cir. 2008) (rejecting as arbitrary and
capricious agency’s characterization of greenhouse gas
reductions as “too uncertain to support their explicit
valuation and inclusion” in analysis). DHS’s analysis
thus fell short of the standard established by the
Supreme Court and recognized by our circuit. DHS did
not adequately deal with the financial effects of the
Rule.
2. Health Consequences
Although DHS wrote the Rule was intended to
make immigrants healthier and stronger, commenters
stressed the Rule’s likely adverse health consequences
for immigrants and the public as a whole, including
infectious disease outbreaks and hospital closures.
While acknowledging these comments, DHS concluded,
without support, that the Rule “will ultimately
strengthen public safety, health, and nutrition.” 84
Fed. Reg. at 41,314. The Northern District aptly found

App. 81
that DHS impermissibly “simply declined to engage
with certain, identified public-health consequences of
the Rule.” City and Cnty. of SF, 408 F. Supp. 3d at
1111–12.
Commenters provided substantial evidence that the
Rule would in fact harm public safety, health, and
nutrition. DHS itself repeatedly acknowledged that
hospitals might face financial harms as a result of the
Rule, but DHS repeatedly declined to quantify, assess,
or otherwise deal with the problem in any meaningful
way. See, e.g., 84 Fed. Reg. at 41,313–14, 41,384,
41,475, 41,476. This is inadequate and suggests that
DHS’s position was intractable. As the D.C. Circuit has
observed, making some mention of evidence but then
coming to a contrary, “unsupported and conclusory”
decision “add[s] nothing to the agency’s defense of its
thesis except perhaps the implication that it was
committed to its position regardless of any facts to the
contrary.” Chem. Mfrs. Ass’n. v. EPA, 28 F.3d 1259,
1266 (D.C. Cir. 1994). DHS responded by excluding
certain programs for children and pregnant women
from the ambit of the Rule, but never addressed the
larger concerns about the Rule’s effect on health as well
as on hospital resources.
There were other serious health concerns. For
example, comments demonstrated that the Rule would
endanger public health by decreasing vaccination rates
in the general population. DHS insisted that vaccines
would “still be available” to Medicaid-disenrolled
individuals because “local health centers and state
health departments” would pick up the slack, id. at
41,385, despite objections voiced by such local health

App. 82
centers and state health departments themselves
showing that the Rule will put the populations they
serve—citizens and non-citizens alike—in danger. See,
e.g., Mass. Dep’t of Pub. Health, Comments on
Inadmissibility on Public Charge Grounds
(Dec.2018),https://www.regulations. gov/document?D=
USCIS-2010-0012-45697; HilltownCmty. Health Ctr.,
Comments on Inadmissibility on Public Charge
Grounds (Dec. 2018), https://www.regulations.gov/
document?D=USCIS-2010-0012-45675. A decision that
“runs counter to the evidence” or “is so implausible that
it could not be ascribed to a difference in view or the
product of agency expertise” is arbitrary and
capricious. State Farm, 463 U.S. at 43. The
promulgation of this Rule is such a decision. DHS
claims no expertise in public health, unlike the scores
of expert commenters who weighed in against the Rule.
3. Reversal of Position
Above all, DHS failed to explain its abrupt change
in policy from the 1999 Guidance. An agency reversing
a prior policy “must show that there are good reasons
for the new policy” and provide “a reasoned explanation
. . . for disregarding facts and circumstances that
underlay or were engendered by the prior policy.” FCC
v. Fox Television Stations, Inc., 556 U.S. 502, 515–16
(2009). The district courts below found that DHS had
failed to satisfy this standard. City and Cnty. of SF,
408 F. Supp. 3d at 1111–12; Washington v. DHS, 408 F.
Supp. 3d at 1220.
The 1999 Guidance had been issued after the 1996
statutory amendments setting out the general factors
to be taken into account in making a public charge

App. 83
determination. The Guidance considered all of the
different types of public assistance governments
offered, including programs providing subsistence
income and those providing supplemental benefits. The
Guidance expressly provided that receipt of
supplemental assistance for food, healthcare and
housing were not to be considered in assessing an
immigrant’s likelihood of becoming a public charge. As
discussed above, this provision was consistent with
over a century of judicial and administrative decisions
interpreting the public charge bar. The Rule, however,
provides that the prospect of receiving those same
supplemental benefits, for even a few months, renders
an individual inadmissible. This is directly contrary to
the 1999 Guidance.
Yet DHS promulgated the Rule without any
explanation of why the facts found, and the analysis
provided, in the prior Guidance were now
unsatisfactory. This is a practice the Supreme Court
has rejected: an agency about-face with no “reasoned
explanation . . . for disregarding” the findings
underlying the prior policy. Fox, 556 U.S. at 516. Here
is an illustration of the about-face. The 1999 Guidance
had found that deterring acceptance of “important
health and nutrition benefits” had yielded “an adverse
impact . . . on public health and the general welfare.”
64 Fed. Reg. at 28,692. In contrast, DHS now says that
the new Rule “will ultimately strengthen public safety,
health, and nutrition.” 84 Fed. Reg. at 41,314. DHS
provides no basis for this conclusion or for its departure
from the empirical assessments underlying the prior
policy.

App. 84
In light of this policy change, coupled with the
“serious reliance interests” engendered by over two
decades of reliance on the Guidance, DHS was required
to provide a “more detailed justification” for the Rule.
Fox, 556 U.S. at 515. DHS provides no justification,
other than the repeated conclusory mantra that the
new policy will encourage self-sufficiency. DHS in effect
says that by creating a disincentive for immigrants to
use available assistance, the Rule will “ensur[e] that
[admitted immigrants] be self-sufficient and not reliant
on public resources.” 84 Fed. Reg. at 41,319. DHS does
not substantiate, and the record does not support, this
empirical prediction. See, e.g., Hilary Hoynes, Diane
Whitmore Schanzenbach & Douglas Almond, Long-Run
Impacts of Childhood Access to the Safety Net, 106 Am.
Econ. Rev. 903, 930 (finding that having access to food
stamps during childhood leads to “significant
improvement in adult health” and “increases in
economic self-sufficiency,” including decreased welfare
participation). Plaintiffs urge that their experience is
contrary to DHS’s conclusion. Also to the contrary is
the experience related in multiple amicus briefs. See,
e.g., Brief for the Institute for Policy Integrity as
Amicus Curiae Supporting Petitioners at 9 (citing
evidence that reductions in SNAP participation
increase homelessness); Brief for National Housing
Law Project et al. as Amici Curiae Supporting
Petitioners at 13 (citing evidence that Medicaid made
it easier for recipients to work and find work).
4. Arbitrary and Capricious
In sum, DHS adopted the Rule, reversing prior,
longstanding public policy, without adequately taking

App. 85
into account its potential adverse effects on the public
fisc and the public welfare. We must conclude that the
Rule’s promulgation was arbitrary and capricious as
well as contrary to law within the meaning of the APA.
5 U.S.C. § 706(2)(A).
F. Remaining Injunction Factors
1. Irreparable Harm
Plaintiffs have shown a likelihood of success on the
merits of their claim that the Rule violates the
standards of the APA in that it is both contrary to law
and arbitrary and capricious. To support entry of an
injunction, Plaintiffs must also show a likely threat of
irreparable injury in the absence of an injunction.
Winter, 555 U.S. at 22. Plaintiffs have established that
they likely are bearing and will continue to bear heavy
financial costs because of withdrawal of immigrants
from federal assistance programs and consequent
dependence on state and local programs.
There is no dispute that such economic harm is
sufficient to constitute irreparable harm because of the
unavailability of monetary damages. See California v.
Azar, 911 F.3d 558, 581 (9th Cir. 2018); 5 U.S.C. § 702
(providing for relief “other than monetary damages”).
DHS counters that such harm in this case is
speculative, amounting to no more than the possibility
of future injury. See Park Vill. Apartment Tenants
Ass’n v. Mortimer Howard Tr., 636 F.3d 1150, 1160
(9th Cir. 2011).
We have, however, already seen that in this case
such harm is more than speculative. Plaintiffs have
presented evidence that they are already experiencing

App. 86
harm and DHS itself has projected significant
disenrollment from federal programs, likely leading to
enrollments in state and local ones. The district courts
both made factual findings as to harm that DHS does
not refute with citations to the record.
2. Balance of Equities and Public Interest
There was no error in finding that the balance of
equities and public interest support an injunction. The
Northern District pointed to the need for “continuing
the provision of medical services through Medicaid to
those who would predictably disenroll absent an
injunction” in light of the explanations given by
“parties and numerous amici . . . [of the] adverse health
consequences not only to those who disenroll, but to the
entire populations of the plaintiff states, for example,
in the form of decreased vaccination rates.” City and
Cnty. of SF, 408 F. Supp. 3d at 1127. The public
interest in preventing contagion is particularly salient
during the current global pandemic.
Although DHS nevertheless argues that it is
harmed by not being able to implement its new
definition of public charge, if it is ultimately successful
in defending the merits of the Rule, the harm will
amount to no more than a temporary extension of the
law previously in effect for decades. Given the financial
burdens that plaintiffs have persuasively demonstrated
will befall them as a result of disenrollment from
federal programs, coupled with adverse effects on the
health and welfare of the immigrant as well as general
population, we cannot say the district courts abused
their discretion in finding that the balance of equities
and public interest weigh in favor the injunction.

App. 87
G. Propriety of a Nationwide Injunction
The Northern District issued a preliminary
injunction limited to the territory of the plaintiff state
and local entities before it. The Eastern District issued
a nationwide injunction, explaining that a more limited
injunction would not prevent all the harms alleged. The
court was concerned about protecting immigrants from
harm if they moved outside of the plaintiff
jurisdictions, about the economic impact on plaintiff
states if immigrants moved to them to evade the
consequences of the Rule, and about lawful immigrants
being subject to the Rule at points of entry after travel
abroad. Washington, 408 F. Supp. 3d at 1223.
The appropriateness of nationwide injunctions in
any case has come under serious question. See,
e.g.,DHS v. New York, 140 S Ct. 599, 599–601 (2020)
(Gorsuch, J., concurring); Trump v. Hawaii, 138 S. Ct.
2392, 2424–29 (2018) (Thomas, J., concurring). In
explaining the limited scope of its injunction, the
Second Circuit questioned the propriety of one court
imposing its will on all:
It is not clear to us that, where contrary views
could be or have been taken by courts of parallel
or superior authority entitled to determine the
law within their own geographical jurisdictions,
the court that imposes the most sweeping
injunction should control the nationwide legal
landscape.
New York, 969 F.3d at 88.
Whatever the merits of nationwide injunctions in
other contexts, we conclude a nationwide injunction is

App. 88
not appropriate in this case. This is because the impact
of the Rule would fall upon all districts at the same
time, and the same issues regarding its validity have
been and are being litigated in multiple federal district
and circuit courts.
Accordingly, we vacate that portion of the Eastern
District’s injunction making it applicable nationwide,
but otherwise affirm it.
H. Rehabilitation Act
The plaintiffs also contend that the Rule violates
the Rehabilitation Act, which bans discrimination on
the basis of disabilities. 29 U.S.C. § 794(a). The
Seventh Circuit looked favorably on this contention,
and the Second Circuit expressly did not address it.
Cook Cnty., 962 F.3d at 228, New York, 969 F.3d at 64
n.20. Because we have held that the Rule violates the
APA as contrary to law and arbitrary and capricious,
we similarly do not address the Rehabilitation Act.
I. Conclusion
The order of the District Court for the Northern
District of California is AFFIRMED. The order of the
District Court for the Eastern District of Washington
is AFFIRMED in part and VACATED in part. Costs
are awarded to the plaintiffs.

App. 89
VANDYKE, Circuit Judge, dissenting:
For the reasons ably articulated by our court in a
December 2019 published opinion,1 by the Fourth
Circuit in an August 2020 opinion,2 and by a dissenting
Seventh Circuit judge in a June 2020 opinion
(particularly notable for its erudition)3—and implied by
the Supreme Court’s multiple stays this year of
injunctions virtually identical to those the majority
today affirms4—I must respectfully dissent.

1

City & County of San Francisco v. USCIS, 944 F.3d 773 (9th Cir.
2019).
2

CASA de Maryland, Inc. v. Trump, 971 F.3d 220 (4th Cir. 2020).

3

Cook County v. Wolf, 962 F.3d 208, 234–54 (7th Cir. 2020)
(Barrett, J., dissenting).
4

Dep’t of Homeland Sec. v. New York, 140 S. Ct. 599 (2020); Wolf
v. Cook County, 140 S. Ct. 681 (2020).

App. 90

APPENDIX C
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-17213
D.C. No. 4:19-cv-04717-PJH
[Filed: December 5, 2019]
__________________________________________
CITY AND COUNTY OF SAN
)
FRANCISCO; COUNTY OF SANTA
)
CLARA,
)
Plaintiffs-Appellees,
)
)
v.
)
)
UNITED STATES CITIZENSHIP AND
)
IMMIGRATION SERVICES, a federal
)
agency; U.S. DEPARTMENT OF
)
HOMELAND SECURITY, a federal agency;
)
CHAD F. WOLF, in his official
)
capacity as Acting Secretary of the
)
United States Department of Homeland
)
Security; KENNETH T. CUCCINELLI,
)
in his official capacity as Acting
)
Director of United States Citizenship and
)
Immigration Services,
)
Defendants-Appellants.
)
__________________________________________)

App. 91
No. 19-17214
D.C. No. 4:19-cv-04975-PJH
__________________________________________
STATE OF CALIFORNIA; DISTRICT OF
)
COLUMBIA; STATE OF MAINE;
)
COMMONWEALTH OF PENNSYLVANIA;
)
STATE OF OREGON,
)
Plaintiffs-Appellees,
)
)
v.
)
)
U.S. DEPARTMENT OF HOMELAND
)
SECURITY, a federal agency; UNITED
)
STATES CITIZENSHIP AND
)
IMMIGRATION SERVICES, a federal
)
agency; CHAD F. WOLF, in his official
)
capacity as Acting Secretary of the
)
United States Department of Homeland
)
Security; KENNETH T. CUCCINELLI, in
)
his official capacity as Acting Director of
)
United States Citizenship and
)
Immigration Services,
)
Defendants-Appellants.
)
__________________________________________)

App. 92
No. 19-35914
D.C. No. 4:19-cv-05210-RMP
__________________________________________
STATE OF WASHINGTON;
)
COMMONWEALTH OF VIRGINIA;
)
STATE OF COLORADO; STATE OF DELAWARE; )
STATE OF ILLINOIS; STATE OF MARYLAND;
)
COMMONWEALTH OF MASSACHUSETTS;
)
DANA NESSEL,Attorney General on behalf
)
of the People of Michigan; STATE OF
)
MINNESOTA; STATE OF NEVADA;
)
STATE OF NEW JERSEY; STATE OF
)
NEW MEXICO; STATE OF RHODE ISLAND;
)
STATE OF HAWAI‘I,
)
Plaintiffs-Appellees,
)
)
v.
)
)
U.S. DEPARTMENT OF HOMELAND
)
SECURITY, a federal agency;
)
CHAD F. WOLF, in his official capacity
)
as Acting Secretary of the United States
)
Department of Homeland Security;
)
UNITED STATES CITIZENSHIP
)
AND IMMIGRATION SERVICES, a
)
federal agency; KENNETH T. CUCCINELLI,
)
in his official capacity as Acting
)
Director of United States Citizenship
)
and Immigration Services,
)
Defendants-Appellants.
)
__________________________________________)
ORDER

App. 93
Filed December 5, 2019
Before: Jay S. Bybee, Sandra S. Ikuta, and John B.
Owens, Circuit Judges.
Order;
Concurrence by Judge Bybee;
Partial Concurrence and Partial Dissent by Judge
Owens
SUMMARY*
Immigration
The panel granted the Department of Homeland
Security’s petitions for stays of two district court
preliminary injunctions against the implementation of
the Department of Homeland Security’s redefinition of
the term, “public charge.”
Under the Immigration and Nationality Act (“INA”),
any alien who, in the opinion of a relevant immigration
officer, at the time of application for admission or
adjustment of status, is likely at any time to become a
public charge, is inadmissible. In 1999, the
Immigration and Naturalization Service defined
“public charge” as an “alien . . . who is likely to become
. . . primarily dependent on the government for
sub sistence” as demonstrated by either
“institutionalization for long-term care at government
expense” or “receipt of public cash assistance.” In
August 2019, the Department of Homeland Security
(“DHS”) adopted a new rule, redefining the term
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 94
“public charge” to also require consideration of certain
non-cash benefits. Inadmissibility on Public Charge
Grounds, 84 Fed. Reg. 41,292 (Aug. 14, 2019) (“Final
Rule”).
Various states, municipalities and organizations
brought suits in California and Washington seeking a
preliminary injunction against the Final Rule’s
implementation. The California and Washington
district courts issued preliminary injunctions based on
plaintiffs’ claims under the Administrative Procedure
Act (“APA”). DHS then sought stays of both
preliminary injunctions before this court.
The panel first concluded that the injuries plaintiffs
(“the States”) alleged – loss of federal funds and
increase in operational costs related to individuals
disenrolling from benefits – were sufficient for Article
III standing. The panel also addressed mootness
because district courts in Maryland and New York had
issued nationwide injunctions of the Final Rule. The
court concluded that, even if an injunction from
another court has a fully nationwide scope, this court
nevertheless retains jurisdiction under the exception to
mootness for cases capable of repetition, yet evading
review.
The panel next concluded that DHS had
demonstrated a strong likelihood of success on the
merits, explaining that the Rule’s definition of “public
charge” is consistent with the relevant statutes, and
DHS’s action was not arbitrary or capricious. In
rejecting the States’ argument that the Final Rule is
contrary to the INA, the panel concluded that the new
definition of “public charge” was entitled to deference

App. 95
under Chevron, U.S.A., Inc. v. Nat. Res. Def. Council,
Inc., 467 U.S. 837 (1984). At Chevron step one, the
panel explained that the statute is ambiguous, noting
that Congress chose not to define “public charge” and,
instead, described various factors to be considered “at
a minimum.” The panel also concluded that the history
of the use of the term demonstrated that the term does
not have an unambiguous meaning. Addressing the fact
that Congress twice considered, but failed to enact, a
definition of “public charge” that is similar to the
definition adopted in the Final Rule, the panel
explained that the failure of Congress to compel DHS
to adopt a particular rule is not the logical equivalent
of forbidding DHS from adopting that rule. The panel
also rejected the States’ contention that DHS exceeded
its authority by determining what makes a person
“self-sufficient.”
At Chevron step two, the panel concluded that
DHS’s interpretation of “public charge” is a permissible
construction of the statute, explaining that: 1) the INA
grants DHS considerable discretion to determine if an
alien is likely to become a public charge; 2) there is no
statutory basis from which to conclude that addition of
certain categories of inkind benefits makes DHS’s
interpretation untenable; and 3) the receipt of non-cash
public assistance is relevant to the self-sufficiency
principle underlying U.S. immigration law. The panel
also rejected the States’ argument that the Final Rule
is inconsistent with the Rehabilitation Act, which
provides that a qualified individual with a disability
cannot, solely by reason of that disability, be excluded
from participation in Executive agency programs.

App. 96
In rejecting the States’ argument that the Final
Rule is arbitrary and capricious, the panel concluded
that DHS had adequately explained the reasons for the
rule because it was sufficient for DHS to consider
whether, in the long term, the overall benefits of its
policy change would outweigh the costs of retaining the
current policy and because DHS addressed public
health concerns.
The panel noted that, were it reviewing the
preliminary injunctions on direct review, its
determination on the likelihood of success on the
merits would be sufficient to reverse the district court’s
orders. But because the panel was addressing DHS’s
motion for a stay, it went on to consider the additional
factors of irreparable injury, balance of the equities and
the public interest. Addressing irreparable injury, the
panel concluded that DHS had shown that it would be
irreparably injured absent a stay, explaining that the
preliminary injunctions would force DHS to irrevocably
grant status to those who are not legally entitled to it.
Next, the panel explained that balancing the harms
was particularly difficult in this case because the
harms are not comparable and are also, to a degree,
speculative. The panel concluded that it could not state
with any confidence which set of harms was greater.
The panel explained that the public interest in this
case was likewise difficult to calculate with precision.
In the end, the panel concluded that the “critical”
factors were that DHS had mustered a strong showing
of likelihood of success on the merits and some
irreparable harm, and that those factors weighed in
favor of granting a stay, despite the potential harms to

App. 97
the States. For that reason, the panel concluded that
the stay was in the public interest.
Concurring, perplexed and perturbed, Judge Bybee
wrote separately to note that: 1) even as the courts are
embroiled in recent immigration controversies, no one
should mistake the court’s judgments for its policy
preferences; 2) given the fact that the courts may only
review policy decisions for arbitrariness and caprice,
the courts are not the proper foil to this or any other
administration as it crafts immigration policies; and 3)
because Congress is no place to be found in recent
immigration debates, it is time for a feckless Congress
to come to the table and grapple with these issues,
instead of leaving the table and expecting the court to
clean up.
Concurring in part and dissenting in part, Judge
Owens concurred with the majority’s jurisdiction
analysis, but otherwise dissented. In light of the:
(1) government’s heavy burden due to the standard of
review, 2) opaqueness of the legal questions before the
court, (3) lack of irreparable harm to the government at
this early stage, (4) likelihood of substantial injury to
the plaintiffs, and (5) equities involved, Judge Owens
would deny the government’s motions to stay and let
these cases proceed in the ordinary course.
COUNSEL
Joseph H. Hunt, Assistant Attorney General; David L.
Anderson, United States Attorney; Daniel Tenny,
Gerard Sinzdak, and Joshua Dos Santos, Appellate
Staff; Civil Division, United States Department of
Justice, Washington, D.C.; for Defendants-Appellants.

App. 98
Dennis J. Herrera, City Attorney; Jesse C. Smith, Chief
Assistant City Attorney; Ronald P. Flynn, Chief Deputy
City Attorney; Yvonne R. Mere, Chief, Complex &
Affirmative Litigation; Sara J. Eisenberg, Chief of
Strategic Advocacy; Matthew D. Goldberg, Deputy City
Attorney; City Attorney’s Office, City and County of
San Francisco, San Francisco, California; James R.
Williams, County Counsel; Greta S. Hansen, Chief
Assistant County Counsel; Laura S. Trice, Lead Deputy
County Counsel; Raphael N. Rajendra, Julia B. Spiegel,
and H. Luke Edwards, Deputy County Counsel; Office
of the County Counsel, County of Santa Clara, San
Jose, California; for Plaintiffs-Appellees City and
County of San Francisco, and County of Santa Clara.
Xavier Becerra, Attorney General; Matthew Rodriguez,
Chief Assistant Attorney General; Michael L. Newman,
Senior Assistant Attorney General; Cherokee DM
Melton, Supervising Deputy Attorney General; Jennifer
C. Bonilla, Lisa Cisneros, Rebekah Fretz, Katherine
Lehe, Julia Harumi Mass, Anita Garcia Velasco,
Brenda Ayon Verduzco, and Anna Rich, Deputy
Attorneys General; Office of the Attorney General,
Oakland, California; for Plaintiff-Appellee State of
California.
Karl A. Racine, Attorney General; Kathleen Konopka,
Deputy Attorney General, Public Advocacy Division;
Alacoque Hinga Nevitt, Assistant Attorney General;
Office of the Attorney General, Washington, D.C.; for
Plaintiff- Appellee District of Columbia.
Aaron M. Frey, Attorney General; Susan P. Herman,
Chief Deputy Attorney General; Office of the Attorney

App. 99
General, Augusta, Maine; for Plaintiff-Appellee State
of Maine..
Ellen Rosenblum, Attorney General; Benjamin
Gutman, Solicitor General; Nicole DeFever and
Patricia Garcia Rincon, Assistant Attorneys General;
Oregon Department of Justice, Salem, Oregon; for
Plaintiff-Appellee State of Oregon.
Josh Shapiro, Attorney General; Michael J. Fischer,
Chief Deputy Attorney General; Aimee D. Thomson,
Deputy Attorney General; Office of the Attorney
General, Philadelphia, Pennsylvania; for PlaintiffAppellee Commonwealth of Pennsylvania.
Robert W. Ferguson, Attorney General; Jeffrey T.
Sprung, Assistant Attorney General; Rene D. Tomisser,
Senior Counsel; Zachary P. Jones, Joshua Weissman,
Paul M. Crisalli, Nathan K. Bays, and Bryan M.S.
Ovens, Assistant Attorneys General; Office of the
Attorney General, Kennewick, Washington; for
Plaintiff-Appellee State of Washington.
Mark R. Herring, Attorney General; Michelle S. Kallen,
Deputy Solicitor General; Ryan Spreague Hardy, Alice
Anne Lloyd, and Mamoona H. Siddiqui, Assistant
Attorneys General; Office of the Attorney General,
Richmond, Virginia; for Plaintiff-Appellee
Commonwealth of Virginia.
Phil Weiser, Attorney General; Eric R. Olson, Solicitor
General; Office of the Attorney General, Denver,
Colorado; for Plaintiff-Appellee State of Colorado.
Kathleen Jennings, Attorney General; Aaron R.
Goldstein, State Solicitor; Ilona Kirshon, Deputy State

App. 100
Solicitor; Monica A. Horton, Deputy Attorney General;
Office of the Attorney General, Wilmington, Delaware;
for Plaintiff-Appellee State of Delaware.
Kwame Raoul, Attorney General; Liza RobersonYoung, Public Interest Counsel; Office of the Attorney
General, Chicago, Illinois; for Plaintiff-Appellee State
of Illinois.
Clare E. Connors, Attorney General; Lili A. Young,
Deputy Attorney General; Department of the Attorney
General, Honolulu, Hawai‘i; for Plaintiff-Appellee State
of Hawai‘i.
Brian E. Frosh, Attorney General; Jeffrey P. Dunlap,
Assistant Attorney General; Office of the Attorney
General, Baltimore, Maryland; for Plaintiff-Appellee
State of Maryland.
Maura Healey, Attorney General; Abigail B. Taylor,
Chief, Civil Rights Division; David Urena, Special
Assistant Attorney General; Angela Brooks, Assistant
Attorney General; Office of the Attorney General,
Boston, Massachusetts; for Plaintiff-Appellee
Commonwealth of Massachusetts.
Dana Nessel, Attorney General; Fadwa A. Hammoud,
Solicitor General; Toni L. Harris, First Assistant
Attorney General; Michigan Department of Attorney
General, Lansing, Michigan; for Plaintiff-Appellee
Dana Nessel on behalf of the People of Michigan.
Keith Ellison, Attorney General; R.J. Detrick,
Assistant Attorney General; Attorney General’s Office,
St. Paul, Minnesota; for Plaintiff-Appellee State of
Minnesota.

App. 101
Aaron D. Ford, Attorney General; Heidi Parry Stern,
Solicitor General; Office of the Attorney General, Las
Vegas, Nevada; for Plaintiff-Appellee State of Nevada.
Gurbir Singh Grewal, Attorney General; Glenn J.
Moramarco, Assistant Attorney General; Office of the
Attorney General, Trenton, New Jersey; for PlaintiffAppellee State of New Jersey.
Hector Balderas, Attorney General; Tania Maestas,
Chief Deputy Attorney General; Office of the Attorney
General, Santa Fe, New Mexico; for Plaintiff-Appellee
State of New Mexico.
Peter F. Neronha, Attorney General; Lauren E. Hill,
Special Assistant Attorney General; Office of the
Attorney General, Providence, Rhode Island; for
Plaintiff-Appellee State of Rhode Island.
Edward T. Waters, Phillip A. Escoriaza, and Amanda
N. Pervine, Feldesman Tucker Leifer Fidell LLP,
Washington, D.C., for Amici Curiae Public Health,
Health Policy, Medicine, and Nursing Deans, Chairs,
and Scholars; The American Public Health Association;
and The American Academy of Nursing.
R. Adam Lauridsen, Chessie Thacher, Victor H. Yu,
and Nicholas R. Green, Keker Van Nest & Peters LLP,
San Francisco, California, for Amici Curiae National
Housing Law Project, Food Research & Action Center,
and Center for Law & Social Policy.
ORDER
BYBEE, Circuit Judge:
Since 1882, when the Congress enacted the first
comprehensive immigration statute, U.S. law has

App. 102
prohibited the admission to the United States of “any
person unable to take care of himself or herself without
becoming a public charge.” Act of Aug. 3, 1882, ch. 376,
§ 2, 22 Stat. 214 (1882). Although the precise
formulation of this provision has been amended
regularly in the succeeding century and a quarter, the
basic prohibition and the phrase “public charge”
remains. Most recently, in the Illegal Immigration
Reform and Immigrant Responsibility Act of 1996
(IIRIRA), Congress amended the Immigration and
Nationality Act (INA) to provide that “[a]ny alien who,
in the opinion of the consular officer at the time of
application for a visa, or in the opinion of the Attorney
General at the time of application for admission or
adjustment of status, is likely at any time to become a
public charge is inadmissible.” 8 U.S.C. § 1182(a)(4)(A).
In making this determination, “the consular officer or
the Attorney General shall at a minimum” take five
factors into account: age; health; family status; assets,
resources, and financial status; and education and
skills. Id. § 1182(a)(4)(B)(i). Under long-standing
practice, consular officers and the Attorney General
consider these factors under a “totality of the
circumstances” test.
In 1999, the Immigration and Naturalization
Service (INS), providing guidance to the public and INS
field officers, defined “public charge” as an “alien . . .
who is likely to become . . . primarily dependent on the
government for subsistence” as demonstrated by either
“institutionalization for long-term care at government
expense” or “receipt of public cash assistance for
income maintenance.” Field Guidance on Deportability
and Inadmissibility on Public Charge Grounds, 64 Fed.

App. 103
Reg. 28,689, 28,689 (May 26, 1999) (1999 Field
Guidance) (internal quotation marks omitted).
Although INS determined that the receipt of cash
benefits received under a public program would be
considered a factor in determining whether an alien
was likely to become a public charge, it stated that noncash benefits would not be taken into account for
public-charge purposes. Id.
In August 2019, following notice and comment, the
Department of Homeland Security adopted a new rule,
redefining the term “public charge” to require a
consideration of not only cash benefits, but also certain
non-cash benefits. Inadmissibility on Public Charge
Grounds, 84 Fed. Reg. 41,292, 41,292 (Aug. 14, 2019)
(Final Rule). Under DHS’s Final Rule a public charge
is “an alien who receives one or more public benefits . . .
for more than 12 months in the aggregate within any
36-month period.” Id. at 41,501. In turn, DHS defined
“public benefits.” Consistent with the 1999 Field
Guidance, DHS still considers receipt of cash
assistance from Supplemental Security Income (SSI);
Temporary Assistance for Needy Families (TANF); and
federal, state, or local general assistance programs to
be public benefits. To that list, DHS added non-cash
assistance received through the Supplemental
Nutrition Assistance Program (SNAP), Section 8
housing assistance, Section 8 project-based rental
assistance, Medicaid (with certain exceptions), and
Section 9 public housing. Id. DHS’s rule exempts public
benefits received for emergency medical conditions,
benefits received under the Individuals with
Disabilities Education Act, and school-based services or
benefits. Id. It also exempts those benefits received by

App. 104
aliens under 21 years of age, women during pregnancy,
and members of the armed forces and their families. Id.
DHS repeated that “[t]he determination of an alien’s
likelihood of becoming a public charge at any time in
the future must be based on the totality of the alien’s
circumstances.” Id. at 41,502.
Prior to the Final Rule taking effect in October
2019, various states, municipalities, and organizations
brought suits in California and Washington seeking a
preliminary injunction against the implementation of
the rule. In Nos. 19-17213 and 19-17214, California,
Maine, Oregon, Pennsylvania, and the District of
Columbia; the City and County of San Francisco and
the County of Santa Clara; and various organizations
brought suit in the Northern District of California
against the United States under the Due Process
Clause of the Fifth Amendment; the Administrative
Procedure Act (APA), 5 U.S.C. § 706; and the
Declaratory Judgment Act, 28 U.S.C. §§ 2201–02. The
district court granted a preliminary injunction on the
basis of the APA, effective against implementation of
the rule in the plaintiff states. City & Cty. of San
Francisco v. U.S. Citizenship & Immigration Servs.,
2019 WL 5100718 (N.D. Cal. Oct. 11, 2019). In No. 1935914, thirteen states—Washington, Virginia,
Colorado, Delaware, Hawai‘i, Illinois, Maryland,
Massachusetts, Minnesota, Nevada, New Jersey, New
Mexico, and Rhode Island—filed suit in the Eastern
District of Washington against DHS under the Due
Process Clause of the Fifth Amendment and the APA.
The district court granted a preliminary injunction on
the basis of the APA claims and issued a nationwide

App. 105
injunction. Washington v. U.S. Dep’t of Homeland Sec.,
2019 WL 5100717 (E.D. Wash. Oct. 11, 2019).
DHS seeks a stay of both preliminary injunctions.1
Our authority to issue a stay of a preliminary
injunction is circumscribed. Nevertheless, for the
reasons explained below, we will grant the stay. DHS
has shown a strong likelihood of success on the merits,
that it will suffer irreparable harm, and that the
balance of the equities and public interest favor a stay.
See Nken v. Holder, 556 U.S. 418, 434 (2009).
I. BACKGROUND AND PROCEDURE
We begin with the governing statutory framework,
the proposed change to this framework, and the
proceedings below.
A. Statutory Framework
The INA requires all aliens who seek lawful
admission to the United States, or those already
present but seeking to become lawful permanent
residents (LPRs), to prove that they are “not
inadmissible.” 8 U.S.C. § 1361; see also id. §§ 1225(a),
1255(a). Section 212 of the INA lists the grounds on
which an alien may be adjudged inadmissible. Id.
§ 1182(a)(1)–(10). One of the grounds for
inadmissibility is a determination that the alien is
likely to become a “public charge.” Id. § 1182(a)(4).
Section 212(a)(4) of the INA reads as follows:
(4) PUBLIC CHARGE. —
1

For clarity, we will refer to the plaintiffs below as “the States”
and the defendants as “DHS.”

App. 106
(A) IN GENERAL.—Any alien who, in the
opinion of the consular officer at the time
of application for a visa, or in the opinion
of the Attorney General at the time of
application for admission or adjustment
of status, is likely at any time to become
a public charge is inadmissible.
(B) FACTORS TO BE TAKEN INTO
ACCOUNT.—
(i) In determining whether an alien
is inadmissible under this
paragraph, the consular officer or
the Attorney General2 shall at a
minimum consider the alien’s—
(I) age;
(II) health;
(III) family status;
(IV) assets, resources, and
financial status; and
(V) education and skills.

2

The Homeland Security Act of 2002 transferred much of the
Attorney General’s immigration authority to the newly created
office of the Secretary of Homeland Security. See In re D-J-, 23 I.
& N. Dec. 572, 573–74 & n.2 (Op. Att’y Gen. 2003) (citing
Homeland Security Act of 2002, Pub. L. No. 108-7, 117 Stat. 531
(2003)). Though the Attorney General retains authority over the
Executive Office for Immigration Review, id. n.3, the Secretary of
Homeland Security is now responsible with the general
administration and enforcement of immigration law, id. n.2.

App. 107
(ii) In addition to the factors under
clause (i), the consular officer or
the Attorney General may also
consider any affidavit of support3
under section 1183a of this title for
purposes of exclusion under this
paragraph.
Id.
This provision is applied at different times by
different government agencies. When an alien seeks a
visa to travel to the United States, a Department of
State (DOS) consular officer must make an
admissibility determination. See 84 Fed. Reg. at 41,294
n.3. When an alien arrives at a port of entry without a
visa, DHS makes that determination. Id. An alien may
also be deemed “inadmissible” even when the alien is
already in the country. For example, when an alien
seeks an adjustment of status from non-immigrant to
LPR, DHS must determine that the alien is not
inadmissible. See id. And when an alien is processed in
immigration court, the Department of Justice (DOJ)
through immigration judges and the Board of
Immigration Appeals (BIA) must determine whether
that alien is inadmissible. Id.
Though § 212 of the INA lays out the factors an
immigration official must consider “at a minimum”
when making a public-charge determination, the INA
does not define the term “public charge,” or restrict
3

An affidavit of support is a binding pledge, often made by an
employer or family member of the alien, to financially support the
alien at 125 percent of the Federal poverty line. 8 U.S.C. § 1183.

App. 108
how officials are to consider age, health, family status,
financial resources, and education. Indeed, as
explained in more detail below, in the context of
immigration law, the term “public charge” has had
several meanings. Since 1999, however, the term has
been defined according to guidelines issued by the INS
Field Guidance on the matter. See 1999 Field
Guidance, 64 Fed. Reg. at 28,689. The 1999 Field
Guidance defined a public charge as an alien who “is
likely to become (for admission/adjustment purposes)
primarily dependent on the government for
subsistence, as demonstrated by either (i) the receipt of
public cash assistance for income maintenance or (ii)
institutionalization for long-term care at government
expense.” Id. (internal quotation marks omitted). The
1999 Field Guidance did not permit immigration
officers to “place any weight on the receipt of non-cash
public benefits,” id., and allowed consideration of only
cash-benefit programs like SSI, TANF, and “[s]tate and
local cash assistance programs that provide benefits for
income maintenance,” id. at 28,692.
B. The Proposed Rule
On October 10, 2018, DHS published a Notice of
Proposed Rulemaking (NPRM) indicating its intent to
abandon the 1999 Field Guidance and redefine the
term “public charge.” See Inadmissibility on Public
Charge Grounds, 83 Fed. Reg. 51,114 (proposed Oct.
10, 2018).4 It did so acting under the authority vested

4

The proposed rule would not change the definition of public
charge for removability determinations, only for determinations of
inadmissibility. 83 Fed. Reg. at 51,134. And though the rule only

App. 109
in the Secretary of Homeland Security to establish
immigration regulations and enforce immigration law.
See 8 U.S.C. § 1103(a)(3) (“[The Secretary of Homeland
Security] shall establish such regulations . . . as he
deems necessary for carrying out his authority under
the provisions of this chapter.”). The proposed rule
redefined the term “public charge” in two ways.
First, the proposed rule for the first time
established a required length of time for which the
alien would have to rely on public benefits before being
labeled a public charge. Under the 1999 Field
Guidance, a public charge was defined as an individual
“primarily dependent” on government benefits, but the
1999 Field Guidance prescribed no specific time period
for which this determination should be made. See 64
Fed. Reg. at 28,689, 28,692. Under the new rule, an
alien would be considered a public charge if he or she
“receives one or more [designated] public benefits . . .
for more than 12 months in the aggregate within a 36month period.” 83 Fed. Reg. at 51,157–58. Moreover,
the proposed rule counts each public benefit received,
so that “receipt of two different non-monetizable
benefits in one month counts as two months.” Id. at
51,166.
Second, the proposed rule expanded which benefits
contributed to a public-charge determination. The
proposed rule still included those cash-benefit
programs that were listed in the 1999 Field Guidance,

applies to DHS, DHS is currently working with DOS and DOJ to
ensure that all three agencies apply a consistent definition of the
term in their admissibility inquiries. 84 Fed. Reg. at 41,294 n.3.

App. 110
but now also includes various in-kind programs, such
as:
(A) Supplemental Nutrition Assistance
Program (SNAP, formerly called ‘’Food
Stamps’‘), 7 U.S.C. 2011 to 2036c;
(B) Section 8 Housing Assistance under
the Housing Choice Voucher Program, as
administered by HUD under 24 CFR part
984; 42 U.S.C. 1437f and 1437u;
(C) Section 8 Project-Based Rental
Assistance (including Moderate
Rehabilitation) under 24 CFR parts 5,
402, 880 through 884 and 886; and
...
(i) Medicaid, 42 U.S.C. 1396 et seq.,
[with several exceptions, discussed
below]
...
(iv) Subsidized Housing under the
Housing Act of 1937, 42 U.S.C.
1437 et seq.
Id. at 51,290 (to be codified at 8 C.F.R. § 212.21). 5

5

DHS altered the Final Rule to make clear that certain benefits
were exempt from consideration, including “Medicaid [collected] by
aliens under the age of 21[, Medicaid collected by] pregnant women
during pregnancy and during the 60-day period after pregnancy,”
school-based services, Individuals with Disabilities Education Act
(IDEA) services, Medicare Part D Low-Income Subsidies, and

App. 111
Additionally, the proposed rule added other factors
for immigration officers to consider when making a
public-charge determination. The rule still required
consideration of the alien’s age, health, family status,
financial status, education, and skills, as well as any
affidavits of support the alien presents. See 83 Fed Reg.
51,178 (to be codified at 8 C.F.R. § 212.22). But the
proposed rule also laid out new factors to be afforded
extra weight. Four factors weigh heavily against the
alien in a public-charge determination: (1) a finding
that the alien “is not a full-time student and is
authorized to work,” but cannot demonstrate “current
employment, employment history, or [a] reasonable
prospect of future employment”; (2) a previous finding
of inadmissibility on public-charge grounds; (3) a
medical diagnosis that would likely require extensive
medical treatment or interfere with the alien’s ability
to be self-sufficient; and (4) receipt of benefits for more
than twelve months within a thirty-six month period.
Id. at 51,198–201 (to be codified at 8 C.F.R. § 212.22).
Conversely, two factors would weigh heavily in favor of
the alien in a public-charge determination: (1) assets or
household income over 250 percent of the Federal
poverty line, and (2) individual income over 250 percent

emergency medical care. 84 Fed. Reg. at 41,296–97 (codified at 8
C.F.R. § 212.21). Further, in certain circumstances, the proposed
rule excuses receipt of covered public benefits. See id. (codified at
8 C.F.R. § 212.21) (exempting public benefits from consideration
when the recipient has received certain humanitarian relief, the
recipient or his spouse was in the Armed Forces, or the recipient
received a waiver).

App. 112
of the Federal poverty line.6 Id. at 51,292 (to be codified
at 8 C.F.R. § 212.22(c)(2)).
During the sixty-day public comment period that
followed the NPRM, DHS collected 266,077 comments,
“the vast majority of which opposed the rule.” 84 Fed.
Reg. at 41,297. On August 14, 2019, DHS published the
Final Rule in the Federal Register. Id. at 41,292. In its
216-page Final Rule, DHS made some changes to the
proposed rule (which are not relevant here) and
addressed the comments it received. The Final Rule
was scheduled to take effect on October 15, 2019, and
would apply to anyone applying for admission or
adjustment of status after that date. Id.
C. The Proceedings
1. The Northern District of California Case
On August 13, 2019, the City and County of San
Francisco and the County of Santa Clara sued several
government agencies and officials, including U.S.
Citizenship and Immigration Services (USCIS), the
Acting Director of USCIS Kenneth T. Cuccinelli, DHS,
and the then Acting Director of DHS Kevin McAleenan.
They brought suit in the United States District Court
for the Northern District of California, claiming that
the proposed rule violated the APA on two grounds:
(1) the rule was not made in accordance with the law,
and (2) the rule was arbitrary, capricious, and an abuse
of discretion. See 5 U.S.C. § 706(2). Three days later, on
August 16, 2019, California, Maine, Oregon,

6

The Final Rule added a third factor: private health insurance not
subsidized under the Affordable Care Act. 84 Fed. Reg. at 41,504.

App. 113
Pennsylvania, and the District of Columbia, sued the
same defendants in the same court. They claimed that
(1) the proposed rule violated § 706 of the APA because
(a) it was not made in accordance with the INA, the
IIRIRA, the Rehabilitation Act, or state healthcare
discretion, (b) it was arbitrary, capricious, and an
abuse of discretion, and (2) the proposed rule violated
the Fifth Amendment’s Due Process Clause because it
denied equal protection based on race and
unconstitutional animus.
Each set of plaintiffs filed a motion to preliminarily
enjoin enforcement of the proposed rule. On August 27,
2019, the district court ordered the two cases
consolidated.7
The district court heard oral argument on October
2, 2019, and on October 11, granted the preliminary
injunction. See City & Cty. of San Francisco, 2019 WL
5100718 at *1, 53. The court first held that both the
Counties and the States had standing to sue because
they showed imminent financial injury. Id. at *46–47.
It held that they were in the statute’s zone of interests
because, in enacting the public-charge provision of the
INA, “Congress intended to protect states and their
political subdivisions’ coffers.” Id. at *41. On the
merits, the district court found that the States satisfied
the four-factor test for a preliminary injunction. See
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20
7

Several legal and health-care organizations were also parties to
the motion for a preliminary injunction below. The district court
found that they failed to establish that they were within the zone
of interests. City & Cty. of San Francisco, 2019 WL 5100718, at
*53. They are not parties to this appeal.

App. 114
(2008). The court held that the States had a likelihood
of success on the merits for at least some of their
claims. It found the States were likely to successfully
show that the proposed rule was contrary to law
because it unreasonably defined the term “public
charge,” and thus failed the second step of the Chevron
analysis. City & Cty. of San Francisco, 2019 WL
5100718, at *28. Alternatively, the court found that the
States had shown a serious question as to whether the
INA unambiguously foreclosed the proposed change to
the definition of public charge, thus causing the Final
Rule to fail at Chevron step one. Id. The court also
concluded that the States had demonstrated a
likelihood of success on the arbitrary-and-capricious
claim because DHS failed to adequately consider the
adverse economic and public healthrelated costs of the
proposed rule. Id. at *34, *37.
Further, the court found that the rule’s
implementation would irreparably harm the Counties
and States by causing them to lose millions of dollars
in federal reimbursements and face increased
operational costs. Id. at *46–49. Focusing on the
public’s interest in the continued provision of medical
services and the prevention of communicable diseases,
the district court found both the balance of the equities
and the public interest weighed in favor of granting an
injunction. Id. at *50–51. However, because the court
found that the States had failed to show why a
nationwide injunction would be necessary, the court
granted an injunction that applied only to those
persons living in plaintiff states or counties. Id. at *53.

App. 115
On October 25, 2019, DHS sought a stay of the
preliminary injunction. DHS informed the court that it
would seek appellate relief if the court did not act by
November 14.
2. The Eastern District of Washington Case
On August 14, 2019, Washington, Virginia,
Colorado, Delaware, Hawai‘i, Illinois, Maryland,
Massachusetts, Minnesota, Nevada, New Jersey, Rhode
Island, and the state attorney general on behalf of
Michigan sued USCIS, Cuccinelli, DHS, and
McAleenan in the United States District Court for the
Eastern District of Washington. They alleged claims
similar to those presented in the California cases:
(1) the proposed rule violated the APA because (a) it
was not in accordance with immigration law or the
Rehabilitation Act, (b) it exceeded DHS’s statutory
jurisdiction or authority, and (c) it was arbitrary,
capricious, and an abuse of discretion, and (2) the
proposed rule violated the Fifth Amendment’s Due
Process Clause because it denied equal protection
based on race and unconstitutional animus.
The district court heard oral argument on October
3, 2019, and on October 11, granted the preliminary
injunction. See Washington, 2019 WL 5100717, at *23.
The court’s conclusions largely mirrored those of the
Northern District of California, though there were
some differences. Citing the States’ anticipated
economic, administrative, and public-health costs, the
court held that the States had standing and that the
matter was ripe. Id. at *11. Finding that the INA was
enacted “to protect states from having to spend state
money to provide for immigrants who could not provide

App. 116
for themselves,” the court concluded that the States
were within the INA’s zone of interests. Id.
On the merits, the court held that the States had
shown a likelihood of success on the arbitrary-andcapriciousness claim and the Chevron claim, though
the Washington court was less clear than the
California court had been about at which step of the
Chevron analysis the proposed rule would fail. Id. at
*13–17. Unlike the California court, the Washington
court also found that the States were likely to succeed
in proving that DHS had violated the Rehabilitation
Act, and that DHS acted beyond its congressionally
delegated authority in defining self-sufficiency. Id. at
*17–18. Noting that “the Plaintiff States provide a
strong basis for finding that disenrollment from noncash benefits programs is predictable, not speculative,”
and that such disenrollment would financially harm
the States, the court found that the States would suffer
irreparable harm if the injunction were not issued. Id.
at *20–21. On these same grounds, the court found that
the balance of the equities and public interest both
“tip[ped] in favor” of granting a preliminary injunction.
Id. at *21. However, unlike the California court, the
Washington court found a geographically limited
injunction untenable, in part because a limited
injunction might give immigrants an incentive to move
from unprotected states to protected states.
Accordingly, the Washington court granted the States
a nationwide injunction. Id. at *22–23.
On October 25, 2019, DHS sought a stay of the
preliminary injunction. DHS informed the court that it

App. 117
would seek appellate relief if the court did not act by
November 14.
*

*

*

By November 14, neither district court responded to
the respective motions to stay. On November 15, 2019,
DHS filed a motion in this court for an emergency stay
of the injunction.
II. JURISDICTION
DHS contends that the plaintiffs do not have Article
III standing to sue and that their claims do not fall
within the zone of interests protected by the INA. We
have an obligation to ensure that jurisdiction exists
before proceeding to the merits. See Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 93–95 (1998). 8
Additionally, although no party has raised the issue,
we must address whether DHS’s request for a stay
pending appeal is moot in light of the fact that two
courts outside our circuit have also issued nationwide
injunctions, and any decision we issue here would not
directly affect those orders. We conclude that, at this
preliminary stage of the proceedings, the States have
sufficiently alleged grounds for Article III standing and
that DHS’s petition for a stay is not moot.

8

Both district courts also held that the States’ claims fall within
the INA’s “zone of interests.” See City & Cty. of San Francisco,
2019 WL 5100718, at *41; Washington, 2019 WL 5100717, at *11.
For present purposes, because the issue is close and raises a
prudential rather than jurisdictional concern, see Bank of Am.
Corp. v. City of Miami, 137 S. Ct. 1296, 1302 (2017), we will
assume that the States’ claims satisfy the requirement.

App. 118
A. Article III Standing
Article III of the Constitution limits the federal
judicial power to the adjudication of “Cases” and
“Controversies.” U.S. CONST. art. III, § 2, cl. 1. This
fundamental limitation “is founded in concern about
the proper—and properly limited—role of the courts in
a democratic society.” Summers v. Earth Island Inst.,
555 U.S. 488, 492–93 (2009) (quoting Warth v. Seldin,
422 U.S. 490, 498 (1975)). “One of the essential
elements of a legal case or controversy is that the
plaintiff have standing to sue.” Trump v. Hawaii, 138
S. Ct. 2392, 2416 (2018). “[B]uilt on separation-ofpowers principles,” standing ensures that litigants
have “a personal stake in the outcome of the
controversy as to justify the exercise of the court’s
remedial powers on their behalf.” Town of Chester v.
Laroe Estates, Inc., 137 S. Ct. 1645, 1650 (2017)
(internal citations and alterations omitted).
To demonstrate Article III standing, a plaintiff must
show a “concrete and particularized” injury that is
“fairly traceable” to the defendant’s conduct and “that
is likely to be redressed by a favorable judicial
decision.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540,
1547–48 (2016) (quoting Lujan v. Defs. of Wildlife, 504
U.S. 555, 560–61 (1992)). “At least one plaintiff must
have standing to seek each form of relief requested,”
Town of Chester, 137 S. Ct. at 1651, and that party
“bears the burden of establishing” the elements of
standing “with the manner and degree of evidence
required at the successive stages of the litigation,”
Lujan, 504 U.S. at 561. “At this very preliminary
stage,” plaintiffs “may rely on the allegations in their

App. 119
Complaint and whatever other evidence they submitted
in support of their [preliminaryinjunction] motion to
meet their burden.” Washington v. Trump, 847 F.3d
1151, 1159 (9th Cir. 2017) (per curiam). And they “need
only establish a risk or threat of injury to satisfy the
actual injury requirement.” Harris v. Bd. of
Supervisors, 366 F.3d 754, 762 (9th Cir. 2004); see
Spokeo, 136 S. Ct. at 1548 (noting that the injury must
be “actual or imminent, not conjectural or hypothetical”
(quoting Lujan, 504 U.S. at 560)).
The district courts concluded that the States had
standing based on their alleged loss of federal funds
and increase in operational costs related to individuals
disenrolling from the non-cash public benefits at issue.
DHS challenges this finding, arguing that predictions
of future financial harm are based on an “‘attenuated
chain of possibilities’ that does not show ‘certainly
impending’ injury.”9 DHS’s argument is unavailing for
several reasons.
First, the injuries alleged are not entirely
speculative—at least for standing purposes. DHS
acknowledges that one result of the Final Rule will be
to encourage aliens to disenroll from public benefits. It
predicted a 2.5 percent disenrollment rate when
proposing the rule. 84 Fed. Reg. at 41,463. This
disenrollment, DHS predicted, would result in a
reduction in Medicaid reimbursement payments to the
States of about $1.01 billion. Id. at 41,301. DHS also
acknowledged increased administrative costs that

9

DHS raises no argument about the second and third elements of
the standing analysis.

App. 120
would result from the Final Rule. Id. at 41,389. To be
sure, the predicted result is premised on the actions of
third parties, but this type of “predictable effect of
Government action on the decisions of third parties” is
sufficient to establish injury in fact. Dep’t of Commerce
v. New York, 139 S. Ct. 2551, 2566 (2019).
Moreover, according to evidence supplied by the
States, the predicted results have already started. As
more individuals disenroll from Medicaid, the States
will no longer receive reimbursements from the federal
government for treating them. Similarly, the States
have sufficiently alleged that they are facing new and
ongoing operational costs resulting from the Final
Rule. See City & Cty. of San Francisco, 2019 WL
5100718, at *48. These costs are predictable, likely, and
imminent. It is disingenuous for DHS to claim that
they are too attenuated at this point when it
acknowledged these costs in its own rulemaking
process.
Finally, DHS’s reliance on Clapper v. Amnesty Int’l
USA, 568 U.S. 398 (2013), is unfounded. There, the
Court found that various human rights, labor, legal,
and media organizations did not have standing to
challenge the constitutionality of a law authorizing
governmental electronic surveillance of
communications for foreign intelligence purposes. Id. at
414. The alleged injury was that the threat of
surveillance would compel them to travel abroad to
have in-person conversations with sources and
witnesses, in addition to other costs related to
protecting the confidentiality of sensitive
communications. Id. at 406–07. The Court found that

App. 121
the injury was not “certainly impending” because it was
highly speculative whether the government would
imminently target communications between the
plaintiffs and foreign individuals. Id. at 410–11. The
assumption that their communications would be
targeted was not enough to demonstrate injury in fact.
Id. at 411–14. Here, the States are not making
assumptions about their claimed injuries. Unlike in
Clapper, the States present evidence that the predicted
disenrollment and rising administrative costs are
currently happening.
Thus, based on the available evidence at this early
stage of the proceedings, we conclude that the States
have shown that they have suffered and will suffer
direct injuries traceable to the Final Rule and thus
have standing to challenge its validity.
B. Mootness
Finally, we raise on our own the question of
whether we can consider DHS’s request for a stay of
the district court’s preliminary injunctions. See Demery
v. Arpaio, 378 F.3d 1020, 1025 (9th Cir. 2004) (“[W]e
have an independent duty to consider sua sponte
whether a case is moot.”). The stay would, presumably,
allow the Final Rule to go into effect pending further
proceedings in the district court and this court. The
question of mootness arises because, contemporaneous
with the district courts’ orders here, district courts in
Maryland and New York also issued nationwide
injunctions. Casa de Md., Inc. v. Trump, 2019 WL
5190689 (D. Md. Oct. 14, 2019); New York v. U.S. Dep’t
of Homeland Sec., 2019 WL 5100372 (S.D.N.Y. Oct. 11,

App. 122
2019).10 Thus, unless a stay also issues in those cases,
any stay we might issue would not allow the Final Rule
to go into effect; the Final Rule would still be barred by
those injunctions.
We recently addressed this precise question in
California v. U.S. Department of Health & Human
Services, 941 F.3d 410, 423 (9th Cir. 2019), and we
concluded that even if an injunction from another court
“has a fully nationwide scope, we nevertheless retain
jurisdiction under the exception to mootness for cases
capable of repetition, yet evading review.” Similarly, we
conclude that DHS’s petition is not moot, and we
proceed to the merits of its petition.
III. STANDARD OF REVIEW
DHS requests that we stay the district courts’
preliminary injunctions pending resolution of the
consideration of the merits of DHS’s appeals. We have
authority to do so under the All Writs Act, 28 U.S.C.
§ 1651, which provides that the courts “may issue all
writs necessary or appropriate in aid of their respective
jurisdictions and agreeable to the usages and principles
of law.” See Scripps-Howard Radio, Inc. v. FCC, 316
U.S. 4, 9–10 (1942) (finding that a federal court may
stay judgments pending appeal “as part of its
traditional equipment for the administration of
justice”); In re McKenzie, 180 U.S. 536, 551 (1901)
(noting the “inherent power of the appellate court to
10

In a third case out of the Northern District of Illinois, the district
court issued an order enjoining enforcement of the Final Rule in
Illinois only. Cook Cty. v. McAleenan, 2019 WL 5110267 (N.D. Ill.
Oct. 14, 2019).

App. 123
stay . . . proceedings on appeal”); see also Fed. R. Civ.
P. 62(g).
Two standards affect our determination, the
standard applicable to district courts for preliminary
injunctions, and the standard for appellate courts for
stays pending appeal. The district court must apply a
four-factor standard:
A plaintiff seeking a preliminary
injunction must establish [1] that he is
likely to succeed on the merits, [2] that he
is likely to suffer irreparable harm in the
absence of preliminary relief, [3] that the
balance of equities tips in his favor, and
[4] that an injunction is in the public
interest.
Winter, 555 U.S. at 20.
Alternatively, “‘serious questions going to the
merits’ and a balance of hardships that tips sharply
towards the plaintiff can support issuance of a
preliminary injunction, so long as the plaintiff also
shows that there is a likelihood of irreparable injury
and that the injunction is in the public interest.” All.
for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1135
(9th Cir. 2011).
Generally, the purpose of a preliminary injunction
is to “preserve the status quo and the rights of the
parties until a final judgment issues in the cause.” U.S.
Philips Corp. v. KBC Bank N.V., 590 F.3d 1091, 1094
(9th Cir. 2010) (citing Univ. of Tex. v. Camenisch, 451
U.S. 390, 395 (1981); Sierra On-Line, Inc. v. Phoenix
Software, Inc., 739 F.2d 1415, 1422 (9th Cir. 1984)). An

App. 124
injunction is “an extraordinary remedy that may only
be awarded upon a clear showing that the plaintiff is
entitled to such relief.” Winter, 555 U.S. at 22. It
“should not be granted unless the movant, by a clear
showing, carries the burden of persuasion.” Mazurek v.
Armstrong, 520 U.S. 968, 972 (1997) (per curiam)
(citation omitted).
The standard we apply to DHS’s request for a stay
is similar, although the burden of proof is reversed.
“The party requesting a stay bears the burden of
showing that the circumstances justify an exercise of
that discretion,” and our analysis is guided by four
factors:
(1) whether the stay applicant has made
a strong showing that he is likely to
succeed on the merits; (2) whether the
applicant will be irreparably injured
absent a stay; (3) whether issuance of the
stay will substantially injure the other
parties interested in the proceeding; and
(4) where the public interest lies.
Nken, 556 U.S. at 433–34 (quoting Hilton v. Braunskill,
481 U.S. 770, 776 (1987)). “The first two factors . . . are
the most critical,” and the “mere possibility” of success
or irreparable injury is insufficient to satisfy them. Id.
at 434 (internal quotation marks omitted). At this stage
of the proceedings, it is now DHS’s burden to make “a
strong showing that [it] is likely to” prevail against the
States’ claims. Lair v. Bullock, 697 F.3d 1200, 1203
(9th Cir. 2012) (quoting Nken, 556 U.S. at 426). We
consider the final two factors “[o]nce an applicant
satisfies the first two.” Nken, 556 U.S. at 435.

App. 125
“A stay is an ‘intrusion into the ordinary process of
administration and judicial review,’ and accordingly ‘is
not a matter of right, even if irreparable injury might
otherwise result to the appellant.’” Id. at 427 (citations
omitted). “It is instead ‘an exercise of judicial
discretion,’ and ‘the propriety of its issue is dependent
upon the circumstances of the particular case.’” Id. at
433 (alteration omitted) (quoting Virginian Ry. Co. v.
United States, 272 U.S. 658, 672–73 (1926)).
There is significant overlap in these standards. The
first prong in both tests—likelihood of success on the
merits—is the same. And the Supreme Court has made
clear that satisfaction of this factor is the irreducible
minimum requirement to granting any equitable and
extraordinary relief. Trump v. Hawai‘i, 138 S. Ct. at
2423. The analysis ends if the moving party fails to
show a likelihood of success on the merits of its claims.
Id.
IV. LIKELIHOOD OF SUCCESS ON THE MERITS
Any “person suffering legal wrong . . . or adversely
affected or aggrieved” by an agency’s final action may
seek judicial review. 5 U.S.C. § 702. The scope of our
review is determined by the APA. As a reviewing court,
we must “set aside” a final rule if it is “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” Id. § 706(2)(A). In making this
determination, we may “decide all relevant questions of
law, interpret . . . statutory provisions, and determine
the meaning or applicability of the terms of an agency
action.” Id. § 706.

App. 126
DHS argues that it is likely to succeed on the merits
of its appeal because, contrary to the conclusions of the
district courts, the Final Rule is neither contrary to law
nor arbitrary and capricious. We agree. The Final
Rule’s definition of “public charge” is consistent with
the relevant statutes, and DHS’s action was not
arbitrary or capricious.
A. Contrary to Law
The States argue that the Final Rule is invalid
under the APA because the Final Rule’s definition of
“public charge” is contrary to (1) the INA and (2) the
Rehabilitation Act. We disagree and find that DHS is
likely to succeed in its argument that the Final Rule is
not contrary to law.11
1. The INA and “Public Charge”
When confronted with an argument that an
agency’s interpretation of a statute that it administers
is wrong, we employ the familiar Chevron two-step test.
First, we ask “whether Congress has directly spoken to
the precise question at issue.” Chevron, U.S.A., Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837, 842 (1984).
If it has, “that is the end of the matter; for the court, as
well as the agency, must give effect to the
unambiguously expressed intent of Congress.” Id. at
11

The States also brought claims in both courts under the equal
protection component of the Due Process Clause. U.S. CONST. art.
V. Neither district court reached this issue. We also decline to
reach this issue. We will consider the likelihood of success on the
merits only as to those issues that formed the bases for the district
courts’ injunctions. In any further proceedings, the district courts
are free to consider any issues fairly before them.

App. 127
842–43. But if Congress has not spoken directly to the
issue at hand, we proceed to the second step and ask
“whether the agency’s answer is based on a permissible
construction of the statute.” Id. at 843.
We must keep in mind why Chevron is an important
rule of construction:
Chevron is rooted in a background
presumption of congressional intent:
namely, that Congress, when it left
ambiguity in a statute administered by an
agency, understood that the ambiguity
would be resolved, first and foremost, by
the agency, and desired the agency
(rather than the courts) to possess
whatever degree of discretion the
ambiguity allows. Chevron thus provides
a stable background rule against which
Congress can legislate: Statutory
ambiguities will be resolved, within the
bounds of reasonable interpretation, not
by the courts but by the administering
agency. Congress knows to speak in plain
terms when it wishes to circumscribe, and
in capacious terms when it wishes to
enlarge, agency discretion.
Arlington v. FCC, 569 U.S. 290, 296 (2013) (quotation
marks and citations omitted).
The district courts found that the Final Rule failed
the Chevron test at one or both steps because the Final
Rule’s definition of “public charge” was an

App. 128
impermissible reading of that phrase in the INA. We
will consider each step in turn.
a. Chevron Step 1
At Chevron’s first step, we determine whether
Congress has directly spoken to the issue at hand by
“employing traditional tools of statutory construction.”
Chevron, 467 U.S. at 843 n.9. That means we start with
the text. Afewerki v. Anaya Law Grp., 868 F.3d 771,
778 (9th Cir. 2017). We will then examine the history
of interpretation to see if there has been a judicial
construction of the term “public charge” that “follows
from the unambiguous terms of the statute and thus
leaves no room for agency discretion.” Nat’l Cable &
Telecomms. Ass’n v. Brand X Internet Servs., 545 U.S.
967, 982 (2005). Finally, we will consider other factors
raised by the district courts and the States.
(1) Text. Under § 212 of the INA, an alien is
inadmissible if, “in the opinion of” the immigration
official, the alien “is likely at any time to become a
public charge.” In making that determination, the
immigration official must consider “at a minimum” the
alien’s age, health, family status, financial resources,
education, and skills. 8 U.S.C. § 1182(a)(4)(A).
Congress did not define these terms and placed no
further restrictions on what these officers may consider
in the public-charge assessment. Nor did Congress
prescribe how the officers are to regard the five
enumerated factors.
We have four quick observations. First, the
determination is entrusted to the “opinion” of the

App. 129
consular or immigration officer.12 That is the language
of discretion, and the officials are given broad leeway.
Depending on the context in which the “opinion” is
given, the decision may be nonreviewable. Under the
rule of consular nonreviewability, only the most
egregious abuses of discretion may be reviewed. See
Kerry v. Din, 135 S. Ct. 2128, 2140–41 (2015)
(Kennedy, J., concurring); see also Cardenas v. United
States, 826 F.3d 1164, 1171–72 (9th Cir. 2016) (holding
that Justice Kennedy’s concurring opinion in Din is the
controlling opinion and summarizing the consular
nonreviewability rule). Indeed, we have previously held
that the phrase “in the opinion of the Attorney
General” in a now-repealed immigration statute
conferred “unreviewable” discretion to the Executive
Branch. See Kalaw v. I.N.S., 133 F.3d 1147, 1151–52
(9th Cir. 1997), superseded by statute on other grounds.
And to the extent the federal courts may review such
determinations, our review is narrow. See MonteroMartinez v. Ashcroft, 277 F.3d 1137, 1144 (9th Cir.
2002) (holding that judicial review of discretionary acts
by the BIA is limited to “the purely legal and hence
non-discretionary” aspects of the BIA’s action); see also
Allen v. Milas, 896 F.3d 1094, 1106–07 (9th Cir. 2018)
(noting that judicial review of visa denials is “limited
. . . to constitutional challenges” and does not extend to
APA-based challenges (emphasis omitted)).

12

The text of the INA does not mention immigration officers.
Rather, it commits the public-charge determination to the “opinion
of the Attorney General.” 8 U.S.C. § 1182(a)(4)(A). As we explained
above, Congress has since transferred the authority granted by the
INA to DHS’s immigration officers

App. 130
Second, the critical term “public charge” is not a
term of art. It is not self-defining. That does not mean
that officials may pour any meaning into the term, but
it does mean that there is room for discretion as to
what, precisely, being a “public charge” encompasses.
In a word, the phrase is “ambiguous” under Chevron; it
is capable of a range of meanings. So long as the agency
has defined the term within that range of meanings, we
have no grounds for second-guessing the agency, “even
if the agency’s reading differs from what [we] believe[]
is the best statutory interpretation.” Brand X, 545 U.S.
at 980 (citing Chevron, 467 U.S. at 843–44 & n.11). It
also means that an agency “must consider varying
interpretations and the wisdom of its policy on a
continuing basis,” including “in response to changed
factual circumstances, or a change in administrations.”
Id. at 981 (quotations marks and citations omitted).
Third, Congress set out five factors to be taken into
account by immigration officials, but expressly did not
limit the discretion of officials to those factors. Rather
the factors are to be considered “at a minimum.” Other
factors may be considered as well, giving officials
considerable discretion in their decisions.
Fourth, Congress granted DHS the power to adopt
regulations to enforce the provisions of the INA. When
Congress created DHS, Congress vested the Secretary
of Homeland Security “with the administration and
enforcement of . . . all [] laws relating to the
immigration and naturalization of aliens” and
authorized the Secretary to “establish such regulations
. . . as he deems necessary.” 8 U.S.C. § 1103(a)(1) & (3);
see also 6 U.S.C. § 112(b)(1) (authorizing the Secretary

App. 131
to “delegate any of the Secretary’s functions to any
[DHS] officer, employee, or organizational unit”);
Matter of D-J-, 23 I. & N. Dec. at 573–74. By granting
regulatory authority to DHS, Congress intended that
DHS would resolve any ambiguities in the INA. See
Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117,
2125 (2016) (“A premise of Chevron is that when
Congress grants an agency the authority to administer
a statute by issuing regulations with the force of law,
it presumes the agency will use that authority to
resolve ambiguities in the statutory scheme.”). As we
have already noted, the INA’s text is ambiguous. DHS
has attempted to elucidate that ambiguity in the Final
Rule. In short, we do not read the text of the INA to
unambiguously foreclose DHS’s action.
(2) Historical Understanding. Although the
foregoing would ordinarily be sufficient to end our
inquiry, the current provision, which was most recently
rewritten in 1996 in IIRIRA, is merely the most recent
iteration of federal immigration law to deem an alien
inadmissible if he or she is likely to become a “public
charge.” There is a long history of judicial and
administrative interpretations of this phrase in the
immigration context that predates the enactment of the
INA. Because “Congress is presumed to be aware of an
administrative or judicial interpretation of a statute
and to adopt that interpretation when it re-enacts a
statute without change,” Lorillard v. Pons, 434 U.S.
575, 580 (1978), we must examine this history to
determine if “public charge” has a well-defined and
congressionally understood meaning that limits DHS’s
discretion.

App. 132
The history of the term “public charge” confirms
that its definition has changed over time to adapt to
the way in which federal, state, and local governments
have cared for our most vulnerable populations. “Public
charge” first appeared in this country’s immigration
law in 1882. That statute excluded a would-be
immigrant from the United States if the person was a
“convict, lunatic, idiot, or a[] person unable to take care
of himself or herself without becoming a public charge.”
Act of Aug. 3, 1882 ch. 376, § 2, 22 Stat. 214.
Congress did not define “public charge” in the 1882
act. We thus ascribe to that phrase its commonly
understood meaning at the time, as evidenced by
contemporary sources. See Freeman v. Quicken Loans,
Inc., 566 U.S. 624, 633–34 & nn.6–8 (2012) (citing
contemporary dictionary definitions to interpret
statutory phrases). An 1828 dictionary defined “charge”
as “[t]hat which is enjoined, committed, entrusted or
delivered to another, implying care, custody, oversight,
or duty to be performed by the person entrusted,” or a
“person or thing committed to anothers [sic] custody,
care or management.” Charge, WEBSTER’S DICTIONARY
(1828 Online Edition), http://webstersdictionary18
28.com/Dictionary/charge; see also Stewart Rapaljb &
Robert L. Lawrence, DICTIONARY OF AMERICAN AND
ENGLISH LAW, WITH DEFINITIONS OF THE TECHNICAL
TERMS OF THE CANON AND CIVIL LAWS 196 (Frederick D.
Linn & Co. 1888) (defining “charge” as “an obligation or
liability. Thus we speak . . . of a pauper being
chargeable to the parish or town”). That is a broad,
common-sense definition, which was reflected in
Nineteenth-Century judicial opinions using the phrase.
See, e.g., In re Day, 27 F. 678, 681 (C.C.S.D.N.Y. 1886)

App. 133
(defining a “public charge” as a person who “can
neither take care of themselves, nor are under the
charge or protection of any other person”); State v. The
S.S. “Constitution”, 42 Cal. 578, 584–85 (1872) (noting
that those who are “liable to become a public charge”
are “paupers, vagabonds, and criminals, or sick,
diseased, infirm, and disabled persons”); City of Alton
v. Madison Cty., 21 Ill. 115, 117 (1859) (noting that a
person is not a “public charge” if the person has “ample
means” of support).
The 1882 act did not consider an alien a “public
charge” if the alien received merely some form of public
assistance. The act itself established an “immigrant
fund” that was designed to provide “for the care of
immigrants arriving in the United States.” Act of Mar.
26, 1910 ch. 376, § 1, 22 Stat. 214. Congress thus
accepted that providing some assistance to recent
immigrants would not make those immigrants public
charges. But Congress did not draw that line with any
precision. Instead, we read “public charge” in the 1882
act to refer generally to those who were unwilling or
unable to care for themselves. In context that often
meant that they were housed in a government or
charitable institution, such as an almshouse, asylum,
or penitentiary.
The term “public charge” endured through
subsequent amendments to the 1882 act. In 1910,
Congress enacted a statute that deemed “paupers;
persons likely to become a public charge; professional
beggars;” and similar people inadmissible. ch. 128, § 2,
36 Stat. 263 (1910). Relying on the placement of “public
charge” between “paupers” and “professional beggars,”

App. 134
the Supreme Court held that a person is likely to
become a public charge if that person has “permanent
personal objections” to finding employment. Gegiow v.
Uhl, 239 U.S. 3, 10 (1915). In that case, the petitioners,
Russian emigrees, arrived in the United States with
little cash and the intention of going to Portland,
Oregon. The immigration officials considered them
likely to become public charges because Portland had
a high unemployment rate. In a spare, three-page
opinion by Justice Holmes, the Court noted that the
“single question” before the Court was “whether an
alien can be declared likely to become a public charge
on the ground that the labor market in the city of his
immediate destination is overstocked.” Id. at 9–10. The
Court answered in the negative. In making the publiccharge determination, immigration officers must
consider an alien’s “personal” characteristics, not a
localized job shortage. Id. at 10. The Court observed
that “public charge” should be “read as generically
similar to the other[] [statutory terms] mentioned
before and after” that phrase. Id. Five years later, we
followed the Supreme Court’s lead, holding that “the
words ‘likely to become a public charge’ are meant to
exclude only those persons who are likely to become
occupants of almshouses for want of means with which
to support themselves in the future.” Ng Fung Ho v.
White, 266 F. 765, 769 (9th Cir. 1920) (citing Howe v.
United States, 247 F. 292, 294 (2d Cir. 1917)), aff’d in
part and rev’d in part on other grounds, 259 U.S. 276
(1922).13 Thus, as of 1920, we considered the likelihood
13

In Ng Fung Ho, the petitioner had been admitted to the United
States, based partly on his holding a “certificate” that allowed him
to be a “merchant.” Id. at 768. Several years after his admission,

App. 135
of being housed in a state institution to be the primary
factor in the public-charge analysis.
By the mid-Twentieth Century, the United States
had largely abandoned the poorhouse in favor of direct
payments through social welfare legislation. At the
federal level, the government had created Social
Security and Aid to Families With Dependent Children
(AFDC). At the state level, governments supplemented
family income through programs such as
unemployment insurance and worker’s compensation.
Similar changes were being made in other programs
such as mental health care, where we moved from
institutionalizing the mentally ill to a program of
treatment with the end of releasing them. As Chief
Justice Burger observed:
Historically, and for a considerable period
of time, subsidized custodial care in
private foster homes or boarding houses
was the most benign form of care
provided incompetent or mentally ill
persons for whom the States assumed
responsibility. Until well into the 19th
he pleaded guilty to gambling. Id. at 769. It was then determined
that the petitioner was no longer a merchant. The government
argued that the petitioner was deportable because he had been
likely to become a public charge at the time of his admission.
Because there was no evidence that the certificate he had produced
prior to admission had been fraudulent, we held that merely
pleading guilty to gambling and paying a $25 fine three years after
being admitted did not “prove that the alien . . . was likely to
become a public charge” at the time of admission. Id. We thus
rejected the government’s assertion that the petitioner should be
deported on that basis. Id. at 770.

App. 136
century the vast majority of such persons
were simply restrained in poorhouses,
almshouses, or jails.
O’Connor v. Donaldson, 422 U.S. 563, 582 (1975)
(Burger, C.J., concurring). “[T]he idea that States may
not confine the mentally ill except for the purpose of
providing them with treatment [was] of very recent
origin.” Id. (footnote omitted). The way in which we
regarded the poor and the mentally infirm not only
brought changes in the way we treated them, but major
changes in their legal rights as well. See, e.g., McNeil
v. Director, Patuxent Inst., 407 U.S. 245, 248–50 (1972)
(requiring a hearing before a person who has completed
his criminal sentence can be committed to indefinite
confinement in a mental institution); cf. Goldberg v.
Kelly, 397 U.S. 254, 260–61 (1970) (holding that a
recipient of public assistance payments is
constitutionally entitled to an evidentiary hearing
before those payments are terminated).
The movement towards social welfare was soon
reflected in the definition of “public charge.” In Matter
of B-, 3 I. & N. Dec. 323 (BIA 1948), the recently
created BIA articulated a new definition of “public
charge.” Permanent institutionalization would not be
the sole measure of whether an alien was a public
charge. The BIA said it would also consider whether an
alien received temporary services from the government.
At the same time, the BIA recognized that mere
“acceptance by an alien of services provided by” the
government “does not in and of itself make the alien a
public charge.” Id. at 324. Instead, the BIA stated that
an alien becomes a public charge if three elements are

App. 137
met: “(1) The State or other governing body must, by
appropriate law, impose a charge for the services
rendered to the alien. . . . (2) The authorities must
make demand for payment of the charges . . . . And (3)
there must be a failure to pay for the charges.” Id. at
326. In other words, the government benefit received
by the alien must be monetized, a bill must be
presented to the alien, and the alien must refuse to
pay. Ultimately, in Matter of B-, the BIA held that the
petitioner had not become a public charge, even though
she had been involuntarily committed to a mental
institution, because the state of Illinois had not
charged her or demanded payment. Id. at 327. The
BIA’s order was subsequently affirmed by the Attorney
General. Id. at 337.
Four years later, Congress substantially revised the
immigration laws in the Immigration and Nationality
Act of 1952. The amended statute retained the term
“public charge,” but, for the first time, made clear that
the decision was committed to the opinion of a consular
officer or the Attorney General. The INA deemed
inadmissible “[a]liens who, in the opinion of the
consular officer at the time of application for a visa, or
in the opinion of the Attorney General at the time of
application for admission, are likely at any time to
become public charges.” Title 2, ch. 2, § 212, 66 Stat.
163, 183 (1952). Although Matter of B- was not
mentioned in the legislative history accompanying the
1952 act, it is notable that Congress chose to insert this
“opinion” language following the BIA’s articulation of
a new definition of “public charge” that departed from
prior judicial interpretations of the term.

App. 138
In 1974, the BIA altered course again. The BIA
limited Matter of B-‘s three-part test to determining
whether a person had become a public charge after
having been admitted to the United States. See Matter
of Harutunian, 14 I. & N. Dec. 583, 585 (BIA 1974).
After noting that the phrase “public charge” had been
interpreted differently by various courts, the BIA held:
[A]ny alien who is incapable of earning a
livelihood, who does not have sufficient
funds in the United States for his
support, and has no person in the United
States willing and able to assure that he
will not need public support is excludable
as likely to become a public charge
whether or not the public support which
will be available to him is reimbursable to
the state.
Id. at 589–90. The BIA thus pegged the public-charge
determination to whether the alien was likely to “need
public support,” irrespective of whether the alien was
likely to be institutionalized for any length of time and
billed for the cost by the state. Id. at 589.
That definition of “public charge” was subsequently
amended by the INS. In 1987, the INS issued a final
rule that deemed an applicant for adjustment of status
to be a “public charge” if the applicant had “received
public cash assistance.” Adjustment of Status for
Certain Aliens, 52 Fed. Reg. 16,205, 16,211 (May 1,
1987). INS did not state how much “public cash
assistance” an alien had to receive, but left the decision
to officers who would judge the totality of the
circumstances. See id. at 16,211 (noting that “all [the]

App. 139
evidence produced by the applicant will be judged”),
16,212 (“The weight given in considering applicability
of the public charge provisions will depend on many
factors . . . .”). INS did make clear that “public cash
assistance” would not include the value of “assistance
in kind, such as food stamps, public housing, or other
non-cash benefits,” including Medicare and Medicaid.
Id. at 16,209.
In 1996, through IIRIRA, Congress enacted the
current language appearing in § 212 of the INA.
Omnibus Consolidated Appropriations Act, Title 5
§ 531, 110 Stat. 3009 (1996). As detailed above,
Congress added a requirement that an immigration
officer consider an alien’s “age;” “health;” “family
status;” “assets, resources and financial status;” and
“education and skills” when determining if a person is
likely to become a public charge. 8 U.S.C.
§ 1182(a)(4)(B).
Responding to the 1996 act, INS published the 1999
Field Guidance to “establish clear standards governing
a determination that an alien is inadmissible or
ineligible to adjust status . . . on public charge
grounds.” 64 Fed. Reg. at 28,689. In the 1999 Field
Guidance, INS defined “public charge” as “an alien . . .
who is likely to become (for admission/adjustment
purposes) primarily dependent on the government for
subsistence, as demonstrated by either (i) the receipt of
public cash assistance for income maintenance or
(ii) institutionalization for long-term care at
government expense.” Id. (internal quotation marks
omitted). The 1999 Field Guidance made clear that the
public-charge determination remained a “totality of the

App. 140
circumstances test.” Id. at 28,690. Within this totalityof-the-circumstances assessment, only the receipt of
“cash public assistance for income maintenance” should
be considered; “receipt of noncash benefits or the
receipt of special-purpose cash benefits not for income
maintenance should not be taken into account.” Id. The
1999 Field Guidance thus largely reaffirmed INS’s
1987 rule. For the past twenty years, the 1999 Field
Guidance has governed, until it was replaced by the
Final Rule.
So what to make of this history? Unlike the district
courts, we are unable to discern one fixed
understanding of “public charge” that has endured
since 1882. If anything has been consistent, it is the
idea that a totality-of-the circumstances test governs
public-charge determinations. But different factors
have been weighted more or less heavily at different
times, reflecting changes in the way in which we
provide assistance to the needy. Initially, the likelihood
of being housed in a government or charitable
institution was most important. Then, the focus shifted
in 1948 to whether public benefits received by an
immigrant could be monetized, and the immigrant
refused to pay for them. In 1974, it shifted again to
whether the immigrant was employable and selfsufficient. That was subsequently narrowed in 1987 to
whether the immigrant had received public cash
assistance, which excluded in-kind benefits. Congress
then codified particular factors immigration officers
must consider, which was followed by the 1999 Field
Guidance’s definition of “public charge.” In short, we
find that the history of the use of “public charge” in
federal immigration law demonstrates that “public

App. 141
charge” does not have a fixed, unambiguous meaning.
Rather, the phrase is subject to multiple
interpretations, it in fact has been interpreted
differently, and the Executive Branch has been
afforded the discretion to interpret it.
Congress simply has not spoken to how “public
charge” should be defined. We must presume that when
Congress enacted the current version of the INA in
1996, it was aware of the varying historical
interpretations of “public charge.” See Forest Grove
Sch. Dist. v. T.A., 557 U.S. 230, 239–40 (2009). Yet
Congress chose not to define “public charge” and,
instead, described various factors to be considered “at
a minimum,” without even defining those factors. It is
apparent that Congress left DHS and other agencies
enforcing our immigration laws the flexibility to adapt
the definition of “public charge” as necessary.
(3) Other Factors. Both district courts found it
significant that Congress twice considered, but failed to
enact, a definition of “public charge” that is similar to
the definition adopted in the Final Rule. City & Cty. of
San Francisco, 2019 WL 5100718 at *27; Washington,
2019 WL 5100717, at *17. During the debates over
IIRIRA in 1996, Congress considered whether to enact
the following definition of “public charge”: “the term
‘public charge’ includes any alien who receives [certain
means-tested] benefits . . . for an aggregate period of at
least 12 months or 36 months” in some cases. 142 Cong.
Rec. 24,313, at 24,425 (1996). Senator Leahy argued
that this was “too quick to label people as public
charges for utilizing the same public assistance that
many Americans need to get on their feet,” and that the

App. 142
phrase “means tested” was “unnecessarily uncertain.”
S. Rep. No. 104-249, at 63–64 (1996). Nevertheless, the
Senate passed the bill containing the definition of
“public charge.” Before the House considered the bill,
however, President Clinton implicitly threatened to
veto it because it went “too far in denying legal
immigrants access to vital safety net programs which
could jeopardize public health and safety.” Statement
on Senate Action on the “Immigration Control and
Financial Responsibility Act of 1996,” 32 Weekly Comp.
Pres. Doc. 783 (May 6, 1996). Ultimately, Congress
chose not to enact this “public charge” definition. In
2013, the Senate rejected an amendment to the INA
that “would have expanded the definition of ‘public
charge’ such that people who received non-cash health
benefits could not become legal permanent residents.
This amendment would also have denied entry to
individuals whom the Department of Homeland
Security determines are likely to receive these types of
benefits in the future.” S. Rep. No. 113-40, at 63 (2013).
The district courts viewed these failed legislative
efforts as evidence that Congress specifically rejected
the interpretation of “public charge” DHS articulated
in the Final Rule, and that the Final Rule is thus an
impermissible reading of the INA. City & Cty. of San
Francisco, 2019 WL 5100718, at *27; Washington, 2019
WL 5100717, at *17. We disagree. If this legislative
history is probative of anything, it is probative only of
the fact that Congress chose not to codify a particular
interpretation of “public charge.”14 See Cent. Bank of
14

Sometimes it is appropriate to consider language Congress has
rejected, primarily when Congress rejected language in favor of the

App. 143
Denver, N.A. v. First Interstate Bank of Denver, N.A.,
511 U.S. 164, 184 (1994) (“[F]ailed legislative proposals
are a particularly dangerous ground on which to rest
an interpretation of a prior statute.” (quotation marks
and citation omitted)). But the failure of Congress to
compel DHS to adopt a particular rule is not the logical
equivalent of forbidding DHS from adopting that rule.
The failure to adopt a new rule is just that: no new
rule.15 And no change to § 212 means that consular
officers, the Attorney General, and DHS retain all the
discretion granted them in the INA.
A second argument made by the States and relied
upon by the Eastern District of Washington is that
DHS exceeded its authority by determining what
makes a person “self-sufficient.” Washington, 2019 WL
5100717, at *17–18. This argument is refuted by the
statute itself. As we have discussed, the INA requires

statute adopted and under review. See, e.g., INS v. CardozaFonseca, 480 U.S. 421, 441–42 (1987) (contrasting Congress’s
decision to adopt the House proposal over the Senate version)
15

We can speculate as to the reasons that members of Congress
declined to adopt these legislative proposals, but the speculation
will not help us. “A bill can be proposed for any number of reasons,
and it can be rejected for just as many others.” Solid Waste Agency
of N. Cook Cty. v. U.S. Army Corps of Engineers, 531 U.S. 159, 170
(2001). Although some members may have thought the rule too
harsh, others may have thought it too lenient, while a third group
may have thought the rule should be left flexible and in the hands
of the immigration agencies. If anything, this legislative history
proves only that Congress decided not to constrain the discretion
of agencies in determining who is a public charge. That discretion
had long been vested in the agencies, and these failed legislative
efforts did not alter that discretion.

App. 144
immigration officers to consider an alien’s “health,”
“family status,” “assets, resources, [] financial status,”
“education and skills.” 8 U.S.C. § 1182(a)(4)
(B)(i)(II)–(V). The concept of self-sufficiency is
subsumed within each of these factors. And even if it
were not, the statutory factors are not exhaustive; DHS
may add to them. See id. § 1182(a)(4)(B)(i). Because
DHS has been “charged with the administration and
enforcement” of all “laws relating to the immigration
and naturalization of aliens,” Id. § 1103(a)(1); see also
6 U.S.C. § 112(b)(1), determining what constitutes selfsufficiency for purposes of the public-charge
assessment is well within DHS’s authority.16
*

*

*

In short, Congress has not spoken directly to the
interpretation of “public charge” in the INA. Nor did it
16

The Eastern District of Washington also held that, because the
states have a “central role in formulation and administration of
health care policy,” DHS “acted beyond its Congressionally
delegated authority” when it adopted the Final Rule. Washington,
2019 WL 5100717, at *18; see also id. (“Congress cannot delegate
authority that the Constitution does not allocate to the federal
government in the first place . . . .”). Congress, of course, has
plenary authority to regulate immigration and naturalization. U.S.
CONST. art. I, § 8, cl. 4. Pursuant to that authority, Congress
adopted the “public charge” rule, which no one has challenged on
constitutional grounds. Further, Congress has authorized DHS to
adopt regulations. 8 U.S.C. § 1103(a)(3). DHS thus did not overstep
its authority by promulgating the Final Rule. Indeed, under the
district court’s analysis, even the 1999 Field Guidance might be
unconstitutional. But neither the district court nor the States
question the lawfulness of the 1999 Field Guidance. We see no
meaningful difference between INS’s authority to promulgate the
1999 Field Guidance and DHS’s authority to adopt the Final Rule.

App. 145
unambiguously foreclose the interpretation articulated
in the Final Rule. Instead, the phrase “public charge”
is ambiguous under Chevron. DHS has the authority to
interpret it and “must consider varying interpretations
and the wisdom of its policy on a continuing basis.”
Chevron, 467 U.S. at 863–64. Indeed, “the fact that the
agency has adopted different definitions in different
contexts adds force to the argument that the definition
itself is flexible, particularly since Congress has never
indicated any disapproval of a flexible reading of the
statute.” Id. at 864. We thus proceed to the second step
of the Chevron analysis.
b. Chevron Step 2
At Chevron’s second step, we ask whether the
agency’s interpretation is “reasonable—or ‘rational and
consistent with the statute.’” Diaz-Quirazco v. Barr,
931 F.3d 830, 840 (9th Cir. 2019) (quoting Sullivan v.
Everhart, 494 U.S. 83, 89 (1990)). If it is, we must defer
to it, “even if the agency’s reading differs from what the
court believes is the best statutory interpretation.”
Perez-Guzman v. Lynch, 835 F.3d 1066, 1073–74 (9th
Cir. 2016) (quoting Brand X, 545 U.S. at 980).
The Final Rule easily satisfies this test. As we have
explained, the INA grants DHS considerable discretion
to determine if an alien is likely to become a public
charge. To be sure, under the Final Rule, in-kind
benefits (other than institutionalization) will for the
first time be relevant to the public-charge
determination. We see no statutory basis from which a
court could conclude that the addition of certain
categories of in-kind benefits makes DHS’s

App. 146
interpretation untenable.17 And whether the change in
policy results from changing circumstances or a change
in administrations, the wisdom of the policy is not a
question we can review. See Brand X, 545 U.S. at 981.
Our conclusion is reinforced by the Personal
Responsibility and Work Opportunity Reconciliation
Act of 1996 (PRWORA), which Congress enacted
contemporaneous with IIRIRA. PRWORA set forth our
“national policy with respect to welfare and
immigration.” 8 U.S.C. § 1601. In relevant part,
PRWORA provides, “Self-sufficiency has been a basic
principle of United States immigration law since this
country’s earliest immigration statutes.” Id. § 1601(1).
As a result, “[i]t continues to be the immigration policy
of the United States that . . . aliens within the Nation’s
borders not depend on public resources to meet their
needs, but rather rely on their own capabilities and the
resources of their families, their sponsors, and private
organizations.” Id. § 1601(2). Receipt of non-cash public
assistance is surely relevant to “self-sufficiency” and
whether immigrants are “depend[ing] on public
resources to meet their needs.” See id. § 1601(1)–(2); see
also Korab v. Fink, 797 F.3d 572, 580 (9th Cir. 2014).
PRWORA thus lends support to DHS’s interpretation
of the INA.
17

Cash benefits and in-kind benefits are often treated under the
single rubric of a “direct subsidy.” Witters v. Wash. Dep’t of the
Servs. for the Blind, 474 U.S. 481, 487 (1986). In certain contexts,
such as settlement, “compensation in kind is worth less than cash
of the same nominal value,” In re Mex. Transfer Litig., 267 F.3d
743, 748 (9th Cir. 2001), but the Final Rule does not deal with the
valuation of such services. It deals only with whether in-kind
benefits have been received under certain specified programs.

App. 147
We conclude that DHS’s interpretation of “public
charge” is a permissible construction of the INA.
2. The Rehabilitation Act
The States argue, and the Eastern District of
Washington found, that the Final Rule is inconsistent
with the Rehabilitation Act. Washington, 2019 WL
5100717, at *18. The Northern District of California
rejected that argument. City & Cty. of San Francisco,
2019 WL 5100718, at *29–30. The Rehabilitation Act
provides: “No otherwise qualified individual with a
disability in the United States . . . shall, solely by
reason of her or his disability, be excluded from
participation in, be denied the benefits of, or be
subjected to discrimination under any program or
activity . . . conducted by any Executive agency.” 29
U.S.C. § 794(a). “Program or activity” is defined as “all
of the operations of . . . [an] agency.” Id. § 794(b).
This argument need not detain us long. First, under
the INA, immigration officers are obligated to consider
an immigrant’s “health” when making the publiccharge determination. 8 U.S.C. § 1182(a)(4)(B)(i)(II). To
the extent that inquiry may consider an alien’s
disability, the officers have been specifically directed by
Congress to do so. Indeed, Congress’s express direction
that immigration officers consider an alien’s “health”
came twenty-three years after the Rehabilitation Act.
We cannot see how a general provision in one statute
constrains an agency given a specific charge in a
subsequent law. The INA does not violate the
Rehabilitation Act. Second, nothing in the Final Rule
changes DHS’s practice with respect to considering an
alien’s health. Nothing in the Final Rule suggests that

App. 148
aliens will be denied admission or adjustment of status
“solely by reason of her or his disability.” Throughout
the Final Rule, DHS confirms that the public-charge
determination is a totality-of the-circumstances test.
See 84 Fed. Reg. at 41,295, 41,368. And DHS
specifically addressed this argument in the Final Rule:
“it is not the intent, nor is it the effect of this rule to
find a person a public charge solely based on his or her
disability.” Id. at 41,368. DHS has shown a strong
likelihood that the Final Rule does not violate the
Rehabilitation Act.
*

*

*

In sum, DHS is likely to succeed in its argument
that the Final Rule should not be set aside as contrary
to law. We will not minimize the practical impact of the
Final Rule, but we will observe that it is a short leap in
logic for DHS to go from considering in-cash public
assistance to considering both incash and in-kind
public assistance. DHS has shown that there is a
strong likelihood that its decision to consider the
receipt of in-kind government assistance as part of its
totality-of-the-circumstances test is a reasonable
interpretation of the INA and does not violate the
Rehabilitation Act.
B. Arbitrary and Capricious
Arbitrary and capricious review under the APA
addresses the reasonableness of the agency’s decision.
The classic statement of our scope of review is Motor
Vehicle Manufacturers Association of the United States
v. State Farm Mutual Automotive Insurance Co., 463
U.S. 29 (1983):

App. 149
[T]he agency must examine the relevant data
and articulate a satisfactory explanation for its
action including a rational connection between
the facts found and the choice made. In
reviewing that explanation, we must consider
whether the decision was based on a
consideration of the relevant factors and
whether there has been a clear error of
judgment. Normally, an agency rule would be
arbitrary and capricious if the agency has relied
on factors which Congress has not intended it to
consider, entirely failed to consider an important
aspect of the problem, offered an explanation for
its decision that runs counter to the evidence
before the agency, or is so implausible that could
not be ascribed to a difference in view of the
product of agency expertise.
Id. at 43 (quotation marks and citations omitted); see
Org. Vill. of Kake v. Dep’t of Agric., 795 F.3d 956,
966–67 (9th Cir. 2015). An agency’s failure to respond
to any particular comment or point put forward by a
rule’s opponents is not a ground for finding per se
arbitrary-and-capricious action. See Safari Aviation
Inc. v. Garvey, 300 F.3d 1144, 1150–52 (9th Cir. 2002)
(explaining that there is no per se violation of the APA
when an agency fails to address comments); Thompson
v. Clark, 741 F.2d 401, 408 (D.C. Cir. 1984) (“[The
APA] has never been interpreted to require the agency
to respond to every comment, or to analyse [sic] every
issue or alternative raised by the comments, no matter
how insubstantial.”).

App. 150
The fact that DHS has changed policy does not
substantially alter the burden in the challengers’ favor.
DHS must, of course, “show that there are good reasons
for the new policy,” but, it
need not demonstrate to a court’s
satisfaction that the reasons for the new
policy are better than the reasons for the
old one; it suffices that the new policy is
permissible under the statute, that there
are good reasons for it, and that the
agency believes it to be better, which the
conscious change of course adequately
indicates.
FCC v. Fox Television Stations, Inc., 556 U.S. 502, 515
(2009).
The district courts raised two objections to DHS’s
consideration that the district courts found made the
Final Rule arbitrary and capricious: (1) DHS’s failure
to properly weigh the costs to state and local
governments and healthcare providers, such as
hospitals, resulting from disenrollment from public
benefits programs; and (2) DHS’s inadequate
consideration of the Final Rule’s impact on public
health. City & Cty. of San Francisco, 2019 WL
5100718, at *31–35; Washington, 2019 WL 5100717, at
*19. We will consider each in turn.
1. Costs of Disenrollment
The Northern District of California’s principal
concern was the higher costs that state and local
governments will face as a result of “disenrollment
[from] public benefits.” City & Cty. of San Francisco,

App. 151
2019 WL 5100718, at *31. Specifically, the district
court concluded that “DHS appears to have wholly
failed to engage with [comments on the costs of the
change]. DHS failed to grapple with the [Final] Rule’s
predictable effects on local governments, and instead
concluded that the harms—whatever they may be—are
an acceptable price to pay.” Id. at *32. The court
further faulted DHS for “refus[ing] to consider the costs
associated with predicted, likely disenrollment of those
not subject to the public charge determination.” Id.
We begin with the observation that DHS addressed
at length the costs and benefits associated with the
Final Rule. See 84 Fed. Reg. at 41,300–03
(summarizing costs and benefits); id. at 41,312–14
(estimating costs to health care providers, states, and
localities); id. at 41,463–81 (responding to various
comments on costs and benefits); id. at 41,485–41,489
(responding to Executive Orders requiring an
assessment of the costs and benefits of regulatory
alternatives).18 In addition, DHS prepared an
“Economic Analysis Supplemental Information for
Analysis of Public Benefits Programs,” www.regulati
ons.gov/document?D=U SCIS-2010-0012-63742.
DHS’s analysis began by stating, “This rule will
impose new costs on this population applying to adjust

18

Indeed, DHS’s notice is quite comprehensive. In no fewer than
216 pages (which DHS estimated would take sixteen to twenty
hours to read), DHS explained the changes proposed, estimated
costs and savings, and addressed scores of comments on topics
ranging from potential public-health concerns to whether DHS
should consider immigrants’ credit scores. See generally 84 Fed.
Reg. at 41,292–508.

App. 152
status . . . that are subject to the public charge ground
of inadmissibility.” 84 Fed. Reg. at 41,300. It estimated
the direct costs to the federal government of the rule to
be $35,202,698 annually. Some of these direct costs to
the federal government would be offset by “individuals
who may choose to disenroll from or forego enrollment
in a public benefits program.” Id. DHS estimated the
reduction in federal transfer payments would be about
$2.47 billion annually. Id. at 41,301. It further
estimated that there would be a reduction in state
transfer payments of about $1.01 billion annually. Id.
DHS also acknowledged that the Final Rule would
impose direct and indirect costs on individuals and
entities. The first of these, it suggested, were
“familiarization costs,” which was “a direct cost of the
rule.” Id. Organizations that work with immigrant
communities would similarly experience indirect costs
of familiarization. Id.
Elsewhere, DHS responded to comments claiming
that the Final Rule would cause aliens to disenroll from
or forego enrollment in public benefit programs and
that this “would be detrimental to the financial
stability and economy of communities, States, local
organizations, hospitals, safety net providers,
foundations, and healthcare centers.” Id. at 41,312; see
also id. (suggesting that the Final Rule would increase
the use of hospital emergency rooms). DHS identified
three categories of aliens who might be affected by the
Final Rule. First, there are aliens who are entitled to
public benefits and seek to immigrate or adjust status.
Their receipt of some public benefits are simply not
covered by the rule. DHS noted, for example, that
“emergency response, immunization, education, or

App. 153
[certain] social services” are not included in its revised
definition of “public benefits.” Id. On the other hand,
there are public benefits to which such an alien is
entitled but which will be considered by DHS in its
determination whether such alien is a “public charge.”
DHS “acknowledge[d] that individuals subject to this
rule may decline to enroll in, or may choose to disenroll
from, public benefits for which they may be eligible
under PRWORA, in order to avoid negative
consequences as a result of this final rule.” Id. DHS
could not estimate how many aliens in this category
would be affected by the Final Rule “because data
limitations provide neither a precise count nor
reasonable estimate of the number of aliens who are
both subject to the public charge ground of
inadmissibility and are eligible for public benefits in
the United States.” Id. at 41,313.
The second category of aliens are those who are
unlawfully in the United States. These are “generally
barred from receiving federal public benefits other than
emergency assistance.” Id. (footnote omitted).
Nevertheless, DHS announced that it will not consider
“for purposes of a public charge inadmissibility
determination whether applicants for admission or
adjustment of status are receiving food assistance
through other programs, such as exclusively statefunded programs, food banks, and emergency services,
nor will DHS discourage individuals from seeking such
assistance.” Id.
Third are those aliens and U.S. citizens who are not
subject to the Final Rule, but erroneously think they
are and disenroll from public benefits out of an

App. 154
abundance of caution. Id. Disenrollment by this
category of persons should not be influenced by the
Final Rule because their receipt of public benefits will
“not be counted against or made attributable to
immigrant family members who are subject to this
rule.” Id. DHS understood “the potential effects of
confusion” over the scope of the Final Rule that might
lead to over-disenrollment. DHS stated that it would
“issue clear guidance that identifies the groups of
individuals who are not subject to the rule.” Id.
The Northern District of California pointed out that
DHS’s response “fails to discuss costs being borne by
the states, hospitals, or others, other than to say DHS
will issue guidance in an effort to mitigate confusion.”
City & Cty. of San Francisco, 2019 WL 5100718, at *34.
The court further criticized DHS for “flatly refus[ing] to
consider the costs associated with predicted, likely
disenrollment of those not subject to the public charge
determination.” Id. at *35.
We think several points must be considered here.
First, the costs that the states, localities, and various
entities (such as healthcare providers) may suffer are
indirect. Nothing in the Final Rule imposes costs on
those governments or entities; the Final Rule does not
regulate states, localities, and private entities.
Disenrollment will be the consequence of either (1) the
free choice of aliens who wish to avoid any negative
repercussions for their immigration status that would
result from accepting public benefits, or (2) the
mistaken disenrollment of aliens or U.S. citizens who
can receive public benefits without any consequences
for their residency status. DHS addressed both groups.

App. 155
DHS said it did not have data to calculate the size of
the first group (and, presumably, the value of the
benefits from which they will disenroll), and it had no
way to estimate the second. 84 Fed. Reg. at 41,313.
DHS stated that it would try to compensate for the
latter group’s error by publishing clear guidance, and
it also noted that other organizations, public and
private, would have an incentive to provide accurate
information to persons who might mistakenly disenroll.
Id. at 41,486.
Second, DHS did acknowledge the indirect costs the
Final Rule might impose
downstream . . . on state and local economics,
large and small businesses, and individuals. For
example, the rule might result in reduced
revenues for healthcare providers participating
in Medicaid, companies that manufacture
medical supplies or pharmaceuticals, grocery
retailers participating in SNAP, agricultural
producers who grow foods that are eligible for
purchase using SNAP benefits, or landlords
participating in federally funded housing
programs.
Id. It did not attempt to quantify those costs, but it
recognized the overall effect of the Final Rule, and that
is sufficient. See Irvine Med. Ctr. v. Thompson, 275
F.3d 823, 835 (9th Cir. 2002) (“[T]he Secretary
acknowledged that some Medicare beneficiaries would
possibly have to shoulder an additional financial
burden as a result of the repeal of the carry-forward
provision. This acknowledgment did not render the

App. 156
Secretary’s rulemaking statement or reliance upon it
arbitrary, however.” (internal citation omitted)) .
Third, DHS is not a regulatory agency like EPA,
FCC, or OSHA. Those agencies have broad mandates
to regulate directly entire industries or practices,
sometimes on no more instruction from Congress than
to do so in the “public convenience, interest or
necessity,” 47 U.S.C. § 303 (FCC), or as “appropriate
and necessary,” 42 U.S.C. § 7412(n)(1)(A) (EPA). When
Congress has vested such broad regulatory authority in
agencies, the Supreme Court has sometimes insisted
that the agencies perform some kind of a cost-benefit
analysis. See, e.g., Michigan v. EPA, 135 S. Ct. 2699,
2707 (2015) (EPA cannot “ignore cost when deciding
whether to regulate power plants”); Indus. Union Dep’t,
AFL-CIO v. Am. Petroleum Inst., 448 U.S. 607, 644
(1980) (plurality opinion) (OSHA must “undertake
some cost-benefit analysis before [it] promulgates any
[safety and health] standard”). But see Am. Textile Mfs.
Inst. Inc. v. Donovan, 452 U.S. 490, 510–11 (1981)
(“Congress uses specific language when intending that
an agency engage in cost-benefit analysis.”). By
contrast, DHS is defining a simple statutory term—
“public charge”—to determine whether an alien is
admissible. Its only mandate is to regulate immigration
and naturalization, not to secure transfer payments to
state governments or ensure the stability of the health
care industry. Any effects on those entities are indirect
and well beyond DHS’s charge and expertise. Even if it
could estimate the costs to the states, localities, and
healthcare providers, DHS has a mandate from
Congress with respect to admitting aliens to the United
States. As DHS explained,

App. 157
DHS does not believe that it is sound policy to
ignore the longstanding self-sufficiency goals set
forth by Congress or to admit or grant
adjustment of status applications of aliens who
are likely to receive public benefits designated in
this rule to meet their basic living needs in . . .
hope that doing so might alleviate food and
housing insecurity, improve public health,
decrease costs to states and localities, or better
guarantee health care provider reimbursements.
DHS does not believe that Congress intended for
DHS to administer [§ 212] in a manner that fails
to account for aliens’ receipt of food, medical,
and housing benefits so as to help aliens become
self-sufficient.
84 Fed. Reg. at 41,314. Even had DHS been able to
calculate the indirect costs that states, localities, and
healthcare providers might bear as a result of the Final
Rule, it is not clear what DHS was supposed to
balance. Rather, it was sufficient—and not arbitrary
and capricious—for DHS to consider whether, in the
long term, the overall benefits of its policy change will
outweigh the costs of retaining the current policy.
2. Public-Health Concerns
The Northern District of California also found that
DHS did not sufficiently respond to certain publichealth concerns. City & Cty. of San Francisco, 2019 WL
5100718, at *35–37. Specifically, the court worried that
by disenrolling from public-health benefits like
Medicaid, people may forgo vaccinations, which could
have serious public-health consequences. Id. The

App. 158
district court also pointed out that the 1999 Field
Guidance declined to define “public charge” to include
receipt of “health and nutrition benefits” out of fear of
possible public-health ramifications. Id. at *37 (citing
64 Fed. Reg. at 28,692).
DHS not only addressed these concerns directly, it
changed its Final Rule in response to the comments. 84
Fed. Reg. at 41,297. With respect to vaccines, DHS
stated that it “does not intend to restrict the access of
vaccines for children or adults or intend to discourage
individuals from obtaining the necessary vaccines to
prevent vaccine-preventable diseases.” Id. at 41,384.
The Final Rule “does not consider receipt of Medicaid
by a child under age 21, or during a person’s
pregnancy, to constitute receipt of public benefits.”
DHS said that would address “a substantial portion,
though not all, of the vaccinations issue.” Id.
Accordingly, DHS “believes that vaccines would still be
available for children and adults even if they disenroll
from Medicaid.” Id. at 41,385.
Both the Northern District of California and the
Eastern District of Washington expressed concern that
the Final Rule was a departure from the 1999 Field
Guidance, which raised the vaccine issue, and that the
1999 Field Guidance had “engendered reliance.” City &
Cty. of San Francisco, 2019 WL 5100718, at *37; see
also Washington, 2019 WL 5100717, at *19. The
question is not whether an agency can change a policy
that people have come to rely on; clearly, it can. The
real question is whether the agency has acknowledged
the change and explained the reasons for it. DHS knew
well that it was adopting a change in policy; that was

App. 159
the whole purpose of this rulemaking exercise. See
Encino Motorcars, 136 S. Ct. at 2126 (holding that a
Department of Labor regulation was “issued without
. . . reasoned explanation” where there was “decades of
industry reliance on the Department’s prior policy” and
the new rule was “offered [with] barely any
explanation”); INS v. Yueh-Shaio Yang, 519 U.S. 26, 32
(1996) (distinguishing “an irrational departure from
[established] policy” from “an avowed alteration of it”).
“[I]t suffices that the new policy is permissible under
the statute, that there are good reasons for it, and that
the agency believes it to be better, which the conscious
change of course adequately indicates.” Fox Television
Stations, 556 U.S. at 515. Because DHS has adequately
explained the reasons for the Final Rule, it has
demonstrated a strong likelihood of success on the
merits.
V. OTHER FACTORS
We have concluded that DHS is likely to succeed on
the merits. Were we reviewing the preliminary
injunctions on direct review, this would be sufficient to
reverse the district courts’ orders. See Trump v.
Hawai‘i, 138 S. Ct. at 2423. But because we are here on
DHS’s motion for a stay, DHS bears the burden of
satisfying three additional factors: that DHS will suffer
some irreparable harm, that the balance of the
hardships favors a stay, and that the stay is in the
public interest. Nken, 556 U.S. at 434.
A. Irreparable Harm
We first consider whether DHS has shown that it
“will be irreparably injured absent a stay.” Nken, 556

App. 160
U.S. at 434 (quoting Hilton, 481 U.S. at 776). The
claimed irreparable injury must be likely to occur;
“simply showing some ‘possibility of irreparable injury’”
is insufficient. Id. (citation omitted). DHS has carried
its burden on this factor.
DHS contends that as long as the Final Rule is
enjoined,
DHS will grant lawful-permanent-resident
status to aliens whom the Secretary would
otherwise deem likely to become public charges
in the exercise of his discretion. DHS currently
has no practical means of revisiting publiccharge determinations once made, so the
injunctions will inevitably result in the grant of
LPR status to aliens who, under the Secretary’s
interpretation of the statute, are likely to
become public charges.
The States do not deny that LPR status might be
irrevocably granted to some aliens, but they claim that
DHS has “exaggerate[d] the effect of the injunction”
because the public-charge exclusion has “never played
a significant role in immigration. In contrast, in just 8
of the 14 Plaintiff States [in the Washington case] over
1.8 million lawfully present residents may be driven
from federal and state assistance programs if the
injunction is lifted.” They argue that preserving the
status quo will not harm DHS pending adjudication on
the merits, especially considering that the Final Rule
replaces a policy that had been in place for decades.
Several points emerge from the parties’ claims.
First, the States appear to concede that decisions to

App. 161
grant adjustment of status to aliens who could
otherwise not be eligible are not reversible. Second,
although the States argue that “public charge”
exclusions have not been an important component of
our immigration scheme in the past, the whole point of
DHS’s Final Rule is that “public charge”
inadmissibility has been underenforced.
Moreover, to the extent the States are contesting
the magnitude of the harm to DHS, the claim is
irrelevant here. We have said that this “analysis
focuses on irreparability, ‘irrespective of the magnitude
of the injury.’” California v. Azar, 911 F.3d 558, 581
(9th Cir. 2018) (quoting Simula, Inc. v. Autoliv, Inc.,
175 F.3d 716, 725 (9th Cir. 1999)). But even if we look
at the magnitude, the States’ own evidence is doubleedged. The States claim that they will suffer harm
because millions of persons will disenroll to avoid
potential immigration consequences. This seems to
prove DHS’s point. If millions of “lawfully present
residents” are currently receiving public benefits and
may choose to disenroll rather than be found to be a
“public charge” and inadmissible, the harm cited by
DHS is not only irreparable, but significant.
Finally, we think the tenability of DHS’s past
practice is of no import here. Congress has granted
DHS the authority to enact and alter immigration
regulations and DHS has done that, and it has done so
in a way that comports with its legal authority. Thus,
as of October 15, 2019, DHS had an obligation to deny
admission to those likely to become public charge, as
defined by the Final Rule. This is true regardless of
DHS’s prior policy. As a consequence, the preliminary

App. 162
injunctions will force DHS to grant status to those not
legally entitled to it. DHS has satisfied its burden to
show irreparable harm to the government absent a stay
of the injunctions.
B. Balance of Hardships and Public Interest
Since DHS has satisfied the first two factors, we
proceed to the final two: balance of equities and the
public interest. Nken, 556 U.S. at 435. “Because the
government is a party, we consider [these two factors]
together.” California v. Azar, 911 F.3d at 581.
To balance the equities, we consider the hardships
each party is likely to suffer if the other prevails. N.
Cheyenne Tribe v. Norton, 503 F.3d 836, 843–44 (9th
Cir. 2007) (citing Amoco Prod. Co. v. Vill. of Gambell,
480 U.S. 531, 542 (1987). We have discussed above the
irreparable, non-monetary harm to the government. On
the other hand, the States contend that they face
financial, public-health, and administrative harms if
the Final Rule takes effect and otherwise eligible
individuals disenroll from public benefits. These effects
are indirect effects of the Final Rule and they are
largely short-term, since they will only result during
the pendency of the proceedings in the district courts
and any appeals to this court and the Supreme Court.19
Those proceedings are likely to be conducted on an
expedited basis, limiting further any potential harm to
be considered by this court. DHS does not dispute that
19

This is not to say that the States will not continue to incur
harms after the litigation terminates, but these potential harms
are not relevant to the question of a preliminary injunction or a
stay.

App. 163
the States will incur some financial harm if the Final
Rule is not stayed. It cannot, because DHS repeatedly
addressed the potential costs to the States in its Final
Rule. See, e.g., 84 Fed. Reb. at 41,300, 41,312–14,
41,385–85, 41,469–70, 41,474. And while ordinarily, we
do not consider purely economic harm irreparable, we
have concluded that “such harm is irreparable” when
“the states will not be able to recover monetary
damages.” California v. Azar, 911 F.3d at 581. Yet the
States’ financial concerns will be mitigated to some
extent. As DHS explained in the Final Rule,
disenrollment from public benefits means a reduction
in federal and state transfer payments, so the States
will realize some savings in expenditures. 84 Fed. Reg.
at 41,485–86. Nevertheless, we consider the harms to
the States, even if not readily quantifiable, significant.
Balancing these harms is particularly difficult in
this case. First, the harms are not comparable. DHS’s
harm is not monetary, but programmatic. The policy
behind Congress’s decision not to admit those who are
likely to become a public charge may have a fiscal
component, but it is not the reason for DHS’s Final
Rule, nor has DHS argued financial harm as a reason
for seeking a stay. By contrast, the States’ proffered
harms are largely financial. Second, both parties’
proffered harms are, to a degree, speculative. We
cannot say for certain how many residents of the
plaintiff states and counties will disenroll from public
benefits programs, nor how much any overdisenrollment will cost the States. Nor can we say for
certain how many aliens might be found admissible
during the pendency of the preliminary injunction, and
would have been found inadmissible under the Final

App. 164
Rule. Given the largely predictive nature of both
parties’ alleged harms, we cannot state with any
confidence which is greater.
For the same reasons, the public interest in this
case is likewise difficult to calculate with precision.
DHS contends it is in the public’s interest not to grant
immigration status to persons likely to become public
charges. The States contend that it is in the public’s
interest to avoid increased administrative and publichealth costs. Both of these contentions are likely true.
But on balance, we have few standards for announcing
which interest is greater.
We recently observed that “balancing the equities is
not an exact science.” Azar, 911 F.3d at 582. Indeed,
Justice Frankfurter once remarked that the balancing
of the equities was merely “lawyers’ jargon for choosing
between conflicting public interests.” Youngstown Sheet
& Tube Co. v. Sawyer, 343 U.S. 579, 609 (1952)
(Frankfurter, J., concurring). Whether the stay is
granted or denied, one party’s costs will be incurred
and the other avoided. In the end, the “critical” factors
are that DHS has mustered a strong showing of
likelihood of success on the merits and some
irreparable harm. Nken, 556 U.S. at 434. Those factors
weigh in favor of granting a stay, despite the potential
harms to the States. And for that reason, the stay is in
the public interest.
VI. CONCLUSION
The motion for a stay of the preliminary injunction
in Nos. 19-17213 and 19-17214 is GRANTED. The
motion for stay of the preliminary injunction in No. 19-

App. 165
35914 is GRANTED. The cases may proceed consistent
with this opinion.
BYBEE, Circuit Judge, concurring, perplexed and
perturbed:
I join the majority opinion in full. I write separately
to emphasize two points—points that I feel must be
made, but are better said in a separate opinion.
We as a nation are engaged in titanic struggles over
the future of immigration in the United States. These
are difficult conversations. As a court, the Ninth
Circuit in particular has felt the effects of the recent
surge in immigration. As we observed last year with
respect to the asylum problem:
We have experienced a staggering increase in
asylum applications. Ten years ago we received
about 5,000 applications for asylum. In fiscal
year 2018 we received about 97,000—nearly a
twenty-fold increase. Our obligation to process
these applications in a timely manner,
consistent with our statutes and regulations, is
overburdened. The current backlog of asylum
cases exceeds 200,000—about 26% of the
immigration courts’ total backlog of nearly
800,000 removal cases. In the meantime, while
applications are processed, thousands of
applicants who had been detained by
immigration authorities have been released into
the United States.
E. Bay Sanctuary Covenant v. Trump, 932 F.3d 742,
754 (9th Cir. 2018) (citations omitted). Because of our
proximity to Mexico, Central America, and East Asia,

App. 166
the brunt of these cases will find their way into our
court. And we are well aware that we are only seeing
the matters that find their way into federal court, and
that the burdens of the increase in immigration are
borne not only by our judges, but by the men and
women in the executive branch charged with enforcing
the immigration laws.
Our court has faced an unprecedented increase in
emergency petitions arising out of the administration’s
efforts to administer the immigration laws and secure
our borders. These controversial efforts have met with
mixed success in our court and the Supreme Court. See,
e.g., Sierra Club v. Trump, 929 F.3d 670 (9th Cir.)
(construction of wall on the border with Mexico), stay
issued, 140 S. Ct. 1 (2019) (mem.); E. Bay Sanctuary
Covenant v. Trump, 932 F.3d 742 (9th Cir. 2018)
(aliens entering outside a port of entry are ineligible for
asylum); Regents of Univ. of Cal. v. U.S. Dep’t of
Homeland Sec., 908 F.3d 476 (9th Cir. 2018) (DACA),
cert. granted, 139 S. Ct. 2779 (2019) (mem.); Trump
v.Hawai‘i, 878 F.3d 662 (9th Cir. 2017) (per curiam)
(entry restrictions), rev’d, 138 S. Ct. 2392 (2018); Flores
v. Sessions, 862 F.3d 863 (9th Cir. 2017) (treatment of
detained alien minors under Flores agreement);
Hawai‘i v. Trump, 859 F.3d 741 (9th Cir.) (per curiam)
(travel ban), vacated as moot, 138 S. Ct. 377 (2017)
(mem.); Washington v. Trump, 847 F.3d 1151 (9th Cir.)
(per curiam) (travel ban), cert. denied sub nom. Golden
v. Washington, 138 S. Ct. 448 (2017) (mem.).
My first point is that even as we are embroiled in
these controversies, no one should mistake our
judgments for our policy preferences. Whether “the iron

App. 167
fist [or an extended velvet glove] would be the
preferable policy. . . . our thoughts on the efficacy of the
one approach versus the other are beside the point,
since our business is not to judge the wisdom of the
National Government’s policy.” Am. Ins. Ass’n v.
Garamendi, 539 U.S. 396, 427 (2003); see Sale v.
Haitian Ctrs. Council, Inc., 509 U.S. 155, 165 (1993)
(“The wisdom of the policy choices made by Presidents
Reagan, Bush, and Clinton is not a matter for our
consideration.”); Lochner v. New York, 198 U.S. 45, 69
(1905) (Harlan, J., dissenting) (“Whether or not this be
wise legislation it is not the province of the court to
inquire. Under our systems of government the courts
are not concerned with the wisdom or policy of
legislation.”).
Oh, I am not so naive as to think that a simple
declaration of judicial neutrality will quell inquiry into
judges’ backgrounds, prior writings, and opinions. The
battles over judicial nominations provide ample proof
that our generation of lawyers bear a diverse set of
assumptions about the nature of law, proper modes of
constitutional interpretation, and the role of the
judiciary. These are fair debates and they are likely to
continue for some time. We can only hope that over
time our differences can be resolved by reason and
persuasion rather than by politics by other means. But
I don’t know of any judge—at least not this judge—who
can say that every opinion and judgment she issued
was in accord with her preferred policy outcomes. “[I]n
our private opinions, [we] need not concur in Congress’
policies to hold its enactments constitutional. Judicially
we must tolerate what personally we may regard as a

App. 168
legislative mistake.” Harisiades v. Shaughnessy, 342
U.S. 580, 590 (1952).
My second point is less politic. In this case, we are
called upon to review the merits of DHS’s Final Rule
through the lens of the judicial review provisions of the
Administrative Procedure Act, 5 U.S.C. § 706. Our
review is quite circumscribed. We can set aside agency
action if it is contrary to law, if it exceeds the agency’s
jurisdiction or authority, or if the agency failed to
follow proper procedure. Id. § 706(2)(B)–(D). Those are
largely legal judgments, which we can address through
the traditional tools judges have long used. With
respect to the policy behind the agency’s action, we are
largely relegated to reviewing the action for
arbitrariness and caprice. Id. § 706(2)(A). That is not a
very rigorous standard and, as a result, an agency has
broad discretion to administer the programs entrusted
to it by Congress. Cf. Vt. Yankee Nuclear Power Corp.
v. Nat. Res. Def. Council, Inc., 435 U.S. 519, 558 (1978)
(“[F]undamental policy questions appropriately
resolved in Congress . . . are not subject to
reexamination in the federal courts under the guise of
judicial review of agency action.”).
In the immigration context, whatever dialogue we
have been having with the administration over its
policies, we are a poor conversant. We are limited in
what we can say and in our ability—even if anyone
thought we were qualified to do so—to shape our
immigration policies. We lack the tools of inquiry,
investigation, and fact-finding that a responsible
policymaker should have at its disposal. In sum, the
APA is the meagerest of checks on the executive. We

App. 169
are not the proper foil to this or any other
administration as it crafts our immigration policies.
By constitutional design, the branch that is
qualified to establish immigration policy and check any
excesses in the implementation of that policy is
Congress. See U.S. CONST. Art. I, § 8, cl. 4. And, so far
as we can tell from our modest perch in the Ninth
Circuit, Congress is no place to be found in these
debates. We have seen case after case come through
our courts, serious and earnest efforts, even as they are
controversial, to address the nation’s immigration
challenges. Yet we have seen little engagement and no
actual legislation from Congress. It matters not to me
as a judge whether Congress embraces or disapproves
of the administration’s actions, but it is time for a
feckless Congress to come to the table and grapple with
these issues. Don’t leave the table and expect us to
clean up.
___________________________________________________
OWENS, Circuit Judge, concurring in part and
dissenting in part:
While I concur with the majority’s jurisdiction
analysis, I otherwise respectfully dissent. In light of
the: (1) government’s heavy burden due to the standard
of review, (2) opaqueness of the legal questions before
us, (3) lack of irreparable harm to the government at
this early stage, (4) likelihood of substantial injury to
the plaintiffs, and (5) equities involved, I would deny
the government’s motions to stay and let these cases
proceed in the ordinary course. See Nken v. Holder, 556
U.S. 418, 427, 433–34 (2009) (holding that a “stay is an
‘intrusion into the ordinary processes of administration

App. 170
and judicial review,’” and “[t]he party requesting a stay
bears the burden of showing that the circumstances
justify an exercise of [judicial] discretion” (citation
omitted)).

App. 171

APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 19-cv-04717-PJH
Case No. 19-cv-04975-PJH
Case No. 19-cv-04980-PJH
Related Cases
[Filed: October 11, 2019]
CITY AND COUNTY OF SAN
FRANCISCO, et al.,
Plaintiffs,
v.
U.S. CITIZENSHIP AND
IMMIGRATION SERVICES, et al.,
Defendants.
STATE OF CALIFORNIA, et al.,
Plaintiffs,
v.
U.S. DEPARTMENT OF HOMELAND
SECURITY, et al.,
Defendants.

App. 172
LA CLINICA DE LA RAZA, et al.,
Plaintiffs,
v.
DONALD J. TRUMP, et al.,
Defendants.
PRELIMINARY INJUNCTION
This order concerns three motions for a preliminary
injunction filed in three related actions. Each of the
plaintiffs in those actions moved for preliminary
injunctive relief. The motions came on for hearing
before this court on October 2, 2019.
Plaintiff the City and County of San Francisco (“San
Francisco”) appeared through its counsel, Matthew
Goldberg, Sara Eisenberg, and Yvonne Mere. Plaintiff
the County of Santa Clara (“Santa Clara” and together
with San Francisco, the “Counties”) appeared through
its counsel, Ravi Rajendra, Laura Trice, and Luke
Edwards. Plaintiffs the State of California, District of
Columbia, State of Maine, Commonwealth of
Pennsylvania, and State of Oregon (together, including
D.C., the “States”) appeared through their counsel,
Anna Rich, Lisa Cisneros, and Brenda Ayon Verduzco.
Plaintiffs La Clinica De La Raza and California
Primary Care Association (the two together are the
“Healthcare Organizations”), Maternal and Child
Health Access, Farmworker Justice, Council on
American Islamic Relations-California, African
Communities Together, Legal Aid Society of San Mateo
County, Central American Resource Center, and

App. 173
Korean Resource Center (the “Legal Organizations”)
(the Legal Organizations and the Healthcare
Organizations together are the “Organizations”)
appeared through their counsel, Alvaro Huerta,
Nicholas Espiritu, Joanna Cuevas Ingram, Kevin
Herrera, Tanya Broder, Max Wolsen, and Mayra
Joachin.
Defendants U.S. Citizenship and Immigration
Services (“USCIS”), Department of Homeland Security
(“DHS”), Kevin McAleenen as Acting Secretary of DHS,
Kenneth T. Cuccinelli as Acting Director of USCIS, and
Donald J. Trump, as President of the United States
appeared through their counsel, Ethan Davis, Eric
Soskin, and Kuntal Cholera.
Additionally, papers submitted by numerous amici
curiae were before the court. Prior to the hearing, the
court granted motions to file amicus briefs on behalf of
the following non-parties, all of which the court
considered in its analysis: American Public Health
Association, et al.; Asian Americans Advancing Justice,
et al.; City of Los Angeles, et al.; Justice in Aging, et
al.; and Members of Congress. A number of other
requests to file amici briefs were denied due to the
court’s insufficient time to consider them on this
particular motion, given the already-voluminous filings
from the parties, the briefing schedule, and the
time-sensitive nature of plaintiffs’ request for
preliminary relief.
Having read the papers filed by the parties and
carefully considered their arguments and the relevant
legal authority, and good cause appearing, the court
hereby GRANTS CERTAIN PLAINTIFFS’ MOTIONS

App. 174
AND ISSUES A PRELIMINARILY INJUNCTION, the
scope of which is discussed below, for the following
reasons.
EXECUTIVE SUMMARY
In 1883, Emma Lazarus penned the now-famous
sonnet, The New Colossus. Later affixed to the Statue
of Liberty in New York Harbor, the poem has been
incorporated into the national consciousness as a
representation of the country’s promise to would-be
immigrants:
Not like the brazen giant of Greek fame,
With conquering limbs astride from land to land;
Here at our sea-washed, sunset gates shall stand
A mighty woman with a torch, whose flame
Is the imprisoned lightning, and her name
Mother of Exiles. From her beacon-hand
Glows world-wide welcome; her mild eyes
command
The air-bridged harbor that twin cities frame.
“Keep, ancient lands, your storied pomp!” cries
she
With silent lips. “Give me your tired, your poor,
Your huddled masses yearning to breathe free,
The wretched refuse of your teeming shore.
Send these, the homeless, tempest-tost to me,
I lift my lamp beside the golden door!”
But whether one would prefer to see America’s
borders opened wide and welcoming, or closed because
the nation is full, laws—not poetry—govern who may
enter. And the year before Lazarus wrote The New
Colossus, Congress had enacted its first comprehensive

App. 175
immigration law, barring entry to “any convict, lunatic,
idiot, or any person unable to take care of himself or
herself without becoming a public charge,” among
others. An Act to Regulate Immigration, 22 Stat. 214,
Chap. 376 § 2. (1882). Although various iterations of
similar laws have since come and gone (the operative
statute no longer refers to “lunatics” or “idiots”), since
the very first immigration law in 1882, this country has
consistently excluded those who are likely to become a
“public charge.”
Although Congress has never authored an explicit
definition of the term, courts and the executive branch
have been considering its meaning as used in the
statute for over one hundred and twenty years. As
interpretations from those two branches accreted
toward a consistent understanding, Congress
repeatedly enacted statutes adopting the identical
phrase.
In 1999, the executive branch reviewed its historical
application of the term and issued formal guidance to
executive employees, explaining that the public charge
determination has historically, and should continue to,
focus on whether an individual is primarily dependent
on the government for subsistence.
In 2018, DHS published a new rule (scheduled to
take effect October 15, 2019) that proposed to
dramatically expand the definition of “public charge.”
Rather than include only those who primarily depend
on the government for subsistence, DHS now proposes
for the first time to categorize as a public charge every
person who receives 12 months of public benefits
(including many in-kind benefits, like Medicaid and

App. 176
SNAP/Food Stamps) over any 36-month period,
regardless of how valuable those benefits are, or how
much they cost the government to provide (receiving
two types of benefits in one month would count as
receiving benefits for two months).
Today, the court is presented with a challenge to
DHS’s new definition. The plaintiffs seek to prevent
defendants from implementing it before this court can
consider this case on the merits. The plaintiffs argue
that the new definition will lead to widespread
disenrollment1 from public benefits by those who fear
being labeled a public charge (and by those confused
that they may be swept up in the rule), which will
cause plaintiffs to lose a substantial amount funding
(for example, the federal government heavily subsidizes
state expenses for those enrolled in Medicaid).
The court finds that the plaintiffs are likely to
prevail on the merits, for numerous reasons. DHS’s
new definition of “public charge” is likely to be outside
the bounds of a reasonable interpretation of the
statute. Moreover, plaintiffs are likely to prevail on
their entirely independent arguments that defendants
acted arbitrarily and capriciously during the
legally-required process to implement the changes they
propose. Because plaintiffs are likely to prevail and will
be irreparably harmed if defendants are permitted to
implement the rule as planned on October 15, this

1

When plaintiffs refer to harms caused by those who will disenroll
from public benefits in addition to those who will forego
enrollment. This order considers the two categories together, and
refers to them interchangeably.

App. 177
court will enjoin implementation of the rule in the
plaintiff states until this case is resolved on the merits,
as discussed in more detail below.
BACKGROUND
In each of the actions before the court, the plaintiffs
challenge and seek to preliminarily enjoin
implementation of a proposed rule entitled
“Inadmissibility on Public Charge Grounds,” proposed
by DHS and published in the Federal Register on
August 14, 2019. See Inadmissibility on Public Charge
Grounds, 84 Fed. Reg. 41,292 (August 14, 2019) (“the
Rule”). The Rule is scheduled to take effect nationwide
on October 15, 2019.
A. The Three Actions
In City and County of San Francisco v. U.S.
Citizenship and Immigration Services, Case No.
19-cv-04717-PJH, San Francisco and Santa Clara
(together, the “Counties”) filed a complaint naming as
defendants USCIS; DHS; McAleenen as Acting
Secretary of DHS; and Cuccinelli as Acting Director of
USCIS. The complaint asserts two causes of action
under the Administrative Procedure Act (“APA”):
(1) Violation of APA, 5 U.S.C. § 706(2)(A)—Not in
Accordance with Law; and (2) Violation of APA, 5
U.S.C. § 706(2)(A)—Arbitrary, Capricious, and Abuse
of Discretion. The Counties filed the present motion for
preliminary injunction on August 28, 2019.
In State of California v. U.S. Department of
Homeland Security, Case No. 19-cv-04975-PJH, the
States filed a complaint naming the same defendants
as the Counties: USCIS; DHS; McAleenen as Acting

App. 178
Secretary of DHS; and Cuccinelli as Acting Director of
USCIS. The complaint asserts six causes of action:
(1) Violation of APA, 5 U.S.C. § 706—Contrary to Law,
the Immigration and Nationality Act and the Illegal
Immigration Reform and Immigrant Responsibility
Act; (2) Violation of APA, 5 U.S.C. § 706—Contrary to
Law, Section 504 of the Rehabilitation Act, codified at
29 U.S.C. § 794 (the “Rehabilitation Act”); (3) Violation
of APA, 5 U.S.C. § 706—Contrary to Law, State
Healthcare Discretion; (4) Violation of APA, 5 U.S.C.
§ 706—Arbitrary and Capricious; Violation of the Fifth
Amendment’s Due Process clause requiring Equal
Protection based on race; (6) Violation of the Fifth
Amendment’s Due Process clause, based on a violation
of Equal Protection principles based on
unconstitutional animus. The States filed the present
motion for preliminary injunction on August 26, 2019.
On August 27, 2019, this court ordered the action
brought by the States related to the action brought by
the Counties.
In La Clinica De La Raza v. Trump, Case No.
19-cv-04980-PJH, the Organizations filed a complaint
naming the same defendants as the Counties, and also
added Donald J. Trump: USCIS; DHS; McAleenen as
Acting Secretary of DHS; and Cuccinelli as Acting
Director of USCIS; and Donald J. Trump, as President
of the United States. The complaint asserts four causes
of action: (1) Violation of APA, 5 U.S.C. § 706—
Contrary to the Statutory Scheme; (2) Violation of APA,
5 U.S.C. § 706—Arbitrary, Capricious, or otherwise not
in accordance with law; (3) Violation of the Fifth
Amendment based on Equal Protection for
discriminating against non-white immigrants;

App. 179
(4) under the Declaratory Judgment Act, seeking a
determination that the Rule is invalid because it was
issued by an unlawfully-appointed agency director. On
August 30, 2019, this court ordered the action brought
by the Organizations related to the action brought by
the Counties. The Organizations filed the present
motion for preliminary injunction on September 4,
2019.
B. The Dispute
The Immigration and Nationality Act, 8 U.S.C.
§§ 1101, et seq. (“INA”), requires that all noncitizens
seeking to be lawfully admitted into the United States
or to become lawful permanent residents (“LPRs”)
prove they are not inadmissible. 8 U.S.C. § 1361; 8
U.S.C. § 1225(a). A noncitizen may be deemed
inadmissible on any number of grounds, including that
they are “likely at any time to become a public charge.”
8 U.S.C. § 1182(a)(4)(A).
The specific INA provision relating to whether an
alien is likely to become a “public charge” at issue in
this litigation provides, in relevant part:
Except as otherwise provided in this chapter,
aliens who are inadmissible under the following
paragraphs are ineligible to receive visas and
ineligible to be admitted to the United States:
....
(4) Public charge
(A) In general

App. 180
Any alien who, in the opinion of the
consular officer at the time of application
for a visa, or in the opinion of the
Attorney General at the time of
application for admission or adjustment
of status, is likely at any time to become
a public charge is inadmissible.
(B) Factors to be taken into account
(i) In determining whether an alien is
inadmissible under this paragraph,
the consular officer or the Attorney
General shall at a minimum consider
the alien’s—
(I) age;
(II) health;
(III) family status;
(IV) assets, resources, and
financial status; and
(V) education and skills.
(ii) In addition to the factors under
clause (i), the consular officer or the
Attorney General may also consider
any affidavit of support under section
1183a[2] of this title for purposes of
exclusion under this paragraph.
8 U.S.C. § 1182(a)(4).

2

Section 1183a is titled “Requirements for sponsor’s affidavit of
support” and sets forth the requirements of an “affidavit of support
. . . to establish that an alien is not excludable as a public charge
under section 1182(a)(4) of this title[.]” 8 U.S.C. § 1183a(a)(1).

App. 181
The statute directs a “consular officer” or “the
Attorney General” to form an opinion as to whether the
applicant “is likely at any time to become a public
charge.” Id. In forming that opinion, immigration
officers must consider “at a minimum” five statutorilydefined factors: (1) age; (2) health; (3) family status;
(4) assets, resources, and financial status; (5) education
and skills. 8 U.S.C. § 1182(a)(4)(B)(i).
An officer may additionally consider an affidavit of
support, which is a legally-enforceable contract
between the sponsor of the applicant and the Federal
Government. See 8 U.S.C. § 1182(a)(4)(B)(ii); 8 U.S.C.
§ 1183a(a). The sponsor pledges to accept financial
responsibility for the applicant and to maintain the
applicant at an income of “not less than 125 percent of
the Federal poverty line during the period in which the
affidavit is enforceable[.]” 8 U.S.C. § 1183a(a)(1)(A).
Certain groups of noncitizens, such as asylum
seekers and refugees, are not subject to exclusion based
on an assessment that they are likely to become a
public charge. See 8 U.S.C. § 1157 (refugee); 8 U.S.C.
§ 1158 (asylum); 8 U.S.C. § 1159(c) (refugee).
An alien found to be inadmissible as a public charge
may “be admitted in the discretion of the Attorney
General . . . upon the giving of a suitable and proper
bond or undertaking approved by the Attorney General,
in such amount and containing such conditions as he
may prescribe . . . holding the United States and all
States . . . harmless against such alien becoming a
public charge.” 8 U.S.C. § 1183.

App. 182
The public charge ground may arise when, inter
alia, an alien seeks LPR status, or when noncitizens
apply for visas. 8 U.S.C. § 1182(a); 8 U.S.C. § 1255(a).
Aliens “to whom a permit to enter the United States
has been issued to enter the United States” are also
subject to an inadmissibility determination by DHS at
ports of entry when they enter and re-enter the United
States. 8 U.S.C. § 1185(d).
Immigrants with LPR status may also be subject to
the public charge analysis. For example, an LPR is
considered to be “seeking admission” under various
circumstances, for example when returning to the
United States after being “absent from the United
States for a continuous period in excess of 180 days” or
after engaging in any “illegal activity after having
departed the United States[.]” 8 U.S.C.
§ 1101(a)(13)(C)(ii)–(iii). LPRs can also be denied
citizenship and/or placed in removal proceedings if
DHS determines retrospectively that they were
inadmissible as a public charge at the time of their
adjustment. 8 U.S.C. § 1227(a)(1)(A); 84 Fed. Reg. at
41,328 & n.176 (discussing possible impact on
naturalizations).
Under a separate provision in the INA, an alien can
be deported upon a determination that he has in fact
become a public charge since his admission, from
causes “not affirmatively shown to have arisen since
entry[.]” 8 U.S.C. 1227(a)(5).3

3

Confusingly, DHS’s Rule would use completely distinct
definitions for the term “public charge” when assessing whether an
alien “has become a public charge” (8 U.S.C. 1227(a)(5)) and

App. 183
On October 10, 2018, DHS began the rule-making
process to create a new framework for the public
charge assessment by publishing a Notice of Proposed
Rulemaking. See Inadmissibility on Public Charge
Grounds, 83 Fed. Reg. 51,114 (Oct. 10, 2018) (the notice
of proposed rulemaking is the “NPRM”). The NPRM
provided a 60-day public comment period, during which
266,077 comments were collected. See 84 Fed. Reg. at
41,297. On August 14, 2019, DHS published the Rule
in the Federal Register. Id. at 41,292. It is set to
become effective on October 15, 2019. On October 2,
2019—the morning of the hearing on the pending
motions for preliminary injunction—DHS published a
25-page list of “corrections” to the proposed final rule.4
See Case No. 19-cv-04717-PJH, Dkt. 106, Ex. A. DHS
stated that its October 2 amendments to the rule would
not delay its planned implementation on October 15.
The Rule sets out what the parties have referred to
as the “12/36 standard.” That is, the Rule “redefines
the term ‘public charge’ to mean an alien who receives
one or more designated public benefits for more than 12
months in the aggregate within any 36-month period
(such that, for instance, receipt of two benefits in one

whether an alien “is likely at any time to become a public charge”
(8 U.S.C. 1182(a)(4)(A).
4

Although defendants described the changes as fixes to “technical
and typographical errors” (Case No. 19-cv-04717-PJH, Dkt. 106,
Ex. A at 2), the States argued at the hearing that upon their
limited review of the corrections (a review that was necessarily
limited given the eleventh-hour disclosure of DHS’s changes to the
rule), the amendments mooted at least one issue underlying the
States’ motion, regarding treatment of military families.

App. 184
month counts as two months). This Rule defines the
term ‘public benefit’ to include cash benefits for income
maintenance, SNAP, most forms of Medicaid, Section
8 Housing Assistance under the Housing Choice
Voucher (HCV) Program, Section 8 Project-Based
Rental Assistance, and certain other forms of
subsidized housing.” 84 Fed. Reg. at 41,295.
Because the INS directs immigration officers to
opine as to whether an alien “is likely at any time to
become a public charge,” the Rule’s new definition
requires immigration officers to opine as to whether an
alien is likely to receive certain public benefits for more
than 12 months in the aggregate within any future
36-month period to determine whether he is likely to
become a public charge. The rule sets out a number of
positive, negative, heavily-weighted, and normallyweighted factors to assist in making that
determination, and those factors are considered as part
of a “totality of the circumstances” assessment of
whether an alien is likely to use more than 12 months’
worth of benefits in any future 36-month period.
DISCUSSION
A. Legal Standard
Federal Rule of Civil Procedure 65 provides federal
courts with the authority to issue preliminary
injunctions. Fed. R. Civ. P. 65(a). Generally, the
purpose of a preliminary injunction is to preserve the
status quo and the rights of the parties until a final
judgment on the merits can be rendered. See U.S.
Philips Corp. v. KBC Bank N.V., 590 F.3d 1091, 1094
(9th Cir. 2010).

App. 185
An injunction is a matter of equitable discretion and
is “an extraordinary remedy that may only be awarded
upon a clear showing that the plaintiff is entitled to
such relief.” Winter v. Natural Res. Def. Council, Inc.,
555 U.S. 7, 22 (2008); see also Munaf v. Geren, 553
U.S. 674, 689–90 (2008). A preliminary injunction
“should not be granted unless the movant, by a clear
showing, carries the burden of persuasion.” Mazurek v.
Armstrong, 520 U.S. 968, 972 (1997) (per curiam).
“A plaintiff seeking a preliminary injunction must
establish that [1] he is likely to succeed on the merits,
that [2] he is likely to suffer irreparable harm in the
absence of preliminary relief, that [3] the balance of
equities tips in his favor, and that [4] an injunction is
in the public interest.” Winter, 555 U.S. at 20.
Alternatively, “‘serious questions going to the
merits’ and a hardship balance that tips sharply
toward the plaintiff can support issuance of an
injunction, assuming the other two elements of the
Winter test are also met.” All. for the Wild Rockies v.
Cottrell, 632 F.3d 1127, 1132 (9th Cir. 2011). “That is,
‘serious questions going to the merits’ and a balance of
hardships that tips sharply towards the plaintiff can
support issuance of a preliminary injunction, so long as
the plaintiff also shows that there is a likelihood of
irreparable injury and that the injunction is in the
public interest.” Id. at 1135; see also Disney
Enterprises, Inc. v. VidAngel, Inc., 869 F.3d 848, 856
(9th Cir. 2017).
If a plaintiff satisfies its burden to demonstrate that
a preliminary injunction should issue, “injunctive relief
should be no more burdensome to the defendant than

App. 186
necessary to provide complete relief to the plaintiffs.”
Califano v. Yamasaki, 442 U.S. 682, 702 (1979).
Separately, the APA permits this court to “postpone
the effective date of action . . . pending judicial review.”
5 U.S.C. § 705; Bakersfield City Sch. Dist. of Kern Cty.
v. Boyer, 610 F.2d 621, 624 (9th Cir. 1979) (“The
agency or the court may postpone or stay agency action
pending such judicial review.”) (citing 5 U.S.C. § 705).
Any such postponement must be made “[o]n such
conditions as may be required and to the extent
necessary to prevent irreparable injury[.]” 5 U.S.C.
§ 705. The factors considered when issuing such a stay
substantially overlap with the Winter factors for a
preliminary injunction. See, e.g., Bauer v. DeVos, 325
F. Supp. 3d 74, 104–07 (D.D.C. 2018).
B. Analysis
In considering plaintiffs’ motions for preliminary
injunction, the court considers the Winter factors (and
the alternative All. for the Wild Rockies) factors in
turn. First, the court considers whether plaintiffs have
demonstrated they are likely to succeed on the merits
of their claims, or alternatively whether they have
demonstrated serious questions going to the merits.
Because a plaintiff must be within a statute’s “zone of
interest” to succeed on an APA challenge based on the
underlying statute, the court considers whether each
plaintiff is within the relevant statute’s zone of
interests when assessing its likelihood of success on the
merits.
Second, the court considers whether plaintiffs have
demonstrated they are likely to suffer irreparable harm

App. 187
in the absence of preliminary relief. Because plaintiffs’
alleged irreparable harms are also their alleged bases
for standing, the court considers whether each plaintiff
has standing to bring a ripe claim when assessing its
irreparable harms.
Third, the court considers whether plaintiffs have
demonstrated that the balance of equities tip in their
favor, and whether the balance of hardships tip sharply
in their favor.
Fourth, the court considers whether plaintiffs have
demonstrated that an injunction is in the public
interest.
Fifth, the court addresses the scope of injunctive
relief necessary and capable of providing complete
relief to the harms plaintiffs have demonstrated they
are likely to suffer prior to a determination on the
merits, absent such relief.
1. The State and County Plaintiffs Are Likely
to Succeed on the Merits and Have Raised
Serious Questions
Plaintiffs argue that they are likely to succeed on
three of their causes of action, each alleging a violation
of the APA: (1) that the Rule violates the APA because
it is not in accordance with the term “public charge” as
used in the INA; (2) that the Rule violates the APA
because it is not in accordance with the Rehabilitation
Act § 504; and (3) that the Rule violates the APA

App. 188
because it is arbitrary, capricious, and an abuse of
discretion.5
Under the APA, “the reviewing court shall decide all
relevant questions of law, interpret constitutional and
statutory provisions, and determine the meaning or
applicability of the terms of an agency action. The
reviewing court shall . . . hold unlawful and set aside
agency action, findings, and conclusions found to be . . .
arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law[.]” 5 U.S.C. § 706.
“In the usual course, when an agency is authorized
by Congress to issue regulations and promulgates a
regulation interpreting a statute it enforces, the
interpretation receives deference if the statute is
ambiguous and if the agency’s interpretation is
reasonable. This principle is implemented by the
two-step analysis set forth in Chevron.” Encino
Motorcars, LLC v. Navarro, 136 S. Ct. 2117, 2124
(2016) (citing Chevron U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 842 (1984)). “At the first
step, a court must determine whether Congress has
‘directly spoken to the precise question at issue.’ If so,
‘that is the end of the matter; for the court, as well as
the agency, must give effect to the unambiguously

5

Although some of the arguments supporting these claims are
likely to overlap with other claims plaintiffs assert, plaintiffs have
made clear that they are not moving for a preliminarily injunction
based on any other claim, including, inter alia, the claim that the
Rule violates the APA because it is contrary to laws giving the
States discretion with respect to the provision of healthcare, the
claim under the declaratory judgment act that Cuccinelli was
unlawfully appointed, or any of the asserted Constitutional claims.

App. 189
expressed intent of Congress.’ If not, then at the second
step the court must defer to the agency’s interpretation
if it is ‘reasonable.’” Encino Motorcars, 136 S. Ct. at
2124–25 (citations omitted) (quoting Chevron, 467 U.S.
at 842–44).
“[I]f the statute is silent or ambiguous with respect
to the specific issue, the question for the court is
whether the agency’s answer is based on a permissible
construction of the statute.” Chevron, 467 U.S. at 843;
see also Michigan v. E.P.A., 135 S. Ct. 2699, 2707
(2015) (“Even under this deferential standard,
however, agencies must operate within the bounds of
reasonable interpretation.”) (internal quotation marks
omitted).
The Chevron analysis calls upon the court to
“employ[] traditional tools of statutory construction” to
fulfill its role as “the final authority on issues of
statutory construction[.]” Chevron, 467 U.S. at 843 n.9;
accord Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1630
(2018).
“Chevron deference, however, is not accorded
merely because the statute is ambiguous and an
administrative official is involved. To begin with, the
rule must be promulgated pursuant to authority
Congress has delegated to the official.” Gonzales v.
Oregon, 546 U.S. 243, 258 (2006). “The starting point
for this inquiry is, of course, the language of the
delegation provision itself. In many cases authority is
clear because the statute gives an agency broad power
to enforce all provisions of the statute.” Id. (drawing a
distinction between delegation of authority to carry out

App. 190
the act generally, and authority to execute the
functions assigned to the agency).
First, the court assesses whether plaintiffs are
likely to succeed on their claims under the APA that
the Rule is not in accordance with law, as provided in
8 U.S.C. § 1182(a)(4). Second, the court assesses
whether plaintiffs are likely to succeed on their claims
under the APA that the Rule is not in accordance with
law, as provided in the Rehabilitation Act § 504. Third,
the court assess whether plaintiffs are likely to succeed
on their claims under the APA, that the Rule is
arbitrary and capricious. Fourth, the court assesses
whether each plaintiff is within the relevant zone of
interests, which is required to succeed on an APA
claim.
a. Not in Accordance with Law---8 U.S.
Code § 1182(a)(4)
Plaintiffs argue that the Rule is not in accordance
with the definition of “public charge” as used in 8 U.S.
Code § 1182(a)(4) for three reasons: (1) DHS’s
interpretation should not be accorded any deference,
and the Rule’s definition is inconsistent with the
statute; (2) even if the term is accorded deference, the
term plainly and unambiguously means “primarily
dependent on the government for subsistence,” and the
Rule conflicts with that definition; and (3) the Rule’s
definition of “public charge” is not reasonable or based
on a permissible construction of the statute.
The court did not understand plaintiffs to have
raised the first argument in their moving papers,
although the Counties may have raised it obliquely in

App. 191
their reply. But the court and defendants were
surprised to learn at the hearing that plaintiffs were
advancing an argument that DHS’s promulgation of
the Rule was wholly outside of Congressionallydelegated authority. Cf. Counties’ Reply at 8–9
(“Counties do not contest DHS’s authority to issue
rational regulations governing the case-by-case
application of the statutory standard, so long as they do
not misconstrue the term ‘public charge.’”); States’
Reply at 9–10 (“the States have never disputed the
commonsense point that Congress in 8 U.S.C.
§ 1182(a)(4)(A) assigned responsibility to Defendants to
make individual public charge determinations”);
Organizations’ Reply at 9 (“even if Defendants were
correct, Congress could delegate to DHS the power only
to adopt reasonable interpretations of the statute”).
Nevertheless, plaintiffs have not sufficiently supported,
or even explained, their argument to satisfy their
burden to show likelihood of success on the merits
based on it.6 Accordingly, the court analyzes the Rule
pursuant to the framework set out by Chevron.
The second and third arguments concern a
challenge under Chevron’s framework to the meaning
of “public charge” as used in § 1182(a)(4). Plaintiffs’
second argument requires the court to determine
whether the Rule contravenes the statute’s
unambiguous meaning, and their third argument
requires the court to determine whether defendants’

6

However, the court notes that whether DHS’s promulgation of the
Rule falls within the rulemaking authority delegated to it by
Congress may benefit from more attention in the parties’ future
briefing on the merits. See generally 8 U.S.C. § 1103(a).

App. 192
chosen definition is reasonable and based on a
permissible construction of the statute. Both questions
require a discussion of the long usage of the term by
Congress, as well as the expansive evaluation of the
term by courts and executive agencies.
As preface to that discussion, a brief outline helps
set the stage. The phrase “public charge” was used in
this country’s first-ever general immigration statute in
1882. The immigration statutes have been interpreted
and modified many time since then, and although
many other excluded categories of persons came and
went, with each modification through today the phrase
“public charge” remained intact. As a result, the
meaning that the persistent term had when first used
is relevant to understanding the meaning Congress
ascribed to it with each subsequent statutory revision,
including the now-operative statute, which most
recently saw changes to the relevant provisions in 1990
and 1996.
Ultimately, this dispute concerns the meaning of a
statutory term passed in 1990—with clarifying
language passed in 1996. As such, the court considers
the meaning ascribed to the term by Congress at that
time, but in doing so it must afford due consideration
to Congress’s understanding of the term given the long
historical context it was operating within, which the
court presently endeavors to describe. See Forest Grove
Sch. Dist. v. T.A., 557 U.S. 230, 239–40 (2009)
(“Congress is presumed to be aware of an
administrative or judicial interpretation of a statute
and to adopt that interpretation when it re-enacts a
statute without change.”) (quoting Lorillard v. Pons,

App. 193
434 U.S. 575, 580 (1978)); United States v.
Argueta-Rosales, 819 F.3d 1149, 1159 (9th Cir. 2016)
(same); J.L. v. Mercer Island Sch. Dist., 592 F.3d 938,
951 (9th Cir. 2010) (Congress does no “abrogate[] sub
silentio the Supreme Court’s decision[s]”); Bob Jones
Univ. v. United States, 461 U.S. 574, 600–01 (1983)
(interpretation informed by the fact that Congress had
a “prolonged and acute awareness” of an established
agency interpretation of a statute, considered the
precise issue, and rejected bills to overturn the
prevailing interpretation); Merrill Lynch, Pierce,
Fenner & Smith, Inc. v. Curran, 456 U.S. 353, 381–82
(1982) (Congress is aware “of the ‘contemporary legal
context’ in which” it legislates, and amending a statute
while leaving certain statutory provisions intact “is
itself evidence that Congress affirmatively intended to
preserve that” context); see also I.N.S. v.
Cardoza-Fonseca, 480 U.S. 421, 442–43 (1987) (“Few
principles of statutory construction are more
compelling than the proposition that Congress does not
intend sub silentio to enact statutory language that it
has earlier discarded in favor of other language.”);
Albemarle Paper Co. v. Moody, 422 U.S. 405, 414 n.8
(1975) (rejecting construction of statute that would
implement substance of provision that Conference
Committee rejected).
1. 1882 Act
In 1882, Congress enacted the country’s first
general immigration statute. See An Act to Regulate
Immigration, 22 Stat. 214 (1882) (the “1882 Act”). That
statute provided, in part:

App. 194
That the Secretary of the Treasury . . . shall
have power to . . . provide for the support and
relief of such immigrants therein landing as may
fall into distress or need public aid . . . and it
shall be the duty of such State . . . to examine
into the condition of passengers arriving at the
ports . . . and if on such examination there shall
be found among such passengers any convict,
lunatic, idiot, or any person unable to take care
of himself or herself without becoming a public
charge . . . such persons shall not be permitted
to land.
22 Stat. 214, Chap. 376 § 2.
Legislative debate on the 1882 Act shows that at
least one member of Congress sought to prevent foreign
nations from “‘send[ing] to this country blind, crippled,
lunatic, and other infirm paupers, who ultimately
become life-long dependents on our public charities.’”
13 Cong. Rec. 5108-10 (June 19, 1882) (statement of
Rep. Van Voorhis).
The 1882 Act also imposed on each noncitizen who
entered the United States a 50-cent head tax for the
purpose of creating an “immigrant fund”:
That there shall be levied, collected, and paid a
duty of fifty cents for each and every passenger
not a citizen of the United States who shall come
by steam or sail vessel from a foreign port to any
port within the United States. . . . The money
thus collected shall . . . constitute a fund to be
called the immigrant fund, and shall be used . . .
to defray the expense of regulating immigration

App. 195
under this act, and for the care of immigrants
arriving in the United States, for the relief of
such as are in distress[.]
22 Stat. 214, Chap. 376, § 1; see also Edye v. Robertson,
112 U.S. 580, 590–91 (1884) (“This act of congress is
similar, in its essential features, to many statutes
enacted by states of the Union for the protection of
their own citizens, and for the good of the immigrants
who land at sea-ports within their borders. That the
purpose of these statutes is humane, is highly
beneficial to the poor and helpless immigrant, and is
essential to the protection of the people in whose midst
they are deposited by the steam-ships, is beyond
dispute.”).
Nineteenth-century dictionaries defined “charge” as
“That which is enjoined, committed, entrusted or
delivered to another, implying care, custody, oversight,
or duty to be performed by the person entrusted” and
“The person or thing committed to anothers [sic]
custody, care or management; a trust. Thus the people
of a parish are called the ministers charge.” Charge,
Webster’s Dictionary (1828 Online Edition),
http://webstersdictionary1828.com/Dictionary/charge;
Charge, Webster’s Dictionary (1886 Edition),
https://archive.org/details/websterscomplete00webs/p
age/218 (“person or thing committed or intrusted [sic]
to the care, custody, or management of another; a trust;
as, to abandon a charge”).7

7

Defendants cite Frederic Jesup Stimson, Glossary of Technical
Terms, Phrases, and Maxims of the Common Law (1881), but that
source does not provide a relevant definition. The first-listed

App. 196
Another contemporary source defines charge “In its
general sense, a charge is an obligation or liability.
Thus we speak of . . . a pauper being chargeable to the
parish or town.” Stewart; Lawrence Rapalje, Robert L.,
Dictionary of American and English Law, with
Definitions of the Technical Terms of the Canon and
Civil Laws (1888), at 196.
Prior to the 1882 Act’s enactment, states had played
a larger role in immigration than they do today, and
state governments had used and interpreted the term
“public charge,” although of course not in relation to
any Congressional act.
For example, the New Jersey Supreme Court, when
interpreting a statute concerning the procedures to
remove an individual from a township in New Jersey,
considered whether a pauper was “either chargeable, or
likely to become chargeable, to the township of
Princeton.” Overseers of Princeton Twp. v. Overseers of
S. Brunswick Twp., 23 N.J.L. 169, 170 (Sup. Ct. 1851).
Although the case does not make clear what precise
relief is necessary to qualify as a public charge, it
contemplated that one became a public charge upon
seeking such relief from “the church wardens or
overseers of the poor[.]” Id. at 173. The concurrence

definition is the most plausibly-relevant: “A burden, incumbrance,
or lien; as when land is charged with a debt.” Id. at 56. But that
definition concerns how the word charge relates to real property,
which makes sense because at the time, “[m]ore frequently,
however, charge is applied to property” as “a general term[.]”
Stewart; Lawrence Rapalje, Robert L., Dictionary of American and
English Law, with Definitions of the Technical Terms of the Canon
and Civil Laws (1888), at 196.

App. 197
clarified that an “application for relief” is distinct from
being “chargeable,” although “[t]he probability of his
becoming chargeable is sufficiently shown by his
application for relief.” Id. at 179 (Carpenter, J.
concurring). The case does not explain the type or
quantum of relief necessary to constitute one’s status
as a “charge.”
Another state court opinion, People ex rel. Durfee v.
Commissioners of Emigration, 27 Barb. 562, 1858 WL
7084 (N.Y. Sup. Ct. 1858), addressed a statute which
contemplated bonds being paid on behalf of
immigrants, and required the commissioners of
immigration who held those bonds to “indemnify so far
as may be the several cities, towns and counties of the
state, for any expense or charge which may be incurred
for the maintenance and support of the” immigrants.
27 Barb. at 570. The court held that the statute
required indemnification of all expenses made on
behalf of the immigrants—whether temporary or
permanent—so long as the expenses were lawfully
made. Id. However, the case did not draw a clean line
holding that any expense spent on an individual makes
him a public charge. Rather, an equally-plausible
reading of the opinion is that the statute requires
immunity of all expenses paid to support immigrants
for whom bonds have been paid, regardless of whether
they are formally considered public charges.8

8

The latter reading would be in accordance with the current
interpretation of “public charge” as used elsewhere in the INA,
which requires an alien to be presented with a bill and prove
unable or unwilling to pay it to be deemed a public charge. E.g.,
Matter of B-, 3 I. & N. Dec. 323 (A.G. 1948); Field Guidance on

App. 198
City of Bos. v. Capen, 61 Mass. 116, 121 (1851)
concerned a statute which required a bond for someone
likely to become a public charge. The court explained
that the statute described various categories of people
identified as being at risk of becoming a public charge,
and for whom bond may be required. However, what
assistance or payment qualified one as a “public
charge” was not addressed.9
As a whole, the statutory language and authority
underlying the 1882 Act provide some clear guidance as
to the definition of public charge. For example, the
1882 Act contemplated that admitted aliens (not
excluded on public charge grounds) would receive some
assistance from the state. That is made clear by the
same statute’s establishment of a fund “for the care of
immigrants arriving in the United States, for the relief
of such as are in distress[.]” 22 Stat. 214, Chap. 376,
§ 1. Although the quantum of state support necessary
to render one a public charge is less clear, the 1882 Act
did not consider an alien a public charge for simply
receiving some assistance from the state. Also, it
appears that contemporary uses of the term would

Deportability and Inadmissibility on Public Charge Grounds, 64
Fed. Reg. 28,689 (May 26, 1999); 84 Fed. Reg. at 41,295.
9

The opinion also suggested that those who were “paupers in a
foreign land” must have been “a public charge in another country,”
and then stated without explanation that “the word ‘paupers’ being
used in this connection in its legal, technical sense.” Capen, 61
Mass. at 121. Even looking past the confusion, the court might be
interpreted as finding that all paupers have been public charges,
but from that the conclusion cannot be drawn that all public
charges must have been paupers.

App. 199
deem one a public charge after taking on a particular,
chargeable debt from the state and failing to repay it.
2. 1891
In 1891, Congress amended the 1882 Act. That
amended statute provided, in part:
That the following classes of aliens shall be
excluded from admission into the United States
. . . : All idiots, insane persons, paupers or
persons likely to become a public charge, persons
suffering from a loathsome or a dangerous
contagious disease, persons who have been
convicted of a felony or other infamous crime or
misdemeanor involving moral turpitude,
polygamists, and . . . .
An Act in Amendment to the Various Acts Relative to
Immigration and the Importation of Aliens Under
Contract or Agreement to Perform Labor, 26 Stat.
1084, Chap. 551 (“1891 Act”) § 1 (1891).
The 1891 amendment also provided that “any alien
who becomes a public charge within one year after his
arrival in the United States from causes existing prior
to his landing therein shall be deemed to have come in
violation of law and shall be returned” pursuant to the
procedures outline in the statute regarding aliens
entering unlawfully. 1891 Act § 11. So, the 1891 Act set
out the now-familiar practice of subjecting aliens to two
“public charge” assessments—one in which the
government is called on to make a forward-looking
prediction, and another in which the government is
called on to make a backward-looking assessment. The
first asks at the time of entry whether the alien is

App. 200
likely to become a public charge. The second asks
whether, after some period of time, the alien has in fact
become a public charge due to causes existing before he
arrived. Although the relevant time periods of the
assessments have grown, this scheme generally
remains in place today.
The 1891 Act made a notable change to the law by
adding the category “pauper,” and including the term
pauper with “persons likely to become a public charge”
to form a single entry in an expanded list of excluded
categories of people.
An early case interpreting the act considered
whether “the act of 1891 confers upon the inspection
officer power to detain and send back an alien
immigrant as being a person liable to become a public
charge, in the absence of any evidence whatever
tending to establish that fact.” In re Feinknopf, 47 F.
447, 448 (E.D.N.Y. 1891). Although it did not define the
term “public charge” in the abstract, the court provided
an explanation given the facts before it that essentially
laid out a totality-of-the-circumstances test. It held
that “[o]f course” the following facts, “if believed, would
not warrant the conclusion that the petitioner was a
person likely to become a public charge,” and that the
case is “devoid of any evidence whatever of any fact
upon which to base a determination that the petitioner
is likely to become a public charge”:
the petitioner is 40 years old; that he is a native
of Austria; that he is a cabinet-maker by trade,
and has exercised that trade for 25 years; that
he has no family; that he has baggage with him,
worth $20, and 50 cents in cash; that he is a

App. 201
man who can find employment in his trade, and
is willing to exercise the same. . . . [I]n addition,
that the immigrant has not been an inmate of an
almshouse, and has not received public aid or
support, and has not been convicted of crime.
Id. at 447–48. A fair reading suggests that each of the
enumerated facts could be relevant to predicting
whether someone is likely to become a public charge.
A subsequent court provided even more guidance. In
United States v. Lipkis, 56 427 (S.D.N.Y. 1893), a man
had arrived in America before his wife and child. The
wife and child were required to pay a bond because the
superintendent of immigration deemed them “likely to
become a public charge” based on “the poverty and
character of the husband,” whose residence gave the
appearance of “extreme poverty.” Id. at 427. However,
that poverty alone did not mean he or the family was a
public charge—rather, it meant the family was likely to
become a public charge. “About six months after the
arrival of the mother she became insane, and was sent
to the public insane asylum of the city under the
direction of the commissioners of charities and
correction, where only poor persons unable to pay for
treatment are received, and she was there attended to
for a considerable period at the expense of the
municipality.” Id. at 428. Thus, the mother became a
public charge only when she was committed to the
public insane asylum with “no effort to provide for her
at his [the husband’s] own expense[.]” Id.
But the court did not require commitment to an
institution to make one a public charge. It reasoned in
dicta that the family’s financial condition generally

App. 202
subjected the family to the risk of becoming “a public
charge under the ordinary liabilities to sickness, or as
soon as any other additional charges arose beyond the
barest needs of existence. . . . The liability of his family
to become a public charge through any of the ordinary
contingencies of life existed when the bond was taken,
because of his poverty and inefficiency.” Id. So, a
number of different financial shocks could have
rendered the family a public charge.
The court’s analysis drew a distinction between
being a public charge (in this case, someone committed
to an insane asylum with no effort to cover the
expense), and someone likely to become a public charge
(in this case, someone who can pay for “the barest
needs of existence,” yet whom an extreme illness could
ruin).
The parties cite to state court decisions published
during this time using the term public charge, which
are informative of what the term generally meant at
the time. Those opinions address the duration of
benefits that render one a public charge rather than
the quantum, and they tend to suggest that temporary
relief did not make one a public charge as the term was
understood at the time. However, they do not address
whether longer-term receipt of a small amount of
public benefits qualifies one as a public charge (as the
Rule would do). See Yeatman v. King, 2 N.D. 421
(1892) (state loaning seed grain to farmer using the
general tax fund, with obligation of repayment, is
designed to prevent farmers “from becoming a public
charge by affording them temporary relief”); Cicero v.
Falconberry, 14 Ind. App. 237 (1895) (“The mere fact

App. 203
that a person may occasionally obtain assistance from
the county does not necessarily make such person a
pauper or a public charge.”).10
Following the 1891 Act, two points are relatively
clear. First, reaffirming the best interpretation of the
1882 Act, the term was not used at the time to include
short-term or temporary relief from the state, as the
case law continued to demonstrate. Second, Lipkis
could be read to support either of two non-controversial
points: either state-funded institutionalization
constitutes becoming a public charge, or state-funded
institutionalization with “no effort” to pay the expense
after being billed does so. Simply being able to pay for
the barest needs of existence and nothing more does
not render one a public charge (although it may make
one likely to become a public charge). A third point
begins to materialize in the case law, which is that
absent some particularly-identified negative factor, an
employable individual is not a public charge. E.g., In re
Feinknopf, 47 F. at 447–48 (40-year-old man willing to
exercise his trade); Lipkis, 56 F. at 428
(notwithstanding poverty, working man’s family is not
a public charge until financial calamity strikes);
Yeatman, 2 N.D. at 421 (public aid to working farmer).

10

The parties also cite Edenburg Borough Poor Dist. v.
Strattanville Borough Poor Dist., 5 Pa. Super. 516, 528 (1897), but
that case concerns an individual who appears to have formally
registered as a pauper by seeking public assistance under state or
local law. It does not concern any immigration statutes, nor does
the opinion use the word “charge” or the phrase “public charge.”

App. 204
3. 1903
In 1903, Congress passed a revised version of the
act. That amended statute provided, in part:
That the following classes of aliens shall be
excluded from admission into the United States:
All idiots, insane persons, epileptics, and
persons who have been insane within five years
previous; persons who have had two or more
attacks of insanity at any time previously;
paupers; persons likely to become a public
charge; professional beggars; persons afflicted
with a loathsome or with a dangerous contagious
disease; persons who have been convicted of a
felony or other crime or misdemeanor involving
moral turpitude; polygamists; anarchists, or
. . . .”
An Act to Regulate the Immigration of Aliens Into the
United States, 32 Stat. 1213, Chap. 1012 § 2 (1903).
This change separated out “paupers” from “persons
likely to become a public charge,” which the previous
act had grouped together as a single item in the list.
The 1903 amendment also provided that any alien
who “shall be found a public charge . . . from causes
existing prior to landing, shall be deported . . . at any
time within two years after arrival[.]” Id. § 20.
4. 1907
In 1907, Congress passed a revised version of the
act. That amended statute provided, in part:

App. 205
That the following classes of aliens shall be
excluded from admission into the United States:
All idiots, imbeciles, feeble-minded persons,
epileptics, insane persons, and persons who have
been insane within five years previous; persons
who have had two or more attacks of insanity at
any time previously; paupers; persons likely to
become a public charge; professional beggars;
persons afflicted with tuberculosis or with a
loathsome or dangerous contagious disease;
persons not comprehended within any of the
foregoing excluded classes who are . . . mentally
or physically defective, such mental or physical
defect being of a nature which may affect the
ability of such alien to earn a living; persons who
have been convicted of or admit having
committed a felony or other crime or
misdemeanor involving moral turpitude;
polygamists, or . . . .”
An Act to Regulate the Immigration of Aliens Into the
United States, 34 Stat. 898, Chap. 1134 § 2 (1907).
Nothing relevant to the present action appears to
have been changed by this revision.11

11

The only notable change is the introduction of an exclusion for
individuals not otherwise captured by the categories who cannot
earn a living based on mental or physical defect. That suggests
that earlier-listed categories also include such people, but not all
such people.

App. 206
5. 1910
In 1910, Congress amended the 1907 act. The new
statute provided, in part:
That the following classes of aliens shall be
excluded from admission into the United States:
All idiots, imbeciles, feeble-minded persons,
epileptics, insane persons, and persons who have
been insane within five years previous; persons
who have had two or more attacks of insanity at
any time previously; paupers; persons likely to
become a public charge; professional beggars;
persons afflicted with tuberculosis or with a
loathsome or dangerous contagious disease;
persons not comprehended within any of the
foregoing excluded classes who are . . . mentally
or physically defective, such mental or physical
defect being of a nature which may affect the
ability of such alien to earn a living; persons who
have been convicted of or admit having
committed a felony or other crime or
misdemeanor involving moral turpitude;
polygamists, or . . . .”
An Act to Amend an Act entitled An Act to Regulate
the Immigration of Aliens Into the United States, 36
Stat. 263, Chap. 128 § 2 (1910).
Nothing relevant to the present action appears to
have been changed by this revision.
In 1915, the Supreme Court addressed the 1910 act
in Gegiow v. Uhl, 239 U.S. 3 (1915). “The single
question” in that case was “whether an alien can be
declared likely to become a public charge on the ground

App. 207
that the labor market in the city of his immediate
destination is overstocked.” Id. at 9–10. The
immigration commissioners in that action determined
that the immigrants were “bound for Portland, Oregon,
where the reports of industrial conditions show that it
would be impossible for these aliens to obtain
employment[.]” Id. at 8.
The court held that “[t]he statute deals with
admission to the United States, not to Portland . . . . It
would be an amazing claim of power if commissioners
decided not to admit aliens because the labor market of
the United States was overstocked.” Id. at 10. Because
the immigration authorities could not consider labor
conditions in a single location to determine whether
immigrants would be able to obtain employment, the
factual findings that the immigrants could not find
work in Portland was insufficient to support a
determination that they were likely to become public
charges.
The court also reasoned that, because the “public
charge” ground for exclusion was “mentioned between
paupers and professional beggars, and along with
idiots, persons dangerously diseased, persons certified
by the examining surgeon to have a mental or physical
defect of a nature to affect their ability to earn a
living,” the term should be construed as similar with
the rest. Id. Under that construction, the court held
that those likely to become public charges “are to be
excluded on the ground of permanent personal
objections accompanying them irrespective of local

App. 208
conditions[.]” Id.12 That is, the court focused on an
alien’s general ability and willingness to work and earn
a living, rather than the particular wages or labor
conditions that existed in the alien’s destination.
A court in 1916 considered “whether the fact that
petitioner entered the United States as a gambler, and
as one having no other permanent means of support,
actual or contemplated, makes him a person ‘likely to
become a public charge’ within the meaning of the
Immigration Act.” Lam Fung Yen v. Frick, 233 F. 393,
396 (6th Cir. 1916):
It seems clear that the term ‘persons likely to
become a public charge’ is not limited to paupers
or those liable to become such; ‘paupers’ are
mentioned as in a separate class. In United
States v. Williams (D.C.) 175 Fed. 274, 275, the
term ‘persons likely to become a public charge’ is
construed as including, ‘not only those
persons who through misfortune cannot be
self-supporting, but also those who will not
undertake honest pursuits, and who are
likely to become periodically the inmates of
prisons.’ We think this a reasonable
construction. . . . Inmates of jails and prisons are
for the time being public charges, and we think
it open to conclusion by reasonable minds that
those who will not work for a living, but rely for
12

The Gegiow opinion was subject to some skepticism following a
later amendment to the statute, but the Ninth Circuit
subsequently held that its reasoning remained controlling. See Ex
parte Hosaye Sakaguchi, 277 F. 913 (9th Cir. 1922); see also Ex
parte Mitchell, 256 F. 229 (N.D.N.Y. 1919).

App. 209
that purpose upon gambling, are more likely
than citizens following the ordinary pursuits of
industry to become, at least intermittently,
public charges.
Id. at 396–97 (emphasis added).
The court reasoned that because the alien was a
gambler and gambling is regarded “within the domain
of police supervision and public security,” the petitioner
is reasonably likely to become periodically an inmate of
a prison. Id. at 397. Under the court’s reasoning,
someone in a prison is a public charge, akin to someone
in an almshouse or insane asylum. Id.; see also United
States v. Williams, 175 F. 274, 275 (S.D.N.Y. 1910)
(“They are surely public charges, at least during the
term of their incarceration.”).
In 1917, the Second Circuit relied on Gegiow’s
statutory analysis when deciding a case under the 1910
statute. Howe v. United States, 247 F. 292 (2d Cir.
1917). In Howe, a Canadian who had allegedly “drawn
a check . . . which proved bad,” among other things,
entered the United States, and an immigration
inspector “believed him guilty of dishonest practice in
Canada.” Id. at 293–94. Because the plaintiff had not
admitted to or been convicted of a felony, the provision
excluding criminals did not apply to him. The court
reasoned that (1) the term “public charge” needed to be
read in context of its position in the statute’s list, and
(2) it cannot be interpreted to overlap with other items
in the list (e.g., idiots, imbeciles, insane persons,
criminals). As such, “[i]f the words covered jails,
hospitals, and insane asylums, several of the other
categories of exclusion would seem to be unnecessary.”

App. 210
Id. at 294. Instead, “Congress meant the act to exclude
persons who were likely to become occupants of
almshouses for want of means with which to support
themselves in the future.” Id. The Howe court provided
a very specific, restrictive, and clear definition of the
term. This also demonstrates an early split in the case
law as to whether prison inmates are considered public
charges.
By 1917, the Supreme Court, the Second Circuit,
and the Sixth Circuit had all published opinions
construing the term as used in the 1910 act. These are
precisely the sorts of constructions Congress is
presumed knowledgeable of when reenacting statutory
language. See Forest Grove, 557 U.S. at 239–40. The
Supreme Court held that predicting whether someone
will become a public charge requires consideration of
“permanent personal objections accompanying them
irrespective of local conditions[.]” Gegiow, 239 U.S. at
10. The two Circuit decisions are more difficult to
reconcile. First, they directly contradicted one another
with respect to whether jail inmates were public
charges. Second, Howe broke with the weight of prior
authority in holding that the term was limited to those
occupying almshouses for want of a means of support.
6. 1917
In 1917, Congress amended the Act. That amended
statute provided, in part:
That the following classes of aliens shall be
excluded from admission into the United States:
All idiots, imbeciles, feeble-minded persons,
epileptics, insane persons; persons who have had

App. 211
one or more attacks of insanity at any time
previously; persons of constitutional
psychopathic inferiority; persons with chronic
alcoholism; paupers; professional beggars;
vagrants; persons afflicted with tuberculosis in
any form or with a loathsome or dangerous
contagious disease; persons not comprehended
within any of the foregoing excluded classes who
are . . . mentally or physically defective, such
physical defect being of a nature which may
affect the ability of such alien to earn a living;
persons who have been convicted of or admit
having committed a felony or other crime or
misdemeanor involving moral turpitude;
polygamists, or . . . . ; persons likely to become a
public charge . . . .”
An Act to Regulate the Immigration of Aliens to, and
the Residence of Aliens in, the United States, 39 Stat.
874, Chap. 29 § 3 (1917).
The statute also provided for the deportability of
“any alien who within five years after entry becomes a
public charge from causes not affirmatively shown to
have arisen subsequent to landing[.]” Id. § 19.
The “public charge” language remains unchanged,
although moved within the list. The Congressional
Record suggests that Congress intentionally moved the
category of “persons likely to become a public charge”
later in the list in response to Gegiow. See 70 Cong.
Rec. 3560 (1929) (“persons likely to become a public
charge (this clause excluding aliens on the ground
likely to become a public charge has been shifted from
its position in section 2 of the immigration act of 1907

App. 212
to its present position in section 3 of this act in order to
indicate the intention of Congress that aliens shall be
excluded upon said ground for economic as well as
other reasons and with a view to overcoming the
decision of the Supreme Court in Gegiow v. Uhl, 239 U.
S. 3”); see also 80 Cong. Rec. 5829 (1936) (same).
A district court in 1919 reasoned that although the
exact same phrase was shifted within the list, “I am
unable to see that this change of location of these words
in the act changes the meaning that is to be given
them. A ‘person likely to become a public charge’ is one
who for some cause or reason appears to be about to
become a charge on the public, one who is to be
supported at public expense, by reason of poverty,
insanity and poverty, disease and poverty, idiocy and
poverty, or, it might be, by reason of having committed
a crime which, on conviction, would be followed by
imprisonment.” Ex parte Mitchell, 256 F. 229, 230
(N.D.N.Y. 1919). In that case, there was “no evidence
whatever that the alien at any time has relied in any
degree on the charity of others,” but rather the alien “is
able to earn her own living and always has done so[.]”
Id.
The court then stated that mere speculation about
the possibility of becoming a public charge does not
make one likely to become a public charge: “The alien
may become sick; she may lose her house by fire; she
may lose her personal property by bad investments. All
this is possible, but not probable. There is no claim that
this alien is suffering, or that she has suffered at any
time, from any mental or physical defect. It is not
claimed this alien has been convicted, or even charged

App. 213
with the commission, of any crime, or that she came to
the United States, or is in the United States, for any
immoral or improper purpose.” Id. at 231.
The Ninth Circuit agreed in 1922, holding that the
1917 Amendment’s movement of the “public charge”
exclusion “does not change the meaning that should be
given” the exclusion. Ex parte Hosaye Sakaguchi, 277
F. 913, 916 (9th Cir. 1922). The court recognized the
legislative change and that Gegiow’s reliance on the
phrase’s relative position in the statute was
compromised, yet it held:
Although in the act of February 5, 1917, under
which the present case is to be determined, the
location of the words ‘persons likely to become a
public charge’ is changed,we agree with Judge
Ray in Ex parte Mitchell (D.C.) 256 Fed. 229,
that this change of location of the words does not
change the meaning that should be given them,
and that it is still to be held that a person
‘likely to become a public charge’ is one
who, by reason of poverty, insanity, or
disease or disability, will probably become
a charge on the public.
Id. (emphasis added).13
13

In 1923 a district court in Washington state did not cite these
precedents and held instead that Congress’s shift was an effective
modification in response to Gegiow. Ex parte Horn, 292 F. 455
(W.D. Wash. 1923). Interpreting the phrase anew based on its
plain meaning, the court reasoned that “a public charge” is “a
person committed to the custody of a department of the
government by due course of law,” and that committing someone
to prison makes him a public charge. Id. at 457.

App. 214
A 1921 Second Circuit opinion relying on Howe and
Ex parte Mitchell held that “A person likely to become
a public charge is one whom it may be necessary to
support at public expense by reason of poverty, insanity
and poverty, disease and poverty, idiocy and poverty.
We think that the finding by the administrative
authorities, showing a physical defect of a nature that
may affect the ability of the relator and appellee to
earn a living, is sufficient ground for exclusion. His
physical condition, together with his financial
condition, having but $100 with him, justified the
conclusion of the administrative authorities in finding
that he and his children were aliens likely to become
public charges.” Wallis v. U.S. ex rel. Mannara, 273 F.
509, 511 (2d Cir. 1921) (citation omitted).
A number of courts around this time also held that
imprisonment was one way to become a public charge.
E.g., Ex parte Fragoso, 11 F.2d 988, 989 (S.D. Cal.
1926) (“The fact is this petitioner did become a public
charge. He was confined in a jail for a period of nine
months.”); U.S. ex rel. Lehtola v. Magie, 47 F.2d 768,
770 (D. Minn. 1931) (noting a circuit split as to whether
“dependency rather than imprisonment” is grounds for
finding a public charge); Ex parte Horn, 292 F. 455, 458
(W.D. Wash. 1923).
In 1933, the third edition of Black’s Law Dictionary
was the first to define “public charge.” The definition
relied upon many of the above-cited cases, so for that
reason it is derivative of and less probative than those
cases themselves. Nevertheless, the definition is
instructive. It defined the term as: “A person whom it
is necessary to support at public expense by reason of

App. 215
poverty, insanity and poverty, disease and poverty, or
idiocy and poverty. . . . As used in [the 1917 Act], one
who produces a money charge on, or an expense to, the
public for support and care.” See Black’s Law
Dictionary 311 (3d Ed. 1933). The term includes
paupers as well as those who will not undertake honest
pursuits or who are likely to go to prison.
In 1948, the Board of Immigration Appeals (“BIA”)
issued an order, which the acting Attorney General
thereafter issued an order approving. The order set out
a very explicit test for the term “public charge” as used
elsewhere in the act, which concerned deportation
proceedings of aliens who are later determined to have
actually become a public charge during their time in
the country. Matter of B-, 3 I. & N. Dec. 323 (A.G.
1948).
When interpreting the term as used in the
deportation context, the BIA set out a 3-part test
requiring (1) an individualized bill for charges
incurred, that is (2) presented to the alien (or a family
member) by the government, and (3) which the alien
(or family member) fails to pay.
the following test must be applied to determine
whether an alien has become a public charge
within the reach of the 1917 act: (1) The State or
other governing body must, by appropriate law,
impose a charge for the services rendered to the
alien. In other words, the State must have a
cause of action in contract against either the
person taking advantage of the State services or
other designated relatives or friends. If there is
no charge made, and if the State does not have

App. 216
a cause of action, the alien cannot be said to be
a public charge. (2) The authorities must make
demand for payment of the charges upon those
persons made liable under State law. And
(3) there must be a failure to pay for the charges.
If there is a failure to pay either because of lack
of demand or because the State authorities do
not perform their duty to collect the charges, the
alien cannot be said to have become a public
charge.
Id. at 326 (footnote omitted).
The BIA also reasoned that the same definition
would apply to the identical term used earlier in the
statute with respect to predicting whether an alien is
likely to become a public charge—i.e., the provision at
issue in the present action:
First, we wish to make the following preliminary
observation for the purpose of clarifying the
issue. The acceptance by an alien of services
provided by a State or by a subdivision of a State
to its residents, services for which no specific
charge is made, does not in and of itself make
the alien a public charge within the meaning of
the 1917 act. To illustrate, an alien who
participates, without cost to him, in an adult
education program sponsored by the State does
not become a public charge. Similiarly [sic] with
respect to an alien child who attends public
school, or alien child who takes advantage of the
free-lunch program offered by schools. We could
go on ad infinitum setting forth the countless
municipal and State services which are provided

App. 217
to all residents, alien and citizen alike, without
specific charge of the municipality or the State,
and which are paid out of the general tax fund.
The fact that the State or the municipality pays
for the services accepted by the alien is not,
then, by itself, the test of whether the alien has
become a public charge. . . . [I]f it were to be held
that all aliens became public charges by
accepting such services, such a holding would
necessarily result in making aliens seeking
admission to the United States excludable under
that clause of section 3 of the act of February 5,
1917, which bars aliens likely to become public
charges from entering the United States,
provided it were shown the alien would accept
the free municipal and State services.
Id. at 324–25 & n.1.
District courts had independently adopted the same
meaning under the 1917 Act. E.g., Ex parte
Orzechowska, 23 F. Supp. 428, 429 (D. Or. 1938)
(individual not a public charge so long as they will “pay
the full amount of the cost of keeping the girl at the
Oregon State Hospital”); Ex parte Kichmiriantz, 283 F.
697, 698 (N.D. Cal. 1922) (same).
This three-part test is still used for determining
whether to deport those who in fact become public
charges currently, and DHS proposes to continue doing
is in the Rule.
Prior to the 1952 Act’s passage, at least one
principle had seemingly coalesced in the case law. The
reasoning in Gegiow was reaffirmed, and multiple

App. 218
circuits (also recognized by Black’s Law Dictionary)
agreed that someone likely to become a public charge
is one whom it may be necessary to support at public
expense by reason of poverty, insanity and poverty,
disease and poverty, or idiocy and poverty. Although
that oft-used definition (or a close derivative) is not
particularly descriptive as to what quantum of support
qualifies as “necessary to support” someone at public
expense, it reaffirms the principle expressed in Gegiow
and prior cases that the inquiry is focused on the
individual’s inherent ability to support himself. This
definition also accords with prior interpretations
generally finding that, absent some particularlyidentified negative factor, those who appear generally
capable and willing to work are not likely to become
public charges. And unlike the Howe case, it allows
reading the definition of public charge in light of the
surrounding categories of excluded persons, such that
someone who is excluded due to his disease alone may
also be excluded because his disease, in combination
with another factor like poverty, is likely to render him
a public charge. This remains in line with other
historically-supported, consistent principles described
above, namely that temporary assistance does not
render one a public charge and that actual incursion of
debt to the state and refusal to pay could render one a
public charge.
The Attorney General’s order in 1948 for the first
time offered a single, clear definition of the term
“public charge” to be applied consistently throughout
the Act. And it also specifically ruled that acceptance of
publicly-funded services “for which no specific charge
is made” does not make one a public charge. The

App. 219
three-part test requiring presentation of a bill and
inability or refusal to pay was certainly in accordance
with a line of precedential caselaw, but it was by no
means the only or even dominant line at that time.
Nevertheless, this Attorney-General-issued order was
controlling as administrative law between its issuance
in 1948 and at least Congress’s next codification of the
immigration statutes in 1952.
7. 1952
In 1952, Congress again revised the laws relating to
immigration. That revised statute provided, in part:
Except as otherwise provided in this Act, the
following classes of aliens shall be ineligible to
receive visas and shall be excluded from
admission into the United States:
(1) Aliens who are feeble-minded;
(2) Aliens who are insane;
(3) Aliens who have had one or more attacks of
insanity;
...
(7) Aliens not comprehended within any of the
foregoing classes . . . having a physical defect,
disease, or disability . . . to be of such a nature
that it may affect the ability of the alien to earn
a living, unless the alien affirmatively
establishes that he will not have to earn a living;
(8) Aliens who are paupers, professional beggars,
or vagrants;
...
(15) Aliens who, in the opinion of the consular
officer at the time of application for a visa, or in
the opinion of the Attorney General at the time

App. 220
of application for admission, are likely at any
time to become public charges”
An Act to Revise the Laws Relating to Immigration,
Naturalization, and Nationality; and for Other
Purposes, 66 Stat. 163, 183, Title 2, Chap. 2 (“1952
Act”) § 212 (1952).
The 1952 Act also provided for deportation of any
alien who, “in the opinion of the Attorney General, has
within five years after entry become a public charge
from causes not affirmatively shown to have arisen
after entry[.]” Id., Chap. 5 § 241(a)(8).
The changes appear to be relatively minor for the
purposes of this dispute. Notably, Congress added the
phrase “at any time” to specify the scope of time the
public charge determination is meant to consider. But
no alteration to the phrase “public charge” appears in
the statute.
The 1951 edition of Black’s Law Dictionary, like the
3rd edition in 1933, assembled its definition based on
precedent discussed above:
A person whom it is necessary to support at
public expense by reason of poverty, insanity
and poverty, or idiocy and poverty. As used in
[the 1917 Act] . . ., one who produces a money
charge on, or an expense to, the public for
support and care. As so used, the term is not
limited to paupers or those liable to become
such, but includes those who will not undertake
honest pursuits, or who are likely to become
periodically the inmates of prison.

App. 221
Charge, Public Charge, Black’s Law Dictionary (4th ed.
1951) (citations omitted).
BIA dispositions following the passage of the 1952
Act addressed the term. One such disposition surveyed
caselaw interpreting the term and held “the statute
requires more than a showing of a possibility that the
alien will require public support. Some specific
circumstance, such as mental or physical disability,
advanced age, or other fact reasonably tending to show
that the burden of supporting the alien is likely to be
cast on the public, must be present. A healthy person
in the prime of life cannot ordinarily be
considered likely to become a public charge,
especially where he has friends or relatives in
the United States who have indicated their
ability and willingness to come to his assistance
in case of emergency.” Matter of Martinez-Lopez, 10
I. & N. Dec. 409, 421–22 (BIA 1962) (emphasis added)
(collecting cases).
In that case, the agency held that the individual at
issue was not likely to become a public charge given his
characteristics, which essentially showed he was able
to perform honest work:
When respondent applied for a visa he was 22
years of age. He was sound of body and had
about ten years of farming experience. He had
no specialized training, but had five years of
schooling and apparently planned to seek work
for which he was qualified. He spoke no English,
but this was no handicap for he would work
among people who spoke Spanish. He had about
$50 in assets. He had a brother gainfully

App. 222
employed in the United States and he had other
close relations who were interested in his
welfare and who worked to bring him to the
United States. The brother was making $85 a
week in permanent employment; he was
unmarried; he had been sending money to his
family in Mexico, and he was interested in
helping his brother. Respondent had previous
experience in the United States, having spent
about three months here as a contract worker.
At that time he worked both in the fields and in
a cannery. His services appear to have been
satisfactory for he was retained here until his
contract was completed. Respondent had no
criminal record.
Id. at 411.
A 1974 BIA decision emphasized that the public
charge determination must consider the totality of the
circumstances, and that prior welfare use alone cannot
be determinative. Matter of Perez, 15 I. & N. Dec. 136,
137 (BIA 1974) (“The respondent’s reliance on welfare
for support is a condition which she herself can
remedy.”).
Another 1974 BIA decision confused matters.
Matter of Harutunian, 14 I. & N. Dec. 583, 584 (BIA
1974). The decision outlined “[t]he stages in decisional
interpretations of the deportation statute, culminating
in Matter of B-”:
1. The words “public charge” had their ordinary
meaning, that is to say, a money charge upon or

App. 223
an expense to the public for support and care,
the alien being destitute.
2.The alien had not yet become a public charge,
even though he personally was destitute and his
care and support were being paid for by public
funds, if there existed close relatives, ready,
willing and able to pay the bill, but the
appropriate government agency had failed to
submit any bill.
3. The alien had not become a public charge
where the alien’s mother had offered to make
reimbursement, but under state law payment
could not be accepted for maintenance and
treatment of the institutionalized alien.
4. The alien had not become a public charge
where the circumstances were like those
described in 3, above, except that no one had
offered reimbursement.
Id. at 586 (citations omitted).
However, it reasoned that the Attorney General’s
opinion in Matter of B- “is not necessarily controlling in
relation to the provisions for exclusion.” Id. at 585. The
BIA reasoned that “[w]hile it may normally be assumed
that identical words used in different parts of the same
statute are intended to have an identical meaning, this
assumption readily yields when the legislative intent
requires variant meanings in different contexts.” Id. at
586. The BIA then discussed legislative history in
search of congressional intent. Id. The decision notes
that the Senate Judiciary Committee discussed that
courts had given different definitions to the term, and

App. 224
ultimately it decided not to define the term, “but rather
[decided] to establish the specific qualification that the
determination of whether an alien falls into that
category rests within the discretion of the consular
officers or the Commissioner.” Id. at 588 (citing S. Rep.
1515, 81st Cong., 2d Sess., April 20, 1950, p. 349).
The BIA stated that the phrase “public charge”
must be “strictly construed” in the deportation context,
but not in the exclusion context. Id. It then reasoned
that the old-age benefits at issue in the case were
“individualized public support to the needy, as
distinguished from essentially supplementary benefits,
directed to the general welfare of the public as a
whole.” Id. at 589. Even though the state would never
ask for repayment of those old-age benefits—and
therefore they could not constitute assistance
qualifying one as a public charge under the Matter of
B- test—the court reasoned that it would not consider
“the element of reimbursement” when determining
whether someone is likely to become a public charge.
Id.
So, the BIA rejected the Matter of B- test and
constructed alternate definitions for the same term
depending on whether the executive is predicting
whether someone is likely to become a public charge or
deciding whether someone has already become a public
charge. “Therefore, in our opinion any alien who is
incapable of earning a livelihood, who does not have
sufficient funds in the United States for his support,
and has no person in the United States willing and able
to assure that he will not need public support is
excludable as likely to become a public charge whether

App. 225
or not the public support which will be available to him
is reimbursable to the state.” Id. at 589–90.
These BIA decisions are useful to understand the
administrative practices and interpretations operating
when Congress reenacted the same language. Although
this period saw confusion within the agency about the
proper way to interpret the phrase as used in different
contexts, each of the discussed decisions support the
now-consistent theme that a healthy person in the
prime of life who can work cannot be considered likely
to become a public charge, absent some particularlyidentified circumstance evaluated under a totality of
the circumstances. E.g., Matter of Martinez-Lopez, 10
I. & N. Dec. at 422 (collecting cases); Matter of
Harutunian, 14 I. & N. Dec. at 589 (“alien who is
incapable of earning a livelihood”); Matter of Perez, 15
I. & N. Dec. at 137 (totality of circumstances).
8. 1987
In 1987, the INS issued a final rule, effective May 1,
1987, following notice and comment. See Adjustment of
Status for Certain Aliens, 52 Fed. Reg. 16,205 (May 1,
1987). The rule implemented section 245A of the
Immigration and Nationality Act as amended by
section 201 of the Immigration Reform and Control Act
of 1986. Id. at 16,205. So, the 1987 rule concerned the
term “public charge” as used elsewhere in the INA,
specifically for aliens adjusting their status to that of
aliens lawfully admitted for temporary residence. The
“key issues” subject to comments “were the public
charge and special rule for determination of public
charge[.]” 52 Fed. Reg. at 16,206.

App. 226
That rule provided: “An applicant . . . is subject to
the provisions of section 212(a)(15) of the Act relating
to excludability of aliens likely to become public
charges unless the applicant demonstrates a history of
employment in the United States evidencing
self-support without receipt of public cash
assistance. . . . If the alien’s period(s) of residence in
the United States include significant gaps in
employment or if there is reason to believe that the
alien may have received public assistance while
employed, the alien may be required to provide proof
that he or she has not received public cash assistance.”
52 Fed. Reg. at 16,211.
Essentially, this provision exempted aliens who had
been working domestically from the normal public
charge analysis, so long as they could prove a work
history and that they had not relied on public cash
assistance. The rule defined cash assistance to exclude
in-kind benefits. 52 Fed. Reg. at 16,209 (“‘Public cash
assistance’ means income or needs-based monetary
assistance, to include but not limited to supplemental
security income, received by the alien or his or her
immediate family members through federal, state, or
local programs designed to meet subsistence levels. It
does not include assistance in kind, such as food
stamps, public housing, or other non-cash benefits, nor
does it include work-related compensation or certain
types of medical assistance (Medicare, Medicaid,
emergency treatment, services to pregnant women or
children under 18 years of age, or treatment in the
interest of public health).”).

App. 227
This use of the term is somewhat of an aberration
given that it essentially concerned an exception to the
statute at issue here—and it did not define the term.
However, it did reinforce the long-standing principle
underlying the construction of the term that, when
considering whether someone should be admitted to the
country, the concept of “public charge” concerns
primarily the prospect of gainful employment or some
other private source of support.
9. 1990
In 1990, Congress revised the laws relating to
immigration. That revised statute provided, in part:
Except as otherwise provided in this Act, the
following describes classes of excludable aliens
who are ineligible to receive visas and who shall
be excluded from admission into the United
States:
(1) Health-Related Grounds
...
(2) Criminal and Related Grounds
...
(3) Security and Related Grounds
...
(4) Public Charge.—Any alien who, in the
opinion of the consular officer at the time of
application for a visa, or in the opinion of the
Attorney General at the time of application for
admission or adjustment of status, is likely at
any time to become a public charge is
excludable.

App. 228
Immigration Act of 1990, 104 Stat. 4978, Title 6 § 601
(1990).
This version of the bill removed language referring
to the feeble-minded, paupers, professional beggars,
and vagrants. There is a suggestion in the
Congressional Record that the removed terms were
meant to be consolidated within the public charge
category:
The bill removes some of the antiquated and
unused exclusions that have been in our law
since the early 1900’s, such as the exclusions
based on illiteracy, and the exclusions for aliens
who are “paupers, professional beggars, or
vagrants.” These relics have been replaced by
one generic standard which exclude aliens who
are “likely to become a public charge.”
136 Cong. Rec. 36797, 36844 (1990).
In 1990, Black’s Law Dictionary defined “public
charge” as “an indigent. A person whom it is necessary
to support at public expense by reason of poverty alone
or illness and poverty.” Charge, Public Charge, Black’s
Law Dictionary (6th ed. 1990).
Although a statutory term is not defined by
reference to one preferred interpretation memorialized
in the Congressional Record, that interpretation is
consistent with the courts’ and executive’s general
treatment of the term since Gegiow. That is, following
Gegiow and later cases applying it to the 1917 Act,
courts had read the term public charge in context of
those surrounding terms rather than in exclusion of
them, and focused on the alien’s ability to work or

App. 229
otherwise provide for himself, which each of the
omitted surrounding terms also ultimately spoke to.
But see Howe, 247 F. at 294.
10.

1996

In 1996, Congress again revised the laws relating to
immigration. That revised statute provided, in part:
(4) PUBLIC CHARGE.—
(A) IN GENERAL.—Any alien who, in the
opinion of the consular officer at the time of
application for a visa, or in the opinion of the
Attorney General at the time of application
for admission or adjustment of status, is
likely at any time to become a public charge
is excludable.
(B) FACTORS TO BE TAKEN INTO
ACCOUNT.—
(i) In determining whether an alien is
excludable under this paragraph, the
consular officer or the Attorney General
shall at a minimum consider the alien’s—
(I) age;
(II) health;
(III) family status;
(IV) assets, resources, and financial
status; and
(V) education and skills.
(ii) In addition to the factors under clause
(i), the consular officer or the Attorney
General may also consider any affidavit of

App. 230
support under section 213A for purposes
of exclusion under this paragraph.
Omnibus Consolidated Appropriations Act, 110 Stat.
3009, Title 5 § 531 (1996). This act is often referred to
as the Illegal Immigration Reform and Immigrant
Responsibility Act (“IIRIRA”). Elsewhere, the Act
provided that “Any alien who, within five years after
the date of entry, has become a public charge from
causes not affirmatively shown to have arisen since
entry is deportable.” 8 U.S.C. § 1251(a)(5) (effective
April 24, 1996).
The revised law used the same relevant language as
all previous versions—public charge. However, the
statute then listed five factors that Congress instructed
must be considered when determining whether an alien
is likely to become a public charge, and it identified
another factor that “may also” be considered.
Contemporaneously, the Personal Responsibility
and Work Opportunity Reconciliation Act (“PRWORA”),
Pub. L. 104-193, restricted most aliens from accessing
many public support programs for a period of time.
During legislative efforts that ultimately resulted in
the IIRIRA, a group of legislators proposed to define
“public charge” with particularity in the statute to
include “any alien who receives benefits described in
subparagraph (D) for an aggregate period of at least 12
months” (or 36 months in the case of a battered spouse
or child). 142 Cong. Rec. 24313, 24425 (1996). The
benefits listed in subparagraph D (that would qualify
an alien as a public charge) included “means-tested
public benefits,” but it’s not entirely clear what specific

App. 231
benefits that section refers to.14 That definition was not
enacted into law.
11.

1999

The INS attempted in 1999 to engage in rulemaking
to guide immigration officers, aliens, and the public in
understanding the public charge determinations. No
final rule was ever issued. Instead, the agency
published Field Guidance addressing the issue. See
Field Guidance on Deportability and Inadmissibility on
Public Charge Grounds, 64 Fed. Reg. 28,689 (May 26,
1999) (the “1999 Field Guidance”).
The notice was published prior to final rulemaking
because it was deemed “necessary to help alleviate
public confusion over the meaning of the term ‘public
charge’ in immigration law and its relationship to the
receipt of Federal, State, and local public benefits.” 64
Fed. Reg. at 28,689. “The Department decided to
publish a proposed rule defining ‘public charge’ in order
to reduce the negative public health consequences
generated by the existing confusion and to provide
aliens with better guidance as to the types of public
benefits that will and will not be considered in public
charge determinations.” Id. The notice “both
summarizes longstanding law with respect to public
charge and provides new guidance on public charge
determinations in light of the recent changes in law,”

14

The record refers to Section 213A(e)(1), which appears to have
been codified at 8 U.S.C § 1183a(e), but that does not describe
means-tested benefits. The currently-operative version of 8 U.S.
Code § 1183a(a)(1)(B) also appears to errantly refer to subsection
(e) for a list of means-tested benefits, so this error is not unique.

App. 232
notably the “Illegal Immigration Reform and
Immigrant Responsibility Act of 1996 (IIRIRA) and
welfare reform laws.” Id.
The notice proposed “that ‘public charge’ means an
alien who has become (for deportation purposes) or who
is likely to become (for admission/adjustment purposes)
‘primarily dependent on the government for
subsistence, as demonstrated by either (i) the receipt of
public cash assistance for income maintenance or
(ii) institutionalization for long-term care at
government expense.’ Institutionalization for short
periods of rehabilitation does not constitute such
primary dependence.” Id.
Following the
implementation of that
interpretation, “officers should not place any weight on
the receipt of non-cash public benefits (other than
institutionalization) or the receipt of cash benefits for
purposes other than for income maintenance with
respect to determinations of admissibility or eligibility
for adjustment on public charge grounds.” Id.
Summarizing current agency practice, the memo
explained:
The standard for adjudicating inadmissibility
under section 212(a)(4) has been developed in
several Service, BIA, and Attorney General
decisions and has been codified in the Service
regulations implementing the legalization
provisions of the Immigration Reform and
Control Act of 1986. These decisions and
regulations, and section 212(a)(4) itself, create a
“totality of the circumstances” test.

App. 233
In determining whether an alien is likely to
become a public charge, Service officers should
assess the financial responsibility of the alien by
examining the “totality of the alien’s
circumstances at the time of his or her
application * * * The existence or absence of a
particular factor should never be the sole
criterion for determining if an alien is likely to
become a public charge. The determination of
financial responsibility should be a prospective
evaluation based on the alien’s age, health,
family status, assets, resources and financial
status, education, and skills, among other
factors. An alien may be considered likely to
become a public charge even if there is no legal
obligation to reimburse the benefit-granting
agency for the benefits or services received, in
contrast to the standards for deportation,
discussed below.
Id. at 28,690 (footnotes omitted).
The 1999 Field Guidance then explained that the
three-part test for paying back public debt continues to
apply, but only as an additional test on top of the
totality of the circumstances test for deportation
decisions:
Repayment is relevant to the public charge
inadmissibility determination only in very
limited circumstances. If at the time of
application for admission or adjustment of
status the alien is deportable on public charge
grounds under section 237(a)(5) of the INA due
to an outstanding public debt for a cash benefit

App. 234
or the costs of institutionalization, then the alien
is inadmissible. Only a debt that satisfies the
three-part [Matter of B-] test under section
237(a)(5), described below, will render an alien
deportable as a public charge and therefore
ineligible for admission or adjustment. If the
debt is paid, then the alien will no longer be
inadmissible based on the debt, and the usual
totality of the circumstances test would apply.
Id.
The Feld Guidance explained that a compelling
reason to limit the public charge definition to those
receiving cash is that “certain federal, state, and local
benefits are increasingly being made available to
families with incomes far above the poverty level,
reflecting broad public policy decisions about improving
general public health and nutrition, promoting
education, and assisting working-poor families in the
process of becoming self-sufficient. Thus, participation
in such non-cash programs is not evidence of poverty or
dependence.” Id. at 28,692
12.

2013

In 2013, the Senate voted down two amendments to
a never-passed bill regarding immigration. The first
amendment proposed “expanding the criteria for ‘public
charge,’ such that applicants would have to show they
were not likely to qualify even for non-cash
employment supports such as Medicaid, the SNAP
program, or the Children’s Health Insurance Program
(CHIP). . . . [T]he amendment was rejected by voice
vote.” S. Rep. No. 113-40, at 42 (2013).

App. 235
The second amendment “would have expanded the
definition of ‘public charge’ such that people who
received non-cash health benefits could not become
legal permanent residents. This amendment would also
have denied entry to individuals whom the Department
of Homeland Security determines are likely to receive
these types of benefits in the future. The amendment
was not agreed to by a voice vote.” S. Rep. No. 113-40,
at 63 (2013).
13.

2019—The Rule

On October 10, 2018, DHS published a Notice of
Proposed Rulemaking in the Federal Register. See 83
Fed. Reg. 51,114. The NPRM provided a 60-day public
comment period, during which 266,077 comments were
collected. See 84 Fed. Reg. at 41,297. On August 14,
2019, DHS published the Rule in the Federal Register.
The Rule supersedes the 1999 Field Guidance’s
definition of “public charge,” establishing a new
definition based on a minimum time threshold for the
receipt of public benefits. Under the newly-proposed
“12/36 standard,” a public charge is defined as an
individual who receives designated public benefits for
more than 12 months in the aggregate within a
36-month period, although a single month where
multiple types of benefits are received is counted as
multiple months of receiving aid. 84 Fed. Reg. at
41,295. The “public benefits” included are extended by
the Rule to include many non-cash benefits, for
example Supplemental Nutrition Assistance Program
(“SNAP”), Section 8 Housing Programs, Medicaid, and
Public Housing. Id. at 41,501. Receipt of two categories
of benefits in the same months counts as two months of

App. 236
receipt for benefits, so some will qualify as public
charges without receiving benefits for 12 months.
Moreover, the rule is agnostic to the value (or cost to
the government) of the benefits. To take a plausible
example, someone receiving $182 over 36 months—or
an average of less than 17 cents a day—in SNAP
benefits is a public charge under the Rule. See Shing
Decl. ¶ 17.
The Rule does not change the definition of public
charge in the context of deportability, described
elsewhere in the INA. 84 Fed. Reg. at 41,295 (“This
rule does not interpret or change DHS’s
implementation of the public charge ground of
deportability.”). Rather, DHS will continue to enforce
the 1999 Field Guidance in the deportation context. Id.
at 41,304 (“DHS currently makes public charge
determinations in accordance with the 1999 Interim
Field Guidance. . . . This guidance explains how the
agency determines . . . whether a person has become a
public charge within five years of entry”). The 1999
Field Guidance, which will continue to govern, provided
that “the definition of public charge is the same for
both admission/adjustment and deportation,” although
“the standards applied to public charge adjudications
in each context are significantly different” because one
is forward-looking and one is backward-looking. 64
Fed. Reg. at 28,689. As such, following the
implementation of the Rule, “public charge” will
continue to be defined in the deportation context as “an
alien who has become . . . ‘primarily dependent on the
government for subsistence, as demonstrated by either
(i) the receipt of public cash assistance for income
maintenance or (ii) institutionalization for long-term

App. 237
care at government expense.’” Id. To assess whether an
alien qualifies under that definition in the deportability
context, the 1999 Field Guidance prescribes the 3-part
test established in Matter of B-, 3 I. & N. Dec. 323.
So, the Rule proposes to simultaneously apply
multiple definitions for the term public charge. First,
its new definition will be used to predict whether an
alien is likely at any time to become a public charge.
Second, the 1999 Field Guidance’s “primary
dependence” definition is left unaltered in the
deportation context, and it is evaluated pursuant to the
well-known 3-part Matter of B- test.
Each step in the Chevron analysis requires the
court to consider the terms of the statute in context.
The court first looks to the statutory text, in light of
prior agency and judicial interpretation—as explained
at length above, although the court notes that judicial
and agency interpretation following the most-recent
1996 revision is not particularly relevant to
understanding the meaning of the text as enacted in
1996. Cf. Sec’y of the Interior v. California, 464 U.S.
312, 375 n.36 (1984) (the “view of a subsequent
Congress . . . is not without persuasive value”).
The analysis is also informed to some degree by
what Congress decided not to pass, in addition to what
it specifically rejected. “Congress does not intend sub
silentio to enact statutory language that it has earlier
discarded in favor of other language.” CardozaFonseca, 480 U.S. at 442–43; Albemarle Paper Co., 422
U.S. at 414 n.8 (rejecting construction of statute that
would implement provision Conference Committee
rejected); Bob Jones Univ., 461 U.S. at 600–01

App. 238
(interpretation of statute informed by the fact that
Congress had a “prolonged and acute awareness” of an
established agency interpretation of a statute,
considered the precise issue, and rejected bills to
overturn the prevailing interpretation); see also Merrill
Lynch, 456 U.S. at 381–82 (interpretation of statute
informed by the fact that Congress amended large
portions of statute, but not provision at issue).
Of particular relevance here, parts of Congress have
explicitly and repeatedly rejected efforts to define
“public charge” to include those who receive certain
in-kind benefits for a period of 12 months—efforts that
are strikingly similar to the definition now adopted for
the first time by the executive in the Rule. E.g., 142
Cong. Rec. 24313, 24425 (1996); S. Rep. No. 113-40, at
42 (2013); S. Rep. No. 113-40, at 63 (2013). Congress’s
rejection in 1996 is particularly instructive. As
described above, Congress at that time considered a
scheme similar to the Rule, wherein use of
means-tested benefits for 12 months would qualify one
as a public charge. On September 24, 1996, the
conference committee recommended passage of a
version of the bill with that definition. See 142 Cong.
Rec. 24389 (conference committee recommendation),
24425 (public charge definition). President Clinton had
previously praised the legislation generally, but
specifically criticized that bill’s disincentive to obtain
public benefits. He called for revision of the statute. He
said “it still goes too far in denying legal immigrants
access to vital safety net programs which could
jeopardize public health and safety. Some work still
needs to be done. I urge the Congress to move quickly
to finalize and send me this key legislation.” Statement

App. 239
on Senate Action on the “Immigration Control and
Financial Responsibility Act of 1996”, President
William J. Clinton, Weekly Compilation of Presidential
Documents Volume 32, Issue 18 (May 6, 1996) at p.
783. On September 30, 1996, the bill was signed into
law, following the removal of the definition of public
charge that included use of means-tested public
benefits. This exchange, which deals with the precise
issue presented by this litigation, is particularly
instructive not because of the president’s words but
because of Congress’s response to those words—it
intentionally considered and rejected a definition
similar to what the Rule now proposes. Afterall it is
Congress, not the President, who is responsible for
writing legislation.
Given the term’s long-standing focus on the
individual’s ability and willingness to work or
otherwise support himself, and its longstanding
allowance for short-term aid, and the legislative history
of the 1996 revision, it is likely that the Rule’s
interpretation defining anyone who receives any
quantity of benefits for 12 months (or fewer) out of a
floating 36-month window as a public charge is not a
permissible or reasonable construction of the statute.
For example, defendants do not contest that someone
receiving less than 50 cents per day—which is a
standard SNAP benefit amount for recipients at the
higher end of income eligibility, Shing Decl.
¶ 17—would be deemed a public charge under the Rule.
That could also be calculated as $182 over 36
months—or an average of less than 17 cents a day. At
no point over the long history described above could
that have qualified one as a public charge, unless the

App. 240
bill for those charges was presented to the recipient
and he refused to pay. Moreover, the Rule’s
double-counting of months where multiple benefits are
received raises serious questions with respect to
whether the Rule impermissibly considers temporary
or short-term relief, receipt of which has never been
sufficient to qualify someone as a public charge (absent
repayment, following presentation of an invoice).
Deciding otherwise would put this court at odds
with persuasive Supreme Court and Ninth Circuit
precedent. The Supreme Court has defined the term to
allow exclusion only “on the ground of permanent
personal objections accompanying them [the excluded
aliens] irrespective of local conditions[.]” Gegiow, 239
U.S. at 10. In that case, “the aliens came from a remote
province of Russia. They knew no trade. They knew no
language but their own. Only one could read or write in
his own language. They had sums aggregating slightly
more than $25 each. They were not employed, and had
no promise of employment. They were ticketed through
to Portland, Or., where, owing to depressed labor
conditions, the prospect of their obtaining work ‘was
most unfavorable.’” Ex parte Hosaye Sakaguchi, 277 F.
at 916 (citing Gegiow, 239 U.S. at 10). Still, they were
not likely to become public charges within the meaning
of the statute. The Ninth Circuit reaffirmed that
definition following reorganization of the statute. Id.
(“change of location of the words does not change the
meaning that should be given them”). Since Gegiow
and Ex parte Hosaye Sakaguchi, Congress has not
altered the term “public charge,” which the Ninth
Circuit has defined standing alone, irrespective of its
placement or context within the list of excluded persons

App. 241
in the statute. The court therefore sees no good reason
to depart from those precedential opinions, which
suggest that an able-bodied, working-age individual
who is willing to engage in honest work is not
excludable based on a prediction that he will become a
public charge unless a particular reason can be
articulated to exclude him. This reasoning does not
allow for exclusion based on the increasing generosity
of society’s public assistance to provide for more than
the barest requirements of subsistence. Gegiow, in fact,
explicitly precludes consideration of local labor
conditions.
The likely unreasonableness of the rule is further
demonstrated by just how expansive the definition is.
The history of the term, evidenced by its repeated
verbatim reenactment, excluded those who were likely
to become public charges based on poverty, or idiocy
and poverty, or disease and poverty, etc. But plaintiffs
demonstrate that in a single year, roughly a quarter
U.S.-born citizens receive one or more benefits used to
define who is a public charge under the Rule. And
plaintiffs demonstrate that, over the course of their
lifetimes, about 40% of U.S.-born citizens are expected
to receive one or more of those benefits. Although these
figures do not indicate what percent of U.S.-born
citizens would actually be deemed public charges under
the Rule (that would require determining how many
individuals receive multiple benefits per month, in
addition to how many months benefits are received
over any 3-year period), it suggests that the Rule is
substantially outside the bounds of a reasonable
interpretation of the statute.

App. 242
With regard to plaintiffs’ claim that the Rule is not
in accordance with law, for the foregoing reasons, and
given the above discussion of the term’s long-standing
use and evolution in the immigration statutes, this
court finds that plaintiffs are likely to succeed on the
merits with respect to their claim that the Rule’s
definition of public charge is unreasonable and not
based on a permissible construction of the statute,
under the second prong of the Chevron analysis.15
Alternatively, plaintiffs have raised at least serious
questions with respect to whether “the statute, read in
context, unambiguously forecloses” the precise question
at issue, namely DHS’s expansive interpretation of the
term to include individuals willing and able work
productively in the national economy, under the first
prong of the Chevron analysis. See Esquivel-Quintana
v. Sessions, 137 S. Ct. 1562, 1572 (2017); see also
Whitman v. Am. Trucking Associations, 531 U.S. 457,
471 (2001) (finding a particular construction
“unambiguously bar[red]” when “interpreted in its
statutory and historical context”).
b. Not in Accordance
Rehabilitation Act

with

Law—

The Rehabilitation Act prohibits “any program or
activity receiving federal financial assistance” or “any
program or activity conducted by any Executive
agency,” from excluding, denying benefits to, or

15

For the same reasons that plaintiffs are likely to succeed on this
question, they have undoubtedly raised serious questions with
respect to it.

App. 243
discriminating against persons with disabilities. 29
U.S.C. § 794(a).
“To establish a violation of § 504 of the RA
[Rehabilitation Act], a plaintiff must show that (1) she
is handicapped within the meaning of the RA; (2) she
is otherwise qualified for the benefit or services sought;
(3) she was denied the benefit or services solely by
reason of her handicap; and (4) the program providing
the benefit or services receives federal financial
assistance.” Lovell v. Chandler, 303 F.3d 1039, 1052
(9th Cir. 2002); 29 U.S.C. § 794(a) (“[n]o otherwise
qualified individual with a disability . . . shall, solely by
reason of her or his disability, be . . . subjected to
discrimination under . . . any program or activity
conducted by any Executive agency”).
The States argue that the Rule will exclude some
individuals solely based on disability because a
disability will predictably be responsible for a number
of negative factors in some individuals: (1) a negative
health factor because the Rule adopts a definition of
“health” that strongly overlaps with disability; (2) a
negative factor if the applicant lacks private insurance;
and (3) a negative factor if the applicant has received
Medicaid for 12 of the last 36 months, even though use
of Medicaid is common for the disabled because it
covers services that no other insurer provides.
Defendants first argue that the Rule’s multi-factor
test means the Rehabilitation Act is not violated
because disability cannot be the “sole” determinative
factor. Second, they argue that even if the statutes are
in conflict, a specific, later statutory command—such

App. 244
as the INA’s requirement that the agency consider
health—supersedes section 504’s general proscription.
First, the Rehabilitation Act requires that a plaintiff
show that a disabled person was denied services
“solely” by reason of her disability. The Rule does not
deny any alien admission into the United States, or
adjustment of status, “solely by reason of” disability.
All covered aliens, disabled or not, are subject to the
same inquiry: whether they are likely to use one or
more covered federal benefits for the specified period of
time. Even though a disability is likely to be an
underlying cause of some individuals qualifying for
additional negative factors, it will not be the sole cause.
As such, disability is one non-dispositive factor.16
Second, the INA explicitly lists “health” as a factor
that an officer “shall . . . consider” in making a public
charge determination. 8 U.S.C. § 1182(a)(4)(B)(i).
“Health” includes an alien’s disability and whatever
impact the disability may have on the alien’s expenses
and ability to work. Congress, not the Rule, requires
DHS to take this factor into account, and the caselaw
has long considered this factor. See, e.g., Knutzen v.

16

Plaintiffs’ citation to Lovell is unavailing. They claim the case
found a multi-factor test violated the Act, “notwithstanding other
factors” unrelated to disability. But in Lovell, defendants asked the
court to look at a multifactored system, but the court declined and
instead looked at treatment of the disabled under a single
program. It was “undisputed that disabled people who, but for
their disability, were eligible for healthcare benefits from the State
under” that single program “were denied coverage because of the
categorical exclusion of the disabled from” that program. Lovell,
303 F.3d at 1053.

App. 245
Eben Ezer Lutheran Hous. Ctr., 815 F.2d 1343, 1353
(10th Cir. 1987) (section 504 may not “revoke or repeal
. . . a much more specific statute . . . absent express
language by Congress”).
As such, plaintiffs have not demonstrated even
serious questions going the merits with respect to this
claim.
c. Arbitrary and Capricious
Section 4 of the APA, 5 U.S.C. § 553, prescribes
a three-step procedure for so-called “notice-andcomment rulemaking.” First, the agency must
issue a “[g]eneral notice of proposed rule
making,” ordinarily by publication in the
Federal Register. § 553(b). Second, if “notice [is]
required,” the agency must “give interested
persons an opportunity to participate in the rule
making through submission of written data,
views, or arguments.” § 553(c). An agency must
consider and respond to significant comments
received during the period for public comment.
Third, when the agency promulgates the final
rule, it must include in the rule’s text “a concise
general statement of [its] basis and purpose.”
§ 553(c). Rules issued through the notice-andcomment process are often referred to as
“legislative rules” because they have the “force
and effect of law.” Chrysler Corp. v. Brown, 441
U.S. 281 (1979).
Perez v. Mortg. Bankers Ass’n, 135 S. Ct. 1199, 1203
(2015) (citations omitted).

App. 246
“‘[A]rbitrary and capricious’ review under the APA
focuses on the reasonableness of an agency’s
decision-making processes.” CHW W. Bay v. Thompson,
246 F.3d 1218, 1223 (9th Cir. 2001). Agency action is
invalid if the agency fails to give adequate reasons for
its decisions, fails to examine the relevant data, or
offers no “rational connection between the facts found
and the choice made.” Motor Vehicle Mfrs. Ass’n of
U.S., Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S.
29, 43 (1983); see also Encino Motorcars, 136 S. Ct. at
2125. A rule is arbitrary and capricious if the agency
has “entirely failed to consider an important aspect of
the problem, offered an explanation for its decision that
runs counter to the evidence before the agency, or is so
implausible that it could not be ascribed to a difference
in view or the product of agency expertise.” Id.
Agencies are required to “reflect upon the
information contained in the record and grapple with
contrary evidence.” Fred Meyer Stores, Inc. v. NLRB,
865 F.3d 630, 638 (D.C. Cir. 2017). Where “the agency
has failed to ‘examine the relevant data’ or failed to
‘articulate a rational explanation for its actions,’” its
decision is arbitrary and capricious. Genuine Parts Co.
v. EPA, 890 F.3d 304, 311–12 (D.C. Cir. 2018). And
where an agency is uncertain about the effects of
agency action, it may not rely on “‘substantial
uncertainty’ as a justification for its actions.” Greater
Yellowstone Coal., Inc. v. Servheen, 665 F.3d 1015,
1028 (9th Cir. 2011). Instead, it must “rationally
explain why the uncertainty” supports the chosen
approach. Id. (“Otherwise, we might as well be
deferring to a coin flip.”). “[A]n internally inconsistent
analysis is arbitrary and capricious.” Nat’l Parks

App. 247
Conservation Ass’n v. E.P.A., 788 F.3d 1134, 1141 (9th
Cir. 2015).
But “[t]he scope of review under the ‘arbitrary and
capricious’ standard is narrow and a court is not to
substitute its judgment for that of the agency.” Motor
Vehicle Mfrs. Ass’n, 463 U.S. at 43; San Luis &
Delta-Mendota Water Auth. v. Jewell, 747 F.3d 581,
601 (9th Cir. 2014) (“Although our inquiry must be
thorough, the standard of review is highly deferential;
the agency’s decision is ‘entitled to a presumption of
regularity,’ and we may not substitute our judgment for
that of the agency.”). An agency’s obligation to respond
to comments on a proposed rulemaking is “not
‘particularly demanding.’” Ass’n of Private Sector Colls.
& Univs. v. Duncan, 681 F.3d 427, 441–42 (D.C. Cir.
2012). “[T]he agency’s response to public comments
need only ‘enable [courts] to see what major issues of
policy were ventilated . . . and why the agency reacted
to them as it did.’” Pub. Citizen, Inc. v. FAA, 988 F.2d
186, 197 (D.C. Cir. 1993).
Rule changes face a higher burden when departing
from prior policy:
Agencies are free to change their existing
policies as long as they provide a reasoned
explanation for the change. When an agency
changes its existing position, it need not always
provide a more detailed justification than what
would suffice for a new policy created on a blank
slate. But the agency must at least display
awareness that it is changing position and show
that there are good reasons for the new policy.
In explaining its changed position, an agency

App. 248
must also be cognizant that longstanding
policies may have engendered serious reliance
interests that must be taken into account. In
such cases it is not that further justification is
demanded by the mere fact of policy change; but
that a reasoned explanation is needed for
disregarding facts and circumstances that
underlay or were engendered by the prior policy.
It follows that an unexplained inconsistency in
agency policy is a reason for holding an
interpretation to be an arbitrary and capricious
change from agency practice. An arbitrary and
capricious regulation of this sort is itself
unlawful and receives no Chevron deference.
Encino Motorcars, 136 S. Ct. at 2125–26 (internal
quotation marks and citations omitted); accord F.C.C.
v. Fox Television Stations, Inc., 556 U.S. 502, 515
(2009) (agency must “provide a more detailed
justification than what would suffice for a new policy
created on a blank slate . . . when, for example, its new
policy rests upon factual findings that contradict those
which underlay its prior policy; or when its prior policy
has engendered serious reliance interests that must be
taken into account”).
Plaintiffs raise numerous procedural challenges to
the Rule. The court addresses them in two general
categories. First, the court considers plaintiffs
arguments that DHS failed to adequately consider and
address the Rule’s costs and benefits. Second, the court
considers plaintiffs’ remaining procedural challenges.

App. 249
i. DHS Failed to Adequately Consider
Costs and Benefits
Plaintiffs argue that DHS failed to consider costs
and benefits in three ways. First, DHS failed to
adequately consider significant costs to local and state
governments raised in comments, as well as the related
issue of DHS’s failure to consider evidence when
estimating disenrollment figures. Second, DHS failed
to consider concerns about health effects like disease
outbreaks. Third, DHS acted impermissibly with
respect to the burden the I-944 form would impose.
Based on plaintiffs’ first and second arguments,
discussed presently, this court finds that they are likely
to succeed on the merits with respect to their claim
that the Rule is arbitrary and capricious.17
A. Local and State Government Costs
and Disenrollment Rates
Plaintiffs argue that commenters documented the
dangers to individuals and public health generally that
stem from disenrollment in public benefits, and
explained that local and state governments will face
higher costs because of this disenrollment. See 84 Fed.
Reg. at 41,310-12 (explaining that “[m]any commenters
particularly emphasized that disenrollment or
foregoing enrollment would be detrimental to the
financial stability and economy of communities, States,
local organizations, hospitals, safety net providers,

17

For the same reasons that plaintiffs are likely to succeed on this
claim, they have undoubtedly raised serious questions with respect
to it.

App. 250
foundations, and healthcare centers”); id. at 41,469–70;
Case No. 19-cv-04717-PJH, Dkt. 44, Exs. C–E (letters
submitted in response to NPRM). Numerous comments
included specific cost calculations. See, e.g., 84 Fed.
Reg. at 41,475 (citing specific cost estimates from
comments); Cho Decl., Ex. C at 22–23 (estimating
losses to California at $1.76 billion in revenue from
federal government and 17,700 jobs), Ex. J at 11
(estimating that the Rule would cost hospitals more
than $17 billion in uncompensated care), Ex. K at 5–7
(detailing expected costs to hospitals).
Plaintiffs relatedly argue that DHS underestimated disenrollment figures and the accompanying
effects, including the effects on state and local
governments.18 For example, despite its concession that
the Rule will cause members of mixed-status
households (i.e., those including U.S. citizens) to
disenroll from benefits, 84 Fed. Reg. at 41,300, DHS
refused to consider the costs associated with such
disenrollment, stating: “DHS believes that it would be
unwarranted for U.S. citizens and aliens exempt from
public charge inadmissibility to disenroll from a public
benefit program or forego enrollment in response to

18

DHS argues that it’s 2.5% figure is not part of the regulatory
analysis and cannot be challenged because it was calculated
pursuant to an executive order. The court disagrees. See Council
of Parent Attorneys & Advocates, Inc. v. DeVos, 365 F. Supp. 3d
28, 54 n.11 (D.D.C. 2019) (“The government contended . . . that
because its regulatory impact analysis was conducted pursuant to
Executive Orders, it is not subject to judicial review. . . . These
arguments are contrary to D.C. Circuit precedent. Because the
government relied on its cost-benefit analysis . . . a flaw in that
analysis can render the regulation arbitrary and capricious.”).

App. 251
this rule when such individuals are not subject to this
rule. DHS will not alter this rule to account for such
unwarranted choices.” Id. at 41,313.
Defendants correctly argue that they are not
required to quantify every potential cost and benefit
and precisely weigh them out. They respond to these
challenges both in the Rule and before the court with
three essential points. First, DHS read the comments,
but the forward-looking economic impact to states,
cities, hospitals, and others was too difficult to assess.
Second, with respect to the disenrollment of those who
will not be subject to a public charge assessment in the
future, the Rule’s effect was too difficult to assess.
Third, even if DHS had assessed those costs, they
would be outweighed by the benefits of excluding aliens
who would rely on public assistance, and of promoting
self-sufficiency of aliens already in the United States.
Those benefits are in line with Congressional
statements of policy.
DHS was required to a certain extent to grapple
with estimates and credible data explained in the
comments, and in turn explain why DHS chose not to
credit them. See Ctr. for Biological Diversity v. Zinke,
900 F.3d 1053, 1068–69 (9th Cir. 2018) (finding agency
action arbitrary and capricious where the agency did
not explain why it did not credit available data that did
not support its action). Defendants are correct that
DHS was not required to parse costs and benefits
precisely. But to the extent the exact harms are
unknown or difficult to predict, that does not justify
“disregarding the effect entirely.” Pub. Citizen v. Fed.

App. 252
Motor Carrier Safety Admin., 374 F.3d 1209, 1219
(D.C. Cir. 2004).
Here, even under the deferential APA analysis,
DHS appears to have wholly failed to engage with this
entire category of comments. DHS failed to grapple
with the Rule’s predictable effects on local
governments, and instead concluded that the harms—
whatever they may be—are an acceptable price to pay.
At minimum, the APA requires more than reading
public comments and responding with a general
statement that, however correct the comments may be,
the agency declines to consider the issues and costs
identified because doing so would contravene the
government’s favored policy.
For example, under the heading “Increased Costs to
Health Care Providers, States, and Localities,” the
government summarized the comments it was
responding to:
Many commenters particularly emphasized that
disenrollment or foregoing enrollment would be
detrimental to the financial stability and
economy of communities, States, local
organizations, hospitals, safety net providers,
foundations, and healthcare centers.
Commenters offering estimates on the number
of people who would disenroll from Medicaid
under the proposed rule warned that the costs
associated with the resultant rise in
uncompensated care would be borne by health
systems, hospitals, and insured patients.
84 Fed. Reg. at 41,312.

App. 253
The government’s response, in part, was:
Response: With respect to the rule’s potential
“chilling effects” or disenrollment impacts, DHS
notes that (1) the rule’s overriding consideration,
i.e., the Government’s interest as set forth in
PRWORA, is a sufficient basis to move forward;
(2) it is difficult to predict the rule’s
disenrollment impacts with respect to the
regulated population, although DHS has
attempted to do so in the accompanying Final
Regulatory Impact Analysis; and (3) it is also
difficult to predict the rule’s disenrollment
impacts with respect to people who are not
regulated by this rule, although, again, DHS has
attempted to do so in the accompanying Final
Regulatory Impact Analysis.
First, as discussed above, this rule is rationally
related to the Government’s interest, as set forth
in PRWORA, to: (1) Minimize the incentive of
aliens who attempt to immigrate to, or adjust
status in the United States due to the
availability of public benefits; and (2) Promote
the self-sufficiency of aliens within the United
States. DHS has defined public benefits by
focusing on cash assistance programs for income
maintenance, and an exhaustive list of non-cash
food, housing, and healthcare, designed to meet
basic living needs. This definition does not
include benefits related exclusively to emergency
response, immunization, education, or social
services, nor does it include exclusively state and
local non-cash aid programs. DHS acknowledges

App. 254
that individuals subject to this rule may decline
to enroll in, or may choose to disenroll from,
public benefits for which they may be eligible
under PRWORA, in order to avoid negative
consequences as a result of this final rule.
However, DHS has authority to take past,
current, and likely future receipt of public
benefits into account, even where it may
ultimately result in discouraging aliens from
receiving public benefits.
Although individuals may reconsider their
receipt of public benefits as defined by this rule
in light of future immigration consequences, this
rule does not prohibit an alien from obtaining a
public benefit for which he or she is eligible.
DHS expects that aliens seeking lawful
permanent resident status or nonimmigrant
status in the United States will make purposeful
and well-informed decisions commensurate with
the immigration status they are seeking. But
regardless, DHS declines to limit the effect of
the rulemaking to avoid the possibility that
individuals subject to this rule may disenroll or
choose not to enroll, as self-sufficiency is the
rule’s ultimate aim.
Second, DHS finds it difficult to predict how this
rule will affect aliens subject to the public
charge ground of inadmissibility, because data
limitations provide neither a precise count nor
reasonable estimate of the number of aliens who
are both subject to the public charge ground of
inadmissibility and are eligible for public

App. 255
benefits in the United States. This difficulty is
compounded by the fact that most applicants
subject to the public charge ground of
inadmissibility and therefore this rule are
generally unlikely to suffer negative
consequences resulting from past receipt of
public benefits because they will have been
residing outside of the United States and
therefore, ineligible to have ever received public
benefits.
....
Third, DHS finds it difficult to predict the rule’s
disenrollment impacts with respect to people
who are not regulated by this rule, such as
people who erroneously believe themselves to be
affected. . . . This rule does not prohibit or
otherwise discourage individuals who are not
subject to the public charge inadmissibility from
receiving any public benefits for which they are
eligible.
....
Because DHS will not consider the receipt of
public benefits by U.S. citizens and aliens not
subject to public charge inadmissibility, the
receipt of public benefits by these individuals
will not be counted against or made attributable
to immigrant family members who are subject to
this rule. Accordingly, DHS believes that it
would be unwarranted for U.S. citizens and
aliens exempt from public charge inadmissibility
to disenroll from a public benefit program or

App. 256
forego enrollment in response to this rule when
such individuals are not subject to this rule.
DHS will not alter this rule to account for such
unwarranted choices.
DHS appreciates the potential effects of
confusion regarding the rule’s scope and effect,
as well as the potential nexus between public
benefit enrollment reduction and food insecurity,
housing scarcity, public health and vaccinations,
education health-based services, reimbursement
to health providers, and increased costs to states
and localities. In response to comments, DHS
will also issue clear guidance that identifies the
groups of individuals who are not subject to this
rule, including, but not limited to, U.S. citizens,
lawful permanent residents returning from a
trip abroad who are not considered applicants
for admission, and refugees.
....
In sum, DHS does not believe that it is sound
policy to ignore the longstanding self-sufficiency
goals set forth by Congress or to admit or grant
adjustment of status applications of aliens who
are likely to receive public benefits designated in
this rule to meet their basic living needs in an
[sic] the hope that doing so might alleviate food
and housing insecurity, improve public health,
decrease costs to states and localities, or better
guarantee health care provider reimbursements.
. . . DHS believes that it will ultimately
strengthen public safety, health, and nutrition
through this rule by denying admission or

App. 257
adjustment of status to aliens who are not likely
to be self-sufficient.
84 Fed. Reg. at 41,312–14 (footnotes omitted).
That answer entirely fails to discuss costs being
borne by the states, hospitals, or others, other than to
say DHS will issue guidance in an effort to mitigate
confusion. The answer discusses disenrollment rates
being difficult to measure, but flatly refuses to account
for certain types of disenrollment (for example those
who “erroneously believe themselves to be affected” and
make “unwarranted choices”). DHS’s response
constitutes a thinly-veiled abdication of the
responsibility to consider the issue. Rather than
engage, the response simply elides the issue that the
APA requires consideration of.
Ending the analysis with the conclusion that “DHS
believes that it will ultimately strengthen public safety,
health, and nutrition through this rule” fails to show
that DHS “examine[d] the relevant data and
articulate[d] a satisfactory explanation for its action
including a rational connection between the facts found
and the choice made.” Encino Motorcars, 136 S. Ct. at
2125 (quoting Motor Vehicle Mfrs. Assn., 463 U.S. at
43); Sorenson Commc’ns Inc. v. F.C.C., 755 F.3d 702,
708 (D.C. Cir. 2014) (“Though an agency’s predictive
judgments about the likely economic effects of a rule
are entitled to deference, deference to such judgments
must be based on some logic and evidence, not sheer
speculation.”) (internal quotation marks and citations
omitted). DHS fails to explain how those benefits will
come about with any evidentiary support. In fact,
ample evidence cited in the comments shows exactly

App. 258
the opposite—that use of public benefits improves
public health and welfare. DHS’s bare assertion to the
contrary simply is not enough to satisfy its obligations.
Even ignoring the fact that the conclusion lacks a
reasoned explanation of how it was reached, DHS also
fails to address why the supposed benefits will
outweigh the likely costs (DHS had at this point
already declined to discuss what the likely costs are in
fact are). Plaintiffs have shown it is likely that, with
respect to consideration of costs imposed on states and
localities by the Rule, DHS offers no “path [that] may
reasonably be discerned” in its reasoning. Motor
Vehicle Mfrs. Ass’n, 463 U.S. at 43.
Moreover, DHS may not discount an undisputed
impact of the Rule simply because DHS believes it is
“unwarranted.” See Michigan, 135 S. Ct. at 2707
(“reasonable regulation ordinarily requires paying
attention to the advantages and the disadvantages of
agency decisions”). DHS flatly refused to consider the
costs associated with predicted, likely disenrollment of
those not subject to the public charge determination by
stating: “DHS believes that it would be unwarranted
for U.S. citizens and aliens exempt from public charge
inadmissibility to disenroll from a public benefit
program or forgo enrollment in response to this rule
when such individuals are not subject to this rule. DHS
will not alter this rule to account for such unwarranted
choices.” 84 Fed. Reg. at 41,313. But DHS’s
disagreement with the source of a cost does not make
it go away, and it does not discharge DHS’s obligation
to consider it. DHS must consider the costs of
widespread disenrollment that it anticipates—it cannot
ignore costs by calling their causes “unwarranted.”

App. 259
Plaintiffs have shown it is likely that DHS understood
that individuals would disenroll even though they are
not subject to the public charge determination, yet
DHS refused to consider that cost entirely. Doing so
would have been arbitrary and capricious. Michigan,
135 S. Ct. at 2707 (“‘cost’ includes more than the
expense of complying with regulations; any
disadvantage could be termed a cost. . . . Consideration
of cost reflects the understanding that reasonable
regulation ordinarily requires paying attention to the
advantages and the disadvantages of agency
decisions.”); accord Metlife, Inc. v. Fin. Stability
Oversight Council, 177 F. Supp. 3d 219, 223 (D.D.C.
2016) (“focus[ing] exclusively on the presumed benefits
. . . and ignor[ing] the attendant costs . . . is itself
unreasonable under the teachings of Michigan v.
Environmental Protection Agency”); Regents of Univ.
of California v. United States Dep’t of Homeland Sec.,
279 F. Supp. 3d 1011, 1046 (N.D. Cal.), aff’d sub nom.
Regents of the Univ. of California v. U.S. Dep’t of
Homeland Sec., 908 F.3d 476 (9th Cir. 2018), cert.
granted sub nom. Dep’t of Homeland Sec. v. Regents of
the Univ. of California, 139 S. Ct. 2779 (2019) (same).
B. Health Effects
Plaintiffs argue that DHS ignored comments
describing how loss of benefits would trigger negative
health consequences, including the spread of disease
and aggravation of chronic illness. DHS received ample
commentary regarding this issue. See, e.g., 84 Fed.
Reg. at 41,384 (summarizing certain comments); Cho
Decl., Ex. M at 4 (Kaiser Permanente comment linking
the rule’s impacts on prescription adherence with

App. 260
increased chance of outbreaks of communicable
disease), Ex. N at 9 (Pub. Health Inst. Comment: “We
cannot achieve universally agreed upon public health
goals, such as reducing chronic diseases throughout the
U.S., when we directly or indirectly deny large
segments of our population the very building blocks
they need for good health”), Ex. O at 4 (Nat’l Assoc.
Ped. Nurse Practitioners comment discussing “worse
health outcomes”), P at 7 (Children’s HealthWatch
comment warning of “increased prevalence of
communicable diseases”).
Defendants offer the same general defenses in
response. First, DHS read the comments, but the
forward-looking impact to health was too difficult to
assess. Second, even if DHS had assessed those costs,
they would be outweighed by the benefits of excluding
aliens who would rely on public benefits and promoting
self-sufficiency of aliens already in the United States.
Those benefits are in line with Congressional
statements of policy.
Relevantly here, similar negative health outcomes
were a key rationale for prior agency action. When
issuing the 1999 guidance, INS described its primary
motivation “to reduce the negative public health
consequences generated by the existing confusion.” 64
Fed. Reg. at 28,689; see also id. at 28,692 (adopting
regulation on an interim basis because “confusion . . .
has deterred eligible [immigrants] and their families,
including U.S. citizen children, from seeking important
health and nutrition benefits,” and that “reluctance to
access benefits has an adverse impact not just on the
potential recipients, but on public health and the

App. 261
general welfare”). In reversing the 1999 guidance,
defendants must “‘display awareness that it is
changing position’ and ‘show that there are good
reasons for the new policy.’” Encino Motorcars, 136 S.
Ct. at 2126 (quoting FCC v. Fox, 556 U.S. at 515).
Moreover, where the prior policy engendered reliance,
“a reasoned explanation is needed for disregarding
facts and circumstances that underlay or were
engendered by the prior policy.” Id.
Under the heading “Vaccinations,” the government
summarized the comments it was responding to:
Commenters indicated that the public charge
rule would make immigrant families afraid to
seek health-care, including vaccinations against
communicable diseases, and therefore, endanger
the U.S. population. . . . . The commenter
indicated that engaging with the public health
system was critical to ensuring robust
immunization to protect the population overall;
if a subset of the community were fearful to
access government healthcare services,
regardless of whether a specific type of service
qualified for a narrow exception, it would have a
significant impact on the country’s ability to
protect and promote the public health. Another
commenter indicated that its health department
anticipated that promulgation of the rule, as
written in the NPRM, will result in decreased
utilization of children’s healthcare, including
vaccinations, which will increase the risk for
vaccine preventable diseases . . . increasing the
likelihood of an outbreak.

App. 262
Some commenters stated that since many
immigrants live in communities alongside people
of the same national origin, reduced vaccinations
could result in unvaccinated or under-vaccinated
clusters of individuals. Commenters warned that
research shows that uninsured individuals are
much less likely to be vaccinated. One
commenter stated that a recent study found that
even a five percent reduction in vaccine coverage
could trigger a significant measles outbreak. . . .
Another commenter stated that the rule would
increase the incidence of childhood diseases like
chickenpox, measles, mumps and rubella and
deter parents from vaccinating their children.
84 Fed. Reg. at 41,384.
The government’s response was:
With this rulemaking, DHS does not intend to
restrict the access of vaccines for children or
adults or intend to discourage individuals from
obtaining the necessary vaccines to prevent
vaccine-preventable diseases. The purpose of
this rulemaking is to ensure that those seeking
admission to the United States are self-sufficient
and rely on themselves or family and friends for
support instead of relying on the government for
subsistence. As noted above, this final rule does
not consider receipt of Medicaidbya child under
age 21, orduringa person’s pregnancy, to
constitute receipt of public benefits. This should
addressa substantialportion, though not all, of
the vaccinations issue.

App. 263
Vaccinations obtained through public benefits
programs are not considered public benefits
under 8 CFR 212.21(b), although if an alien
enrolls in Medicaid for the purpose of obtaining
vaccines, the Medicaid itself qualifies as a public
benefit. DHS also notes that free or low cost
vaccines are available to children who are not
insured or underinsured through the Vaccines
for Children (VFC) Program. In addition, local
health centers and state health departments
provide preventive services that include vaccines
that may be offered on a sliding scale fee based
on income. Therefore, DHS believes that
vaccines would still be available for children and
adults even if they disenroll from Medicaid.
84 Fed. Reg. at 41,384–85 (footnotes omitted).
DHS’s response to the comments was essentially
that it understood that fewer people would get vaccines
following the Rule, which would present a risk, but
there are ways to get vaccines without Medicaid. As a
result, DHS acknowledged that fewer people will get
vaccines, but it failed engage at all in the consequences
of that fact.
Plaintiffs have demonstrated a likelihood of success
based upon this argument. This change departs from a
longstanding prior policy, as explained in the 1999
Field Guidance, that is likely to have engendered
reliance. That guide explained that certain rules were
needed because uncertainty had “deterred eligible
aliens and their families, including U.S. citizen
children, from seeking important health and nutrition
benefits[, which] . . . has an adverse impact not just

App. 264
on the potential recipients, but on public health
and the general welfare.” 64 Fed. Reg. at 28,692
(emphasis added). Given that the 1999 Field Guidance
was both longstanding precedent and specifically
concerned benefits supporting general public health
(not simple health of the aliens—e.g., vaccines), DHS
must provide “a reasoned explanation . . . for
disregarding facts and circumstances that underlay or
were engendered by the prior policy.” FCC v. Fox, 556
U.S. at 515–16; accord Encino Motorcars, 136 S. Ct. at
2126 (“an unexplained inconsistency in agency policy is
a reason for holding an interpretation to be an
arbitrary and capricious change from agency practice”)
(internal quotation marks omitted).
Although DHS acknowledged departure from the
1999 Field Guidance as a general matter (e.g., 84 Fed.
Reg. at 41,307–08), DHS simply declined to engage
with certain, identified public-health consequences of
the Rule. It made no attempt, whatsoever, to
investigate the type or magnitude of harm that would
flow from the reality which it admittedly recognized
would result—fewer people would be vaccinated.
Instead, and just as with its refusal to consider
“unwarranted” choices to disenroll from Medicaid
discussed above, DHS responded only that it “believes
that vaccines would still be available” through some
other channels. The response is devoid of rationale, but
additionally it fails entirely to provide a reasoned
explanation for disregarding the facts and
circumstances underlying the prior policy.

App. 265
C. Form I-944
Plaintiffs argue that defendants’ estimate of the
time and cost burden that the new Form I-944, entitled
Declaration of Self Sufficiency, will have on applicants
is implausible. They argue that the Rule provides
too-low of an estimate for the time required to fill out
the form, based on its estimate about the time it takes
to fill out another related form. They argue that DHS
did not adequately consider the differences between the
forms when arriving at their estimate. Yet DHS
considered and responded to comments regarding the
time commitment required by Form I-944. In response
DHS modified the form, removed some duplicative
questions, and explained that it is important to be filed
separately because it is filed by the immigrant himself.
84 Fed. Reg. at 41,484. Plaintiffs have not
demonstrated a likelihood of success or serious
questions with respect to this argument.
ii. Other Challenges
Plaintiffs raise a number of other procedural
challenges under the APA. The court finds that
plaintiffs have not demonstrated a likelihood of success
on the merits or serious questions with respect to any,
and it will address some of them briefly.
Plaintiffs argue that the Rule stops treating
sponsors’ affidavits of support as sufficient assurance
that immigrant applicants will not become overly
dependent on public benefits, yet Congress specified in
8 U.S.C. § 1182(a)(4)(B)(ii) that the executive simply
“may also” consider such affidavits. Although plaintiffs
argue that in practice USCIS has accepted affidavits of

App. 266
support as conclusive, the controlling statute and 1999
Field Guidance make clear that this is not a change in
policy. See 64 Fed. Reg. at 28,690 (“Where such an AOS
has been filed on an alien’s behalf, it should be
considered along with the statutory factors in the
public charge determination.”).
Plaintiffs argue the Rule is inconsistent because
DHS included an exemption for individuals under the
age of 21 who receive Medicaid benefits, but did not
include a similar exemption for individuals under the
age of 21 who receive SNAP benefits. DHS considered
this issue and provided a reasoned explanation for
providing Medicaid to children, including that it can
provide funding for “in-school health services and serve
as an important way to ensure that children receive the
vaccines needed to protect public health and welfare.”
84 Fed. Reg. at 41,380.
Plaintiffs argue the Rule is inconsistent because the
statute requires consideration of “education and skills”
and “health,” but the Rule requires a much more
searching inquiry into health than education and skills.
For example, the Rule considers details about an
individual’s health insurance, benefits receipt, and
financial status of household members, but
inconsistently fails to take into account admission or
attendance in a college or trade school. But the Rule in
fact allows for consideration of admission or attendance
in a college or trade school, and DHS adequately
addressed these issues in response to comments. See 84
Fed. Reg. at 41,436 (“the exact nature of the education
(or lack thereof) and employment would have to be
considered”).

App. 267
Plaintiffs argue the Rule is inconsistent because it
considers past immigration-related fee waivers, which
may be submitted before a noncitizen is legally eligible
to work and as a result punish that individual for
applying to work legally. DHS adequately responded,
noting that “[s]ince fee waivers are based on an
inability to pay, seeking or obtaining a fee waiver for
an immigration benefit suggests an inability to be selfsufficient.” 84 Fed. Reg. at 41,424–25.
Plaintiffs argue the Rule is inconsistent because
Medicaid use by pregnant women or children (who are
not penalized for using Medicaid under the rule) is
counted against them, because Medicaid is not counted
as an asset that could offset the negative factor of their
illness that Medicaid is paying to treat. Plaintiffs argue
that is not consistent, because private insurance is
considered an asset. Defendants argue that the Rule
does not count a severe medical condition as a heavily
weighed negative factor if the alien has “the financial
resources to pay for reasonably foreseeable medical
costs related to such medical condition,” and such
“financial resources” can include Medicaid benefits for
those pregnant or under 21. See 84 Fed. Reg. at 41,504
(“resources . . . to pay for reasonably foreseeable
medical costs” includes “health insurance not
designated as a public benefit under 8 CFR 212.21(b)”).
Plaintiffs argue the Rule is irrational because an
income of 125% of the federal poverty guideline rate
counts as a positive factor, yet individuals whose
incomes exceed that qualify for non-cash benefits
considered under the Rule. But not all factors in a

App. 268
multifactor test are required to align in outcome to be
rational.
Plaintiffs argue the Rule is irrational because while
it considers large family size as a negative factor in a
public charge assessment, DHS’s own data indicates
that non-cash benefit is higher among families of three
than families of four, and that noncitizens’ use of cash
benefits decreases as family size grows. 84 Fed. Reg. at
41,395. The parties appear to disagree about which
studies are “good studies” here, but DHS’s response
explained its interpretation of the studies and
concluded that “the data properly reflects that receipt
of noncash benefits generally increases with an
increase in family size.” Id.
Plaintiffs argue the Rule is irrational because it
considers the mere application for benefits in the public
charge determination. Plaintiffs argue that an
application for benefits does not indicate a noncitizen
is actually financially and otherwise eligible for the
benefit or will decide to use the benefit. DHS
reasonably explained that an “application for a public
benefit is not the same as receipt but is indicative of an
alien’s intent to receive such a benefit.” 84 Fed. Reg. at
41,422.
Plaintiffs argue the Rule is irrational because it is
ultimately a vague and entirely unpredictable
framework for weighing the statutorily-authorized and
newly-added factors, which results in limitless
discretion. The precise nature of the procedural
challenge is unclear here, but the underlying statute
requires consideration of “at minimum” five factors,
and then specifically mentions another factor that

App. 269
“may” be considered. Moreover, the statute specifically
targets those who are likely to be a public charge “in
the opinion of the Attorney General,” who as DHS
recognized has long been given discretion to make such
determinations under the statute. 84 Fed. Reg. at
41,398 (“DHS notes that officer discretion is not a new
concept in USCI S i m m i gration benefits
adjudications.”).
Plaintiffs argue the Rule is irrational because some
factors are actually determinative, and impossible to
overcome because the factors significantly overlap. As
a result, the Rule funnels officials’ decision-making
towards favoring high-income individuals at the
expense of the poor and other marginalized groups. To
the extent plaintiffs challenge the Rule favoring
admission of the wealthy over the poor, the plaintiffs’
appropriate target is the underlying statute rather
than the Rule implementing it. The statute itself calls
for consideration of a number of factors, ultimately
aimed at excluding from the country a group comprised
of those who are more likely to be poor than rich.
d. Zone of Interests
In order to succeed on the merits, plaintiffs must be
within the zone of interests of the statute that forms
the basis of their challenge. The zone of interests
analysis asks “whether Congress created a private
cause of action in legislation” (Organized Vill. of Kake
v. U.S. Dep’t of Agric., 795 F.3d 956, 964 (9th Cir.
2015)), such that “this particular class of persons has
a right to sue under this substantive statute” (Lexmark
Int’l, Inc. v. Static Control Components, Inc., 572 U.S.
118, 127 (2014)). It is “not a question of Article III

App. 270
standing” (Organized Vill. of Kake, 795 F.3d at 964),
but rather is more appropriately assessed with
plaintiffs’ likelihood of success.19
“[A] person suing under the APA must satisfy not
only Article III’s standing requirements, but an
additional test: The interest he asserts must be
‘arguably within the zone of interests to be protected or
regulated by the statute’ that he says was violated.”
Match-E-Be-Nash-She-Wish Band of Pottawatomi
Indians v. Patchak, 567 U.S. 209, 224 (2012) (quoting
Ass’n of Data Processing Serv. Organizations, Inc. v.
Camp, 397 U.S. 150, 153 (1970)). In the APA context,
“[t]he ‘zone of interest’ test is a guide for deciding
whether, in view of Congress’ evident intent [when
enacting the APA] to make agency action
presumptively reviewable, a particular plaintiff should
be heard to complain of a particular agency decision. In
cases where the plaintiff is not itself the subject of the
contested regulatory action, the test denies a right of
review if the plaintiff’s interests are so marginally
related to or inconsistent with the purposes implicit in
the statute that it cannot reasonably be assumed that
Congress intended to permit the suit. The test is not
meant to be especially demanding; in particular, there
need be no indication of congressional purpose to
benefit the would-be plaintiff.” Clarke v. Sec. Indus.
Ass’n, 479 U.S. 388, 399–400 (1987) (footnote omitted);

19

The “zone of interests” requirement was formerly referred to as
an assessment of “prudential standing,” but “prudential standing
is a misnomer as applied to the zone-of-interests analysis[.]”
Lexmark, 572 U.S. at 127 (internal quotation marks omitted);
accord Organized Vill. of Kake, 795 F.3d at 964 (9th Cir. 2015).

App. 271
see also Pottawatomi Indians, 567 U.S. at 225–26
(2012).
“Whether a plaintiff comes within the ‘zone of
interests’ is an issue that requires us to determine,
using traditional tools of statutory interpretation,
whether a legislatively conferred cause of action
encompasses a particular plaintiff’s claim.” Lexmark,
572 U.S. at 127. “In answering this question, we
recognize that ‘the breadth of the [applicable] zone of
interests varies according to the provisions of law at
issue.’” Sierra Club v. Trump, 929 F.3d 670, 700 (9th
Cir. 2019) (quoting Lexmark, 572 U.S. at 130). “When
the [Supreme] Court has applied the zone of interests
test in APA actions, however, it has analyzed the zone
of interests of the statute the agency is alleged to have
violated, not any zone of interests of the APA itself.” Id.
at 702; accord Mendoza v. Perez, 754 F.3d 1002, 1016
(D.C. Cir. 2014). Nevertheless, “when analyzing
whether a plaintiff falls within the zone of interests of
a particular statute, courts should be particularly
lenient if a violation of that statute is being asserted
through an APA claim.” Id. at 703 n.26; accord
Pottawatomi Indians, 567 U.S. at 225 (“we have always
conspicuously included the word ‘arguably’ in the test
to indicate that the benefit of any doubt goes to the
plaintiff”); Pit River Tribe v. Bureau of Land Mgmt.,
793 F.3d 1147, 1155–56 (9th Cir. 2015) (“The
zone-of-interests test should be applied consistent with
Congress’s intent ‘to make agency action presumptively
reviewable’ under the APA.”).
Procedural and substantive challenges under the
APA are subject to the same analysis, because “a party

App. 272
within the zone of interests of any substantive
authority generally will be within the zone of interests
of any procedural requirement governing exercise of
that authority[.]” Int’l Bhd. of Teamsters v. Pena, 17
F.3d 1478, 1484 (D.C. Cir. 1994).
“Whether a plaintiff’s interest is ‘arguably ...
protected ... by the statute’ within the meaning of the
zone-of-interests test is to be determined not by
reference to the overall purpose of the Act in question
(here [in the context of the Endangered Species Act],
species preservation), but by reference to the particular
provision of law upon which the plaintiff relies.”
Bennett v. Spear, 520 U.S. 154, 175–76 (1997). Put
differently, “the plaintiff must establish that the injury
he complains of ... falls within the ‘zone of interests’
sought to be protected by the statutory provision whose
violation forms the legal basis for his complaint.” Id. at
176 (quoting Lujan v. Nat’l Wildlife Fed’n, 497 U.S.
871, 883 (1990)) (citing Air Courier Conference v.
Postal Workers, 498 U.S. 517, 523–24 (1991)). For
example, an allegation that § 4 of the Bank Service
Corporation Act was violated considers whether
plaintiffs are within the zone of interests of § 4 itself,
not “the overall purpose of the Bank Service
Corporation Act of 1962[.]” Id. (citing Data Processing,
397 U.S. at 155–156); accord Air Courier Conference,
498 U.S. at 529–30 (The “relevant statute” is generally
not the entire act, because “to accept this level of
generality in defining the ‘relevant statute’ could
deprive the zone-of-interests test of virtually all
meaning.”); Pit River Tribe, 793 F.3d at 1157 (“ability
to challenge . . . cannot be determined by looking to the
broad objectives of the” act); but see E. Bay Sanctuary

App. 273
Covenant v. Trump, 932 F.3d 742, 768 n.9 (9th Cir.
2018) (“E. Bay Sanctuary I”) (“‘[W]e are not limited to
considering the [specific] statute under which
[plaintiffs] sued, but may consider any provision that
helps us to understand Congress’ overall purposes in
the [INA].’”) (quoting Clarke, 479 U.S. at 401).
Although the relevant statute “is the statute whose
violation is the gravamen of the complaint” and not the
entire act, the court may also look to provisions that
“have any integral relationship” with the relevant
statute. Air Courier Conference, 498 U.S. at 529–30
(quoting Lujan, 497 U.S. at 886) (citing Clarke, 479
U.S. at 388). For example, when the challenged
statutory section operates as an enumerated exception
to another section, the court may consider both sections
when determining whether a plaintiff falls within the
zone of interests of the challenged section. Clarke, 479
U.S. at 401 (considering related statutory section to
which challenged statute was an exception); accord Air
Courier Conference, 498 U.S. at 529 (recognizing the
exception in Clarke as limited: “This statement [that
the court may look beyond the specific challenged
section], like all others in our opinions, must be taken
in the context in which it was made. In the next
paragraph of the opinion, the Court pointed out that 12
U.S.C. § 36, which the plaintiffs in that case claimed
had been misinterpreted by the Comptroller, was itself
‘a limited exception to the otherwise applicable
requirement of [12 U.S.C.] § 81,’ . . . . Thus the
zone-of-interests test was to be applied not merely in
the light of § 36, which was the basis of the plaintiffs’
claim on the merits, but also in the light of § 81, to
which § 36 was an exception.”).

App. 274
i. The County and State Plaintiffs
The County and State plaintiffs’ interests are
squarely within the challenged statute’s zone of
interests. For example, that statute allows the
Attorney General to consider an affidavit of support
under 8 U.S. Code § 1183a when determining whether
to exclude an alien as a likely public charge. See 8
U.S.C. §§ 1182(a)(4)(B)(ii). Although distinct, Section
1183a is specifically referred to and incorporated into
the public charge analysis set out in the challenged
statute. As a result, § 1183a has an integral
relationship with § 1182(a)(4), such that it should be
considered when determining whether plaintiffs are
within the zone of interests of the challenged statute.
Section 1183a explains that someone can sponsor an
alien by guaranteeing to financially support him, and
thereby alleviate the concern that he may become a
public charge. That statute also provides that any such
sponsorship can only be considered in the public charge
analysis if it is supported by an affidavit that is “legally
enforceable against the sponsor by . . . any State (or
any political subdivision of such State), or by any other
entity that provides any means-tested public benefit[.]”
§ 1183a(a)(1)(B); see also § 1183a(b)(1)(A) (“Upon
notification that a sponsored alien has received any
means-tested public benefit, the . . . appropriate entity
of the Federal Government, a State, or any political
subdivision of a State shall request reimbursement by
the sponsor in an amount which is equal to the
unreimbursed costs of such benefit.”). Moreover, the
sponsor must agree to submit to jurisdiction in state

App. 275
courts for actions to compel reimbursement of benefits
those states paid to the alien. §§ 1183a(a)(1)(C), (e)(2).
By recognizing that states (and political
subdivisions of states) would be paying means-tested
public benefits to those subject to a public charge
analysis, requiring that states and their subdivisions
have legally-enforceable rights to recover those
expenses when an alien is admitted based on
consideration of an affidavit of support, and
guaranteeing state-court jurisdiction for such
enforcement actions, Congress clearly intended to
protect states and their political subdivisions with the
challenged statute.
Moreover, given the attention paid to states’ rights
to recover payment of “any means-tested public benefit”
from affiants in § 1183a, it is also more than arguable
that Congress intended to protect states and their
political subdivisions’ coffers when providing for the
exclusion of any alien “likely at any time to become a
public charge” in the first place. 8 U.S.C.
§§ 1182(a)(4)(A). So, the State and County plaintiffs’
financial interests are also at least arguably protected
by the statute for this independent reason.
Therefore, the States’ and Counties’ interests are
more than arguably related to the challenged statute’s
purpose, and they satisfy the zone-of-interests
requirement.
ii. The Organizations
The Organizations move for an injunction based on
one claim that the Rule violates the APA because it is
substantively contrary to the term “public charge” as

App. 276
used in 8 U.S.C. § 1182(a)(4), and a related procedural
APA claim based on the same underlying statute. As
such, the Organizations must be within that statute’s
zone of interest.
Their papers argue that they are within the
statute’s zone of interests for three reasons. First, the
Rule itself counts health care providers and nonprofit
organizations among those who will be affected by it.
Second, plaintiffs’ interests in serving low-income,
immigrant communities by providing medical or legal
services and advice are related to and consistent with
the statute’s purpose to provide procedures and policies
for immigration relief. Third, and relatedly, the Ninth
Circuit has recently held that similar plaintiffs are
within the INA’s zone of interests.
First, the Organizations argue the Rule itself
contemplates that organizations like them will be
adversely affected by it. But being negatively affected
by a rule implementing a statute is not sufficient to
establish that the statute conferred a cause of action
encompassing that plaintiff’s claim. The Organizations’
argument that they will be hurt by the Rule speaks to
their standing to challenge it, rather than whether they
are within the statute’s zone of interest. See Air
Courier Conference, 498 U.S. at 524 (“injury in fact
does not necessarily mean one is within the zone of
interests to be protected by a given statute”); see also
Lujan, 497 U.S. at 883 (“for example, the failure of an
agency to comply with a statutory provision requiring
‘on the record’ hearings would assuredly have an
adverse effect upon the company that has the contract
to record and transcribe the agency’s proceedings; but

App. 277
since the provision was obviously enacted to protect the
interests of the parties to the proceedings and not those
of the reporters, that company would not be ‘adversely
affected within the meaning’ of the statute”).
Second, the Organizations argue that their interests
align with the statute. Yet their briefing failed to
identify or explain what statutory provisions support
their argument. That failure is fatal given the Supreme
Court’s direction that the zone of interests analysis
“requires us to determine, using traditional tools of
statutory interpretation, whether a legislatively
conferred cause of action encompasses a particular
plaintiff’s claim.” Lexmark, 572 U.S. at 127. When
asked at the hearing what specific statutory provisions
they are relying upon, the Organizations for the first
time identified 8 U.S.C. § 1611. That section outlines
the federal public benefits for which aliens are eligible.
But the Organizations do not assert a challenge based
on a violation of § 1611, and it is not at all clear that
§ 1611 has “any integral relationship with” 8 U.S.C.
§ 1182(a)(4) such that it is proper for the court to
consider it in the zone of interests inquiry. See Air
Courier Conference, 498 U.S. at 529 (without a
particular reason to suggest otherwise, sections within
the same act are not sufficiently related); cf. Clarke,
479 U.S. at 401 (considering related statutory section
to which challenged statute was an exception).
Even if the court were to consider § 1611, the
Organizations leave the court to guess at what
connection those statutory provisions share, much less
how 8 U.S.C. § 1182(a)(4) is related to the
Organizations’ purposes in light of § 1611. Finally, the

App. 278
Organizations do not even explain how their interests
are more than marginally related to § 1611 itself—
which does not even “give institutions like the
Organizations a role[.]” E. Bay Sanctuary I, 932 F.3d at
769.
At this stage of litigation, the Organizations have
not met their burden to demonstrate that there are
serious questions concerning whether they are within
the challenged statute’s zone of interest, and certainly
they have failed to demonstrate a likelihood that they
are able to bring the APA actions underlying their
present motion.
Taking a step back, the Organizations simply fail to
explain how their interests relate to § 1182(a)(4)’s
purpose of excluding immigrants likely to become
public charges. This may be because the Organizations
identify, without explanation, the statute’s purpose as
providing “procedures and policies for immigration
relief.” That may be based on an argument about the
INA’s overall statutory purpose, untethered to the
statutory challenge underlying this motion. In support
of that argument, the Organizations rely on E. Bay
Sanctuary I, 932 F.3d at 771. But the statute at issue
in that action concerned asylum seekers, and the very
statute underlying that challenge contained a provision
requiring the Attorney General to refer asylum seekers
to pro bono legal aid organizations, such as the plaintiff
entities in that action. The court identified specific
references to the role of pro bono legal organizations
within the challenged statute itself, and it found that
was sufficient. That is very different from the facts
presented here. See E. Bay Sanctuary I, 932 F.3d at

App. 279
768 (“Within the asylum statute [underlying the
preliminary injunction, 8 U.S.C. § 1158(a)(1)], Congress
took steps to ensure that pro bono legal services of the
type that the Organizations provide are available to
asylum seekers. See 8 U.S.C. § 1158(d)(4)(A)–(B)”).20
2. Plaintiffs are Likely to Suffer Irreparable
Harm
The three distinct issues of (i) standing,
(ii) ripeness, and (iii) irreparable harm in the absence
of an injunction are supported by the same factual
analysis for each plaintiff. Although each of the three
requirements is independent for plaintiffs to succeed on
this motion, a finding that plaintiffs are likely to suffer
irreparable harm in the absence of an injunction here
is sufficient to establish standing and ripeness. For the
Organizations, the court assesses only standing and
ripeness.
The court first addresses the legal standards, and
then assesses each plaintiff’s demonstrated harms.
a. Legal Standards
i. Standing

20

To the extent the Organizations argue that E. Bay Sanctuary I,
932 F.3d at 771 allows this court to look to unrelated provisions in
the INA for a section justifying their interest in the action, the
court is at a loss as how to how reconcile that interpretation with
Bennett, 520 U.S. at 175–76, Air Courier Conference, 498 U.S. at
529, and Pit River Tribe, 793 F.3d at 1157. Absent clarity from an
en banc determination of this issue, the court hews to Supreme
Court and prior panel authority on the question.

App. 280
Federal courts may adjudicate only actual cases or
controversies, see U.S. Const. Art. III, § 2, and may not
render advisory opinions as to what the law ought to be
or affecting a dispute that has not yet arisen. Aetna
Life Ins. Co. of Hartford, Conn. v. Haworth, 300 U.S.
227, 240 (1937). Article III’s “standing” requirements
limit the court’s subject matter jurisdiction. See
Cetacean Cmty. v. Bush, 386 F.3d 1169, 1174 (9th Cir.
2004). The burden of establishing standing rests on the
party asserting the claim. Renne v. Geary, 501 U.S.
312, 316 (1991).
The “irreducible constitutional minimum of
standing contains three elements. First, the plaintiff
must have suffered an injury in fact—an invasion of a
legally protected interest which is (a) concrete and
particularized, and (b) actual or imminent, not
conjectural or hypothetical. Second, there must be a
causal connection between the injury and the conduct
complained of—the injury has to be fairly traceable to
the challenged action of the defendant, and not the
result of the independent action of some third party not
before the court. Third, it must be likely, as opposed to
merely speculative, that the injury will be redressed by
a favorable decision.” Lujan v. Defs. of Wildlife, 504
U.S. 555, 560–61 (1992) (citations and internal
quotation marks omitted); see also Spokeo Inc. v.
Robins, 136 S. Ct. 1540, 1547 (2016).
“At least one plaintiff must have standing to seek
each form of relief requested, and that party bears the
burden of establishing the elements of standing with
the manner and degree of evidence required at the
successive stages of the litigation.” E. Bay Sanctuary I,

App. 281
932 F.3d at 763–64 (internal quotation marks and
citations omitted). At this preliminary stage, plaintiffs
“may rely on the allegations in their Complaint and
whatever other evidence they submitted in support of
their” motion to meet their burden. Id. at 764. They
“need only establish a risk or threat of injury to satisfy
the actual injury requirement.” Id.
Organizations can establish standing two different
ways.
First,
“Organizations
can
demonstrate
organizational standing by showing that the challenged
‘practices have perceptibly impaired [their] ability to
provide the services [they were] formed to provide.’” Id.
at 765. “[A] diversion-of-resources injury is sufficient to
establish organizational standing for purposes of
Article III if the organization shows that, independent
of the litigation, the challenged policy frustrates the
organization’s goals and requires the organization to
expend resources in representing clients they otherwise
would spend in other ways.” Id. (internal quotation
marks and citations omitted) (citing inter alia, Comite
de Jornaleros de Redondo Beach v. City of Redondo
Beach, 657 F.3d 936, 943 (9th Cir. 2011) (en banc)
(advocacy groups had organizational standing to
challenge an anti-solicitation ordinance that targeted
day laborers based on the resources spent by the
groups in assisting day laborers during their arrests
and meetings with workers about the status of the
ordinance); Nat’l Council of La Raza v. Cegavske, 800
F.3d 1032, 1039–40 (9th Cir. 2015) (civil rights groups
had organizational standing to challenge alleged voter
registration violations where the groups had to “expend

App. 282
additional resources” to counteract those violations
that “they would have spent on some other aspect of
their organizational purpose”); El Rescate Legal Servs.,
Inc. v. Exec. Office of Immigration Review, 959 F.2d
742, 748 (9th Cir. 1991) (legal services groups had
organizational standing to challenge a policy of
providing only partial interpretation of immigration
court proceedings, noting that the policy “frustrate[d]”
the group’s “efforts to obtain asylum and withholding
of deportation in immigration court proceedings” and
required them “to expend resources in representing
clients they otherwise would spend in other ways.”);
Valle del Sol Inc. v. Whiting, 732 F.3d 1006, 1018 (9th
Cir. 2013) (finding organizational standing where the
plaintiffs “had to divert resources to educational
programs to address its members’ and volunteers’
concerns about the [challenged] law’s effect”)).
In E. Bay Sanctuary I, the Ninth Circuit held that
plaintiffs established organizational standing by
declaring that enforcement of a regulation “frustrated
their mission of providing legal aid” to asylum
applicants by “significantly discourage[ing] a large
number of those individuals from seeking asylum given
their ineligibility.” 932 F.3d at 766. That regulation
would require plaintiffs “to partially convert their
affirmative asylum practice into a removal defense
program, an overhaul that would require ‘developing
new training materials’ and ‘significant training of
existing staff.’” Id. “Finally, the [plaintiff]
Organizations have each undertaken, and will continue
to undertake, education and outreach initiatives
regarding the new rule, efforts that require the
diversion of resources away from other efforts to

App. 283
provide legal services to their local immigrant
communities.” Id.
Second, “Organizations can demonstrate
organizational standing by showing that the Rule will
cause them to lose a substantial amount of funding. For
standing purposes, a loss of even a small amount of
money is ordinarily an ‘injury.’ We have held that an
organization that suffers a decreased amount of
business and lost revenues due to a government policy
easily satisfies the ‘injury in fact’ standing
requirement.” Id. at 766–67 (internal quotation marks
and citations omitted).
In E. Bay Sanctuary I, the Ninth Circuit held that
plaintiffs established organizational standing by
declaring that they received a large portion of their
funding based on the number of asylum applications
they pursue, and that if their prospective clients
“became categorically ineligible for asylum, East Bay
would lose a significant amount of business and suffer
a concomitant loss of funding.” Id. at 767.
ii. Ripeness
“Ripeness is an Article III doctrine designed to
ensure that courts adjudicate live cases or
controversies and do not ‘issue advisory opinions [or]
declare rights in hypothetical cases.’ A proper ripeness
inquiry contains a constitutional and a prudential
component.” Bishop Paiute Tribe v. Inyo Cty., 863 F.3d
1144, 1153 (9th Cir. 2017) (citations omitted).
“For a case to be ripe, it must present issues that
are definite and concrete, not hypothetical or abstract.
Constitutional ripeness is often treated under the

App. 284
rubric of standing because ripeness coincides squarely
with standing’s injury in fact prong.” Id. (internal
quotation marks and citations omitted); Thomas v.
Anchorage Equal Rights Comm’n, 220 F.3d 1134,
1138–39 (9th Cir. 2000) (“Sorting out where standing
ends and ripeness begins is not an easy task. . . . . [I]n
‘measuring whether the litigant has asserted an injury
that is real and concrete rather than speculative and
hypothetical, the ripeness inquiry merges almost
completely with standing.’”). Allegations that a “threat”
to a “concrete interest is actual and imminent” are
sufficient to allege “an injury in fact that meets the
requirements of constitutional ripeness.” Bishop Paiute
Tribe, 863 F.3d at 1154. Therefore, if plaintiffs satisfy
the Article III standing requirements under Lujan v.
Defs. of Wildlife, addressed above, the action here is
ripe. In this case, the analysis for both requirements is
the same. See, e.g., Thomas, 220 F.3d at 1139
(“Whether the question is viewed as one of standing or
ripeness, the Constitution mandates that prior to our
exercise of jurisdiction there exist a constitutional ‘case
or controversy,’ that the issues presented are ‘definite
and concrete, not hypothetical or abstract.’ . . . We need
not delve into the nuances of the distinction between
the injury in fact prong of standing and the
constitutional component of ripeness: in this case, the
analysis is the same.”).
“In evaluating the prudential aspects of ripeness,
our analysis is guided by two overarching
considerations: ‘the fitness of the issues for judicial
decision and the hardship to the parties of withholding
court consideration.’” Thomas, 220 F.3d at 1141. When
the question presented “is ‘a purely legal one’” that

App. 285
“constitutes ‘final agency action’ within the meaning of
§ 10 of the APA,” that suggests the issue is fit for
judicial decision. Nat’l Park Hosp. Ass’n v. Dep’t of
Interior, 538 U.S. 803, 812 (2003). However, an issue
may not be ripe for review if “further factual
development would ‘significantly advance our ability to
deal with the legal issues presented.’” Id.
iii.

Irreparable Harm

“A plaintiff seeking preliminary relief must
‘demonstrate that irreparable injury is likely in the
absence of an injunction.’” California v. Azar, 911 F.3d
558, 581 (9th Cir. 2018) (quoting Winter, 555 U.S. at
22); Boardman v. Pac. Seafood Grp., 822 F.3d 1011,
1023 (9th Cir. 2016) (“A threat of irreparable harm is
sufficiently immediate to warrant preliminary
injunctive relief if the plaintiff ‘is likely to suffer
irreparable harm before a decision on the merits can be
rendered.’”) (quoting Winter, 555 U.S. at 22)).
“There must be a ‘sufficient causal connection’
between the alleged irreparable harm and the activity
to be enjoined, and showing that ‘the requested
injunction would forestall’ the irreparable harm
qualifies as such a connection.” Nat’l Wildlife Fed’n v.
Nat’l Marine Fisheries Serv., 886 F.3d 803, 819 (9th
Cir. 2018) (citing Perfect 10, Inc. v. Google, Inc., 653
F.3d 976, 981–82 (9th Cir. 2011)). “However, a plaintiff
‘need not further show that the action sought to be
enjoined is the exclusive cause of the injury.’” Id.
(quoting M.R. v. Dreyfus, 697 F.3d 706, 728 (9th Cir.
2012)).

App. 286
The irreparable harm “analysis focuses on
irreparability, ‘irrespective of the magnitude of the
injury.’” Azar, 911 F.3d at 581 (quoting Simula, Inc. v.
Autoliv, Inc., 175 F.3d 716, 725 (9th Cir. 1999)). “[T]he
temporary loss of income, ultimately to be recovered,
does not usually constitute irreparable injury.”
Sampson v. Murray, 415 U.S. 61, 90 (1974). But the
general rule that “[e]conomic harm is not normally
considered irreparable” does not apply where there is
no adequate remedy to recover those damages, such as
in APA cases. Azar, 911 F.3d at 581 (citing 5 U.S.C.
§ 702).
b. The Plaintiffs’ Harms
First, the court assesses the Counties’ and States’
standing, the ripeness of their claims, and whether
they have demonstrated irreparable harm in absence
of an injunction. Second, the court assesses the
Organizations’ standing and the ripeness of their
claims.
i. The States and Counties
The States and Counties argue that they will suffer
five categories of irreparable harm: (A) loss of federal
funds, mostly in Medicaid reimbursement;
(B) increased operational costs; (C) increased costs to
their own healthcare operations (D) public health
problems and resulting increased costs; and
(E) reduced economic activity due to a decrease in
federal funds in the community.

App. 287
A. Loss of Federal Funds
The Counties argue that they will lose millions of
dollars in federal Medicaid reimbursement funds. Each
provides a broad array of health services to low-income
residents, many of which are at least partially
reimbursed with federal Medicaid dollars. DHS itself
estimates that 2.5% of individuals in households with
a noncitizen will disenroll from Medicaid, which would
translate to a roughly $7.5 million loss in Medicaid
reimbursement funds.
The States similarly argue that DHS itself
estimates that the Rule will cause a reduction in
payments from the federal government due to
disenrollment or foregone enrollment by eligible
individuals to be over $1.5 billion, nationwide. 83 Fed.
Reg. at 51,267–69.
Defendants argue the harm is too speculative,
caused only by third-party actions, and not imminent
because the merits can be resolved quickly on summary
judgment. Defendants argue that even assuming a
2.5% rate of disenrollment, plaintiffs fail to show that
the States and Counties will be harmed, rather than
individuals residing within their boundaries.
Defendants argue that harm individual citizens will
suffer cannot support the States and Counties claims
of irreparable harm. Finally, defendants argue that any
financial harms the States and Counties identify are
not sufficiently large to establish irreparable harm.
First, regarding the speculative nature of the harm,
defendants themselves predict a 2.5% disenrollment
rate when assessing the Rule, subject to the procedural

App. 288
requirements of the APA. 84 Fed. Reg. at 41,463. The
Rule itself also estimated that it will cause a reduction
in payments from the federal government due to
disenrollment or foregone enrollment by eligible
individuals of over $1.5 billion. 83 Fed. Reg. at 51,267–
69; see also Cisneros Decl. A at 98-99, Table 18 (annual
estimates of $1.46 billion to $4.37 billion in reduced
payments). Those figures, which underlie DHS’s
analysis in support of the Rule pursuant to the APA’s
requirements, are not speculative conjectures as to
what might possibly occur. They are meant to be
serious efforts by an agency to assess the impact of a
proposed rule, and it is difficult to fathom how
defendants can argue otherwise. And plaintiffs offer
sufficient evidence to demonstrate that disenrollment
or non-enrollments will reach at least that level. See 84
Fed. Reg. at 41,463; Wong Decl. ¶¶ 18-45; Shing Decl.
¶ 30; Weisberg Decl. ¶12; Ponce Decl. ¶¶ 4–11, 25. This
type of predictable result from a broad policy, although
not precise to the level of the individual actor, is
sufficiently-specific to allege irreparable harm. See
Dep’t of Commerce v. New York, 139 S. Ct. 2551, 2565
(2019). Moreover, plaintiffs offer evidence showing that
disenrollment due to the public charge rulemaking has
already begun. See, e.g., Cody Decl. ¶ 8; Newstrom
Decl. ¶ 43; Weisberg Decl. ¶¶ 12–14; Shing Decl.
¶¶ 23–24; Chawla Decl. ¶ 13; Fanelli Decl. ¶ 38;
Neville-Morgan Decl. ¶ 16; Ruiz Decl. ¶¶ 10, 12;
Kofman Decl. ¶ 6; Medina Decl. ¶¶ 18–22. Plaintiffs
offer strong evidence that disenrollment is likely to
continue between now and the resolution of this issue
on the merits, absent an injunction.

App. 289
Plaintiffs also adequately demonstrate that the loss
of Medicaid reimbursement is sure to be immediate,
once individuals disenroll. That is apparent from the
very mechanics of the harm. Today, the States and
Counties are partially reimbursed by the federal
government for care provided to Medicaid enrollees. As
individuals disenroll, the plaintiffs will no longer be
reimbursed for treating them. This will have obvious
adverse budgetary consequences. For one, there will
indisputably be fewer individuals covered by Medicaid
seeking treatment. So, the States and Counties will not
be reimbursed for treating those disenrolled
individuals (whether they treat them or not). The
States and Counties would experience this terminated
revenue stream even if they turned away patients
without medical insurance (which they will not). Put
differently, there will be fewer people on Medicaid to
treat and get reimbursed for.
To the extent defendants argue that the mechanics
will work out as a budgetary boon to plaintiffs, the
argument is not plausible in the context of this
preliminary injunction motion. Although it could
potentially work out as a total budgetary savings for
the plaintiff entities if they reconfigured their
operations, reduced staff, reduced provision of services,
and undertook other cost-savings measures, such
savings could not plausibly be realized prior to the
determination of this action’s merits. See, e.g., Lorenz
Decl. ¶¶ 19–22. Instead, the plaintiffs will be
continuing to operate with most of the costs and
expectations associated with the status quo, with one
change—no reimbursements.

App. 290
Second, the States and Counties’ argument
regarding loss of Medicaid funding does not rely on
harms to their citizens. Rather, the arguments concern
the plaintiffs’ own loss of funds.
Third, plaintiffs must demonstrate that they are
likely to suffer irreparable harm, but they need not
establish a particular quantum of harm to satisfy the
requirement. Azar, 911 F.3d at 581 (irreparable harm
“analysis focuses on irreparability, ‘irrespective of the
magnitude of the injury’”). Nor do defendants explain
why San Francisco’s likely loss of $7.5 million in
Medicaid reimbursements (based on a 2.5%
disenrollment rate) is not sufficiently large even under
their theory of the requirement. See Wagner Decl. ¶ 5.
Santa Clara similarly estimates $4.6 million in
foregone Medicaid funds due to more conservative 1.9%
decline in enrollment. Shing Decl. ¶ 32 (estimating $4.6
million in Medicaid fund losses due to 1.9% decline in
enrollment). The States similarly demonstrate the
harms they are likely to suffer from the loss of
Medicaid reimbursements. See Cantwell Decl. ¶¶ 6, 14
(2.5 million noncitizen Medicaid beneficiaries in
California); Ferrer Decl. ¶ 19 (predicted disenrollment
figures in L.A. County); Lucia Decl. ¶ 23 (estimates of
$957 million in lost funding in California, assuming
15% disenrollment rate); Buhrig I Decl. ¶¶ 4, 8, 10, 27
(330,000 Pennsylvania Medicaid beneficiaries are part
of a household with a noncitizen); Allen Decl. ¶¶ 10, 18,
36-40 (63,000 noncitizens participate in the Oregon
Health Plan system, a federal/state partnership
program; other participants are citizen children part of
a household with a noncitizen); Byrd Decl. ¶¶ 18–20 &
Ex. A at 2, 4 (16,000 children in the District of

App. 291
Columbia receive Medicaid assistance, and 28% of the
District’s children are part of a household with a
noncitizen; 9,800 immigrants enrolled in Medicaid
reside in the District); Probert Decl. ¶¶ 4–8, 15 (13,918
noncitizens enrolled in Medicaid in Maine).
B. Increased Operational Costs
The States argue that the Rule will impose burdens
on their ongoing operations. Defendants argue that
such costs are self-imposed and not cognizable.
Governmental administrative costs caused by
changes in federal policy are cognizable injuries. See
Cal. v. Trump, 267 F. Supp. 3d 1119, 1126 (N.D. Cal.
2017) (states’ “administrative costs” caused by a
disruption to healthcare exchanges they administer
were sufficient to demonstrate standing) (collecting
cases); see also Azar, 911 F.3d at 573–74. 21
The Counties have submitted evidence of
cognizable, irreparable costs. Santa Clara explains that
they have already spent over 1,000 hours answering
questions about the Rule, processing disenrollment,
analyzing the impact of the rule on their services and
undertaking community education and outreach—and
these activities are likely to continue to be necessary.
E.g., Shing Decl. ¶¶ 8, 11–12; see also Lorenz Decl.
¶ 19; Márquez Decl. ¶¶ 9–10. San Francisco has

21

The government relies on inapposite case law, most notably
Crane v. Johnson, 783 F.3d 244, 253-54 (5th Cir. 2015), which
addressed individual public employee claims (not claims by the
public entity itself) that they might have to change their job
practices because of a policy change.

App. 292
submitted evidence of similar measures it has already
taken and will continue to take in direct response to
the Rule. See Pon Decl. ¶¶ 13–16; Rhorer Decl. ¶ 11;
Smith Decl. ¶¶ 4–9. California and Oregon have
submitted evidence showing they are likely to
imminently suffer similar harms absent an injunction.
Ruiz Decl. ¶ 19 (California); Fernandez Decl. ¶¶ 34–36
(California); Fanelli Decl. ¶ 40 (California); Salazar
Decl. ¶ 37 (Oregon). Other states submit declarations
regarding these issues, but they are too vague or
speculative to support issuance of an injunction. E.g.,
Byrd Decl. ¶¶ 22–23 (discussing past efforts in D.C.,
and stating the District will generally “need to train
staff” on the issue); Probert Decl. ¶ 16 (speculation
concerning costs Maine may face).
Additionally, certain plaintiff states use Medicaid
and SNAP enrollment to automatically certify children
into school lunch programs, meaning that those states
would face higher administrative costs to certify
student eligibility for free lunch following
disenrollment caused by the Rule. To the extent states’
administrative costs increase to assess eligibility for
free lunch as children disenroll from the federal
programs (as opposed to merely an increased burden on
the applicants), that administrative cost increase is
cognizable harm. California and D.C. submit competent
evidence demonstrating that their costs in
administering school lunch programs will increase. See
Palmer Decl. ¶ 16 (declaring D.C.’s costs would go up to
process school lunch applications); Fernandez Decl.
¶ 30 (declaring California’s “administrative
streamlining and efficiency” will suffer when enrolling
students for free lunch); see generally Neville-Morgan

App. 293
Decl. ¶ 22 (in California, “paperwork is more
burdensome for those without an automatic
qualification through Medi-Cal or SNAP, and
immigrant eligible families are less likely to obtain
school lunch benefits in this way”).
These costs that the States and Counties have
identified are predictable, likely, and imminent. In fact,
DHS specifically contemplated certain of these costs
when formulating the Rule. E.g., 83 Fed. Reg. at 51,260
(“The primary sources of the consequences and
indirect impacts of the proposed rule would be
costs to various entities that the rule does not directly
regulate, such as hospital systems, state agencies,
and other organizations that provide public assistance
to aliens and their households. Indirect costs associated
with this rule include familiarization with the rule
for those entities that are not directly regulated but
still want to understand the changes in federal and
state transfer payments due to this rule.”) (emphasis
added); see also 84 Fed. Reg. at 41,389 (“DHS agrees
that some entities, such as State and local governments
or other businesses and organizations would incur costs
related to the changes commenters identify.”).
Because the States and Counties have each
demonstrated sufficient likely irreparable injury in the
form of loss of federal funds to support a preliminary
injunction, and the Counties, California, D.C., and
Oregon have demonstrated additional irreparable
injury in the form of operational costs, the court need
not address the remaining three categories of
irreparable harm plaintiffs argue they will imminently
suffer.

App. 294
ii. The Organizations
“[C]ourts have an ‘independent obligation’ to police
their own subject matter jurisdiction, including the
parties’ standing. Accordingly, we must assure
ourselves that Plaintiffs have alleged an injury in fact,
fairly traceable to the defendant’s conduct, and likely
to be redressed by a favorable judicial decision.”
Animal Legal Def. Fund v. United States Dep’t of
Agric., 935 F.3d 858, 866 (9th Cir. 2019) (citations
omitted).
“[A] diversion-of-resources injury is sufficient to
establish organizational standing for purposes of
Article III if the organization shows that, independent
of the litigation, the challenged policy frustrates the
organization’s goals and requires the organization to
expend resources in representing clients they otherwise
would spend in other ways.” E. Bay Sanctuary I, 932
F.3d at 765 (internal quotation marks and citations
omitted).
Defendants argue that the Organizations fail to
identify any injury they will suffer if they do not divert
resources towards addressing their concerns, apart
from harm to the health care they are able to provide
to low income communities. For example, if they failed
to divert resources, they would not face staff shortages
or provide worse health services.
In E. Bay Sanctuary I, the court found standing
based on an organization partially converting an
asylum practice into a removal defense program, a
prediction that applications filed on behalf of the
organizations’ clients would become more difficult and

App. 295
reduce available funds for other activities, and
education and outreach initiatives regarding the new
rule. 932 F.3d at 766; see also, e.g., El Rescate Legal
Services, 959 F.2d at 748 (standing where legal
services groups had expended “resources in
representing clients they otherwise would spend in
other ways”); Fair Hous. Council of San Fernando
Valley v. Roommate.com, LLC, 666 F.3d 1216, 1219
(9th Cir. 2012) (finding organizational standing where
the plaintiff responded to allegations of discrimination
by “start[ing] new education and outreach campaigns
targeted at discriminatory roommate advertising”).
The Healthcare Organizations’ missions are to
provide high quality health care to low-income and
immigrant communities. Castellano-García Decl. ¶ 5;
García Decl. ¶ 3, 7–10. La Clínica and CaliforniaPrimary-Care-Association-member-organization Asian
Health Services have diverted resources from their core
missions to address community and individual patient
concerns about the public charge determination. García
Decl. ¶¶ 13, 16, 21; Quach Decl. ¶¶ 26–29 (evidence of
$1 million diversion to education campaigns about the
Rule). These education efforts take away from their
ability to serve their core organizational purposes.
Moreover, they will have to lay off employees and
change or cancel programs in response to the Rule.
García Decl. ¶ 18; see also Ku Decl. ¶ 65 (estimating
nationwide community health center staffing losses of
3,400 to 6,100 employees).
The Legal Organizations’ missions are to provide
advocacy and/or legal services to their clients and
members, including obtaining immigration relief and

App. 296
helping to secure public benefits. Kassa Decl. ¶¶ 3–7;
Ayloush Decl. ¶¶ 4–7; Sharp Decl. ¶¶ 4–7; Goldstein
Decl. ¶¶ 4–5; Seon Decl. ¶¶ 3–7; Nakamura Decl.
¶¶ 3–8; Kersey Decl. ¶¶ 6– 7, 14–20.
Plaintiffs have adequately alleged frustration of
their purpose because many of their clients will no
longer be eligible for immigration relief, or will choose
to not enroll or to disenroll from benefits to remain
eligible for immigration relief. The Rule plainly hinders
their clients’ ability to obtain immigration relief and/or
public benefits.
Plaintiffs have also adequately alleged that they
will have to divert funding because those who may still
be eligible for relief or choose to apply for benefits will
require additional time and resources from plaintiffs to
address the effects of the Rule, and this additional time
and rising ineligibility or disenrollment means that
plaintiffs will be able to file fewer cases and help fewer
clients. See Kassa Decl. ¶¶ 10–13, 16; Ayloush Decl.
¶¶ 11–14; Sharp Decl. ¶¶ 12–15, 18; Goldstein Decl.
¶ 8; Seon Decl. ¶¶ 10–14; Nakamura Decl. ¶¶ 12,
14–15; Kersey Decl. ¶¶ 23–30. Kassa Decl. ¶¶ 10,
12–13; Ayloush Decl. ¶¶ 11–12; Sharp Decl. ¶ 13; Seon
Decl. ¶¶ 10–14; Nakamura Decl. ¶¶ 14–16; Kersey
Decl. ¶¶ 34, 36.
Some plaintiffs also have increased operational
costs as they address the impact of the Rule on their
services, such as by hiring additional staff or adding
new programs or services. Ayloush Decl. ¶ 14; Seon
Decl. ¶ 14; Nakamura Decl. ¶¶ 13–14, 16–17; Kersey
Decl. ¶¶ 21, 26–30, 35. Some plaintiffs have had to
divert resources from other core services and priorities

App. 297
to staffing, training, education, and public outreach
addressing the Rule. Kassa Decl. ¶¶ 11, 14–17; Ayloush
Decl. ¶¶ 13, 15–16; Sharp Decl. ¶¶ 14–16; Goldstein
Decl. ¶ 7–12; Seon Decl. ¶ 16–19, 21; Nakamura Decl.
¶¶ 13–14, 16–17; Kersey Decl. ¶¶ 26–29, 35–36.
Defendants would have this court require more than
the Ninth Circuit does for standing. Here, it is enough
for plaintiffs to allege that their goals of providing
healthcare and legal services to low-income immigrants
are frustrated, and that the challenged policy has
stimulated the organizations into spending money on
things they would not otherwise have spent money on.
Plaintiffs’ public education efforts, changes to their
programs, increased costs of assisting clients, and other
diversions of resources qualify under the Ninth
Circuit’s requirements.22
3. The Balance of Equities and Hardships Tip
Sharply in Plaintiffs’ Favor
“A court must ‘balance the interests of all parties
and weigh the damage to each’ in determining the
balance of the equities.” CTIA - The Wireless Ass’n v.
City of Berkeley, 928 F.3d 832, 852 (9th Cir. 2019)
(quoting Stormans, Inc. v. Selecky, 586 F.3d 1109, 1138
(9th Cir. 2009)).
There is little question that the balance of equities
and hardships tip sharply in favor of the States and
Counties. Defendants have been operating under a

22

As the issue was not meaningfully addressed by the parties, the
court does not decide at this time whether California Primary Care
Association satisfies the requirements for associational standing.

App. 298
consistent definition of “public charge” since at least
1999, when the INS issued Field Guidance specifying
“that ‘public charge’ means an alien . . . who is likely to
become (for admission/adjustment purposes) ‘primarily
dependent on the government for subsistence, as
demonstrated by either (i) the receipt of public
cash assistance for income maintenance or
(ii) institutionalization for long-term care at
government expense.’” 64 Fed. Reg. at 28,689. That
standard is specific and workable, and defendants have
been administering it for decades. In fact, defendants
conceded that do not argue that they would suffer any
hardship in the face of an injunction prohibiting them
from replacing those standards with the new Rule until
resolution of this case on the merits. Defendants’ only
argument with respect to the balance of equities or
hardships and the public interest is that Congress has
made a policy judgment that aliens should be
self-sufficient, and the executive should not be
prevented from implementing a rule that advances that
policy.
On the other hand, implementing the change
defendants propose would upend state and local
governments’ operations as they support immigrants
while determining how to adjust to the new Rule and
provide services that the federal government once
predictably assisted with. To the extent this factor is
merged with the public interest and considers the
effects on non-parties, the most severely affected
individuals are the aliens seeking LPR status
themselves, who would face uncertainty regarding
their access to healthcare and subsidized nutrition as

App. 299
they learn to adapt to and attempt to navigate the
Rule’s deterrents.
In short, implementing the Rule after decades of a
consistent policy prior to a determination of this action
on the merits—which defendants argue will be
accomplished in short order—does little to advance the
defendants’ interests, and it would entirely upend the
plaintiffs’ (and the non-party aliens’) interests.
4. An Injunction Is in the Public’s Interest
“When the government is a party, the last two
factors merge.” Azar, 911 F.3d at 575. Therefore, the
public interest analysis is subsumed in the balance of
equities and hardships, addressed above, and the
public interest therefore favors and injunction.
Even though the public’s interest generally merges
with the balance of equities, it can be “appropriate to
consider the factors separately,” for example when
intervenors present distinct interests. League of
Wilderness Defs./Blue Mountains Biodiversity Project
v. Connaughton, 752 F.3d 755, 766 (9th Cir. 2014). In
those instances, “[t]he public interest inquiry primarily
addresses impact on non-parties rather than parties.”
Id.
Here, the public interest cuts sharply in favor of an
injunction. Specifically, the public interest supports
continuing the provision of medical services through
Medicaid to those who would predictably disenroll
absent an injunction, for numerous reasons. Although
the court has not reached the issue as to whether
plaintiffs’ arguments regarding the impacts on public
health support their argument for imminent harm, the

App. 300
parties and numerous amici have explained that the
predictable disenrollment from Medicaid absent an
injunction would have adverse health consequences not
only to those who disenroll, but to the entire
populations of the plaintiff states, for example, in the
form of decreased vaccination rates. The public
certainly has an interest in decreasing the risk of
preventable contagion.
As such, the public interest supports preserving the
long-standing status quo pending final, coherent
resolution on the merits.
5. Scope of the Injunction Necessary to
Redress Plaintiffs’ Imminent Harms
a. Legal Standard
When a plaintiff satisfies its burden to demonstrate
that a preliminary injunction should issue, “injunctive
relief should be no more burdensome to the defendant
than necessary to provide complete relief to the
plaintiffs.” Califano, 442 U.S. at 702; accord L.A. Haven
Hospice, Inc. v. Sebelius, 638 F.3d 644, 664 (9th Cir.
2011) (injunction “should be no more burdensome to
the defendant than necessary to provide complete relief
to the plaintiffs before the court”) (internal quotation
mark omitted); Lamb-Weston, Inc. v. McCain Foods,
Ltd., 941 F.2d 970, 974 (9th Cir. 1991) (“Injunctive
relief . . . must be tailored to remedy the specific harm
alleged.”). “‘The purpose of such interim equitable relief
is not to conclusively determine the rights of the
parties but to balance the equities as the litigation
moves forward.’” Azar, 911 F.3d at 582.

App. 301
But “[t]here is no general requirement that an
injunction affect only the parties in the suit.” Bresgal
v. Brock, 843 F.2d 1163, 1169 (9th Cir. 1987). “[A]n
injunction is not necessarily made over-broad by
extending benefit or protection to persons other than
prevailing parties in the lawsuit—even if it is not a
class action—if such breadth is necessary to give
prevailing parties the relief to which they are entitled.”
Id. at 1170; accord Regents of the Univ. of California v.
U.S. Dep’t of Homeland Sec., 908 F.3d 476, 511 (9th
Cir. 2018), cert. granted sub nom. Dep’t of Homeland
Sec. v. Regents of the Univ. of California, 139 S. Ct.
2779 (2019).
With respect to immigration matters in particular,
the Ninth Circuit has “consistently recognized the
authority of district courts to enjoin unlawful policies
on a universal basis.” E. Bay Sanctuary I, 932 F.3d at
779 (citing Regents of the Univ. of Cal., 908 F.3d at
511; Hawaii v. Trump, 878 F.3d 662, 701 (9th Cir.
2017), rev’d on other grounds and remanded, 138 S. Ct.
2392 (2018); Washington v. Trump, 847 F.3d 1151,
1166–67 (9th Cir.), reconsideration en banc denied, 853
F.3d 933 & 858 F.3d 1168 (9th Cir. 2017), and cert.
denied sub nom. Golden v. Washington, 138 S. Ct. 448
(2017)). “These are, however, ‘exceptional cases.’” E.
Bay Sanctuary Covenant v. Barr, 934 F.3d 1026, 1029
(9th Cir. 2019) (“E. Bay Sanctuary II”) (quoting City &
Cty. of San Francisco v. Trump, 897 F.3d 1225, 1244
(9th Cir. 2018)). That is because, even though courts
have the authority to issue nationwide preliminarily
injunctions, doing so still requires “an articulated
connection to a plaintiff’s particular harm[.]” Id.
(“nationwide injunction is [not] appropriate simply

App. 302
because this case presents a rule that applies
nationwide”); see also Azar, 911 F.3d at 582–84. That
requirement is not lifted in the immigration context.
E.g., E. Bay Sanctuary II, 934 F.3d at 1029 (“Under our
case law, however, all injunctions—even ones involving
national policies—must be ‘narrowly tailored to remedy
the specific harm shown.’”); E. Bay Sanctuary I, 932
F.3d at 779 (nationwide scope appropriate where it “is
necessary to provide the plaintiffs here with complete
redress” and district court could not “have crafted a
narrower remedy that would have provided complete
relief to the [plaintiffs]”) (quoting Regents of the Univ.
of Cal., 908 F.3d at 512) (internal quotation mark
omitted).23
The Ninth Circuit has emphasized that any
preliminary injunction must be supported by evidence
in the record identifying the likely effect the enjoined
conduct would have on the particular plaintiffs. E.g.,

23

The Ninth Circuit requires an articulated connection to a
plaintiff’s particular harms notwithstanding “the need for
uniformity in immigration policy.” See Regents of the Univ. of
Cal., 908 F.3d at 511 (“Allowing uneven application of nationwide
immigration policy flies in the face of these requirements.”);
Hawaii v. Trump, 878 F.3d at 701 (“Because this case implicates
immigration policy, a nationwide injunction was necessary to give
Plaintiffs a full expression of their rights.”); see also San Francisco
v. Trump, 897 F.3d at 1244 (“These exceptional cases are
consistent with our general rule that ‘[w]here relief can be
structured on an individual basis, it must be narrowly tailored to
remedy the specific harm shown’—‘an injunction is not necessarily
made overbroad by extending benefit or protection to persons other
than prevailing parties in the lawsuit ... if such breadth is
necessary to give prevailing parties the relief to which they are
entitled.’”) (quoting Bresgal, 843 F.2d at 1170–71).

App. 303
San Francisco v. Trump, 897 F.3d at 1244 (the “record
is not sufficient to support a nationwide injunction”
where “the Counties’ tendered evidence is limited to
the effect of the Order on their governments and the
State of California. . . . However, the record is not
sufficiently developed on the nationwide impact of the
Executive Order.”); Azar, 911 F.3d at 584 (“On the
present record, an injunction that applies only to the
plaintiff states would provide complete relief to them.
It would prevent the economic harm extensively
detailed in the record. Indeed, while the record before
the district court was voluminous on the harm to the
plaintiffs, it was not developed as to the economic
impact on other states.”). “District judges must require
a showing of nationwide impact or sufficient similarity
to the plaintiff states to foreclose litigation in other
districts, from Alaska to Puerto Rico to Maine to
Guam.” Azar, 911 F.3d at 584.
Finally, although the scope of the injunction in this
action is governed by the controlling Ninth Circuit law
explained above, the court notes that the Ninth Circuit
and the Supreme Court have both credited prudential
considerations supporting their admonition that
nationwide preliminary injunctions are appropriate
only in “exceptional cases.” See San Francisco v.
Trump, 897 F.3d at 1244; E. Bay Sanctuary II, 934
F.3d at 1029. First, nationwide injunctions
unconnected to a plaintiff’s particular harm
“unnecessarily ‘stymie novel legal challenges and
robust debate’ arising in different judicial districts.” E.
Bay Sanctuary II, 934 F.3d at 1029; see also Azar, 911
F.3d at 583 (“The Supreme Court has repeatedly
emphasized that nationwide injunctions have

App. 304
detrimental consequences to the development of law
and deprive appellate courts of a wider range of
perspectives.”). That consideration is relevant here,
where actions raising similar changes are also
currently pending in district courts in New York,
Maryland, and Washington, and perhaps more. Second,
nationwide injunctions may fail to adequately recognize
“the equities of non-parties who are deprived the right
to litigate in other forums,” who “are essentially
deprived of their ability to participate[.]” Azar, 911
F.3d at 583. Third, “[n]ationwide injunctions are also
associated with forum shopping, which hinders the
equitable administration of laws.” Id.
b. Analysis
Here, the Counties and the States have
demonstrated a likelihood of irreparable harm based on
their loss of Medicaid funding from the federal
government and increased operational costs they are
likely to carry.24 Those harms stem directly from
disenrollment of individuals seeking medical care in
their jurisdictions, residing in their jurisdictions, and
enrolling in certain other public benefits in their
jurisdictions (for example, school lunch programs).
Those harms, and the supporting record, are discussed
in detail above. In order to preserve the status quo

24

Because the Organizations have not demonstrated a likelihood
of success on—or serious questions going to—the merits of their
APA causes of action (the only claims underlying their motion for
preliminary injunction), they have not demonstrated that an
injunction should issue to prevent the harms they are likely to
suffer, so the court does not consider their alleged harms in
determining the scope of the injunction.

App. 305
pending resolution on the merits and to prevent certain
of these irreparable harms, it is necessary to enjoin
implementation of the Rule with respect to those who
reside in the States and Counties any time following
the date of this order, until this action is resolved on
the merits. Moreover, defendants must be additionally
enjoined from applying the Rule to any individual who
is part of a household (as defined in the Rule, 8 C.F.R.
§ 212.21(d)) that includes a person who has resided in
a plaintiff State or County any time following the date
of this order, until this action is resolved on the merits.
Defendants may, of course, continue to process
applications and otherwise operate pursuant to the
standards employed prior to October 15, 2019—that is,
pursuant to the status quo.
The plaintiffs request a nationwide injunction based
primarily on what they argue would be the
inadministrability of an immigration policy that is not
administered uniformly nationally. But a nationwide
injunction is not “appropriate simply because this case
presents a rule that applies nationwide.” E. Bay
Sanctuary II, 934 F.3d at 1029; accord San Francisco v.
Trump, 897 F.3d at 1244 (record must also be
independently “developed on the nationwide impact”
and the statewide impact).
Plaintiffs also argue that a nationwide injunction is
necessary to provide certainty to the public and quell
confusion about the implementation of the Rule. They
argue that general, nationwide confusion will cause
disenrollment even in the States and Counties, causing
the above-discussed harms. Plaintiffs have certainly
demonstrated that confusion about the nation’s

App. 306
immigration policies is a cause of disenrollment, even
for those who will not be subject to the public charge
assessment. However, plaintiffs have not demonstrated
the marginal effect a nationwide injunction would have
on curing that confusion for their residents over and
above an injunction limited to their own borders.
Although it is conceivable that a nationwide injunction
pending resolution on the merits would lead to less
disenrollment due to confusion within California than
this injunction covering all of California (and the other
States), it is plaintiffs’ obligation to demonstrate the
necessity of such relief. This court does not suggest
that no evidence could support such an injunction. Nor
does the court suggest that the record evidence is
necessarily insufficient. Rather plaintiffs, by devoting
only a few cursory paragraphs in their briefs to the
scope the injunction, have failed to sufficiently tie that
evidence to the need for an injunction beyond their
borders in order to remedy the specific harms alleged
and accepted by the court as likely, imminent, and
irreparable.
CONCLUSION
For the foregoing reasons, the States and Counties’
motion for a preliminary injunction is GRANTED, as
explained above. The Organizations’ motion is
DENIED, because they do not fall within the zone of
interests of the statute forming the basis of their APA
claims.
PRELIMINARY INJUNCTION
Defendants U.S. Citizenship and Immigration
Services, Department of Homeland Security, Kevin

App. 307
McAleenen as Acting Secretary of DHS, Kenneth T.
Cuccinelli as Acting Director of USCIS, and Donald J.
Trump, as President of the United States, are hereby
enjoined from applying the Rule, in any manner, to any
person residing (now or at any time following the
issuance of this order) in San Francisco City or County,
Santa Clara County, California, Oregon, the District of
Columbia, Maine, or Pennsylvania, or to anyone who is
part of a household (as defined by the Rule, 8 C.F.R.
§ 212.21(d)) that includes such a person. The injunction
will remain in effect until a resolution of this action on
the merits.
IT IS SO ORDERED.
Dated: October 11, 2019
/s/ Phyllis J. Hamilton
PHYLLIS J. HAMILTON
United States District Judge

App. 308

APPENDIX E
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
NO: 4:19-CV-5210-RMP
[Filed October 11, 2019]
_________________________________________
STATE OF WASHINGTON;
)
COMMONWEALTH OF VIRGINIA;
)
STATE OF COLORADO; STATE OF
)
DELAWARE; STATE OF HAWAI’I;
)
STATE OF ILLINOIS; STATE OF
)
MARYLAND; COMMONWEALTH OF
)
MASSACHUSETTS; DANA NESSEL,
)
Attorney General on behalf of the people
)
of Michigan; STATE OF MINNESOTA;
)
STATE OF NEVADA; STATE OF
)
NEW JERSEY; STATE OF NEW MEXICO; )
and STATE OF RHODE ISLAND,
)
)
Plaintiffs,
)
)
v.
)
)
UNITED STATES DEPARTMENT OF
)
HOMELAND SECURITY, a federal agency; )
KEVIN K. MCALEENAN, in his official
)
capacity as Acting Secretary of the United )
States Department of Homeland Security;
)
UNITED STATES CITIZENSHIP AND
)
IMMIGRATION SERVICES, a federal
)

App. 309
agency; and KENNETH T.
CUCCINELLI, II, in his official
capacity as Acting Director of United
States Citizenship and Immigration
Services,

)
)
)
)
)
)
Defendants.
)
_________________________________________ )
ORDER GRANTING PLAINTIFF STATES’
MOTION FOR SECTION 705 STAY AND
PRELIMINARY INJUNCTION
Fourteen states challenge the Department of
Homeland Security’s expansive revision of the Public
Charge Rule. Congress and the U.S. Constitution
authorize this Court to provide judicial review of
agency actions. The Plaintiff States ask the Court to
serve as a check on the power asserted by the
Department of Homeland Security to alter
longstanding definitions of who is deemed a Public
Charge. After reviewing extensive briefing and hearing
argument, the Court finds that the Plaintiff States
have shown that the status quo should be preserved
pending resolution of this litigation.1 Therefore, the

1

The Court has reviewed the Motion for Preliminary Injunction,
ECF No. 34, and supporting declarations and materials, ECF Nos.
35–87; the Plaintiff States’ First Amended Complaint, ECF No. 31;
the Briefs of Amici Curiae submitted in support of the Plaintiff
States’ Motion, ECF Nos. 111 (from nonprofit anti-domestic
violence and anti-sexual assault organizations), 109 (from Health
Law Advocates and other public health organizations), 110 (from
nonprofit organizations support of the disability community), 149
(from hospitals and medical schools), 150 (from nonprofit

App. 310
Court GRANTS the motion to stay the effective date of
the Public Charge Rule until the issues can be
adjudicated on their merits.
The Motion for a Section 705 Stay and for
Preliminary Injunction, ECF No. 34, is brought by
Plaintiffs State of Washington, Commonwealth of
Virginia, State of Colorado, State of Delaware, State of
Hawai’i, State of Illinois, State of Maryland,
Commonwealth of Massachusetts, Attorney General
Dana Nessel on behalf of the People of Michigan, State
of Minnesota, State of Nevada, State of New Jersey,
State of New Mexico, and State of Rhode Island
(collectively, “the Plaintiff States”).
Defendants are the United States Department of
Homeland Security (“DHS”), Acting Secretary of DHS
Kevin K. McAleenan, United States Citizenship and
Immigration Services (“USCIS”), and Acting Director
of USCIS Kenneth T. Cuccinelli II (collectively, “the
Federal Defendants”). Pursuant to the Administrative
Procedure Act and the guarantee of equal protection
under the Due Process Clause of the U.S. Constitution,
the Plaintiff States challenge the Federal Defendants’
redefinition of who may be denied immigration status
as a “public charge” in federal immigration law among
applicants for visas or legal permanent residency.

organizations supporting seniors), 151 (from health care providers
and health care advocates), 152 (from professional medical
organizations), and 153 (from the Fiscal Policy Institute, the
Presidents’ Alliance on Higher Education and Immigration, and
other organizations addressing economic impact); the Federal
Defendants’ Opposition to Preliminary Relief, ECF No. 155; and
the Plaintiff States’ Reply, ECF No. 158.

App. 311
I. BACKGROUND
On August 14, 2019, DHS published in the Federal
Register a final rule, Inadmissibility on Public Charge
Grounds, 84 Fed. Reg. 41,292 (Aug. 14, 2019) (to be
codified at 8 C.F.R. pts. 103, 212, 213, 214, 245 and
248) (“Public Charge Rule”), that redefines whether a
visa applicant seeking admission to the United States
and any applicant for legal permanent residency is
considered inadmissible because DHS finds him or her
“likely at any time to become a public charge.” See 8
U.S.C. § 1182(a)(4). The Public Charge Rule is
scheduled to take effect on October 15, 2019. 84 Fed.
Reg. at 41,292.
A. The Immigration and Nationality Act’s
Public Charge Ground of Inadmissibility
The Immigration and Nationality Act of 1952
(“INA”), 8 U.S.C. § 1101 et seq., requires visa applicants
and individuals applying to become permanent legal
residents to demonstrate that they are not
“inadmissible.” 8 U.S.C. §§ 1361, 1225(a), and 1255(a).2
The INA sets forth ten grounds of inadmissibility, all of
which make a person “ineligible to receive visas and
ineligible to be admitted to the United States.” 8 U.S.C.

2

The INA “established a ‘comprehensive federal statutory scheme
for regulation of immigration and naturalization’ and set ‘the
terms and conditions of admission to the country and the
subsequent treatment of aliens lawfully in the country.’” Chamber
of Commerce of the United States v. Whiting, 563 U.S. 582, 587
(2011) (quoting De Canas v. Bica, 424 U.S. 351, 353 (1976)).

App. 312
§ 1182(a). This case concerns one of those grounds: a
likelihood of becoming a public charge. Id.
§ 1182(a)(4)(A).
In its current form, the INA provides that “[a]ny
alien who, in the opinion of the consular officer at the
time of application for a visa, or in the opinion of the
Attorney General at the time of application for
admission or adjustment of status, is likely at any time
to become a public charge is inadmissible.”3 8 U.S.C.
§ 1182(a)(4)(A). The same provision requires the officer
determining whether an applicant is inadmissible as a
public charge to consider “at a minimum” the
applicant’s
(I) age;
(II) health;
(III) family status;
(IV) assets, resources, and financial status; and
(V) education and skills.
8 U.S.C. § 1182(a)(4)(B)(i).
The officer “may also consider any affidavit of
support under section 213A [8 U.S.C. § 1183a] for
purposes of exclusion” on the public charge ground. Id.
§ 1182(a)(4)(B)(ii).

3

When Congress transferred the adjudicatory functions of the
former Commissioner of the Immigration and Naturalization
Service (“INS”) to the Secretary of DHS, the Attorney General’s
authority regarding the public charge provision was delegated to
the Director of USCIS, a division of DHS. See 6 U.S.C. § 271(b)(5).

App. 313
B. Public Charge Rulemaking Process and
Content of the Public Charge Rule
The Public Charge Rule followed issuance of a
proposed rule on October 10, 2018. Inadmissibility on
Public Charge Grounds, 83 Fed. Reg. 51,114 (proposed
Oct. 10, 2018) (to be codified at 8 C.F.R. pts. 103, 212,
213, 214, 245 and 248). According to the Public Charge
Rule, DHS received “266,077 comments” on the
proposed rule, “the vast majority of which opposed the
rule.” 84 Fed. Reg. at 41,297.
The final rule made several changes to the proposed
rule. See 84 Fed. Reg. at 41,297–300. For instance:
Under the proposed rule, DHS would not have
considered the receipt of benefits below the
applicable threshold in the totality of the
circumstances. As a consequence, USCIS would
have been unable to consider an alien’s past
receipt of public benefits below the threshold at
all, even if such receipt was indicative, to some
degree, of the alien’s likelihood of becoming a
public charge at any time in the future. Under
this final rule, adjudicators will consider and
give appropriate weight to past receipt of public
benefits below the single durational threshold
described above in the totality of the
circumstances.
84 Fed. Reg. at 41,297.
In addition, while the proposed rule provided for
consideration of the receipt of Medicaid benefits by
applicants under age 21, the Public Charge Rule does
not negatively assess applicants for being enrolled in

App. 314
Medicaid while under the age 21, while pregnant, or
“during the 60-day period after pregnancy.” 84 Fed.
Reg. at 41,297.
1. Redefinition of “Public Charge”
The Public Charge Rule, in its final format, defines
“public charge” to denote “an alien who receives one or
more public benefits, as defined in paragraph (b) of this
section, for more than 12 months in the aggregate
within any 36-month period (such that, for instance,
receipt of two benefits in one month counts as two
months).” 84 Fed. Reg. at 41,501 (to be codified at 8
C.F.R. § 212.21(a)) 4. The Public Charge Rule redefines
“public benefit” to include: “(1) [a]ny Federal, State,
local, or tribal cash assistance for income maintenance
(other than tax credits),” including Supplemental
Security Income (“SSI”), Temporary Assistance for
Needy Families (“TANF”) or state “General
Assistance”; (2) Supplemental Nutrition Assistance
Program (“SNAP,” colloquially known as “food
stamps”); (3) housing assistance vouchers under
Section 8 of the U.S. Housing Act of 1937; (4) Section 8
“Project-Based” rental assistance, including “Moderate
Rehabilitation”; (5) Medicaid, with exceptions for
benefits for an emergency medical condition, services or
benefits under the Individuals with Disabilities
Education Act (“IDEA”), school-based services or
benefits, and benefits for immigrants under age 21 or
to a woman during pregnancy or within 60 days after

4

The Court’s subsequent references to the provisions of the Public
Charge Rule will use the C.F.R. citations scheduled to take effect
on October 15, 2019.

App. 315
pregnancy; and (6) public housing under Section 9 of
the U.S. Housing Act of 1937. 8 C.F.R. § 212.21(b).
2. Weighted Factors for Totality of the
Circumstances Determination
The Public Charge Rule instructs officers to
evaluate whether an applicant is “likely to become a
public charge” using a “totality of the circumstances”
test that “at least entail[s] consideration of the alien’s
age; health; family status; education and skills; and
assets, resources, and financial status” as described in
the Rule. 8 C.F.R. § 212.22(a), (b). The Public Charge
Rule then prescribes a variety of factors to weigh
“positively,” in favor of a determination that an
applicant is not a public charge, and factors to weigh
“negatively,” in favor of finding the applicant
inadmissible as a public charge. 8 C.F.R. § 212.22(a),
(b), and (c); see also, e.g., 84 Fed. Reg. 41,295
(“Specifically, the rule contains a list of negative and
positive factors that DHS will consider as part of this
determination, and directs officers to consider these
factors in the totality of the alien’s circumstances. . . .
The rule also contains lists of heavily weighted
negative factors and heavily weighted positive
factors.”). The Public Charge Rule attributes heavy
negative weight to the following circumstances:
(1) “not a full-time student and is authorized
to work, but is unable to demonstrate current
employment, recent employment history, or a
reasonable prospect of future employment”;
(2) “certified or approved to receive one or
more public benefits . . . for more than 12
months in the aggregate within any 36-month

App. 316
period, beginning no earlier than 36 months
prior to the alien’s application for admission or
adjustment of status”;
(3) “diagnosed with a medical condition that
is likely to require extensive medical treatment
or institutionalization or that will interfere with
the alien’s ability to provide for himself or
herself, attend school, or work; and . . .
uninsured and has neither the prospect of
obtaining private health insurance, nor the
financial resources to pay for reasonably
foreseeable medical costs related to such medical
condition”; and
(4) “previously found inadmissible or
deportable on public charge grounds[.]”
8 C.F.R. § 212.22(c)(1)(i)–(iv).
Conversely, the Public Charge Rule attributes
heavy positive weight to three factors:
(1) an annual household income, assets, or
resources above 250 percent of the Federal
Poverty Guidelines (“FPG”) for the household
size;
(2) an annual individual income of at least
250 percent of the FPG for the household size;
and
(3) private health insurance that is not
subsidized under the Affordable Care Act.
See C.F.R. § 212.22(c)(2)(i)–(iii).
The Public Charge Rule also directs officers to
consider whether the applicant (1) is under the age of
18 or over the minimum early retirement age for social

App. 317
security; (2) has a medical condition that will require
extensive treatment or interfere with the ability to
attend school or work; (3) has an annual household
gross income under 125 percent of the FPG; (4) has a
household size that makes the immigrant likely to
become a public charge at any time in the future;
(5) lacks significant assets, like savings accounts,
stocks, bonds, or real estate; (6) lacks significant assets
and resources to cover reasonably foreseeable medical
costs; (7) has any financial liabilities; (8) has applied
for, been certified to receive, or received public benefits
after October 15, 2019; (9) has applied for or has
received a USCIS fee waiver for an immigration benefit
request; (10) has a poor credit history and credit score;
(11) lacks private health insurance or other resources
to cover reasonably foreseeable medical costs; (12) lacks
a high school diploma (or equivalent) or a higher
education degree; (13) lacks occupational skills,
certifications, or licenses; or (14) is not proficient in
English. See 8 C.F.R. § 212.22(b).
The officer administering the public charge
admissibility test has the discretion to determine what
factors are relevant and may consider factors beyond
those enumerated in the rule. See 8 C.F.R. § 212.22(a)
C. Applicability of the Rule
The Public Charge Rule applies to any non-citizen
subject to section 212(a)(4) of the INA, 8 U.S.C.
§ 1182(a)(4), who applies to DHS anytime on or after
October 15, 2019, for admission to the United States or
for adjustment of status to that of lawful permanent
resident. 8 C.F.R. § 212.20.

App. 318
D. Summary of the Counts of the First
Amended Complaint
On the same day that the Public Charge Rule was
published in the federal register, the fourteen Plaintiff
States filed a lawsuit seeking to enjoin the Federal
Defendants from enacting the rule. The Plaintiff States
subsequently filed a First Amended Complaint, ECF
No. 31, stating four causes of action: (1) a violation of
the APA, 5 U.S.C. § 706(2)(C), for agency action “not in
accordance with law”; (2) a violation of the APA, 5
U.S.C. § 706(2)(C), for agency action “in excess of
statutory jurisdiction [or] authority” or “ultra vires”;
(3) a violation of the APA, 5 U.S.C. § 706(2)(C), for
agency action that is “arbitrary, capricious, [or] an
abuse of discretion”; and (4) a violation of the
guarantee of equal protection under the U.S.
Constitution’s Fifth Amendment Due Process Clause
on the basis that the Public Charge Rule allegedly was
motivated by an intent to discriminate based on race,
ethnicity, or national origin. ECF No. 31 at 161–70.
The Federal Defendants have not yet filed an
answer, but they have responded to the pending
motion. ECF No. 155. In their response, the Federal
Defendants challenge the Plaintiff States’ standing to
bring this action. Id. at 18.
II. JURISDICTION
The Court has subject-matter jurisdiction over this
action pursuant to 28 U.S.C. § 1331.

App. 319
III.

STANDING AND RIPENESS
A. Standing Requirement

Article III, section 2 of the Constitution extends the
power of the federal courts to only “Cases” and
“Controversies.” U.S. Const., Art. III, sect. 2. “Those
two words confine ‘the business of federal courts to
questions presented in an adversary context and in a
form historically viewed as capable of resolution
through the judicial process.’” Massachusetts v. EPA,
549 U.S. 497, 516 (2007) (quoting Flast v. Cohen, 392
U.S. 83, 95 (1968)).
To establish standing to sue under Article III, “a
plaintiff must demonstrate ‘that it has suffered a
concrete and particularized injury that is either actual
or imminent, that the injury is fairly traceable to the
defendant, and that it is likely that a favorable decision
will redress that injury.’” Washington v. Trump, 847
F.3d 1151, 1159 (9th Cir. 2017) (quoting Massachusetts,
549 U.S. at 517)). While an injury sufficient for
constitutional standing must be concrete and
particularized rather than conjectural or hypothetical,
“an allegation of future injury may suffice if the
threatened injury is certainly impending, or there is a
substantial risk that the harm will occur.” Susan B.
Anthony List v. Driehaus, 134 S. Ct. 2334, 2341 (2014)
(internal quotations omitted).
The Federal Defendants assert that the Plaintiff
States lack standing because their injuries are
speculative and do not qualify as injuries-in-fact. ECF
No. 155 at 18–21.The Federal Defendants further
maintain that the Plaintiff States’ described injuries

App. 320
would be the result of third parties’ independent
decisions to “unnecessarily . . . forgo all federal
benefits,” which the Federal Defendants argue is too
weak a basis to support that the injury is fairly
traceable to the Public Charge Rule. ECF No. 155 at
19–21.
At this early stage in the litigation, the Plaintiff
States may satisfy their burden with allegations in
their Amended Complaint and other evidence
submitted in support of their Motion for a Section 705
Stay and Preliminary Injunction. See Washington, 847
F.3d at 1159. Amici briefs also may support the
Plaintiff States’ showing of the elements of standing.
See SEC v. Private Equity Mgmt. Grp., Inc., No. CV
09-2901 PSG (Ex), 2009 U.S. Dist. LEXIS 75158, at *18
n.5, 2009 WL 2488044 (C.D. Cal. Aug. 10, 2009)
(exercising the court’s discretion to consider evidence
submitted by amicus curiae where it was “in a sense,
the same evidence produced by a party”).
B. Alleged Harms
1. Missions of State Benefits Programs
The Plaintiff States allege that they “combine
billions of dollars of federal funds from Medicaid with
billions of dollars of state funds to administer health
care programs for millions” of the Plaintiff States’
residents. ECF No. 34 at 26; see ECF Nos. 37 at 4; 38 at
4; 40 at 4. The Plaintiff States argue that the health
programs administered by them enable beneficiaries in
varying degrees to access preventative care, chronic
disease management, prescription drug treatment,
mental health treatment, and immunizations. See, e.g.,

App. 321
ECF No. 40 at 5–7. The Plaintiff States contend that
they administer their programs “to ensure the health,
well-being, and economic self-sufficiency” of all of their
residents and to provide “comprehensive and affordable
health insurance coverage” to State residents. ECF
Nos. 41 at 7; 45 at 5.
Multiple submissions from the Plaintiff States and
the amici briefs endorse an estimate that “the Public
Charge Rule could lead to Medicaid disenrollment rates
ranging from 15 percent to 35 percent” among Medicaid
and Children’s Health Insurance Program enrollees
who live in mixed-status households, which “equates to
between 2.1 and 4.9 million beneficiaries disenrolling
from the programs.” ECF No. 151 at 20–21; see also
ECF Nos. 111-1 at 69; 149 at 15–16. The Plaintiff
States argue that residents’ disenrollment or foregoing
enrollment “unwinds all the progress that has been
achieved” and results “in a sicker risk pool and
increase[d] premium costs for all remaining residents
enrolled in commercial coverage” through the state
plans. ECF Nos. 37 at 14; 43 at 7.
As stated in the comments submitted to DHS by the
Dana-Farber Cancer Institute, “regulations that will
make immigrant families fearful of seeking health care
services like primary care and routine health
screenings will increase the burden of both disease and
healthcare costs across the country.” ECF No. 35-2 at
3.
In addition to making receipt of Medicaid health
insurance and other public benefit programs a negative
factor, the Plaintiff States proffer that the Public
Charge Rule disincentivizes individuals from seeking

App. 322
medical diagnoses and treatment because a diagnosis
of a medical condition requiring extensive medical
treatment or institutionalization will be weighed as a
heavy negative factor when combined with a lack of
health insurance or independent resources to cover the
associated costs; or weighed as a negative factor even
with health insurance or independent resources to
cover the associated costs. See ECF Nos. 35-2 at 3; 35-1
at 158, 165, and 168.
Health care professionals noted that the weighting
of these factors “creates a strong incentive for
immigrants to avoid medical examinations and tests to
prevent identification of any serious health problem.”
ECF No. 35-2 at 3; see also ECF No. 65 at 14 (“Fear of
the rule change and its effects on utilizing
cancer-screening services for people of a variety of
citizenship status can lead to grave consequences both
in lives lost from treatable cancers and intensive
financial costs of late stage treatment and related
care.”). Delaying diagnosis and treatment until a
condition results in a medical emergency compromises
the health and wellbeing of individuals and families
and increases the cost of health care for the hospitals,
the Plaintiff States, and the Plaintiff States’ residents
as a whole. See ECF Nos. 35-2 at 3; 109 at 18, 47.
Health care providers within the Plaintiff States’
health systems likely will incur harms as well. A larger
uninsured population is likely to “generate significant
uncompensated care costs,” which, in turn, are likely to
“fall disproportionately on providers in low-income
communities who rely on Medicaid for financial
support.” ECF No. 109 at 48. Service cuts to make up

App. 323
for the uncompensated care costs would then result in
fewer patients being able to access primary care
services. Id.
Another filing supports that the Public Charge Rule
likely will burden the doctor-patient relationship. See
ECF No. 151. First, amici health care providers
highlight the “well-established state interest in
protecting doctor-patient consultations from state
intrusion so that patients and doctors may work
together to determine the best course of medical care.”
Id. at 19. By “entwining medical decision-making” with
immigration considerations, the health care providers
maintain that the Public Charge Rule will constrain
“clinicians’ abilities to recommend public benefit
programs as well as their access to reliable forthright
disclosures from their patients.” Id.; see also ECF No.
60 at 9 (“Families have asked our providers about
applying for Medicaid or SNAP in the past, but our
providers note that they rescinded these requests” after
hearing about the proposed public charge rule.).
Furthermore, health care providers anticipate that
“forcing non-citizens to choose between medical
treatment or potential deportation or family
separation” will induce “patients to miss follow-up
appointments or forego treatment” that a clinician has
prescribed. Id. at 20.
The Plaintiff States submitted declarations and
copies of the comments submitted to DHS during the
rulemaking process supporting the conclusion that
disenrollment from publicly-funded health insurance
programs and related benefits already has begun to
occur in anticipation of the effective date of the Public

App. 324
Charge Rule. See ECF Nos. 35-2 at 3; 35-3 at 11; see
also ECF Nos. 152 at 8; 153 at 17.
2. Health and Well-Being of Plaintiff State
Residents
The Plaintiff States’ evidence supports that
decreased utilization of immunizations against
communicable diseases “could lead to higher rates of
contagion and worse community health,” both in the
immigrant population and the U.S. citizen population
because of the nature of epidemics. ECF No. 65 at 14
(further recounting that “[d]isease prevention is
dependent upon access to vaccines and high vaccination
rates”); see also, e.g., ECF No. 44 at 9.
State health officials anticipate that the Public
Charge Rule and its potential to incentivize
disenrollment from “critical services” “will unduly
increase the number of people living in poverty and
thus destabilize the economic health” of communities in
the Plaintiff States. ECF No. 37 at 14.
The amici briefs submitted for the Court’s
consideration, in addition to the Plaintiff States’
submissions, detail harm specific to particular
vulnerable groups in the Plaintiff States and
throughout the country.
a. Children and Pregnant Women
Perhaps best documented in the extensive
submissions in support of the instant motion are the
anticipated harms to children from disenrollment as a
result of the Public Charge Rule. DHS acknowledges in
the Public Charge Rule notice that the Public Charge

App. 325
Rule may “increase the poverty of certain families and
children, including U.S. citizen children.” 84 Fed. Reg.
at 41,482. The Plaintiff States focus on harm to
children stemming from lack of access to health care,
sufficient and nutritious food, and adequate housing.
A chilling effect from the Public Charge Rule will
deter eligible people, including U.S. Citizen children of
immigrant parents, from accessing non-cash public
benefits, which will result in further injury to the
Plaintiff States. For instance, disenrolling from SNAP
benefits and other supplemental nutrition services is
likely to lead to food insecurity with resultant injuries.
See, e.g., ECF No. 35-2 at 7. Forgoing medical care for
children or adult family members because of fear of
using non-cash public benefits will lead to less
preventative care and result in increased hospital
admissions and medical costs, and poor health and
developmental delays in young children. ECF No. 35-2
at 278–79. Food insecurity and poor health care
ultimately result in long-term health issues and lower
math and reading achievement test scores among
school children. Id.
With respect to housing, fair market rent without
non-cash public benefits may be unaffordable in
higher-cost areas of the Plaintiff States even for a
family with two household members who each work
full-time minimum wage jobs. See ECF No. 77 at 17
(providing detail regarding the Massachusetts housing
market). Therefore, “[f]or immigrants who work
low-wage jobs and their families, many of which
include U.S. citizen children, dropping housing benefits
to avoid adverse immigration consequences . . . can be

App. 326
reasonably expected to upend their financial stability
and substantially increase homelessness.” Id. The
Plaintiff States submitted evidence that homelessness
and housing instability during childhood “can have
lifelong effects on children’s physical and mental
health.” ECF No. 35-2 at 39. When families lose their
residences because they no longer receive financial
assistance with rent, children in those households “are
more likely to develop respiratory infections and
asthma,” among other harms. ECF No. 37 at 14.
b. Disabled Individuals
Amici provide a compelling analysis of how the
factors introduced by the Public Charge Rule
disproportionately penalize disabled applicants by
“triple-counting” the effects of being disabled. ECF No.
110 at 23. The medical condition and use of Medicaid or
other services used to facilitate independence for
disabled individuals each may be assessed negatively
against an applicant. See 8 C.F.R. § 212.22(b); see also
ECF No. 110 at 23. An individual who is disabled with
a medical condition likely to require extensive medical
treatment would be disqualified from the positive
“health” factor, even if he or she is in good health apart
from the disability. See id. Therefore, there is a
significant possibility that disabled applicants who
currently reside in the Plaintiff States, or legal
permanent residents who return to the U.S. after a
180-day period outside of the U.S., would be deemed
inadmissible primarily on the basis of their disability.
In addition, the chilling effect arising out of
predictable confusion from the changes in the Public
Charge Rule may cause immigrant parents to refuse

App. 327
benefits for their disabled U.S. citizen children or legal
permanent resident children. ECF No. 110 at 26.
Notably, disenrollment of disabled individuals from
services in childhood is the type of harm that may
result in extra costs to Plaintiff States far into the
future because of the citizen and legal permanent
resident children reaching adulthood with untreated
disabilities.
c. Elderly
Amici have argued convincingly that the Public
Charge Rule will have a substantial negative impact on
the elderly. Many of the Public Charge Rule’s negative
factors inherently apply to the elderly. For instance,
being over the age of sixty-two may be weighed
negatively against an applicant. ECF No. 150 at 16; see
8 C.F.R. § 212.22(b)(1)(i). Additionally, many elderly
people rely on their families for support. See id. at
19–20. Although immigration law in the United States
has traditionally favored family unification, the Public
Charge Rule may penalize people for living with their
families, counting their family reliance against them.
See ECF No. 150 at 19 (citing the “preference allocation
for family-sponsored immigrants” in 8 U.S.C.
§ 1153(a)). Furthermore, the new rule penalizes people
with a medical diagnosis that will require extensive
treatment, and most adults over fifty years old have at
least one chronic health condition. Id. at 18 (citing
AARP Public Policy Institute, Chronic Care: A Call to
Action for Health Reform, 11–12, 16 (2009); University
of New Hampshire Institute on Disability/ UCED, 2017
Disability Statistics Annual Report (2018)); see 8 C.F.R.
§ 212.22(b)(2)(ii)(B). Many elderly people rely on

App. 328
non-cash forms of public assistance like Medicaid,
SNAP, and public housing and rental assistance. ECF
No. 150 at 15. That assistance will be counted against
them by the Public Charge Rule, predictably leading to
disenrollment from such programs. See id. at 27; 8
C.F.R. § 212.22(d). Amici persuasively argue that
without assistance from important programs like
Medicaid elderly people will experience additional and
exacerbated medical problems, “creating a new and
uncompensated care burden on society.” ECF No. 150
at 27.
Moreover, many elderly people do not satisfy the
Public Charge Rule’s positive factors. For instance, one
of the Rule’s positive factors is having an income that
exceeds 250 percent of the federal poverty level. Id. at
16; 8 C.F.R. § 212.22(c)(2)(ii). Amici state that most
people over the age of sixty-two live in moderate to
low-income households, making them ineligible for this
positive factor. See ECF No. 150 at 16 (citing Public
Charge Proposed Rule: Potentially Chilled Population
Data Dashboard, Mannat (Oct. 11, 2018)). Many people
also will have their income level counted negatively
against them because having an income of less than
125 percent of the federal poverty level is a negative
factor. Id.; see 8 C.F.R. § 212.22(b)(4)(i).
d. Domestic Violence Victims
Amici organizations who support victims of
domestic violence identify an overlap between the
assistance a woman may seek or receive as she leaves
an abusive relationship and establishes independence
and the new definition of “public benefit” in the Public
Charge Rule. See ECF No. 111 at 20–32. In addition,

App. 329
the Public Charge Rule does not except health issues
resulting from abuse from the negative medical
condition factors. See id.; 8 C.F.R. § 212.22(b). The
amici represent that the chilling effect is occurring in
anticipation of the Public Charge Rule, with
“victims . . . already foregoing critical housing, food,
and healthcare assistance out of fear that it will
jeopardize their immigration status.” ECF No. 111 at
22. Foregoing non-cash public benefits by domestic
violence victims risks “broader impacts” to the health
and wellbeing of residents throughout the Plaintiff
States “as a result of unmitigated trauma to victims
and their families.” Id. at 24.
3. Financial Harm to Plaintiff States
The Plaintiff States and the amici briefs make a
cohesive showing of ongoing financial harm to the
States as disenrollment from “safety net” benefits
programs predictably occurs among vulnerable
populations. As noted above, both immigrant and U.S.
citizen children of immigrants are more likely to
experience poorer long-term outcomes, including
impaired growth, compromised cognitive development,
and obesity without access to non-cash public benefits.
ECF No. 149 at 21. Further, exposure to housing
insecurity and homelessness often is associated with
increased vulnerability to a range of adult diseases
such as heart attacks, strokes, and smoking-related
cancers. Id. at 22. Even if the immigrant children no
longer reside in the Plaintiff States, the affected U.S.
citizen children will remain entitled to live in the
Plaintiff States, or in other states not plaintiffs before
this Court, once they are adults. Therefore, the

App. 330
Plaintiff States face increased costs to address the
predictable effects of the adverse childhood experiences
over the course of these U.S. citizen children’s
lifetimes, potentially fifty years or more down the road.
The Plaintiff States further face likely pecuniary
harm from contagion due to unvaccinated residents,
resulting in outbreaks of influenza, measles, and a
higher incidence of preventable disease among
immigrants as well as U.S. citizens. ECF No. 38 at 7–8.
It is reasonably certain that any outbreaks would
result in “reduced days at work, reduced days at school,
lower productivity, and long-term negative economic
consequences,” as well as the cost of responding to an
epidemic for state and local health departments. Id.
The Plaintiff States also allege that they will incur
additional administrative costs as a result of the Public
Charge Rule, including “training staff, responding to
client inquiries related to the Final Rule, and
modifying existing communications and forms. ECF
No. 40 at 7–8 (declaration from the Deputy
Commissioner of the New Jersey Department of
Human Services, adding “Because the rules for
determining whether someone is a public charge are
technical and confusing, it will be extremely difficult to
train frontline staff to have the requisite
understanding necessary to help potential applicants
determine whether they would be deemed a public
charge under the proposed Final Rule.”). The Plaintiff
States also may incur the expense of developing
alternative programming and enacting new eligibility
rules across multiple systems of benefits to “mirror” the
effect of Medicaid and other federal programs and to

App. 331
mitigate the negative effects from the Public Charge
Rule on individual and community health. See ECF No.
37 at 15.
C. Application
Requirements

of

Harms

to

Standing

The Plaintiff States argue that they have made a
clear showing of each element of standing by showing
that “the Rule will lead to a cascade of costs to states as
immigrants disenroll from federal and state benefits
programs, . . . thereby frustrating the States’ mission
in creating such programs and harming state
residents.” ECF No. 158 at 11 (citing cases supporting
state standing based on a proprietary interest and a
quasi-sovereign interest in the health and wellbeing of
the state’s residents). The Plaintiff States further
allege future economic harm. Id. at 35 (citing a
declaration at ECF No. 66 at 19 estimating an annual
reduction in total economic output of $41.8 to $97.5
million and other damage to the Washington State
economy alone).
The Federal Defendants argue that the Plaintiff
States’ alleged harm is not fairly traceable to the Public
Charge Rule but would be the result of third-party
decisions, such as “unnecessarily choosing to forgo all
federal benefits.” See ECF No. 155 at 19–21. The
Supreme Court recently addressed the Federal
Defendants’ traceability argument in Dep’t of
Commerce v. New York, 139 S. Ct. 2551 (2019), in
which a group of states and other plaintiffs challenged
the Secretary of Commerce’s decision to inquire about
citizenship status on the census questionnaire. Id. at
2557. There, the Government argued “that any harm to

App. 332
respondents is not fairly traceable to the Secretary’s
decision, because such harm depends on the
independent action of third parties choosing to violate
their legal duty to respond to the census.” 139 S. Ct. at
2565. The Supreme Court rejected the Government’s
argument, concluding:
But we are satisfied that, in these
circumstances, respondents have met their
burden of showing that third parties will likely
react in predictable ways to the citizenship
question, even if they do so unlawfully and
despite the requirement that the Government
keep individual answers confidential. . . .
Respondents’ theory of standing . . . does not rest
on mere speculation about the decisions of third
parties; it relies instead on the predictable effect
of Government action on the decisions of third
parties.
139 S. Ct. at 2566.
The Plaintiff States have made a strong showing of
the predictable effect of the Government action on
individual residents who are not parties in this action,
and in turn, the predictable effect on the Plaintiff
States. The complexities of the multi-factor totality of
the circumstances test and the new definition of “public
charge” that USCIS officers must administer are not
fully captured in this Order. Nevertheless, from the
components of the rule that the Court already has
closely examined, it is predictable that applying the
multi-factor Public Charge Rule would result in
disparate results depending on each USCIS officer.
Moreover, the general message conveyed to USCIS

App. 333
officers, immigrants, legal permanent residents, and
the general public alike is unmistakable: the Public
Charge Rule creates a wider barrier to exclude
individuals seeking to alter their immigration status.
Therefore, it is further predictable that individuals
who perceive that they or their children may fall within
the broadened scope of the public charge
inadmissibility ground will seek to reduce that risk by
disenrolling from non-cash public benefits. Otherwise
stated, the chilling effect of the Public Charge Rule
likely will lead individuals to disenroll from benefits,
because receipt of those benefits likely would subject
them to a public charge determination, and, equally
foreseeably, because the Public Charge Rule will create
fear and confusion regarding public charge
inadmissibility.
Also predictable is that the chilling effect will
negatively impact the Plaintiff States’ missions, the
health and wellbeing of their residents, citizens and
non-citizens alike, and the Plaintiff States’ budgets and
economies. “‘A causal chain does not fail simply
because it has several ‘links,’ provided those links are
not hypothetical or tenuous.’” California v. Azar, 11
F.3d 58, 1–57 72 (9th Cir. 2018) (quoting Maya v.
Centex Corp., 658 F.3d 1060, 1070 (9th Cir. 2011)
(internal quotation omitted)). While the magnitude of
the injuries may remain in dispute, the Plaintiff States
have shown that their likely injuries are a predictable
result of the Public Charge Rule. See California, 911
F.3d at 572 (citing United States v. Students
Challenging Regulatory Agency Procedures, 412 U.S.

App. 334
669, 689 n. 14 (1973), for the proposition that injuries
of only a few dollars can establish standing).
D. Ripeness
A case is ripe for adjudication only if it presents
“issues that are ‘definite and concrete, not hypothetical
or abstract.’” Clark v. City of Seattle, 899 F.3d 802, 809
(9th Cir. 2018) (quoting Bishop Paiute Tribe v. Inyo
Cty., 863 F.3d. 1144, 1153 (9th Cir. 2017)). Just as the
Federal Defendants argue that the Plaintiff States’
alleged harms are not concrete or imminent, they make
the same arguments for purposes of ripeness. The
Court applies the same analysis as discussed for
standing and concludes that the alleged harms are
sufficiently concrete and imminent to support ripeness.
The Federal Defendants also argue that the Court
should decline to hear the case on the basis of
prudential ripeness. See ECF No. 155 at 25. Courts
resolve questions of prudential ripeness “in a twofold
aspect,” evaluating “both the fitness of the issues for
judicial decision and the hardship to the parties of
withholding court consideration.” Abbott Labs. v.
Gardner, 387 U.S. 136, 148 (1967). Where review of an
administrative action is at issue, “[f]itness for
resolution depends on the nature of the issue and the
finality of the administrative agency’s action.” Hotel
Emples. & Rest. Emples. Int’l Union v. Nev. Gaming
Comm’n, 984 F.2d 1507, 1513 (9th Cir. 1993). Once a
court has found that constitutional ripeness is
satisfied, the prudential ripeness bar is minimal, as “‘a
federal court’s obligation to hear and decide’ cases
within its jurisdiction is ‘virtually unflagging.’” Susan
B. Anthony List, 572 U.S. at 167 (quoting Lexmark

App. 335
Int’l, Inc. v. Static Control Components, Inc., 572 U.S.
118, 125–26 (2014) (internal quotation omitted)).
The Federal Defendants misconstrue the issues
raised by the Amended Complaint and the record on
the instant motion. Challenges to the validity of a rule
under the judicial review provisions of the APA present
issues fit for adjudication by a court. See Abbott
Laboratories, 387 U.S. at 149–52 (review of a rule
before it has been applied and enforced is available
where “the regulations are clear-cut,” present a legal
issue, and constitute the agency’s formal and definitive
statement of policy). Moreover, the Plaintiff States’
harm would only be exacerbated by delaying review.
For example, delaying review increases the potential
for spread of infectious diseases among the populations
of the Plaintiff States, as well as to nearby states, as a
result of reduced access to health care and
vaccinations. Therefore, the Court finds this matter is
ripe for review.
E. Zone of Interests
The Federal Defendants argue that the Plaintiff
States do not fall within the “zone of interests” of the
INA because: “It is aliens improperly determined
inadmissible, not States, who ‘fall within the zone of
interests protected’ by any limitations implicit in
§ 1182(a)(4)(A) and § 1183 because they are the
‘reasonable—indeed, predictable—challengers’ to
DHS’s inadmissibility decisions.” ECF No. 155 at 28
(citing Match-E-Be-Nash-She-Wish Band of
Pottawatomi Indians v. Patchak, 567 U.S. 209, 227
(2012); 8 U.S.C. § 1252 (providing for appeal by an

App. 336
individual of a final order of removal based on a public
charge determination)).
However, the zone of interests test is “not ‘especially
demanding.’” Lexmark Int’l, 572 U.S. at 130 (quoting
Match-E-Be-Nash-She-Wish, 567 U.S. at 225).
Particularly where a plaintiff pursues relief through
the APA, the Supreme Court has directed that the test
shall be applied “in keeping with Congress’s ‘evident
intent’ when enacting the APA ‘to make agency action
presumptively reviewable.’” Match-E-Be-Nash-SheWish, 567 U.S. at 225 (quoting Clarke v. Sec. Indus.
Ass’n, 479 U.S. 388, 399 (1987)). There is no
requirement that a plaintiff show “any ‘indication of
congressional purpose to benefit the would-be
plaintiff.’” Id. (quoting Clarke, 479 U.S. at 399–400).
Moreover, the “benefit of any doubt goes to the
plaintiff.” Id. “The test forecloses suit only when a
plaintiff’s ‘interests are so marginally related to or
inconsistent with the purposes implicit in the statute
that it cannot reasonably be assumed that Congress
intended to permit the suit.’” Id. (quoting Clarke, 479
U.S. at 399).
The Plaintiff States meet this lenient standard by
tracing the origins of the public charge exclusion
enacted by Congress in 1882 “to protect state fiscs.”
ECF No. 158 at 14. The concept of a “public charge”
exclusion originally was incorporated into U.S. law by
Congress in 1882 to protect states from having to spend
state money to provide for immigrants who could not
provide for themselves. ECF No. 158 at 14–15 n. 3. The
Plaintiff States reasonably extrapolate: “By imposing
significant uncompensated costs on the Plaintiff States

App. 337
and undermining their comprehensive public
assistance programs, the Rule undermines the very
interests advanced by the statutes on which DHS
relies. ECF No. 158 at 14–15 (citing Texas v. United
States, 809 F.3d 124, 163 (5th Cir. 2015), aff’d, 136
S. Ct. 2271 (2016) for the proposition that it
“recogniz[es] states’ economic interests in immigration
policy”). Thus, states were at the center of the zone of
interest for use of the term “public charge” from the
beginning of the relevant statutory scheme, and the
Plaintiff States continue to have interests that are
sufficiently consistent with the purposes implicit in the
public charge inadmissibility policy to challenge its
application now.
The Court finds that the Plaintiff States have
standing to pursue this action, that the issues are ripe
for adjudication, and that the Plaintiff States are
within the zone of interests of the Public Charge Rule.
IV.
LEGAL STANDARDS FOR STAYS AND
PRELIMINARY INJUNCTIONS IN CASES
CHALLENGING AGENCY ACTION
The Administrative Procedure Act’s stay provision
states, in relevant part:
On such conditions as may be required and to
the extent necessary to prevent irreparable
injury, the reviewing court . . . may issue all
necessary and appropriate process to postpone
the effective date of an agency action or to

App. 338
preserve status or rights pending conclusion of
the review proceedings.
5 U.S.C. § 705.5
The Court applies a closely similar standard in
deciding whether to stay the effect of a rule under
section 705 as it does in deciding whether to issue a
preliminary injunction under Fed. R. Civ. P. Rule 65(a).
Nken v. Holder, 556 U.S. 418, 425–26 (2009); see also
Hill Dermaceuticals, Inc. v. United States FDA, 524
F. Supp.2d 5, 8 (D.D.C. 2007). For a preliminary
injunction, the moving party must demonstrate:
(1) likelihood of success on the merits; (2) likelihood of
irreparable harm in the absence of preliminary relief;
(3) that the balance of equities tips in the moving
party’s favor; and (4) that an injunction is in the public
interest. Winter v. Natural Res. Def. Council, Inc., 555
U.S. 7, 20 (2008). For a stay, the traditional test
articulates the third factor in slightly different terms:
“‘whether issuance of the stay will substantially injure
the other parties.” Nken, 556 U.S. at 419 (quoting
Hilton v. Braunskill, 481 U.S. 770, 776 (1987)).
Provided the Court considers all four parts of the
Winter test, the Court may supplement its preliminary
injunction inquiry by considering whether “the
likelihood of success is such that ‘serious questions
going to the merits were raised and the balance of
hardships tips sharply in [the requesting party’s]
favor.’” Alliance for the Wild Rockies v. Cottrell, 632
5

Alternatively, Section 705 authorizes an agency itself to
temporarily stay the effective date of its rule pending judicial
review, when it “finds that justice so requires.” 5 U.S.C. § 705.

App. 339
F.3d 1127, 1132 (9th Cir. 2011) (quoting Clear Channel
Outdoor, Inc. v. City of L.A., 340 F.3d 810, 813 (9th Cir.
2003)). The Ninth Circuit’s “sliding scale” approach
survives Winter, “so long as the [movant] also shows
that there is a likelihood of irreparable injury and that
the injunction is in the public interest.” Alliance for the
Wild Rockies, 632 F.3d at 1135.
Both a stay under section 705 and a preliminary
injunction serve the purpose of preserving the status
quo until a trial on the merits can be held. Univ. of
Texas v. Camenisch, 451 U.S. 390, 395 (1981);
Boardman v. Pac. Seafood Grp., 822 F.3d 1011, 1024
(9th Cir. 2016); Sierra Club v. Jackson, 833 F.Supp.2d
11, 28(D.D.C. 2012) (“Such a stay is not designed to do
anything other than preserve the status quo.”) (citing
5 U.S.C. § 705).
Section 705 and preliminary injunctions under Rule
65, although determined by application of similar
standards, offer different forms of relief. Nken, 556 U.S.
at 428. An injunction “is directed at someone, and
governs that party’s conduct.” Id. “By contrast, instead
of directing the conduct of a particular actor, a stay
operates upon the judicial proceeding itself. It does so
either by halting or postponing some portion of the
proceeding, or by temporarily divesting an order of
enforceability.” Id. “If nothing else, the terms are by no
means synonymous.” Id.
One difference is that Fed. R. Civ. P. 65(c) requires
the court to determine the amount that the movant
must give in security for “the costs and damages
sustained by any party found to have been wrongfully

App. 340
enjoined or restrained.” Section 705 contains no such
requirement.
In granting preliminary injunctive relief pursuant
to Fed. R. Civ. P. 65, a court must consider whether the
defendant shall be enjoined from enforcing the disputed
rule against all persons nationwide, or solely against
plaintiffs. “Crafting a preliminary injunction is an
exercise of discretion and judgment, often dependent as
much on the equities of a given case as the substance
of the legal issues it presents.” Trump v. Intern.
Refugee Assistance Project, 137 S. Ct. 2080, 2087
(2017).
There is “no bar against . . . nationwide relief in
federal district or circuit court when it is appropriate.”
Bresgal v. Brock, 843 F.2d 1163, 1170 (9th Cir. 1987);
see also Steele v. Bulova Watch Co., 344 U.S. 280, 289
(1952) (“[T]he District Court in exercising its equity
powers may command persons properly before it to
cease or perform acts outside its territorial
jurisdiction.”); Monsanto Co. v. Geertson Seed Farms,
561 U.S. 139, 181 n. 12 (2010) (J. Stevens, dissenting)
(“Although we have not squarely addressed the issue,
in my view there is no requirement that an injunction
affect only the parties in the suit. To limit an injunction
against a federal agency to the named plaintiffs would
only encourage numerous other regulated entities to
file additional lawsuits in this and other federal
jurisdictions.”) (internal quotations omitted). The
primary consideration is whether the injunctive relief
is sufficiently narrow in scope to “‘be no more
burdensome to the defendant than necessary to provide
complete relief to the plaintiffs’ before the court.” L.A.

App. 341
Haven Hospice, Inc. v. Sebelius, 638 F.3d 644, 664 (9th
Cir. 2011) (quoting Califano v. Yamasaki, 442 U.S. 682,
702 (1979)).
The Ninth Circuit has “upheld nationwide
injunctions when ‘necessary to give Plaintiff a full
expression of their rights.’” City & Cty. of San
Francisco v. Trump, 897 F.3d 1225, 1244 (9th Cir.
2018) (quoting Hawaii v. Trump, 878 F.3d 662, 701
(9th Cir. 2017), rev’d on other grounds Trump v.
Hawaii, 138 S. Ct. 2392 (2018), and citing Washington
v. Trump, 847 F.3d 1151,1166–67 (9th Cir. 2017) (per
curium)). By contrast, the Ninth Circuit has vacated a
nationwide injunction on a finding that the plaintiffs
did not make “a sufficient showing of ‘nationwide
impact’ demonstrating that a nationwide injunction is
necessary to completely accord relief to them.’” Id.
V. ANALYSIS
A. Likelihood of Success on the Merits
For purposes of the Motion for a Stay and
Preliminary Injunction, the Plaintiff States highlight
the likelihood of success on the merits of their first and
third causes of action, both of which are pursuant to
the APA. ECF No. 34 at 21–51.
Under the APA, “[a] person suffering legal wrong
because of agency action. . . is entitled to judicial
review thereof.” 5 U.S.C. § 702. The APA further
directs courts to “hold unlawful and set aside agency
action, findings, and conclusions found to be . . .
arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.” 5 U.S.C.
§ 706(2)(A).

App. 342
1. First Cause of Action: Violation of the
Administrative Procedure Act—Action Not in
Accordance with Law
An administrative agency “may not exercise its
authority ‘in a manner that is inconsistent with the
administrative structure that Congress enacted into
law.’” FDA v. Brown & Williamson Tobacco Corp., 529
U.S. 120, 125 (2000), superseded by statute on other
grounds, 21 U.S.C. § 387a. When an administrative
agency’s action involves the construction of a statute
that the agency administers, a court’s analysis is
governed by the two-step framework set forth in
Chevron U.S.A., Inc. v. Natural Resources Defense
Council, Inc., 467 U.S. 837 (1984). Id. at 125–26.
A reviewing court’s first inquiry under Chevron is
whether Congress has expressed its intent clearly and
unambiguously in the statutory language at issue.
Brown & Williamson, 529 U.S. at 132. If Congress has
spoken directly to the issue before the reviewing court,
the court’s inquiry need not proceed further, and the
court “must give effect to the unambiguously expressed
intent of Congress.” Chevron, 467 U.S. at 843. If
Congress has not addressed the specific question raised
by the administrative agency’s construction of a
statute, “a reviewing court must respect the agency’s
construction of the statute so long as it is permissible.”
Brown & Williamson, 529 U.S. at 132 (citing INS v.
Aguirre-Aguirre, 526 U.S. 415, 424 (1999); Auer v.
Robbins, 519 U.S. 452, 457 (1997)).
In analyzing the first step of Chevron, “whether
Congress has specifically addressed the question at
issue, a reviewing court should not confine itself to

App. 343
examining a particular statutory provision in
isolation.” Brown & Williamson, 529 U.S. at 133. The
reviewing court must read the words of a statute “‘in
their context and with a view to their place in the
overall statutory scheme.’” Id. (quoting Davis v.
Michigan Dept. of Treasury, 489 U.S. 803, 809 (1989)).
A court must interpret a particular statutory provision
both in the context of other parts of the same
regulatory scheme and with respect to other statutes
that may affect the meaning of the statutory provision
at issue. Id.
In this case, the issue is whether Congress has
expressed its intent regarding barring individuals from
obtaining visas or changing their status to legal
permanent residents based on a specific definition of
public charge. Congress has expressed its intent
regarding the public charge statute in a variety of
forms. In 1986, Congress included a special rule in a
section of the INA addressing waivers of the public
charge inadmissibility ground for applicants seeking
legal permanent residency status. 8 U.S.C.
§ 1255a(d)(2)(B)(iii). The “special rule for determination
of public charge,” excepts an immigrant seeking relief
under that section from inadmissibility as a public
charge if he or she demonstrates “a history of
employment in the United States evidencing
self-support without receipt of public cash assistance.”
Id.
Later, as part of the Personal Responsibility and
Work Opportunity Reconciliation Act of 1996 (“Welfare
Reform Act”), Congress enacted a statutory provision

App. 344
articulating the following “Statements of national
policy concerning welfare and immigration”:
The Congress makes the following statements
concerning national policy with respect to
welfare and immigration:
(1) Self -sufficiency has been a basic principle of
United States immigration law since this
country’s earliest immigration statutes.
(2) It continues to be the immigration policy of
the United States that—
(A) aliens within the Nation’s borders not
depend on public resources to meet their needs,
but rather rely on their own capabilities and the
resources of their families, their sponsors, and
private organizations, and
(B) the availability of public benefits not
constitute an incentive for immigration to the
United States.
(3) Despite the principle of self-sufficiency,
aliens have been applying for and receiving
public benefits from Federal, State, and local
governments at increasing rates.
(4) Current eligibility rules for public assistance
and unenforceable financial support agreements
have proved wholly incapable of assuring that
individual aliens not burden the public benefits
system.
(5) It is a compelling government interest to
enact new rules for eligibility and sponsorship
agreements in order to assure that aliens be
self-reliant in accordance with national
immigration policy.

App. 345
(6) It is a compelling government interest to
remove the incentive for illegal immigration
provided by the availability of public benefits.
(7) With respect to the State authority to make
determinations concerning the eligibility of
qualified aliens for public benefits in this title, a
State that chooses to follow the Federal
classification in determining the eligibility of
such aliens for public assistance shall be
considered to have chosen the least restrictive
means available for achieving the compelling
governmental interest of assuring that aliens be
self-reliant in accordance with national
immigration policy.
8 U.S.C. § 1601.
The Welfare Reform Act further limited eligibility
for many “federal means-tested public benefits,” such
as Medicaid and SNAP, to “qualified” immigrants, and
Congress defined “qualified” to include lawful
permanent residents and certain other legal statuses.
See 8 U.S.C. § 1641(b). Most immigrants become
“qualified” for benefits eligibility five years after their
date of entry. 8 U.S.C. §§ 1612, 1613. States retain a
significant degree of authority to determine eligibility
for state benefits. See U.S.C. §§ 1621–22, 1641.
Thus, in the course of significantly restricting access
to public benefits by non-citizens, Congress expressly
states that part of its national immigration policy is
allowing public benefits to qualified aliens in “the least
restrictive means available” in order to achieve the goal
that the aliens “be self-reliant.” 8 U.S.C. § 1601(7).
Congress did not state that there should be no public

App. 346
benefits provided to qualified aliens, but rather that
public benefits be provided in “the least restrictive
means available.” See id. The Public Charge Rule at
issue here likely would chill qualified aliens from
accessing all public benefits by weighing negatively the
use of non-cash public benefits for inadmissibility
purposes.
One month after enactment of the Welfare Reform
Act, the Illegal Immigration Reform and Immigrant
Responsibility Act of 1996 (“Immigration Reform Act”)
reenacted the existing public charge provision and
codified th e five minimum factors approach to public
charge determinations that remains in effect today and
will continue to be in effect if the Public Charge Rule is
not implemented on October 15, 2019. See 8 U.S.C.
§ 1182(a)(4).
In the course of enacting the Immigration Reform
Act, members of Congress debated whether to expand
the public charge definition to include use of non-cash
public benefits. See Immigration Control & Financial
Responsibility Act of 1996, H.R. 2202, 104th Cong.
§ 202 (1996) (early House bill that would have defined
public charge for purposes of removal to include receipt
by a non-citizen of Medicaid, supplemental food
assistance, SSI, and other means-tested public
benefits). However, in the Senate, at least one senator
criticized the effort to include previously unconsidered,
non-cash public benefits in the public charge test and
to create a bright-line framework of considering
whether the immigrant has received public benefits for
an aggregate of twelve months as “too quick to label
people as public charges for utilizing the same public

App. 347
assistance that many Americans need to get on their
feet.” S. Rep. No. 104-249. at *63–64 (1996) (Senator
Leay’s remarks).
Congress’s intent is reflected by the fact that the
Immigration Reform Act that was enacted into law did
not contain the provisions that would have
incorporated into the public charge determination
non-cash public benefits. See 8 U.S.C. § 1182(a)(4).
After the Welfare Reform Act and the Immigration
Reform Act took effect, Congress further demonstrated
its intent regarding non-cash public benefits for
immigrants by expanding access to SNAP benefits for
certain immigrants who resided in the United States at
the time that the Welfare Reform Act was enacted and
to children and certain immigrants with disabilities
regardless of how long they had been in the country.
See Agricultural Research, Extension, and Education
Reform Act of 1998, Pub. L. No. 105-185, 112 Stat. 523;
Farm Security and Rural Investment Act of 2002, Pub.
L. No. 107-171, 116 Stat. 134.
In 1999, to “help alleviate public confusion over the
meaning of the term ‘public charge’ in immigration law
and its relationship to the receipt of Federal, State, and
local public benefits,” the INS issued “field guidance”
(“the 1999 field guidance”) and a proposed rule to guide
public charge determinations by INS officers. INS,
Field Guidance on Deportability and Inadmissibility on
Public Charge Grounds, 64 Fed. Reg. 28,689 (Mar. 26,
1999). The 1999 field guidance provided that a person
may be deemed a public charge under the
inadmissibility provision at 8 U.S.C. § 1182(a)(4) if the
person is “primarily dependent on the government for

App. 348
subsistence, as demonstrated by either (i) the receipt of
public cash assistance for income maintenance or
(ii) institutionalization for long-term care at
government expense.” Id. at 28,692.
In issuing the field guidance and proposed rule, the
INS reasoned as follows:
The Service is proposing this definition by
regulation and adopting it on an interim basis
for several reasons. First, confusion about the
relationship between the receipt of public
benefits and the concept of “public charge” has
deterred eligible aliens and their families,
including U.S. citizen children, from seeking
important health and nutrition benefits that
they are legally entitled to receive. This
reluctance to access benefits has an adverse
impact not just on the potential recipients, but
on public health and the general welfare.
Second, non-cash benefits (other than
institutionalization for long-term care) are by
their nature supplemental and do not, alone or
in combination, provide sufficient resources to
support an individual or family. In addition to
receiving non-cash benefits, an alien would have
to have either additional income—such as
wages, savings, or earned retirement
benefits—or public cash assistance. Thus, by
focusing on cash assistance for income
maintenance, the Service can identify those who
are primarily dependent on the government for
subsistence without inhibiting access to
non-cash benefits that serve important public

App. 349
interests. Finally, certain federal, state, and
local benefits are increasingly being made
available to families with incomes far above the
poverty level, reflecting broad public policy
decisions about improving general public health
and nutrition, promoting education, and
assisting working-poor families in the process of
becoming self-sufficient. Thus, participation in
such noncash programs is not evidence of
poverty or dependence.
64 Fed. Reg. at 28,692.
In addition, the INS noted: “In adopting this new
definition, the Service does not expect to substantially
change the number of aliens who will be found
deportable or inadmissible as public charges.” Id.
The proposed rule was never finalized, but the 1999
field guidance has applied to public charge
determinations since it was issued twenty years ago.
See ECF No. 35-1 at 109. During the past twenty-year
period, Congress has not expressly altered the working
definition of public charge or the field guidance as to
how the public charge inadmissibility ground should be
applied to applicants for visas or permanent legal
residency.
In 2013, Congress again considered and rejected a
proposal to broaden the public charge inadmissibility
ground to require applicants to show that “they were
not likely to qualify even for non-cash employment
supports such as Medicaid, the SNAP program, or the
Children’s Health Insurance Program (CHIP).” S. Rep.
No. 113-40 (Jun. 7, 2013).

App. 350
The Plaintiff States also maintain that the Public
Charge Rule “departs from the unambiguously
expressed intent of Congress” in statutes other than
the Welfare Reform Act and the INA, namely section
504 of the Rehabilitation Act and a statute governing
SNAP benefits. ECF No. 31 at 169–71.
With respect to the Rehabilitation Act of 1973, the
Plaintiff States assert that the Public Charge Rule is
not in accordance with section 504, which provides that
“[n]o otherwise qualified individual with a disability in
the United States . . . shall, solely by reason of her or
his disability, be excluded from the participation in, be
denied the benefits of, or be subjected to
discrimination . . . under any program or activity
conducted by an Executive agency.” 29 U.S.C. § 794(a).
The SNAP statute provides that “the value of benefits
that may be provided under this chapter shall not be
considered income or resources for any purpose under
any Federal, State, or local laws.” 7 U.S.C. § 2017(b).
The Federal Defendants broadly assert: “From the
beginning, immigration authorities have recognized
that the plain meaning of the public charge ground of
inadmissibility encompasses all of those likely to
become a financial burden on the public, and that the
purpose of the provision is to exclude those who are not
self-sufficient.” ECF No. 155 at 35–36. The Federal
Defendants rely on the statements of the Secretary of
Labor to the House Committee on Immigration and
Naturalization in 1916 to support that the goal behind
the public charge inadmissibility ground is to support
self-sufficiency:

App. 351
[(1)] a person is ‘likely to become a public charge’
when ‘such applicant may be a charge (an
economic burden) upon the community to which
he is going.’[; and]
[(2)] the public charge clause ‘for so many years
has been the chief measure of protection in the
law . . . intended to reach economic rather than
sanitary objections to the admission of certain
classes of aliens.’
Id. (citing H.R. Doc. No. 64-886, at 3–4 (1916)); see also
ECF No. 155 at 37 (“As explained above, Congress and
the Executive Branch have long recognized the ‘public
charge’ ground as a ‘chief measure’ for ensuring the
economic self-sufficiency of aliens.”).
The Federal Defendants’ arguments to this Court
replicate DHS’s assertion in the rulemaking record that
“self-sufficiency is the rule’s ultimate aim.” 84 Fed.
Reg. at 41,313. DHS attempts to reconcile the absence
of the Welfare Reform Act’s “self-sufficiency” language
in the public charge inadmissibility provision at 8
U.S.C. § 1182(a)(4) by noting the temporal proximity
between the Welfare Reform Act and the Immigration
Reform Act:
Although the INA does not mention
self-sufficiency in the context of . . . 8 U.S.C.
§ 1182(a)(4), DHS believes that there is a strong
connection between the self -sufficiency policy
statements [in the Welfare Reform Act] (even if
not codified in the INA itself) at 8 U.S.C. 1601
and the public charge inadmissibility language

App. 352
in . . . 8 U.S.C. 1182(a)(4), which were enacted
within a month of each other.
84 Fed. Reg. at 41,355–56.
Notably, DHS cites no basis for interpreting the
policy statements at 8 U.S.C. § 1601 beyond a belief in
“a strong connection” between those policy statements
and the public charge rule inadmissibility ground.
Essentially, at this early stage in the litigation, the
Federal Defendants urge the Court to take two
unsupported leaps of statutory construction. First, they
seek a legal conclusion that the purpose of the public
charge inadmissibility provision is to “ensur[e] the
economic self-sufficiency of aliens.” ECF No. 155 at 37.
Second, the Federal Defendants argue that Congress
has delegated to DHS the role of determining what
benefits programs, income levels, and household sizes
or compositions, promote or undermine self-sufficiency.
However, the Federal Defendants have not cited any
statute, legislative history, or other resource that
supports the interpretation that Congress has
delegated to DHS the authority to expand the
definition of who is inadmissible as a public charge or
to define what benefits undermine, rather than
promote, the stated goal of achieving self-sufficiency.
By contrast, the Plaintiff States offer extensive
support for the conclusion that Congress
unambiguously rejected key components of the Public
Charge Rule, including the consideration of non-cash
public benefits and a rigid twelve-month aggregate
approach in determining whether someone would be
deemed a public charge. In the pivotal legislative

App. 353
period of 1996, and again in 2013, Congress rejected
the provisions that the Public Charge Rule now
incorporates. In 2013, as the Plaintiff States
underscore, Congress rejected expansion of the benefits
considered for public charge exclusion with full
awareness of the 1999 field guidance in effect. See ECF
No. 158 at 18 (citing Lorillard v. Pons, 434 U.S. 575,
580 (1978) (“Congress is presumed to be aware of an
administrative or judicial interpretation of a statute
and to adopt that interpretation when it re-enacts a
statute without change.”)).
Furthermore, the Plaintiff States make a strong
showing in the record that DHS has overstepped its
authority. The Federal Defendants assert, without any
citation to authority, that “an individual who relies on
Medicaid benefits for an extended period of time in
order ‘to get up, get dressed, and go to work,’ is not selfsufficient.’” ECF No. 155 at 54 (quoting from Plaintiff’s
motion at ECF No. 34). Yet, again, the Federal
Defendants offer no authority to support that DHS’s
role, by Congressional authorization, is to define
self-sufficiency. See Comcast Corp. v. FCC, 600 F.3d
642, 655 (D.C. Cir. 2010) (rejecting the FCC’s
interpretation of its authority because “if accepted it
would virtually free the Commission from its
congressional tether.”). The Federal Defendants also
have not explained how DHS as an agency has the
expertise necessary to make a determination of what
promotes self-sufficiency and what amounts to
self-sufficiency.
As further illustration of DHS’s unmooring from its
Congressionally delegated authority, DHS justifies

App. 354
including receipt of Medicaid in the public charge
consideration by reciting that “‘the total Federal
expenditure for the Medicaid program overall is by far
larger than any other program for low-income people.’”
ECF No. 109 at 41 (brief from Health Law Advocates
and other public health organizations, quoting 84 Fed.
Reg. at 41,379). However, “[t]he cost of Medicaid is not
DHS’s concern[, as] Congress delegated the
implementation and administration of Medicaid,
including the cost of the program, to HHS and the
states.” Id. (citing 42 U.S.C. §§ 1396, 1396-1, 1315(a)).
Congress cannot delegate authority that the
Constitution does not allocate to the federal
government in the first place, and the states exercise a
central role in formulation and administration of
health care policy. See Nat’l Fed’n of Indep. Bus. v.
Sebelius, 567 U.S. 519, 636 (“[T]he facets of governing
that touch on citizens’ daily lives are normally
administered by smaller governments closer to the
governed.”); see also Medtronic, Inc. v. Lohr, 518 U.S.
470, 484 (1996) (noting the “historic primacy of state
regulation of matters of health and safety”). Therefore,
the Court finds a likelihood that the Plaintiff States
will be successful in proving that DHS acted beyond its
Congressionally delegated authority when it
promulgated the Public Charge Rule.
Moreover, the Rehabilitation Act prohibits denying
a person benefits, excluding a person from
participating, or discriminating against a person “solely
by reason of her or his disability[.]” 29 U.S.C. § 794(a).
Although DHS acknowledges in the Public Charge Rule
notice that the Public Charge Rule will have a
“potentially outsized impact” on individuals with

App. 355
disabilities, DHS rationalizes that “Congress did not
specifically provide for a public charge exemption for
individuals with disabilities and in fact included health
as a mandatory factor in the public charge
inadmissibility consideration.” 84 Fed. Reg. at 41,368.
The Federal Defendants argue that the Public Charge
Rule is consistent with the Rehabilitation Act because
disability is “one factor (among many) that may be
considered.” ECF No. 155 at 61.
At this early stage in the litigation, the plain
language of the Public Charge Rule casts doubt that
DHS ultimately will be able to show that the Public
Charge Rule is not contrary to the Rehabilitation Act.
First, contrary to the Federal Defendants’ assertion,
the Public Charge Rule does not state that disability is
a factor that “may” be considered. Rather, if the
“disability” is a “medical condition that is likely to
require extensive medical treatment,” it is one of the
minimum factors that the officer must consider. See 8
C.F.R. § 212.22(b). Second, as the amici highlighted, an
individual with a disability is likely to have the
disability counted at least twice as a negative factor in
the public charge determination because receipt of
Medicaid is “essential” for millions of people in the
United States with disabilities, and “a third of
Medicaid’s adult recipients under the age of 65 are
people with disabilities.” ECF No. 110 at 19 (emphasis
in original removed).
Amici maintain that contrary to being an indicator
of becoming a public charge, Medicaid is “positively
associated with employment and the integration of
individuals with disabilities, in part because Medicaid

App. 356
covers employment supports that enable peleop with
disabilities to work. ECF No. 110 at 19–20; see also 42
U.S.C. § 1396-1 (providing that grants to states for
medical assistance programs for families with
dependent children and aged, blind, or disabled
individuals are for the purpose of “help[ing] such
families and individuals attain or retain capability for
independence or self-care[.]”). Therefore, accessing
Medicaid logically would assist immigrants, not hinder
them, in becoming self-sufficient, which is DHS’s stated
goal of the Public Charge Rule.
Given the history of the public charge provision at
8 U.S.C. § 1182(a)(4)(B), particularly the two recent
rejections by Congress of arguments in favor of
expanding the rule to include consideration of non-cash
benefits for exclusion as the Public Charge Rule now
does, the Court finds a significant likelihood that the
language of the final rule expands beyond the statutory
framework of what a USCIS officer previously was to
consider in applying the public charge test. See INS v.
Cardoza-Fonseca, 40 U.S. 421, 442–43 (1987) (“‘Few
principles of statutory construction are more
compelling than the proposition that Congress does not
intend sub silentio to enact statutory language that it
has earlier discarded in favor of other language.’”)
(quoting Nachman Corp. v. Pension Benefit Guaranty
Corp., 446 U.S. 359 392–93 (1980) (Stewart, J.
dissenting)).
The U.S. Constitution vests Congress with plenary
power to create immigration law, subject only to
constitutional limitations. See U.S. Const. Art. I, sect.
8, cl. 4; Zadvydas v. Davis, 533 U.S. 678, 695 (2001). An

App. 357
administrative agency may not make through
rulemaking immigration law that Congress declined to
enact. See Cuomo v. Clearing House Ass’n, LLC, 557
U.S. 519, 533 (2009) (rejecting a federal agency’s
interpretation of a statute and finding that the agency
had “attempted to do what Congress declined to do”).
Therefore, the Court finds that the Plaintiff States
have demonstrated a strong likelihood of success on the
merits of their first cause of action.
2. Count 3: Violation of the Administrative
Procedure Act—Arbitrary and Capricious Agency
Action
Review of a rulemaking procedure under section
706(2)’s arbitrary and capricious standard is “narrow
and a court is not to substitute its judgment for that of
the agency.” Motor Vehicle Mfrs. Ass’n of the U.S., Inc.
v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43
(1983). Nevertheless, an agency has a duty to examine
“the relevant data” and to articulate “a satisfactory
explanation for its action, ‘including a rational
connection between the facts found and the choice
made.’” Dep’t of Commerce, 139 S. Ct. at 2569 (quoting
State Farm, 463 U.S. at 43 (internal quotation
omitted)). An agency rule is arbitrary and capricious “if
the agency has ruled on factors which Congress has not
intended it to consider, entirely failed to consider an
important aspect of the problem, offered an explanation
for its decision that runs counter to the evidence before
the agency, or is so implausible that it could not be
ascribed to a difference in view or the product of agency
expertise.” State Farm, 463 U.S. at 43.

App. 358
Further, when an agency’s prior policy has
engendered “serious reliance interests,” an agency
would be “arbitrary and capricious to ignore such
matters,” and the agency must “provide a more detailed
justification than what would suffice for a new policy
created on a blank slate.” FCC v. Fox TV Stations, Inc.,
556 U.S. 502, 515–16 (2009). For instance, in INS v.
Yueh-Shaio Yang, 519 U.S. 26, 29–30 (1996), the
Supreme Court examined statutory text elsewhere in
the INA establishing minimum requirements to be
eligible for a waiver of deportation. Although the Court
found that the relevant provision of the INA “imposes
no limitations on the factors that the Attorney General
(or her delegate, the INS) may consider,” the Court
determined that the practices of the INS in exercising
its discretion nonetheless were germane to whether the
agency violated the APA. Id. at 31–32 (internal citation
omitted). “Though the agency’s discretion is unfettered
at the outset, if it announces and follows—by rule or by
settled course of adjudication—a general policy by
which its exercise of discretion will be governed, an
irrational departure from that policy (as opposed to an
avowed alteration of it) could constitute action that
must be overturned as ‘arbitrary, capricious, [or] an
abuse of discretion’ within the meaning of the
Administrative Procedure Act, 5 U.S.C. § 706(2)(A).” Id.
at 32.
The record on the instant motion raises concerns
that the process that DHS followed in formulating the
Public Charge Rule did not adhere to the requirements
of the APA. First, based on the statutory and agency
history of the public charge inadmissibility ground
discussed above, it is likely that the status quo has

App. 359
engendered “serious reliance interests” and DHS will
be held to the higher standard of providing “a more
detailed justification.” FCC, 556 U.S. at 515–16.
Although DHS received over 266,000 comments, the
agency’s responses to those comments appear
conclusory. Moreover, the repeated justification of the
changes as promoting self-sufficiency of immigrants in
the United States appears inconsistent with the new
components of the Public Charge Rule, such as the
negative weight attributed to disabled people who use
Medicaid to become or remain self-sufficient. See ECF
No. 110; 42 U.S.C. § 1396-1.
Therefore, the Court finds that there are serious
questions going to the merits regarding whether DHS
has acted in an arbitrary and capricious manner in
formulating the Public Charge Rule. Moreover, the
Plaintiff States have demonstrated a substantial
likelihood of success on the merits of at least two of
their causes of action in this matter.
B. Likelihood of Irreparable Harm
The Plaintiff States are likely to incur multiple
forms of irreparable harm if the Public Charge Rule
takes effect as scheduled on October 15, 2019, before
this case can be resolved on the merits.
First, the Plaintiff States provide a strong basis for
finding that disenrollment from non-cash benefits
programs is predictable, not speculative. See, e.g., ECF
No. 35-1 at 98–140 (detailing the chilling effects of the
Public Charge Rule in the use of benefits by legal
immigrant families including those with U.S. citizen
children); see also Rodde v. Bonta, 357 F.3d 988, 999

App. 360
(9th Cir. 2004) (finding irreparable harm caused by
denial of Medicaid and resulting lack of necessary
treatment, increased pain, and medical complications).
Not only that, DHS’s predecessor agency noted the
harms resulting from a chilling effect twenty years
before publication of the Public Charge Rule. 64 Fed.
Reg. at 28,692 (“ . . . reluctance to access benefits has
an adverse impact not just on the potential recipients,
but on public health and the general welfare.”).
As discussed in terms of standing, the Public
Charge Rule threatens a wide variety of predictable
harms to the Plaintiff States’ interests in promoting
the missions of their health care systems, the health
and wellbeing of their residents, and the Plaintiff
States’ financial security. The harms to children,
including U.S. citizen children, from reduced access to
medical care, food assistance, and housing support
particularly threaten the Plaintiff States with a need to
re-allocate resources that will only compound over
time. Chronic hunger and housing insecurity in
childhood is associated with disorders and other
negative effects later in life that are likely to impose
significant expenses on state funds. See ECF No. 149 at
21–22. As a natural consequence, the Plaintiff States
are likely to lose tax revenue from affected children
growing into adults with a compromised ability to
contribute to their families and communities. See ECF
No. 35-1 at 171, 618.
Second, the Public Charge Rule notice itself
acknowledges many of the harms alleged by the
Plaintiff States. DHS recognizes that disenrollment or
foregone enrollment will occur. 84 Fed. Reg. at 41,463.

App. 361
DHS also acknowledges that more individuals will visit
emergency rooms for emergent and primary care,
resulting in “a potential for increases in
uncompensated care” and that communities will
experience increases in communicable diseases. Id. at
41,384.
In the Public Charge Rule notice, DHS attempts to
justify the likely harms by invoking the goal of
promoting “the self-sufficiency of aliens within the
United States.” See, e.g., 84 Fed. Reg. 41,309 (as
underscored by the Plaintiff States at oral argument,
the Public Charge Rule notice uses the word
“self-sufficiency” 165 times and the word
“self-sufficient” 135 times). Whether DHS can use the
stated goal of promoting self-sufficiency to justify this
rulemaking remains an open question for a later
determination, although, as the Court found above, the
Plaintiff States have made a strong showing that DHS
overstepped their Congressionally authorized role in
interpreting and enforcing the policy statements in 8
U.S.C. § 1601.
The operative question for this prong of both a
section 705 stay and preliminary injunction analysis is
whether there is a likelihood of irreparable injury. The
Court finds this prong satisfied and notes that DHS
itself recognizes that irreparable injury will occur. The
Federal Defendants contest only the magnitude of the
harms claimed by the Plaintiff States and the amici.
However, the Federal Defendants do not contest the
existence of irreparable harm and DHS acknowledged
many of the harms in its own rulemaking notice. See
Simula, Inc. v. Autoliv, Inc., 175 F.3d 716 (9th Cir.

App. 362
1999) (requiring a party moving for a preliminary
injunction to demonstrate “a significant threat of
irreparable injury, irrespective of the magnitude of the
injury”).
Therefore, the Court finds that immediate and
ongoing harm to the Plaintiff States and their
residents, both immigrant and non-immigrant, is
predictable, and there is a significant likelihood of
irreparable injury if the rule were to take effect as
scheduled on October 15, 2019.
C. Balance of the Equities, Substantial Injury
to the Opposing Party, and the Public Interest6
The third and fourth factors of both a section 705
stay and preliminary injunction analysis also tip in
favor of preserving the status quo until this litigation
is resolved. The Federal Defendants assert that they
have “a substantial interest in administering the
national immigration system, a solely federal
prerogative,” and that they “have made the assessment
in their expertise that the ‘status quo’ referred to by
Plaintiffs is insufficient or inappropriate to serve the
purposes of proper immigration enforcement.’” ECF No.
155 at 67–68 (emphasis in original).
However, the Federal Defendants have made no
showing of hardship, injury to themselves, or damage
to the public interest from continuing to enforce the

6

When the federal government is a party, the balance of the
equities and public interest factors merge. Drakes Bay Oyster Co.
v. Jewell, 747 F.3d 1073 (9th Cir. 2014) (citing Nken, 556 U.S. at
435).

App. 363
status quo with respect to the public charge ground of
inadmissibility until these issues can be resolved on the
merits. See Sierra Forest Legacy v. Sherman, 646 F.3d
1161, 1186 (9th Cir. 2011) (reasoning that
automatically deferring to federal agencies’ expert
assessment of the equities of an injunction would result
in “nearly unattainable” relief from the federal
government’s policies, “as government experts will
likely attest that the public interest favors the federal
government’s preferred policy, regardless of procedural
failures.”).
In contrast, the Plaintiff States have shown a
significant threat of irreparable injury as a result of the
impending enactment of the Public Charge Rule by
numerous individuals disenrolling from benefits for
which they or their relatives were qualified, out of fear
or confusion, that accepting those non-cash public
benefits will deprive them of an opportunity for legal
permanent residency. The Plaintiff States have further
demonstrated how that chilling effect predictably
would cause irreparable injury by creating long-term
costs to the Plaintiff States from providing ongoing
triage for residents who have missed opportunities for
timely diagnoses, vaccinations, or building a strong
foundation in childhood that will allow U.S. citizen
children and future U.S. citizens to flourish and
contribute to their communities as taxpaying adults.
Further, the Court finds a significant threat of
immediate and ongoing harm to all states because of
the likelihood of residents of the Plaintiff States
travelling through or relocating to other states.
Consequently, the balance of equities tips sharply in

App. 364
favor of the Plaintiff States, and the third factor for
purposes of a stay, threat of substantial injury to the
opposing party, favors the Plaintiff States, as well.
The Court finds that the Plaintiff States and the
dozens of amici who submitted briefs in support of the
stay and injunctive relief have established that “an
injunction is in the public interest” because of the
numerous detrimental effects that the Public Charge
Rule may cause. See Winter, 555 U.S. at 20; see also
League of Women Voters of U.S. v. Newby, 838 F.3d 1,
12 (D.C. Cir. 2016) (“[T]here is a substantial public
interest in having governmental agencies abide by the
federal laws that govern their existence and
operations.”).
VI.

FORM AND SCOPE OF RELIEF

The Plaintiff States have shown under the four
requisite considerations of the Winter test that they are
entitled to both a stay under 5 U.S.C. § 705 and a
preliminary injunction under Fed. R. Civ. P. 65.
In section 705, Congress expressly created a
mechanism for a reviewing court to intervene to
suspend an administrative action until a challenge to
the legality of that action can be judicially reviewed. 5
U.S.C. § 705.7 Here, postponing the effective date of the
7

See Frank Chang, The Administrative Procedure Act’s Stay
Provision: Bypassing Scylla and Charybdis of Preliminary
Injunctions, 85 Geo. Wash. L. Rev. 1529, 1552 (2017) (“The
nationwide stay is an acceptable and rational policy choice that
Congress made: while it delegates certain rulemaking authority to
the agencies, it does so on the premise that the judiciary will curb
their excesses.”).

App. 365
Public Charge Rule, in its entirety, provides the
Plaintiff States’ the necessary relief to “prevent
irreparable injury,” as section 705 instructs. See Nken,
556 U.S. at 421 (“A stay does not make time stand still,
but does hold a ruling in abeyance to allow an appellate
court the time necessary to review it.”).
Alternatively, if a reviewing court determines that
a section 705 stay is not appropriate or timely, the
Court also finds that the Plaintiff States offer
substantial evidence to support a preliminary
injunction from enforcement of the Public Charge Rule,
without geographic limitation.
Just as the remedy under section 705 for
administrative actions is to preserve the status quo
while the merits of a challenge to administrative action
is resolved, an injunction must apply universally to
workably maintain the status quo and adequately
protect the Plaintiff States from irreparable harm.
Limiting the scope of the injunction to the fourteen
Plaintiff States would not prevent those harms to the
Plaintiff States, for several reasons. First, any
immigrant residing in one of the Plaintiff States may in
the future need to move to a non-plaintiff state but
would be deterred from accessing public benefits if
relief were limited in geographic scope. Second, a
geographically limited injunction could spur
immigrants now living in non-plaintiff states to move
to one of the Plaintiff States, compounding the Plaintiff
States’ economic injuries to accommodate a surge in
social services enrollees. Third, if the injunction applied
only in the fourteen Plaintiff States, a lawful
permanent resident returning to the United States

App. 366
from a trip abroad of more than 180 days may be
subject to the Public Charge Rule at a point of entry.
Therefore, the scope of the injunction must be universal
to afford the Plaintiff States the relief to which they are
entitled. See, e.g., California, 911 F.3d at 582
(“Although there is no bar against nationwide relief in
federal district court . . . such broad relief must be
necessary to give prevailing parties the relief to which
they are entitled.”) (internal quotation marks and
citation omitted).
Finally, the Court declines to limit the injunction to
apply only in those states within the U.S. Court of
Appeals for the Ninth Circuit. In addition to the
reasons discussed above, a Ninth Circuit-only
injunction would deprive eleven of the fourteen
Plaintiff States any relief at all. Colorado, Delaware,
Illinois, Maryland, Massachusetts, Michigan,
Minnesota, New Jersey, New Mexico, Rhode Island,
and Virginia are located in seven other judicial circuits
(the First, Third, Fourth, Sixth, Seventh, Eighth, and
Tenth Circuits) and would derive no protection from
irreparable injury from relief limited to jurisdictions
within the Ninth Circuit.
Accordingly, IT IS HEREBY ORDERED:
1. The Plaintiff States’ Motion for a Section 705
Stay Pending Judicial Review and for Preliminary
Injunction, ECF No. 34, is GRANTED.
2. The Court finds that the Plaintiff States have
established a likelihood of success on the merits of their
claims under the Administrative Procedure Act, that
they would suffer irreparable harm absent a stay of the

App. 367
effective date of the Public Charge Rule or preliminary
injunctive relief, that the lack of substantial injury to
the opposing party and the public interest favor a stay,
and that the balance of equities and the public interest
favor an injunction.
3. The Court therefore, pursuant to 5 U.S.C. § 705,
STAYS the implementation of the U.S. Department of
Homeland Security’s (DHS) Rule entitled
Inadmissibility on Public Charge Grounds, 84 Fed. Reg.
41,292 (Aug. 14, 2019) (to be codified at 8 C.F.R. pts.
103, 212, 213, 214, 245 and 248), in its entirety,
pending entry of a final judgment on the Plaintiff
States’ APA claims. The effective date of the Final Rule
is POSTPONED pending conclusion of these review
proceedings.
4. In the alternative, pursuant to Rule 65(a) of the
Federal Rules of Civil Procedure, the Court
PRELIMINARILY ENJOINS the Federal Defendants
and their officers, agents, servants, employees, and
attorneys, and any person in active concert or
participation with them, from implementing or
enforcing the Rule entitled Inadmissibility on Public
Charge Grounds, 84 Fed. Reg. 41,292 (Aug.14, 2019), in
any manner or in any respect, and shall preserve the
status quo pursuant to the regulations promulgated
under 8 C.F.R. Parts 103, 212, 213, 214, 245, and 248,
in effect as of the date of this Order, until further order
of the Court.
5. No bond shall be required pursuant to Federal
Rule of Civil Procedure 65(c).

App. 368
IT IS SO ORDERED. The District Court Clerk is
directed to enter this Order and provide copies to
counsel.
DATED October 11, 2019.
s/ Rosanna Malouf Peterson_____
ROSANNA MALOUF PETERSON
United States District Judge

App. 369

APPENDIX F
1. 8 U.S.C. 1182(a)(4) provides:
Inadmissible aliens
(a) Classes of aliens ineligible for visas or
admission
Except as otherwise provided in this chapter, aliens
who are inadmissible under the following paragraphs
are ineligible to receive visas and ineligible to be
admitted to the United States:
(4) Public charge
(A) In general
Any alien who, in the opinion of the consular
officer at the time of application for a visa, or in
the opinion of the Attorney General at the time
of application for admission or adjustment of
status, is likely at any time to become a public
charge is inadmissible.
(B) Factors to be taken into account
(i) In determining whether an alien is
inadmissible under this paragraph, the consular
officer or the Attorney General shall at a
minimum consider the alien’s—
(I) age;
(II) health;

App. 370
(III) family status;
(IV) assets, resources, and financial
status; and
(V) education and skills.
(ii) In addition to the factors under clause (i),
the consular officer or the Attorney General may
also consider any affidavit of support under
section 1183a of this title for purposes of
exclusion under this paragraph.
(C) Family-sponsored immigrants
Any alien who seeks admission or adjustment of
status under a visa number issued under section
1151(b)(2) or 1153(a) of this title is inadmissible under
this paragraph unless—
(i) the alien has obtained—
(I) status as a spouse or a child of a
United States citizen pursuant to clause (ii),
(iii), or (iv) of section 1154(a)(1)(A) of this
title;
(II) classification pursuant to clause (ii) or
(iii) of section 1154(a)(1)(B) of this title; or
(III) classification or status as a VAWA
self-petitioner; or
(ii) the person petitioning for the alien’s
admission (and any additional sponsor required
under section 1183a(f ) of this title or any
alternative sponsor permitted under paragraph
(5)(B) of such section) has executed an affidavit

App. 371
of support described in section 1183a of this title
with respect to such alien.
(D) Certain employment-based immigrants
Any alien who seeks admission or adjustment of
status under a visa number issued under section
1153(b) of this title by virtue of a classification petition
filed by a relative of the alien (or by an entity in which
such relative has a significant ownership interest) is
inadmissible under this paragraph unless such relative
has executed an affidavit of support described in
section 1183a of this title with respect to such alien.
(E) Special rule for qualified alien victims
Subparagraphs (A), (B), and (C) shall not apply to
an alien who—
(i) is a VAWA self-petitioner;
(ii) is an applicant for, or is granted,
nonimmigrant status under sect ion
1101(a)(15)(U) of this title; or
(iii) is a qualified alien described in section
1641(c) of this title.

App. 372
2. 8 U.S.C. 1183a provides in pertinent part:
Requirements for sponsor’s affidavit of support
(a) Enforceability
(1) Terms of affidavit
No affidavit of support may be accepted by the
Attorney General or by any consular officer to
establish that an alien is not excludable as a public
charge under section 1182(a)(4) of this title unless
such affidavit is executed by a sponsor of the alien
as a contract—
(A) in which the sponsor agrees to provide
support to maintain the sponsored alien at an
annual income that is not less than 125 percent
of the Federal poverty line during the period in
which the affidavit is enforceable;
(B) that is legally enforceable against the
sponsor by the sponsored alien, the Federal
Government, any State (or any political
subdivision of such State), or by any other entity
that provides any means-tested public benefit
(as defined in subsection (e)1),consistent with the
provisions of this section; and
(C) in which the sponsor agrees to submit
to the jurisdiction of any Federal or State
court for the purpose of actions brought
under subsection (b)(2).

1

See Reference in Text note below.

App. 373
(2) Period of enforceability
An affidavit of support shall be enforceable with
respect to benefits provided for an alien before the
date the alien is naturalized as a citizen of the
United States, or, if earlier, the termination date
provided under paragraph (3).
* * * * *
(b) Reimbursement of government expenses
(1) Request for reimbursement
(A) Requirement
Upon notification that a sponsored alien has
received any means-tested public benefit, the
appropriate nongovernmental entity which
provided such benefit or the appropriate entity
of the Federal Government, a State, or any
political subdivision of a State shall request
reimbursement by the sponsor in an amount
which is equal to the unreimbursed costs of such
benefit.
(B) Regulations
The Attorney General, in consultation with
the heads of other appropriate Federal agencies,
shall prescribe such regulations as may be
necessary to carry out subparagraph (A).

App. 374
(2) Actions to compel reimbursement
(A) In case of nonresponse
If within 45 days after a request for
reimbursement under paragraph (1)(A), the
appropriate entity has not received a response
from the sponsor indicating a willingness to
commence payment an action may be brought
against the sponsor pursuant to the affidavit of
support.
(B) In case of failure to pay
If the sponsor fails to abide by the repayment
terms established by the appropriate entity, the
entity may bring an action against the sponsor
pursuant to the affidavit of support.
(C) Limitation on actions
No cause of action may be brought under this
paragraph later than 10 years after the date on
which the sponsored alien last received any
means-tested public benefit to which the
affidavit of support applies.
* * * * *
3. 8 U.S.C. 1227(a)(5) provides:
Deportable aliens
(a) Classes of deportable aliens
Any alien (including an alien crewman) in and
admitted to the United States shall, upon the order of
the Attorney General, be removed if the alien is within

App. 375
one or more of the following classes of deportable
aliens:
(5) Public charge
Any alien who, within five years after the date of
entry, has become a public charge from causes not
affirmatively shown to have arisen since entry is
deportable.
4. 8 U.S.C. 1601 provides:
Statements of national policy concerning welfare
and immigration
The Congress makes the following statements
concerning national policy with respect to welfare and
immigration:
(1) Self-sufficiency has been a basic principle of
United States immigration law since this country’s
earliest immigration statutes.
(2) It continues to be the immigration policy of
the United States that—
(A) aliens within the Nation’s borders not
depend on public resources to meet their needs,
but rather rely on their own capabilities and the
resources of their families, their sponsors, and
private organizations, and
(B) the availability of public benefits not
constitute an incentive for immigration to the
United States.
(3) Despite the principle of self-sufficiency,
aliens have been applying for and receiving public

App. 376
benefits from Federal, State, and local governments
at increasing rates.
(4) Current eligibility rules for public assistance
and unenforceable financial support agreements
have proved wholly incapable of assuring that
individual aliens not burden the public benefits
system.
(5) It is a compelling government interest to
enact new rules for eligibility and sponsorship
agreements in order to assure that aliens be selfreliant in accordance with national immigration
policy.
(6) It is a compelling government interest to
remove the incentive for illegal immigration
provided by the availability of public benefits.
(7) With respect to the State authority to make
determinations concerning the eligibility of
qualified aliens for public benefits in this chapter,
a State that chooses to follow the Federal
classification in determining the eligibility of such
aliens for public assistance shall be considered to
have chosen the least restrictive means available
for achieving the compelling governmental interest
of assuring that aliens be self-reliant in accordance
with national immigration policy.

App. 377
5. 8 U.S.C. 1611 provides:
Aliens who are not qualified aliens ineligible for
Federal public benefits
(a) In general
Notwithstanding any other provision of law and
except as provided in subsection (b), an alien who is not
a qualified alien (as defined in section 1641 of this title)
is not eligible for any Federal public benefit (as defined
in subsection (c)).
(b) Exceptions
(1) Subsection (a) shall not apply with respect to the
following Federal public benefits:
(A) Medical assistance under title XIX of the
Social Security Act [42 U.S.C. 1396 et seq.] (or any
successor program to such title) for care and
services that are necessary for the treatment of an
emergency medical condition (as defined in section
1903(v)(3) of such Act [42 U.S.C. 1396b(v)(3)]) of the
alien involved and are not related to an organ
transplant procedure, if the alien involved
otherwise meets the eligibility requirements for
medical assistance under the State plan approved
under such title (other than the requirement of the
receipt of aid or assistance under title IV of such
Act [42 U.S.C. 601 et seq.], supplemental security
income benefits under title XVI of such Act [42
U.S.C. 1381 et seq.], or a State supplementary
payment).

App. 378
(B) Short-term, non-cash, in-kind emergency
disaster relief.
(C) Public health assistance (not including any
assistance under title XIX of the Social Security Act
[42 U.S.C. 1396 et seq.]) for immunizations with
respect to immunizable diseases and for testing and
treatment of symptoms of communicable diseases
whether or not such symptoms are caused by a
communicable disease.
(D) Programs, services, or assistance (such as
soup kitchens, crisis counseling and intervention,
and short-term shelter) specified by the Attorney
General, in the Attorney General’s sole and
unreviewable discretion after consultation with
appropriate Federal agencies and departments,
which (i) deliver in-kind services at the community
level, including through public or private nonprofit
agencies; (ii) do not condition the provision of
assistance, the amount of assistance provided, or
the cost of assistance provided on the individual
recipient’s income or resources; and (iii) are
necessary for the protection of life or safety.
(E) Programs for housing or community
development assistance or financial assistance
administered by the Secretary of Housing and
Urban Development, any program under title V of
the Housing Act of 1949 [42 U.S.C. 1471 et seq.], or
any assistance under section 1926c of title 7, to the
extent that the alien is receiving such a benefit on
August 22, 1996.

App. 379
(2) Subsection (a) shall not apply to any benefit
payable under title II of the Social Security Act [42
U.S.C. 401 et seq.] to an alien who is lawfully present
in the United States as determined by the Attorney
General, to any benefit if nonpayment of such benefit
would contravene an international agreement
described in section 233 of the Social Security Act [42
U.S.C. 433], to any benefit if nonpayment would be
contrary to section 202(t) of the Social Security Act [42
U.S.C. 402(t)], or to any benefit payable under title II
of the Social Security Act to which entitlement is based
on an application filed in or before August 1996.
(3) Subsection (a) shall not apply to any benefit
payable under title XVIII of the Social Security Act [42
U.S.C. 1395 et seq.] (relating to the medicare pro-gram)
to an alien who is lawfully present in the United States
as determined by the Attorney General and, with
respect to benefits payable under part A of such title
[42 U.S.C. 1395c et seq.], who was authorized to be
employed with respect to any wages attributable to
employment which are counted for purposes of
eligibility for such benefits.
(4) Subsection (a) shall not apply to any benefit
payable under the Railroad Retirement Act of 1974 [45
U.S.C. 231 et seq.] or the Railroad Unemployment
Insurance Act [45 U.S.C. 351 et seq.] to an alien who is
lawfully present in the United States as determined by
the Attorney General or to an alien residing outside the
United States.
(5) Subsection (a) shall not apply to eligibility for
benefits for the program defined in section
1612(a)(3)(A) of this title (relating to the supplemental

App. 380
security income program), or to eligibility for benefits
under any other program that is based on eligibility for
benefits under the program so defined, for an alien who
was receiving such benefits on August 22, 1996.
(c) “Federal public benefit” defined
(1) Except as provided in paragraph (2), for
purposes of this chapter the term “Federal public
benefit” means—
(A) any grant, contract, loan, professional
license, or commercial license provided by an agency
of the United States or by appropriated funds of the
United States; and
(B) any retirement, welfare, health, disability,
public or assisted housing, postsecondary education,
food assistance, unemployment benefit, or any other
similar benefit for which payments or assistance are
provided to an individual, household, or family
eligibility unit by an agency of the United States or
by appropriated funds of the United States.
(2) Such term shall not apply—
(A) to any contract, professional license, or
commercial license for a nonimmigrant whose visa
for en-try is related to such employment in the
United States, or to a citizen of a freely associated
state, if section 141 of the applicable compact of free
association approved in Public Law 99-239 or 99658 (or a successor provision) is in effect;
(B) with respect to benefits for an alien who as a
work authorized nonimmigrant or as an alien

App. 381
lawfully admitted for permanent residence under
the Immigration and Nationality Act [8 U.S.C. 1101
et seq.] qualified for such benefits and for whom the
United States under reciprocal treaty agreements is
required to pay benefits, as determined by the
Attorney General, after consultation with the
Secretary of State; or
(C) to the issuance of a professional license to, or
the renewal of a professional license by, a foreign
national not physically present in the United
States.
6. 29 U.S.C. 794 provides:
Nondiscrimination under Federal grants and
programs
(a) Promulgation of rules and regulations
No otherwise qualified individual with a disability
in the United States, as defined in section 705(20) of
this title, shall, solely by reason of her or his disability,
be excluded from the participation in, be denied the
benefits of, or be subjected to discrimination under any
program or activity receiving Federal financial
assistance or under any program or activity conducted
by any Executive agency or by the United States Postal
Service. The head of each such agency shall promulgate
such regulations as may be necessary to carry out the
amendments to this section made by the
Rehabilitation, Comprehensive Services, and
Developmental Disabilities Act of 1978. Copies of any
proposed regulation shall be submitted to appropriate
authorizing committees of the Congress, and such
regulation may take effect no earlier than the thirtieth

App. 382
day after the date on which such regulation is so
submitted to such committees.
(b) “Program or activity” defined
For the purposes of this section, the term “program
or activity” means all of the operations of—
(1)(A) a department, agency, special purpose
district, or other instrumentality of a State or of a
local government; or
(B) the entity of such State or local government
that distributes such assistance and each such
department or agency (and each other State or local
government entity) to which the assistance is
extended, in the case of assistance to a State or local
government;
(2)(A) a college, university, or other
postsecondary institution, or a public system of
higher education; or
(B) a local educational agency (as defined in
section 7801 of title 20), system of career and
technical education, or other school system;
(3)(A) an entire corporation, partnership, or
other private organization, or an entire sole
proprietorship—
(i) if assistance is extended to such
corporation, partnership, private organization,
or sole proprietorship as a whole; or
(ii) which is principally engaged in the
business of providing education, health care,

App. 383
housing, social services, or parks and recreation;
or
(B) the entire plant or other comparable,
geographically separate facility to which Federal
financial assistance is extended, in the case of any
other corporation, partnership, private
organization, or sole proprietorship; or
(4) any other entity which is established by two
or more of the entities described in paragraph (1),
(2), or (3);
any part of which is extended Federal financial
assistance.
(c) Significant structural alterations by small
providers
Small providers are not required by subsection (a)
to make significant structural alterations to their
existing facilities for the purpose of assuring program
accessibility, if alternative means of providing the
services are available. The terms used in this
subsection shall be construed with reference to the
regulations existing on March 22, 1988.
(d) Standards used in determining violation of
section
The standards used to determine whether this
section has been violated in a complaint alleging
employment discrimination under this section shall be
the standards applied under title I of the Americans
with Disabilities Act of 1990 (42 U.S.C. 12111 et seq.)
and the provisions of sections 501 through 504, and

App. 384
510,1 of the Americans with Disabilities Act of 1990 (42
U.S.C. 12201-12204 and 12210), as such sections relate
to employment.

1

See References in Text note below.

